<html>
<title> - ACCOUNTABILITY FOR THE DEPARTMENT OF EDUCATION'S OVERSIGHT OF STUDENT LOANS AND THE READING FIRST PROGRAM</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                  ACCOUNTABILITY FOR THE DEPARTMENT OF
                 EDUCATION'S OVERSIGHT OF STUDENT LOANS
                     AND THE READING FIRST PROGRAM

=======================================================================


                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, MAY 10, 2007

                               __________

                           Serial No. 110-32

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html



                        U.S. GOVERNMENT PRINTING OFFICE

34-989                         WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001


                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Ranking Minority Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            Dean Heller, Nevada
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 10, 2007.....................................     1

Statement of Members:
    McKeon, Hon. Howard P. ``Buck,'' Senior Republican Member, 
      Committee on Education and Labor...........................     6
        Prepared statement of....................................     7
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     2
        Prepared statement of....................................     4
        Additional submissions for the record:
            Letter from Norman C. Francis, president, Xavier 
              University, submitted by Hon. Charlie Melancon, a 
              Representative in Congress from the State of 
              Louisiana..........................................    56
            Questions for the record, May 16, 2007, submitted to 
              Secretary Spellings................................    59
            Responses to May 16, 2007, questions.................    63
            Questions for the record, May 23, 2007, submitted to 
              Secretary Spellings................................    75
            Responses to May 23, 2007, questions.................    76
            Letter from Thomas C. Healy, vice president for 
              government relations, Indiana University...........    79

Statement of Witnesses:
    Spellings, Hon. Margaret, Secretary, U.S. Department of 
      Education..................................................     9
        Prepared statement of....................................    12
        Additional submissions for the record:
            Higher Education Timeline............................    80
            Delivery Process/Student View--FY 2006...............    81
            Letters to Puerto Rico Secretary of Education, dated 
              March 7 and 21, 2007...............................    82
            2006 9.5 SAP Summary.................................    86
            2005 9.5 SAP Summary.................................    88
            2004 9.5 SAP Summary.................................    90
            2003 9.5 SAP Summary.................................    92
            2002 9.5 SAP Summary.................................    94
            2001 9.5 SAP Summary.................................    96
            FY 2006 SAP Summary for Both Taxable and Tax Exempt 
              by Lender..........................................    99


                  ACCOUNTABILITY FOR THE DEPARTMENT OF
                    EDUCATION'S OVERSIGHT OF STUDENT



                  LOANS AND THE READING FIRST PROGRAM

                              ----------                              


                         Thursday, May 10, 2007

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:31 a.m., in Room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Kildee, Payne, Andrews, 
Hinojosa, McCarthy, Tierney, Kucinich, Wu, Holt, Davis of 
California, Davis of Illinois, Bishop of New York, Sarbanes, 
Sestak, Loebsack, Altmire, Yarmuth, Hare, Shea-Porter, McKeon, 
Petri, Castle, Ehlers, Biggert, Platts, Keller, Wilson, Kline, 
Marchant, Fortuno, Foxx, Davis of Tennessee, and Walberg.
    Staff present: Aaron Albright, Press Secretary; Tylease 
Alli, Hearing Clerk; Jeff Appel, GAO Detailee; Alice Cain, 
Senior Education Policy Advisor (K-12); Sarah Dyson, 
Administrative Assistant, Oversight; Denise Forte, Director of 
Education Policy; Gabriella Gomez, Senior Education Policy 
Advisor (Higher Education); Ryan Holden, Senior Investigator, 
Oversight; Lloyd Horwich, Policy Advisor for Subcommittee on 
Early Childhood, Elementary and Secretary Education; Lamont 
Ivey, Staff Assistant, Education; Thomas Kiley, Communications 
Director; Ann-Frances Lambert, Administrative Assistant to 
Director of Education Policy; Ricardo Martinez, Policy Advisor 
for Subcommittee on Higher Education, Lifelong Learning and 
Competitiveness; Stephanie Moore, General Counsel; Alex Nock, 
Deputy Staff Director; Joe Novotny, Chief Clerk; Rachel 
Racusen, Deputy Communications Director; Julie Radocchia, 
Education Policy Advisor; Michael Zola, Chief Investigative 
Counsel, Oversight; Mark Zuckerman, Staff Director; James 
Bergeron, Minority Deputy Director of Education and Human 
Services Policy; Robert Borden, Minority General Counsel; 
Kathryn Bruns, Minority Legislative Assistant; Steve Forde, 
Minority Communications Director; Taylor Hansen, Minority 
Legislative Assistant; Amy Raaf Jones, Minority Professional 
Staff Member; Victor Klatt, Minority Staff Director; Lindsey 
Mask, Minority Director of Outreach; Linda Stevens, Minority 
Chief Clerk/Assistant to the General Counsel; and Brad Thomas, 
Minority Professional Staff Member.
    Chairman Miller [presiding]. Good morning. A quorum being 
present, the hearing of the Committee on Education and Labor 
on, ``Accountability in the Department of Education's Oversight 
of the Student Loans and the Reading First Program,'' will come 
to order.
    I want to welcome everyone to today's hearing on, 
``Accountability in the Department of Education's Oversight of 
Student Loans and the Reading First Program.''
    I would like to thank Secretary Spellings for taking time 
to testify before us today, and we have a lot of ground to 
cover.
    For several months now, investigations by this committee 
and elsewhere at the state and federal level have produced a 
stream of troubling revelations about unethical practices in 
the student loan industry.
    We now know that for the last several years it has been a 
common practice for lenders to offer gifts and other 
inducements to college financial aid officers and others in 
exchange for high loan volume.
    At a $74,000 cruise paid for by JP Morgan Chase in 2005, 
student financial aid officers dined on five spice quail and 
filet mignon. In one particularly egregious example of an 
apparent quid-pro-quo, Indiana University essentially accepted 
a $3 million line of credit from Sallie Mae in 2004, and later 
dropped out of the government's Direct Loan Program.
    We know that lenders have inappropriately accessed the 
National Student Loan Database in order to find private 
information about borrowers for marketing purposes. We know 
that lenders abused federal law to reap questionable windfalls, 
costing taxpayers hundreds of millions of dollars in 
overpayments. We know that lenders designed marketing materials 
to be deliberately misleading by making them look like official 
government correspondence in order to trick borrowers into 
responding.
    All of these practices come at the expense of students and 
their families. Lenders have spent millions of dollars to 
violate the law, and their illegal actions have cost families 
untold millions at a time of soaring college costs, and this is 
an outrage. These practices also carry a high cost for the 
federal taxpayers at a time of tight budgets and huge budget 
deficits, which is another outrage.
    The federal student loan programs must be managed in the 
best interests of students, parents and taxpayers. Doing so is 
the responsibility of the Department of Education. I agree with 
New York Attorney General Andrew Cuomo that testified before 
this committee last month when he said that the department had 
been ``asleep at the switch'' when it comes to overseeing the 
federal student loan programs. In fact, Mr. Cuomo might have 
been too polite.
    Although I applaud the proposal of the administration's 
2008 budget to reduce some of the excessive subsidies made to 
lenders--subsidies that essentially finance bad lender 
behavior--the administration has otherwise failed to provide 
meaningful oversight on the student loan industry.
    In 2001, the Bush administration scrapped plans to issue a 
``Dear Colleague'' letter to schools and lenders instructing 
them to end the practice of trading gifts and other inducements 
for student loan volume.
    In 2003, the administration ignored an alert memorandum 
from the department's inspector general urging similar action.
    In January 2007, the administration allowed nearly 300 
million taxpayer dollars to walk out the door because of an 
antiquated loophole that allows lenders to bill the government 
at a higher rate of interest. The department knew about this 
``9.5 percent loophole'' for years but failed to close it.
    Over the last several months, New York Attorney General 
Cuomo has led the way in the investigations into the student 
loan industry, and many other state attorneys general have 
begun their own investigations. But the Department of Education 
has been conspicuously missing from action.
    What makes all of these even more troubling is that many 
Education Department officials who have worked directly on the 
student loan programs appear, according to press accounts, to 
have their own conflicts of interest.
    Some have owned stock in student lending companies. Others 
are part of a revolving door between the industry and the 
department. And I am pleased that the department's inspector 
general has agreed to my request to investigate these conflicts 
of interest. We need to know whether these conflicts help 
explain the department's incredible oversight failures.
    The work of the Office of the Inspector General brings us 
to the second topic of today's hearing: Reading First, a 
program that was rife with conflicts of interest that the 
inspector general exposed in 2006.
    In a committee hearing last month, we heard testimony from 
three former members of a committee hand-picked by the 
Education Department to review products that educators use to 
assess children's progress in learning to read.
    All three of those former committee members--Roland Good, 
Ed Kame'enui and Deborah Simmons--profited either directly or 
indirectly from the sale of a specific reading product that 
states were inappropriately pressured to use if they wanted to 
get federal grant money.
    We learned from the education inspector general about his 
referrals to the Justice Department regarding potential 
criminal misconduct by Reading First officials.
    We also heard how the former director of Reading First, 
Chris Doherty, had improperly bullied states into using 
specific reading products. Mr. Doherty's wife worked for an 
organization linked to those products, a fact that Mr. Doherty 
repeatedly failed to disclose on financial forms he filed while 
an employee of the Education Department.
    Here again we have to ask why the White House and the 
Department of Education allowed this mismanagement to continue 
unchecked. Mr. Doherty, in his testimony, provided one 
troubling explanation: that he was just following the 
department's orders. Mr. Doherty testified, ``I respected the 
chain of command at the Department of Education, faithfully 
executing orders from my superiors, which I never had reason to 
question, and keeping superiors informed about the program.''
    When I look at the whole body of evidence that has been 
amassed about both the student loan and Reading First programs, 
it is clear that, at a minimum, that the Education Department's 
oversight failures have been monumental.
    But many people, including me, are wondering if that is the 
end of the story. Was this simply laziness? Was this 
incompetence? Was it a deliberate decision to look the other 
way while these things happened? Or was it a failing more 
sinister than that? These are the questions that we are hoping 
to bring to answer today.
    By an overwhelming bipartisan vote of 414 to three, the 
House yesterday approved legislation, sponsored by Mr. McKeon 
and myself, the Student Loan Sunshine Act, to clean up the 
student loan industry. We are considering proposals to 
eliminate conflicts of interest from every program within the 
Department of Education, including Reading First.
    I am hopeful that the testimony we will receive and the 
discussion we will have today will assist us in these efforts. 
We must make sure that problems like the ones I have described 
do not repeat themselves. Students, children, parents, 
educators and taxpayers deserve to know that the government is 
working on their behalf, not for the financial benefit of a 
handful of well-connected individuals and organizations.
    And at this time, I would like to recognize the gentleman 
from California, the senior Republican of the committee, Mr. 
McKeon.

   Prepared Statement of Hon. George Miller, Chairman, Committee on 
                          Education and Labor

    Good morning. Welcome to today's hearing on ``Accountability for 
the Department of Education's Oversight of Student Loans and the 
Reading First Program.''
    I'd like to thank Secretary Spellings for taking the time to 
testify before us today. We have a lot of ground to cover.
    For several months now, investigations by this committee and 
elsewhere at the state and federal level have produced a stream of 
troubling revelations about unethical practices in the student loan 
industry.
    We now know that, in the last several years, it has been common 
practice for lenders to offer gifts and other inducements to college 
financial aid officers in exchange for higher loan volume.
    At a $74,000 cruise paid for by JP Morgan Chase in 2005, student 
financial aid officers dined on five spice quail and filet mignon.
    In one particularly egregious example of an apparent quid-pro-quo, 
Indiana University essentially accepted a $3 million line of credit 
from Sallie Mae in 2004, and later dropped out of the government's 
Direct Loan program.
    We know that lenders have inappropriately accessed the National 
Student Loan Database in order to find private information about 
borrowers for marketing purposes.
    We know that lenders abused federal law to reap questionable 
windfalls, costing taxpayers hundreds of millions of dollars in 
overpayments.
    All of these practices come at the expense of students and their 
families.
    Lenders have spent millions of dollars to violate the law, and 
their illegal actions have cost families untold millions. At a time of 
soaring college costs, this is an outrage.
    These practices also carry a high cost for federal taxpayers. At a 
time of tight budgets and huge budget deficits, this too is an outrage.
    The federal student loan programs must be managed in the best 
interests of students, parents, and taxpayers. Doing so is the 
responsibility of the U.S. Department of Education.
    I agree with New York Attorney General Andrew Cuomo, who testified 
before this committee last month and said that the Department has been 
'asleep at the switch' when it comes to overseeing the federal student 
loan programs.
    In fact, Mr. Cuomo might have been too polite.
    Although I applaud the proposal in the administration's 2008 budget 
to reduce some of the excessive subsidies made to lenders--subsidies 
that essentially finance bad lender behavior--the administration has 
otherwise failed to provide meaningful oversight of the student loan 
industry.
    In 2001, the Bush administration scrapped plans to issue a Dear 
Colleague letter to schools and lenders instructing them to end the 
practice of trading gifts and other inducements for student loan 
volume.
    In 2003, the administration ignored an alert memorandum from the 
Department's Inspector General urging similar action.
    In January 2007, the administration allowed nearly 300 million 
taxpayer dollars to walk out the door because of an antiquated loophole 
that allows lenders to bill the government at a higher rate of 
interest. The Department knew about this ``9.5 percent loophole'' for 
years--but failed to close it.
    Over the last several months, New York Attorney General Cuomo has 
led the way with investigations into the student loan industry, and 
many other state attorneys general have begun their own investigations. 
But the U.S. Department of Education has been conspicuously missing in 
action.
    What makes all of this even more troubling is that many Education 
Department officials who have worked directly on the student loan 
programs appear, according to press accounts, to have their own 
conflicts of interest.
    Some have owned stock in student lending companies. Others are part 
of a revolving door between the industry and the Department. I am 
pleased that the Department's Inspector General has agreed to my 
request to investigate these conflicts of interest. We need to know 
whether these conflicts help explain the Department's incredible 
oversight failures.
    The work of the Office of the Inspector General brings us to the 
second topic of today's hearing: Reading First, a program that has been 
rife with conflicts of interest that the Inspector General exposed in 
September 2006.
    In a committee hearing last month, we heard testimony from three 
former members of a committee hand-picked by the Education Department 
to review products that educators use to assess children's progress in 
learning to read.
    All three of those former committee members--Roland Good, Ed 
Kame'enui, and Deborah Simmons--profited either directly or indirectly 
from the sale of a specific reading product that states were 
inappropriately pressured to use if they wanted to get federal grant 
money.
    We learned from the Education Inspector General about his referrals 
to the Department of Justice regarding potentially criminal misconduct 
by Reading First officials.
    We also heard how the former Director of Reading First, Chris 
Doherty, had improperly bullied states into using specific reading 
products. Mr. Doherty's wife worked for an organization linked to those 
products, a fact that Mr. Doherty repeatedly failed to disclose on 
financial forms he filed while an employee of the Education Department.
    Here again, we have to ask why the White House and the Department 
of Education allowed this mismanagement to continue unchecked. Mr. 
Doherty, in his testimony, provided one troubling explanation: that he 
was just following the Department's orders.
    Mr. Doherty testified: ``I respected the chain of command at the 
Department of Education, faithfully executing orders from superiors, 
which I never had reason to question, and keeping superiors informed 
about the program.''
    When I look at the whole body of evidence that has been amassed 
about both the student loan and Reading First programs, it is clear 
that--at a minimum--the Education Department's oversight failures have 
been monumental.
    But many people, including me, are wondering if that's the end of 
the story. Was this simply laziness? Was this incompetence? Was it a 
deliberate decision to look the other way while these things happened? 
Or was it a failing more sinister than that? These are the questions 
that I'm hoping we will begin to answer today.
    By an overwhelming vote of 414-3, the House yesterday approved 
legislation--the Student Loan Sunshine Act--to clean up the student 
loan industry. We are considering proposals to eliminate conflicts of 
interest from every program within the Department of Education, 
including Reading First.
    I am hopeful that the testimony we will receive and the discussion 
we will have today will assist us in these efforts.
    We must make sure that problems like the ones I have described do 
not repeat themselves.
    Students, children, parents, educators, and taxpayers deserve to 
know that the government is working on their behalf--not for the 
financial benefit of a handful of well-connected individuals and 
organizations.
    I now recognize the gentleman from California, the senior 
Republican of the Committee, Mr. McKeon.
    Thank you.
                                 ______
                                 
    Mr. McKeon. Thank you, Mr. Chairman, for convening today's 
hearing.
    And, Madam Secretary, thank you for joining us, and welcome 
back to our committee. I look forward to your testimony and our 
discussion about the steps the department and Congress are 
taking to reaffirm trust in our nation's financial aid system 
as well as in Reading First.
    Oversight is a healthy congressional practice. It has led 
to some key reforms within the Washington bureaucracy, and I 
look forward to continuing as a partner in such an effort.
    Similarly, oversight within the Department of Education is 
certainly nothing new. During the late 1990s, as many of us on 
this panel remember, the department failed a series of internal 
audits. An estimated $450 million was lost to waste and fraud. 
Money intended for South Dakota schools, for example, was 
diverted to buy real estate, and a massive theft ring started 
by a department employee led to federal charges against 19 
people.
    After years of work to clean up this mess, in 2003, the 
Bush administration announced the department's first 
independent clean audit in years, and they have followed suit 
each year since. More recently, in 2005, our federal student 
aid programs were removed from the Government Accountability 
Office's high risk designation list after 15 years.
    My colleagues, this turnaround didn't happen by accident, 
and I am confident the department will continue to be a partner 
in addressing the challenges before us.
    As we continue with our oversight of the department, I am 
compelled to express a few concerns to help lay the groundwork 
for this hearing.
    First, I am often puzzled and, frankly, concerned by claims 
that men and women with a deep understanding of a particular 
policy area should have no role to play in an agency that deals 
each day with matters of that very same area of policy.
    Chairman Miller, you and I have a deep interest and, as a 
result, a deep background with regard to education and labor 
issues. That is why we are sitting in these seats after all. To 
argue that our background and depth of knowledge taints us and 
should bar us from legislating on these matters is not 
sensible.
    The same holds true, in my opinion, with regard to our 
federal agencies. This was the case in the Clinton 
administration when so-called industry insiders staffed the 
Department of Education. Nothing was wrong with it then; 
likewise, nothing is wrong with it now.
    Secondly, and I noted this on the floor yesterday when we 
considered the bipartisan Student Loan Sunshine Act, we need to 
keep in mind the fact that the vast majority of the men and 
women involved in our nation's financial aid and Reading First 
programs are hardworking, well-intentioned public servants. If 
we broadly condemn then, including the vast majority who do 
exceptional work, we do so at our own peril and risk 
undermining public confidence in student aid programs and a 
Reading First Program that, by all accounts, are working well 
for millions of American students and their families.
    And, finally, I believe oversight should lead to action, 
not merely headlines. Overzealous oversight all too often 
triggers overly broad requests for information that can 
distract an agency from serving the needs of those who depend 
on it. In this instance, that is student, parents and 
taxpayers.
    Similarly, we must be cautious not to engage in an endless 
partisan fishing expedition that after awhile runs the risk of 
becoming a witch hunt instead of a serious pursuit of changes 
to public policy.
    With regard to serious changes to public policy, Mr. 
Chairman, I believe our bipartisan vote yesterday on the 
Student Loan Sunshine Act has gotten us off to a good start. 
Through that bill, we have taken key steps to ensure our 
financial aid system continues to serve the needs of the 
students who depend on it for a chance at a college education.
    Madam Secretary, I was pleased to read in your prepared 
testimony that your Student Loan Task Force has made a number 
of recommendations that will now be incorporated into the 
regulatory process.
    Going beyond these recommendations, I am hopeful that soon 
you will reopen the National Student Loan Data System so 
student lenders again will be able to fully participate in this 
system and provide the best possible service to families 
counting on a student loan to attend college this coming fall 
and graduates planning to consolidate their loan prior to July 
1 when variable loan interest rates are expected to increase on 
existing loans.
    I think this is very important that this be done quickly, 
because we are at a crucial time for these prospective students 
and graduates.
    On Reading First, Madam Secretary, I applaud the immediate 
administrative changes you have implemented in light of the 
inspector general's report.
    Mr. Chairman, as you know, Mr. Castle and I introduced 
legislation several weeks ago to codify the inspector general's 
recommendations. We all are in agreement that Reading First is 
a successful and worthy program. Now we must take the 
initiative to change the law accordingly to ensure past 
instances of mismanagement never repeat themselves again.
    Mr. Castle's and my bill will do that, and I urge its 
speedy passage in committee.
    Once again, Madam Secretary, I thank you for joining us 
today. I look forward to your testimony and our discussion.
    And, Chairman Miller, I look forward to a productive 
hearing that will point us in the direction of real issues, 
real action on the two important issues before us today.

Prepared Statement of Hon. Howard P. ``Buck'' McKeon, Senior Republican 
                Member, Committee on Education and Labor

    Thank you, Mr. Chairman, for convening today's hearing. And Madam 
Secretary, I thank you for joining us and welcome you back to our 
Committee. I look forward to your testimony and our discussion about 
the steps the Department and Congress are taking to reaffirm trust in 
our nation's financial aid system, as well as Reading First.
    Oversight is a healthy congressional practice. It has led to some 
key reforms within the Washington bureaucracy, and I look forward to 
continuing as a partner in such an effort.
    Similarly, oversight within the Department of Education is 
certainly nothing new. During the late 1990s, as many of us on this 
panel remember, the Department failed a series of internal audits. An 
estimated $450 million was lost to waste and fraud. Money intended for 
South Dakota schools, for example, was diverted to buy real estate and 
new cars; more than $1 million was lost to false overtime payments; and 
a massive theft ring, started by a Department employee, led to federal 
charges against 19 people. After years of work to clean up this mess, 
in 2003, the Bush Administration announced the Department's first 
independent, clean audit in years. And they have followed suit each 
year since. More recently, in 2005, our federal student aid programs 
were removed from the Government Accountability Office's High-Risk 
designation list after 15 years. My colleagues, this turnaround didn't 
happen by accident, and I am confident the Department will continue to 
be a partner in addressing the challenges before us.
    As we continue with our oversight of the Department, I am compelled 
to express a few concerns to help lay the groundwork for this hearing. 
First, I'm often puzzled and, frankly, concerned by claims that men and 
women with a deep understanding of a particular policy area have no 
role to play in an agency that deals each day with matters of that very 
same area of policy. Chairman Miller, you and I have a deep interest--
and, as a result--a deep background with regard to education and labor 
issues. That's why we're sitting in these seats, after all. To argue 
that our background and depth of knowledge taints us and should bar us 
from legislating on these matters is not sensible. The same holds true, 
in my opinion, with regard to our federal agencies. This was the case 
in the Clinton Administration, when so-called ``industry insiders'' 
staffed the Department of Education, and nothing was wrong with it 
then. Likewise, nothing is wrong with it now.
    Secondly--and I noted this on the floor yesterday when we 
considered the bipartisan Student Loan Sunshine Act--we need to keep in 
mind the fact that the vast majority of the men and women involved in 
our nation's financial aid and Reading First programs are hard-working, 
well-intentioned public servants. If we broadly condemn them, including 
the vast majority who do exceptional work, we do so at our own peril 
and risk undermining public confidence in student aid programs and a 
Reading First program that--by all accounts--are working well for 
millions of American students and their families.
    And finally, I believe oversight should lead to action, not merely 
headlines. Overzealous oversight all too often triggers overly-broad 
requests for information that can distract an agency from serving the 
needs of those who depend on it. In this instance, that's students, 
parents, and taxpayers. Similarly, we must be cautious not to engage in 
an endless, partisan fishing expedition that--after a while--runs the 
risk of becoming a witch hunt instead of a serious pursuit of changes 
to public policy.
    With regard to serious changes to public policy, Mr. Chairman, I 
believe our bipartisan vote yesterday on the Student Loan Sunshine Act 
has gotten us off to a great start. Through that bill, we have taken 
key steps to ensure our financial aid system continues to serve the 
needs of the students who depend on it for a chance at a college 
education. Madam Secretary, I was pleased to read in your prepared 
testimony that your student loan task force has made a number of 
recommendations that will now be incorporated into the regulatory 
process. Going beyond these recommendations, I am hopeful that soon you 
will re-open the National Student Loan Data System so student lenders 
again will be able to fully participate in the system and provide the 
best possible service to families counting on a student loan to attend 
college this coming fall and to graduates planning to consolidate their 
loans prior to July 1st, when variable interest rates are expected to 
increase for existing loans.
    On Reading First, Madam Secretary, I applaud the immediate 
administrative changes you have implemented in light of the Inspector 
General's reports. Mr. Chairman, as you know, Mr. Castle and I 
introduced legislation several weeks ago to codify the Inspector 
General's recommendations. We all are in agreement that Reading First 
is a successful and worthy program. Now, we must take the initiative to 
change the law accordingly to ensure past instances of mismanagement 
never repeat themselves again. Mr. Castle's and my bill will do that, 
and I urge its speedy passage in Committee.
    Once again, Madam Secretary, I thank you for joining us today. I 
look forward to your testimony and our discussion. And Chairman Miller, 
I look forward to a productive hearing that will point us in the 
direction of real action on the two important issues before us today.
                                 ______
                                 
    Chairman Miller. I thank the gentleman for his statement.
    Without objection, all members will have 14 days to submit 
additional materials or questions for the hearing record.
    Before proceeding to introduce our witness, the secretary, 
let me lay out the process we will follow in this investigative 
hearing.
    We will begin with a 10-minute statement by Secretary 
Spellings. To ensure that we have a full opportunity to flesh 
out relevant facts for the record, I am exercising my 
prerogative as chair, pursuant to Rule 2(b) to extend the 5-
minute rule for myself and Mr. McKeon.
    Following Secretary Spelling's testimony, Mr. McKeon and I 
will each engage in a 20-minute round of questioning, after 
which other members will participate under the 5-minute rule.
    I would also alert the members that I think we are 
expecting a series of votes here, I am told five votes, which 
may provide a considerable interruption in the hearing rather 
quickly.
    But, clearly, I believe we will have time, Madam Secretary, 
for your testimony at a pace in which you will be comfortable 
delivering it.
    Margaret Spellings is the U.S. secretary of education. 
Prior to being appointed to that position in January 2005, Ms. 
Spellings served as President Bush's assistant for domestic 
policy where she helped develop the No Child Left Behind law 
and other education policies.
    Additionally, she served for 6 years as President Bush's 
senior education advisor, developing and implementing then 
Governor Bush's education reforms and policies in the state of 
Texas.
    And during her stint, certainly, as secretary, she has been 
very helpful to this committee as we have dealt with the 
implementation of No Child Left Behind.
    And we appreciate that, and we look forward to your 
testimony. And thank you for making this time available.

     STATEMENT OF HON. MARGARET SPELLINGS, SECRETARY, U.S. 
                    DEPARTMENT OF EDUCATION

    Secretary Spellings. Thank you, Mr. Chairman and members. I 
very much appreciate this opportunity to set the record 
straight on my department's oversight of college student aid 
and the Reading First Program.
    Federal student aid is crying out for reform. The system is 
redundant, it is Byzantine and it is broken. In fact, it is 
often more difficult for students to get aid than it is for bad 
actors to game the system.
    For example, throughout the 1990s, millions of dollars 
meant to help families foot the bill for college were subject 
to waste, fraud and abuse. Since President Bush took office, we 
have worked hard to clean up this system.
    Today, the majority of schools and lenders are doing the 
right thing, but when the public's trust is violated, my 
department has, and will, act.
    For example, since last August, I have been working to 
address urgent issued, like preferred lender lists and 
inducements through the rulemaking process that you set up by 
law. I invited this committee and its counterpart in the Senate 
to suggest people to join this process.
    At that time, Mr. Chairman, you and other members of this 
committee sent me a letter requesting that I delay further 
action until Congress could act. I appreciate very much the 
fact that yesterday the House of Representatives took an 
important first step in this process, but in the absence of 
completed congressional action, it has been my duty to expedite 
reform.
    So in December, I convened representatives from student 
groups, institutions and the lending community, as is required 
to fully represent all stakeholders, and asked them to look at 
ways to make the system more transparent and easier to use for 
millions of students and families.
    When the committee failed to reach consensus last month, I 
immediately assembled an internal task force to work on these 
key issues. They reported to me yesterday with recommendations 
to end unethical practices, put students' needs first and 
maintain trust and integrity throughout the system.
    The task force recommended new plans to inject more choice, 
competition and transparency into federal student aid. These 
plans will ensure every borrower has the right to choose any 
lender and require that if a school has a preferred lender 
list, it must disclose how and why lenders are chosen. It must 
include a minimum of three unaffiliated lenders, and it must 
not favor some students more than others.
    In addition, we have strengthened longstanding guidance on 
what is legal and what is not with regard to inducements. This 
includes a ban on gifts and steps to limit deceptive marketing 
by lenders. I will work to release draft regulations to be 
printed in the Federal Register by the end of this month. Even 
if and when a law is passed, I will have jumpstarted the 
regulatory process which would ordinarily be just beginning its 
18th plus month timeline.
    There is more work ahead, of course, but I can't do it 
alone. We must work together to change existing law. The 
opportunity to enact critical reform has come and gone since 
2003 when the Higher Education Act became eligible for renewal. 
Students deserve action now.
    But let me be clear: If we limit our efforts to lending 
practices without addressing the interrelated nature of cost, 
financing, quality and accessibility in higher education, we 
are only treating the symptoms instead of finding the cure.
    We all know that federal student aid has failed to keep up 
with dramatic changes in higher education, like soaring tuition 
costs and a lack of transparency that makes oversight and real 
consumer choice more difficult, let alone the rising demands of 
our knowledge economy that have caused enrollment to nearly 
triple over the last 25 years while costs have increased nearly 
400 percent in that same time period.
    That is why, shortly after becoming secretary 2 years ago, 
I appointed a commission to make higher education more 
responsive to the needs of students, parents, educators and the 
business community. That commission found that when it comes to 
controlling costs we, at the federal level, certainly have a 
role to play. Currently, there are 20 federal programs aiding 
students and more than 200 federal laws governing higher 
education--layer upon layer of complexity and inefficiency.
    My department oversees federal student loans. Private 
loans, which have lately been the focus of so much attention, 
are overseen by other agencies, like the FTC, the FDIC, the SEC 
and the Federal Reserve. Therefore, I am convening the chairs 
of all these relevant agencies to coordinate a government-wide 
endeavor to end student loan abuse no matter where it occurs.
    Mr. Chairman, I invite your committee and your colleagues 
in the Senate to help me lead this effort to restore faith in 
student financial aid broadly. We cannot fix this broken 
enterprise by cherry-picking a few narrow issues to address. We 
must peel back the layers, increase transparency, streamline 
the entire system and provide much more aid to students, which 
is exactly what we have been doing.
    I have already provided you with written testimony that 
describes in detail how we have improved management and reduced 
the default outstanding loan portfolio by 40 percent since 
2001. More recently, I have tightened oversight of our student 
loan database and sent on-site teams to review the lender 
relationships of the 44 schools highlighted in recent reports.
    In addition, since my commission's report, we have been 
acting on their recommendations to increase affordability, 
accessibility and accountability in higher ed. We have worked 
to streamline and increase federal aid, strengthening the 
accrediting process and telling students much earlier who they 
qualify for aid.
    Earlier this year, President Bush proposed the largest 
increase in federal Pell Grants in 30 years, and I am glad that 
the Congress has taken steps to help accomplish that goal.
    And I hope very much that we can work together in that same 
bipartisan spirit to execute the commission's remaining 
recommendations and reauthorize the Higher Education Act this 
year.
    Mr. Chairman, 5 years ago, with No Child Left Behind, we 
worked across party lines and committed to have every child on 
grade level by 2014. Today, this law is working, shining a 
spotlight on student achievements and building demand for 
further changes, like keeping America's teenagers from dropping 
out of school.
    An integral part of that program is the Reading First 
Program, the largest, most effective reading initiative in our 
nation's history. The latest data shows that Reading First is 
producing sizable gains in fluency and comprehension for nearly 
2 million first, second and third graders. I am deeply 
concerned about the report Senator Kennedy released yesterday, 
and my department is working with the inspector general on this 
matter, as we have done previously.
    Last fall, I put in place new leadership to oversee Reading 
First and issued clear guidance and training in implementation. 
I have sought input from states on how to improve the program 
and developed a new charter to strengthen peer reviews, and I 
have directed my general counsel to take further steps to 
prevent conflicts of interest.
    But together we can and must do more. From K-12 to higher 
education, you and I now have an opportunity to enact 
meaningful new policies that make a real difference for 
students and families, as we have done before.
    Both No Child Left Behind and the Higher Education are up 
for renewal again this year. Where these laws need changing, 
let's do it. Where families need our help, let's provide it. 
Together, we can enact policies that help prepare more students 
for college and make sure they can afford it when they get 
there.
    Thank you, Mr. Chairman. I would be happy to answer your 
questions.
    [The statement of Secretary Spellings follows:]

    Prepared Statement of Hon. Margaret Spellings, Secretary, U.S. 
                        Department of Education

    Thank you, Mr. Chairman and Members of the Committee. I appreciate 
this opportunity to set the record straight on my department's 
oversight of college student aid and the Reading First program.
    We've heard a lot lately about alleged unethical practices in the 
student loan industry. Students and families expect and deserve honest, 
ethical behavior from our government, our universities, and our 
lenders.
    Annually, ten million students in our country receive Federal 
financial aid. My department is the means by which almost half of them 
are able to afford college. We work with schools and lenders across our 
country. The vast majority of them are doing the right thing for 
students.
    However, the fact is, federal student aid is crying out for reform. 
The system is redundant, it's Byzantine, and it has failed to keep up 
with dramatic changes in higher education. In many ways, it's also a 
prime target for those looking to game the system.
    In the instances when the public's trust is violated, it's our 
responsibility to act--and that is what we've done.
Federal Student Aid Purposes, Operational Scope and Scale
    The Department of Education's grant, loan, and work-study programs 
represent the largest source of student aid for postsecondary education 
in the United States. In 2006, these programs provided approximately 
$77 billion to more than ten million students and their families.
    Federal Student Aid is charged with operational responsibility for 
oversight and administration of all the Department's Federal student 
financial assistance programs under Title IV of the Higher Education 
Act of 1965 (HEA) and, as one of the government's few Performance-Based 
Organizations, upholds high standards of operational efficiency, 
innovation, and customer care.
    The Higher Education Amendments of 1998 established Federal Student 
Aid, under the direction of the Secretary, as the Federal Government's 
first Performance-Based Organization, with particular emphasis on 
modernizing the delivery of the Federal student assistance programs. 
The authorizing statute provides that the purposes of the Performance-
Based Organization are to:
    <bullet> Increase accountability;
    <bullet> Improve service to students;
    <bullet> Integrate information systems;
    <bullet> Implement a common integrated delivery system;
    <bullet> Strengthen program integrity; and
    <bullet> Reduce costs of administering the programs.
    The Department's Federal Student Aid office ensures the 
availability and accessibility of the Free Application for Federal 
Student Aid (FAFSA) to students and parents and receives and processes 
FAFSAs for over 14 million aid applicants each year. Over the past 
several years, Federal Student Aid has dramatically transformed the aid 
application process from a 100 percent paper process to one that is now 
96 percent web-based.
    The Department's Federal Student Aid office is one of the largest 
originator of student loans, annually making nearly three million 
Direct Loans totaling nearly $13 billion to almost two million student 
and parent borrowers. In 2006, it originated over 1.2 million Direct 
Consolidation Loans totaling more than $19 billion. It is responsible 
for servicing the over $89 billion outstanding loan portfolio of 18 
million Direct Loans made to more than seven million borrowers. It is 
also responsible for collection on over $21 billion of defaulted 
student loans, including Direct Loans (DL), Family Federal Education 
Loans (FFEL), and Perkins Loans. It oversees the approximately $450 
billion outstanding student loan portfolio, including loans held by 
lenders, guaranty agencies, and schools. It also ensures the delivery 
of nearly $13 billion in Federal Pell Grants to over five million 
undergraduate students each year. The Federal Student Aid systems 
process millions of financial and other transactions annually and its 
websites receive billions of hits each year. Its customer care centers 
annually handle more than 34 million inbound and outbound phone calls. 
And each year it sends more than 41 million communications to aid 
applicants and borrowers.
State of Affairs in 2001
    Despite the critical role that the Department and Federal Student 
Aid (FSA) plays in helping millions of students attend college, when 
this Administration took the helm of the Department in January 2001, we 
inherited a situation in which both were in a state of complete 
disarray. The Department and Federal Student Aid had not received clean 
audit opinions in years and there was not any expectation of receiving 
them in the near future. Millions of dollars of grant money could not 
be accounted for. The Inspector General's Office, the General 
Accounting Office, and outside auditors had identified 661 audit 
recommendations for improving financial management, internal controls, 
operational management, program management, and compliance oversight 
that needed immediate attention. The situation was dire and the 
evidence of mismanagement egregious.
    This Administration immediately committed to cleaning up these 
programs. Specifically, we committed to:
    <bullet> Ensuring the removal of Student Financial Assistance 
Programs from the GAO High Risk List;
    <bullet> Obtaining clean financial audit opinions;
    <bullet> Putting in place effective systems of internal controls to 
protect the Department's assets from waste, fraud, and abuse;
    <bullet> Making the systems and processes supporting student aid 
delivery and management more efficient and less costly;
    <bullet> Continuing efforts to reduce student loan default costs; 
and
    <bullet> Making accountability for results the primary operating 
principle for all Education managers, grantees, and contractors.
    These commitments were ambitious and important, and I'm pleased to 
report we have achieved each and every one of them.
    Prior to the establishment of Federal Student Aid as a Performance-
Based Organization, the Federal Student Aid programs were plagued with 
oversight and management challenges, high default rates, and customers 
who were not happy with the service they received. In 1990, the 
Government Accountability Office (GAO) found the federal student aid 
programs at high risk for fraud, waste, abuse, and mismanagement. 
Financial management and internal controls around the programs were 
largely non-existent and unqualified audit opinions were not 
attainable. In 1990, student loan cohort default rates had hit an all-
time high of 22.4%. Customer satisfaction was not even measured.
    It was indeed shocking the amount of hard work necessary to address 
the clear oversight and management issues that landed the federal 
student aid programs on the GAO High Risk list in 1990 and where they 
remained when this Administration arrived on the scene.
    We recognized the inherent challenges in providing billions of 
dollars of grants and loans, through thousands of intermediaries to 
millions of students; however, we chose to aggressively manage the 
challenge to ensure access to postsecondary education while reducing 
the vulnerability of student aid programs to fraud, waste, error, and 
mismanagement. To accomplish this goal, in April 2001, this 
Administration made obtaining clean audit opinions a top management 
improvement priority. The Department established a Management 
Improvement Team composed of eight members of the senior staff of the 
Education Department who worked exclusively on attacking the problems 
and developed a comprehensive ``Blueprint for Management Excellence''. 
In addition, the President's Management Agenda (PMA), announced in the 
summer of 2001, included an initiative specifically focused on 
improving the Department's financial management and removing the 
federal student aid programs from GAO's high-risk list.
    The task at hand was daunting and required the Department and 
Federal Student Aid to:
    <bullet> Clearly demonstrate strengthened financial management and 
internal controls over the federal student aid programs and the 
Department as a whole;
    <bullet> Obtain unqualified audit opinions both on Federal Student 
Aid and the Department's financial statements;
    <bullet> Demonstrate Federal Student Aid was integrating its 
delivery systems while providing high- quality services to students, 
colleges and universities, and financial institutions;
    <bullet> Provide assurance and direct evidence that the Department 
has the systems, leadership, and processes in place to continue to 
maintain the integrity of its financial management, the major hurdle 
for the federal student aid programs' high-risk designation;
    <bullet> Maintain a balanced management approach in the federal 
student aid programs that seeks to minimize non- compliance and default 
rates while still promoting the widespread use of the programs; and
    <bullet> Demonstrate the existence of plans, processes, and 
infrastructure to address risk issues identified as key to the success 
of the federal student aid programs.
    Theresa ``Terri'' Shaw, appointed as the Chief Operating Officer of 
Federal Student Aid in September 2002, was charged specifically with 
the task of ensuring the removal of the federal student aid programs 
from the GAO High Risk list and achievement of clean financial audit 
opinions as her top two priorities. Terri came to the Department after 
twenty-two years of exemplary work in federal student aid delivery, 
information technology, business process reengineering, contract 
management, and organizational change management.
    Under this Administration, clean financial audit opinions have been 
achieved for the past five consecutive fiscal years beginning with FY 
2002. The only prior clean financial audit opinion in the history of 
the Department was in 1997. When GAO removed the federal student aid 
programs from its High Risk list in early 2005, it recognized the 
significant progress of Federal Student Aid and the Department in 
resolving financial integrity and management issues and demonstrating 
strong commitment and senior-level leadership support for addressing 
issues and risks.
    In addition, on March 31, 2005, Federal Student Aid achieved ``all 
green'' status on the President's Management Agenda (PMA) scorecard for 
Elimination of Fraud and Error in the Student Aid Programs and 
Deficiencies in Financial Management.
    Federal Student Aid also focused on student loan default prevention 
and management through default prevention strategies implemented by 
participants across the programs. Since FY 2000, the combined FFEL and 
Direct Loan FY 2000 cohort default rate has been reduced by nearly 14 
percent from 5.9 percent to 5.1 percent for FY 2004. Cohort default 
rates have been reduced from an all-time high of 22.4 percent for FY 
1990. It is expected that when the FY 2005 cohort default rates are 
announced in September 2007 that they will be even lower than the 
current 5.1 percent.
    At the same time, we also moved to make the financial aid 
application (FAFSA) and the process for filling it out more user-
friendly. We went from a process that was 100 percent paper to one that 
is now 96 percent electronic. In fact, electronic processing has been 
implemented in all phases of the financial aid process. This is 
accomplished through a series of secure, user-friendly, and efficient 
electronic processes that have simplified the financial aid process for 
students and families. Federal Student Aid's new Public Service 
Announcement (PSA) ``Only a Dream'' was ranked in the Top 10% most 
viewed Nielsen-tracked PSAs in January, Top 5% in February and Top 6% 
in March resulting in reaching an audience of over 160 million.
    The FY 2006 American Customer Satisfaction Index (ACSI) ratings for 
Federal Student Aid's highest volume products and services- including 
the electronic FAFSA, Common Origination and Disbursement and Direct 
Loan Servicing, score in the ``Excellent'' and ``Good'' range. Our 
products and services score higher than the federal government 
aggregate scores and on par with private sector scores.
    Fair and effective oversight and monitoring of the approximately 
6,000 institutions of higher education that participate in the programs 
is one of Federal Student Aid's core responsibilities, as is its 
oversight of the nearly 3,500 lenders, guaranty agencies, and servicers 
that participate in the FFEL Program.
    Federal Student Aid's oversight activities include real-time 
quality control. Federal Student Aid has built into its systems and 
processes edits, triggers, risk assessments, and other features that 
enable it to monitor and correct errors and to provide early warnings 
of potential trouble. For example, our monitoring alerted us to: (1) 
anomalies in access to the National Student Loan Data System (NSLDS); 
(2) the financial condition of the Oregon Student Aid Commission (OSAC) 
early enough so that a seamless closure and transition of OSAC's 
guaranty services could occur; and (3) the increase in special 
allowance payments made to loan holders on certain FFEL loans made or 
purchased with tax-exempt funds which led the Administration to include 
a proposal in the President's FY 2005 Budget that would stop the 
increase in 9.5% special allowance.
    In addition, Federal Student Aid monitors the school and lending 
community by reviewing required annual compliance audits and financial 
statements, performing on-site program reviews, and analyzing partner-
specific data to detect trends and areas that could be of concern.
    Federal Student Aid engages in an ongoing process of actively 
identifying risks in the programs. Noncompliance with statutes, 
regulations, and policies by schools, lenders, guaranty agencies, and 
servicers not only places Title IV funds at risk but also erodes the 
public trust in the programs. We partnered with the Department's Office 
of the Inspector General to establish a joint task force to identify 
real or potential risks for fraud, waste, abuse, and mismanagement in 
the programs. Federal Student Aid also established an Enterprise Risk 
Management unit to better coordinate risk monitoring and action plans 
among our various business units and with other Department of Education 
offices.
    Let me speak specifically about the issues that have received 
recent attention:
            National Student Loan Data System (NSLDS):
    In 1994, the Department of Education created NSLDS in order to 
facilitate students' access to financial aid and loan information. 
Lenders may have access to the National Student Loan Data System 
(NSLDS) for the purpose of assisting with determining the eligibility 
of an applicant for federal student aid and the collection of federal 
student loans and grant overpayments. NSLDS information may not be used 
for any other purpose, including the marketing of student loans or 
other products. In fact, NSLDS does not provide access to email 
addresses, phone numbers, or addresses of borrowers that could be used 
for marketing purposes. NSLDS information is protected by the Federal 
Privacy Act, and pursuant to the routine uses published in the NSLDS 
system of records notice the Department discloses to external 
authorized entities, information such as borrower social security 
number, date of birth, and data regarding Title IV aid received, as 
well as federal loan amounts, outstanding balance, current status of 
the loan, and grant amounts only for the purposes described above.
    Information accessible to external authorized users of NSLDS is 
limited to borrower social security number, date of birth, and data 
regarding Title IV aid received, such as federal loan amounts, 
outstanding balance, current status of the loan, and grant amounts.
    NSLDS does not authorize a user to ``dig through tons of data'', 
nor does it authorize the analysis of multiple borrower records for 
identification of hidden patterns or behaviors, nor does it authorize 
the exploring of transactions, nor does it permit database searches for 
multiple borrowers. These activities are commonly referred to as ``data 
mining''. NSLDS only allows a user to look up a single borrower at a 
time and only if the user has a relationship with the borrower or the 
borrower's specific permission to do so, as demonstrated by the 
borrower's return of a solicitation which contains such an 
authorization, by other written authorization by the borrower; or 
verbal permission as noted in call records of the lender. The use of 
automated tools to speed up the process of looking up borrower records 
one entry at a time is prohibited. Federal Student Aid deploys a 
variety of tools and techniques specifically designed to detect the use 
of such automated tools. These tools and techniques alert us to the 
possibility that automated tools are being used and automatically 
suspend the access for the user ID.
    A common practice in the consumer credit industry is the purchase 
of data from credit bureaus and other sources for the specific purpose 
of making an offer of credit to an individual, such as credit card 
offers. Consolidation lenders participating in the FFEL program also 
follow this practice. Once the solicitation offer is made to a borrower 
and permission by the borrower is granted, the lender is authorized to 
access NSLDS to obtain information on the underlying loans that the 
borrower wishes to consolidate. It is the responsibility of the chief 
officer of each entity to ensure that its authorized users are in 
compliance with NSLDS access requirements.
    There are 60 million student records in NSLDS representing loans 
that are both active and paid in full. The signature of the chief 
officer of the organization is also required to certify appropriate use 
of the system by his or her employees. In addition, the signature of 
the individual authorized by the chief officer of the organization is 
required for system access and use. With their signature, users confirm 
their understanding of the requirements for system use and agree to use 
the system in accordance with all rules and regulations. There are 
approximately 29,000 school accounts and 7,500 lender accounts.
    The data residing in NSLDS are confidential and are protected by a 
series of both federally mandated and discretionary security measures, 
including the Privacy Act of 1974. These measures include access 
management, network and physical security policies and procedures such 
as protective surveillance of recurring threats such as virus and mail-
ware filters, monitoring of suspicious external traffic, such as 
attempted denial of service attacks, firewalls, access and usage 
monitoring and tracking, and routine testing and surveillance using 
intrusion detection systems. NSLDS must annually pass, at a minimum, a 
FISMA audit, a financial audit or Security Certification and 
Accreditation. Most systems are annually tested by more than one of 
these three procedures and all systems must pass every test within any 
three-year period.
    Federal Student Aid continuously monitors access to NSLDS to 
prevent unauthorized use and, since 2003, Federal Student Aid has 
invested over $650,000 in improved system security and monitoring tools 
and processes to ensure the integrity of student information.
    Since 2003, these oversight efforts have resulted in the revocation 
of over 52,000 user IDs. The majority of these revocations were due to 
user inactivity; however, 261 user IDs were revoked due to suspicious 
activity. Of these 261 revoked IDs, 246 user IDs belonged to lenders, 
loan holders, guaranty agencies and servicers; and 15 user IDs belonged 
to schools.
    As a result of the Department's monitoring of NSLDS usage, we 
issued a Dear Colleague Letter (DCL) in April 2005. This DCL explicitly 
reiterated to program participants that failure to comply with NSLDS 
usage requirements may result in the organization or individual losing 
access to the system and/or being subject to further sanctions.
    Following the release of the DCL, we observed a significant 
increase in usage by lenders, loan holders, servicers, and guaranty 
agencies. Based on this increase, the Department had concerns as to the 
appropriateness of such access and discussed the termination of access 
by lenders, loan holders, servicers, and guaranty agencies. As a 
result, the Department decided to temporarily suspend access to NSLDS 
by all entities except schools and borrowers--effective April 17, 2007. 
During this temporary suspension of access, the Department is 
conducting a comprehensive review of the specific uses of NSLDS to 
determine if there has been unauthorized access or use. The Department 
is consulting with the Inspector General to complete this review. As 
part of my Task Force on Student Loans established on April 24, 2007, 
we are also reviewing all guidance to determine if enhancements are 
necessary.
    On May 2, 2007, the Department began to notify entities, beginning 
with guaranty agencies, of the process to restore their access to 
NSLDS. Access to NSLDS will be restored only after the Department has 
determined that it is appropriate to do so based on the analysis of 
access and usage information for each entity. As such, the timing of 
access restoration will not be the same for all entities.
    This analysis is being conducted in a manner that assures the 
Department that an entity has only accessed and used NSLDS for approved 
purposes. Additionally, restoration of access will be predicated on the 
receipt and approval by the Department of: (1) a listing that 
identifies each of the entity's personnel for whom it wishes to have 
NSLDS web access and the specific authorized use or uses by that 
person; and (2) a certification, signed by the entity's Chief Executive 
Officer (CEO) and its Department of Education Data Point Administrator 
(DPA), that affirms that the entity and each of its staff for whom it 
has requested, or will request, NSLDS access is in compliance with all 
applicable guidance provided by the Department.
    Access by an individual will be permanently terminated if the NSLDS 
access requirements are violated. Access by an entity will be 
permanently terminated if there are three violations of the NSLDS 
access requirements within a 12-month period by persons associated with 
that entity. In addition, unauthorized access or use of NSLDS may 
subject users to criminal or civil penalties, including fines and/or 
imprisonment.
    The Department is also developing a fact sheet--``Protecting Your 
Private Information''--designed to help students and families 
understand the importance of protecting their private information and 
granting of permission for others (specifically entities other than 
schools) to access their NSLDS information.
            Alleged Close Relationships with the FFELP Industry:
    It has been suggested that the Department administers the FFEL and 
DL programs with favoritism to the FFEL program due to alleged close 
relationships to the FFEL industry. This suggestion is totally without 
merit and has no basis in fact. A recent example that demonstrates the 
falsehood of this assertion is the Department's swift response to the 
Inspector General's September 2006 report that one lender, Nelnet, was 
improperly billing loans from ineligible sources for 9.5% special 
allowance payments. Within two weeks, 9.5% payments to Nelnet were 
frozen and within months, the industry received a Dear Colleague letter 
(DCL) restating the statutory requirements for eligible sources, and we 
announced that 9.5% payments would be suspended for the entire 
industry. The DCL also indicated that henceforth 9.5% payments would 
only be made for loans proven to be eligible after new, industry-wide 
audits. The Department then issued the methodology to be used in these 
audits, which it developed with the Office of the Inspector General.
    While the IG's report highlighted another dimension to the problem, 
our work on the 9.5% payments began well before the report's release. 
In the summer of 2003, Department staff noted an alarming increase in 
special allowance payments made to loan holders on certain FFEL loans 
made or purchased with tax-exempt funds. The Department's staff 
determined that these claims for the higher payment were being made 
under a loophole in the rules written during the previous 
administration that allowed certain loans financed with tax-exempt 
funds to qualify for a 9.5 percent special allowance subsidy, minus the 
applicable rate of interest on such loans. This led the Administration 
to include a proposal in the President's FY 2005 Budget that would stop 
the increase in 9.5% special allowance payments.
    After the Higher Education Act reauthorization was delayed that 
year, we began working closely with Congress to address the issue. 
President Bush closed the loophole when, on October 30, 2004, he signed 
the Taxpayer-Teacher Protection Act of 2004 (TTPA), which enacted a 1-
year moratorium, since made permanent, on granting 9.5% special 
allowance subsidies on a wide variety of loans financed with tax-exempt 
obligations.
    The savings achieved by closing the loophole went to a purpose 
close to my heart--to increase loan forgiveness programs for borrowers 
who participate in the Federal student aid programs and serve our 
country as teachers. Under the law, teachers who are employed full-time 
for five consecutive years and are highly qualified in secondary-school 
science or math, or are highly qualified in elementary or secondary 
school special education, qualify for loan forgiveness of up to 
$17,500.
    As significant as the Taxpayer-Teacher Protection Act was in 
curbing a significant abuse in the Federal student loan programs and 
increasing loan forgiveness for teachers, the Higher Education 
Reconciliation Act of 2005 (HERA) promises to have a longer and likely 
more significant positive impact on academic preparation and higher 
education in the U.S. The origins of many of the initiatives contained 
in the HERA can be traced directly to President Bush's fiscal year 2006 
budget, which proposed significant savings in the Federal student loan 
programs and redirected significant funding to student benefits. These 
initiatives include curbing excessive special allowance payments and 
insurance, making the changes to the treatment of loans in the 
Taxpayer-Teacher Protection Act permanent, supporting additional need-
based grant funding, and raising first- and second-year loan limits.
    Congress also chose to authorize the two new Federal grant programs 
to help low-income students pay for postsecondary education--Academic 
Competitiveness and National SMART Grants. These new programs--
authorized on February 8, 2006, and launched just 143 days later on 
July 1, 2006--have already awarded more than $400 million to over 
330,000 Pell Grant-eligible students helping to reduce their student 
loan debt. While these programs are complex and required significant 
work by the Department and institutions, I believe that they will: 
first, change the way that our high school students prepare for 
postsecondary education; and second, encourage more college juniors and 
seniors to study critical, high-need subjects. For this reason, I'm 
pleased that Congress made the decisions that they did in enacting the 
HERA with these two new programs.
    President Bush has consistently put the needs of students--
particularly those from low-and middle-income families--first.
    Most recently, the President's fiscal year 2008 budget request, 
which is pending before Congress, would reduce interest subsidies on 
student loans by 1/2 percent, saving $12.4 billion over 5 years. He 
also proposed to reduce insurance on FFEL loans from 97% to 95%, saving 
an additional $1.6 billion over 5 years. And he proposed to increase 
the fee lenders pay when making a consolidation loan from 0.5 percent 
to 1.0 percent reducing Federal costs by $850 million. These savings 
will be used to pay for increases in the Pell Grant and Academic 
Competitiveness Grant programs and to raise loan limits for juniors and 
seniors in college. As I am sure you are aware, we have been criticized 
by FFEL lenders, some of whom have claimed lower subsidies will force 
them to reduce borrower benefits or leave the program. However, I 
believe that we can and must responsibly reduce subsidies in the FFEL 
program and use those savings to increase grant aid.
    Further, it has been suggested that the Department's employment of 
skilled staff with industry experience equates to ``close ties'' to the 
industry and, therefore, does not allow for unbiased and impartial 
oversight and instead emphasizes partnership over enforcement. I should 
note for the record that the previous administration's July 1, 1999 
report, ``Reinventing Service'', from the Customer Service Task Force, 
specifically stated that Federal Student Aid (then named Office of 
Student financial Assistance-OSFA) * * *'' should be working in close 
partnership with financial institutions.'' Additionally, the previous 
administration began the practice of recruiting skilled staff with 
industry experience. Greg Woods, Federal Student Aid's first Chief 
Operating Officer, created a specific organizational unit, the 
Financial Partners Channel, to work in close partnership with lenders, 
guaranty agencies, and third-party services participating in the FFELP. 
He also began the practice of hiring managers with industry experience. 
The first General Manager of the FSA Financial Partners Channel was J. 
Barry Morrow, who was previously an executive with Sallie Mae. 
Succeeding Mr. Morrow was John Reeves, who was previously the President 
of Educaid, at the time the sixth largest student loan lender and the 
fourth largest holder of student loans, and prior to that an executive 
with The Money Store.
    The previous administration understood, and we agree, that the 
experience and insights that private-sector leaders and managers bring 
to the important task of making the financial aid system work better 
for students, schools, and lenders is invaluable.
    Since it was first established as a Performance Based Organization 
in 1998, Federal Student Aid has assembled a senior leadership team 
possessing over 300 years of experience in the private sector, the 
higher education community, and government. This team's leadership and 
expertise ensures Federal Student Aid achieves its strategic 
objectives, including annually delivering critical financial aid to 
millions of students and families and managing the inherent risks in 
the programs.
    Since it is responsible for the administration of both the FFEL and 
DL programs, Federal Student Aid administers these programs in an 
evenhanded manner. The two programs share the same goals, the same 
eligibility requirements, and many of the same benefits. We firmly 
believe that the existence of the two programs has led to increased 
competition, improved customer service, and lowered costs for students 
and taxpayers alike. It should be noted that, since 2002, significant 
operational and management improvements have been implemented to 
enhance administration and financial and operational management of the 
DL program. These improvements are focused on better serving the 1,087 
DL schools and the nearly 7 million DL borrowers, as well ensuring the 
sound fiscal management of the more than $93 billion outstanding 
portfolio. Prior to 2001, billions of dollars disbursed annually under 
the DL program were not: (1) fully reconciled to the Department's 
financial records; (2) verified as actually being delivered to students 
within the required timeframes; and (3) delivered to the DL servicer 
for on-going servicing within the required timeframes. Today, all 
disbursements are: (1) 100 percent reconciled from the date of 
disbursement through loan payoff; (2) verified as being delivered to 
the students or returned to the Department with 30 days as required; 
and (3) immediately delivered to the DL servicer for on-going 
servicing.
            Inducements:
    New York Attorney General Andrew Cuomo's testimony before this 
Committee at its recent Hearing on ``Examining Unethical Practices in 
the Student Loan Industry'' was ill informed on the Department's 
actions and on federal law. Any suggestion by a state attorney general 
that a violation of a state's law on deceptive trade practices and/or a 
state's fraud law would equate with an automatic violation of Title IV 
of the Higher Education Act (HEA) is misleading.
    As Attorney General Cuomo should know, the Department has no 
authority to apply the HEA anti-inducement provisions to consumer 
credit loans that are governed by other federal regulators, including 
the Comptroller of the Currency, the Federal Reserve, the Office of 
Thrift Supervision, the Federal Deposit Insurance Corporation, and the 
Federal Credit Union Administration. The legal, regulatory, and 
supervisory framework for consumer protection specifically includes the 
following statutes, which collectively address the lending process, 
irrespective of the loan product, in terms of equal access, 
origination, disclosure, and privacy:
    <bullet> Truth-in-Lending Act
    <bullet> Fair Credit and Charge Card Disclosure Act
    <bullet> Fair Credit Reporting Act
    <bullet> Equal Credit Opportunity Act
    <bullet> Fair Debt Collection Practices Act
    <bullet> Home Equity Loan Consumer Protection Act
    <bullet> Home Ownership and Equity Protection Act
    <bullet> Fair Housing Act
    <bullet> Real Estate Settlement Procedures Act
    <bullet> Fair Credit Billing Act
    <bullet> Expedited Funds Availability Act
    <bullet> Truth-in-Savings Act
    <bullet> Electronic Funds Transfer Act
    <bullet> Consumer Leasing Act
    <bullet> Gramm-Leach-Bliley Act
    <bullet> Patriot Act
    <bullet> Sarbanes-Oxley Act
    The Department is investigating, under its authority, whether, in 
fact, there have been violations of the anti-inducement provisions of 
the HEA. Federal Student Aid already has teams performing on-site 
reviews of the 44 schools and 26 lender/eligible lender trustee 
relationship for which unethical practices have been alleged to date to 
determine if there have, in fact, been violations of the anti-
inducement provisions of the HEA.
    In addition to these efforts to address inducements, we have taken 
a number of steps to tighten our oversight responsibilities of federal 
student financial aid programs under existing regulations and within 
the authority the Department has been given through the 
congressionally-mandated process for issuing new regulations. These 
steps include, but are not limited to: (1) improved reporting 
requirements for guaranty agencies and lenders; (2) improved reporting 
and monitoring of the required reserve ratios that must be maintained 
by guaranty agencies; (3) the development of a methodology for 
establishing a FFELP improper payment error rate; (4) the creation of 
consolidated risk management scorecards for both lenders and servicers 
to better target oversight monitoring; and (5) the standardization of 
the Program Review process. In fact, many of these steps led to the 
removal of the federal student aid programs from the GAO High Risk List 
in January 2005.
    As noted in my letter to Senator Edward Kennedy on April 17, 2007, 
the Department issued a Dear Colleague letter on March 30, 2007 
reaffirming that student and parent borrowers under the FFEL program 
may select the lenders of their choice. Additionally, during its annual 
Title IV compliance training conferences in October and November of 
2006, Federal Student Aid specifically addressed the importance of 
compliance with the anti-inducement provisions in the HEA.
    While I appreciate the fact that yesterday, the House of 
Representatives took an important first step in this process, I 
determined last year that absent Congressional reauthorization of the 
HEA, it was my duty to address, among other issues, preferred lender 
lists and prohibited inducements in the FFEL program through the 
rulemaking process that you set up by law. Indeed, in January 2007, the 
Department offered draft regulatory language to strengthen existing 
regulations on preferred lender list practices and on inducements. 
Despite the Department's urging that the proposed language be adopted, 
the negotiated rulemaking committee did not reach consensus at their 
fourth and final session on Friday, April 20.
    As you know, on April 24, 2007, I announced the formation of a Task 
Force on Student Loans to build on the negotiated rulemaking 
committee's work around key lender issues such as preferred lender 
lists, prohibited inducements, and NSLDS. This internal task force 
includes representatives from the Department's Office of Postsecondary 
Education, Federal Student Aid, and Office of the General Counsel. 
Representatives in the Office of Inspector General participate in an 
advisory role.
    My Task Force just recommended new plans to strengthen the 
Department's original position and make it clear that:
    <bullet> Unethical practices should cease and desist;
    <bullet> All conduct related to student lending should be centered 
around borrower interests; and
    <bullet> Trust and integrity must be maintained in our student aid 
system.
    I appreciate the hard work of the Task Force and their thoughtful 
recommendations to protect borrowers. They have made insightful 
suggestions that would curb lender inducements to schools and introduce 
greater transparency to the practice of selecting preferred lenders. I 
will carefully consider these recommendations as I draft a Notice of 
Proposed Rulemaking (NPRM). I plan to publish an NPRM that addresses 
these issues in the Federal Register in the next several weeks.
    Given the limited statutory authority and high threshold that the 
Department is required to meet in order to bring enforcement action to 
a school, lender, guaranty agency, or other third party, the Task Force 
identified areas that we will need to work with you, Chairman Miller, 
Congressman McKeon and others in order to strengthen the enforcement 
ability of the Department. I look forward to working with you on these 
recommendations that put an end to unethical practices, put students' 
needs first and maintain trust and integrity throughout the system.
    On May 1, 2007, Dallas Martin, President of the National 
Association of Student Financial Aid Administrators (NASFAA), testified 
during the Subcommittee on Higher Education, Lifelong Learning, and 
Competitiveness hearing, ``Paying for a College Education: Barriers and 
Solutions for Students and Families''. I strongly disagree with Mr. 
Martin's testimony when he claims that the Department's supposed 
failure to identify and penalize schools for their inadequate 
administration of student's financial aid needs has forced schools to 
seek assistance from lenders, guaranty agencies, and others to print 
student financial aid consumer information, to perform student loan 
exit and entrance counseling, to establish call centers, and to provide 
additional staffing during peak periods in the financial aid office. In 
fact, for the past five fiscal years, the Department has issued schools 
124 citations and assessments totaling nearly $4.4 million for lack of 
administrative capability--it is one of the top 10 findings in our 
school program reviews.
            Deceptive Marketing Practices:
    On May 2, 2007, this Committee asked the Federal Trade Commission 
(FTC) to investigate the unfair and deceptive practices that lenders 
use to market their products and services to students. The Committee 
made this request of the FTC after it had reviewed examples of lenders' 
unfair and deceptive marketing letters that use what appear to be 
official government logos and threatening language. The Department 
shares the Committee's concern and, in fact, over the past few years, 
Department staff has been communicating with the FTC staff to share 
information regarding potentially deceptive marketing materials from a 
variety of lenders. The Department joins you in calling on the FTC to 
examine these practices.
Reading First
    Five years ago, we worked across party lines and made a commitment 
to have every child on grade level or above by 2014. Today, No Child 
Left Behind is working-shining a spotlight on student achievement and 
building an appetite for further change.
    An integral part of this law, the Reading First program is the 
largest, most effective reading initiative in our nation's history. The 
latest data show that Reading First is producing sizable gains in 
fluency and comprehension for nearly two million first, second, and 
third graders. My Inspector General highlighted where its early 
implementation was flawed, and I took immediate action to correct those 
problems.
    Let me begin by repeating what I have said since the Department of 
Education's Inspector General first announced the results of his 
Reading First investigation. We agree with the majority of the OIG's 
findings and have accepted all of its recommendations to prevent any 
future reoccurrence of administrative failures.
    Flaws in the early implementation of the program must not sidetrack 
the good work of a critically important and successful education 
initiative. We have considerable evidence, including three years of 
continually improving assessment results, that Reading First is working 
as intended by Congress by building on the federally funded research 
base. It is expanding the use of research-based reading instruction in 
the early grades and significantly improving the reading skills of 
students in some of our historically low-achieving schools.
    In short, Reading First and the students who benefit from it 
deserve your strong support as Congress moves forward in developing the 
fiscal year 2008 appropriations act and the reauthorization of No Child 
Left Behind.
Goals of Reading First
    The goal of Reading First was to translate scientific insights into 
practical tools to be used in classrooms. The Federal research 
investment supported more than 20 years of research that followed over 
44,000 children from age 5 into adulthood. Researchers at the National 
Institute of Child Health and Development and the Institute of 
Education Sciences tracked children who could read well, and they 
tracked others who couldn't read at all. The National Reading Panel 
looked at this and thousands of other high-quality scientific studies 
to determine what the research tells us about how children learn to 
read. When their work was over, our nation had gained evidence-based 
insights into how children read, why some of them have more trouble 
reading than others, and what we can do to get all children reading 
well.
    The knowledge gained through the research was embodied in the 
Reading First Program designed to improve the quality of reading 
instruction so that all children read at grade level by the end of the 
third grade. The program pursues this goal through three strategies: 
(1) providing substantial resources at both the State and local levels 
for implementation of effective reading instruction in schools; (2) 
using reading programs and materials that are research-based, combined 
with high-quality professional development, to ensure that all 
teachers, including special education teachers, have the necessary 
skills to teach these researched-based reading programs effectively; 
and (3) using assessments to help classroom teachers screen for, 
identify, and overcome barriers to students' ability to read at grade 
level by the end of third grade.
    On the issue of research-based instruction, the statute specifies 
that instructional methods and materials, as well as related 
professional development, must incorporate the five essential elements 
of effective primary-grade reading instruction: (1) phonemic awareness; 
(2) decoding; (3) vocabulary development; (4) reading fluency, 
including oral reading skills; and (5) reading comprehension 
strategies.
    The need for implementation of effective strategies and methods of 
teaching reading is unquestioned. Though we have been pleased to report 
improvements in reading achievement in the early grades over the past 
several years, and believe that No Child Left Behind is contributing to 
that improvement, overall achievement levels remain alarmingly low.
    Less than one-third of all 4th-graders scored at the Proficient 
level or above in reading on the 2005 National Assessment of 
Educational Progress (NAEP), and results for students in the high-
poverty schools that are the focus of the Reading First program were 
even more discouraging. Just 16 percent of 4th-graders eligible for 
free or reduced-price lunch scored at the Proficient level or above on 
the 2005 reading assessment, and more than half (54 percent) scored 
below the Basic level. The 2005 NAEP reading results also highlighted 
the continuing achievement gaps among student groups, with the 
percentages of African-American students (13 percent) and Hispanic 
students (16 percent) scoring at the Proficient level or above falling 
far below that of white students (41 percent).
    To help close these gaps, the Reading First State Grants program 
has made awards to all 50 States, and States have made subgrants to 
approximately 1,550 local school districts that serve an estimated 
5,200 participating schools. The statute requires a comprehensive 
national evaluation of the Reading First program, and the Department 
produced the first report of that evaluation last summer. The most 
recent Reading First student achievement data, released in April 2007, 
indicate that students in Reading First schools have experienced strong 
gains in reading proficiency. The July 2006 Reading First 
Implementation Evaluation: Interim Report also found that districts are 
implementing the major elements of the program, and that Reading First 
schools are more likely to be implementing the program features called 
for in the Reading First law than are non-Reading First Title I 
schools.
Early Results of Reading First
    While we do not yet have comprehensive impact data for Reading 
First, we do have considerable early evidence that the program is 
working as intended. This evidence comes from the most recent Annual 
Performance Report data: the Interim Report of the Department's ongoing 
implementation evaluation; the September 2006 report, Keeping Watch on 
Reading First, produced by the Center on Education Policy (CEP); and a 
March 2007 report from the Government Accountability Office (GAO).
    New achievement data reported by the States in the Reading First 
Annual Performance Report show that Reading First students from nearly 
every grade and subgroup (Hispanic, African-American, students with 
disabilities, English language learners, and economically 
disadvantaged) made impressive gains in reading proficiency in 2005 and 
then again in 2006.
    In Reading First schools, the percentage of 1st graders meeting or 
exceeding proficiency on Reading First fluency outcome measures 
increased by 14 percentage points (43% to 57%) from 2004 to 2006.
    In Reading First schools, the percentage of 3rd graders meeting or 
exceeding proficiency on Reading First fluency outcome measures 
increased by 7 percentage points (36% to 43%) from 2004 to 2006.
    On average, the 26 States with 2004 baseline data increased the 
percentage of students meeting or exceeding proficiency on fluency 
outcome measures by 16% for 1st graders, 14% for 2nd graders, and 15% 
for 3rd graders.
    On average, the 26 States with baseline data increased the 
percentage of students meeting or exceeding proficiency on 
comprehension outcome measures by 15% for 1st graders, 6% for 2nd 
graders, and 12% for 3rd graders.
    The Reading First Implementation Evaluation: Interim Report 
highlighted the following key findings regarding the early 
implementation of the Reading First State Grants program:
    <bullet> Reading First schools are implementing the major statutory 
requirements, including the use of scientifically based reading 
instruction, increased reading time, interventions for struggling 
readers, reading assessments, and increased professional development.
    <bullet> Though non-Reading First Title I schools also emphasized 
reading instruction, Reading First strategies (that is, strategies that 
reflect the research on what works in teaching children to read) were 
used more extensively in Reading First schools than in Title I schools.
    <bullet> Reading First teachers were significantly more likely than 
their counterparts in non-Reading First Title I schools to place 
struggling students in intervention programs.
    <bullet> Reading First schools were more likely than non-Reading 
First Title I schools to have a reading coach, and Reading First 
coaches were more likely to provide teachers with various supports than 
were coaches in non-Reading First Title I schools.
    <bullet> Reading First staff received significantly more 
professional development than did non-Reading First Title I staff.
    The changes in Reading First schools suggested by these findings 
contributed to the Effective rating achieved by Reading First State 
Grants in the 2006 Program Assessment Rating Tool (PART) process. The 
PART found that the Reading First program benefited from a strong 
program design and local management practices that appeared to help 
bring about improvements in student reading achievement. In particular, 
based on achievement data submitted by participating States, the PART 
found gains on all program performance measures for the 2004-2005 
school year.
    Between 2003-2004 and 2004-2005, the percentage of students who met 
or exceeded proficiency in reading on Reading First outcome measures of 
fluency increased:
    <bullet> from 43% to 50% for first-grade students;
    <bullet> from 36% to 39% for third-grade students;
    <bullet> from 33% to 39% for economically disadvantaged second-
grade students;
    <bullet> from 27% to 32% for limited English proficient second-
grade students;
    <bullet> from 34% to 37% for African-American second-grade 
students;
    <bullet> from 30% to 39% for Hispanic second-grade students; and
    <bullet> from 17% to 23% for second-grade students with 
disabilities.
    The number of States reporting an increase in the percentage of 
students who met or exceeded proficiency in reading on Reading First 
outcome measures of reading comprehension increased:
    <bullet> from 2 to 14 for first grade-students (20 States had two 
years of data);
    <bullet> from 7 to 19 for third-grade students (23 States);
    <bullet> from 4 to 14 for economically disadvantaged second-grade 
students (20 States);
    <bullet> from 5 to 6 for limited English proficient second-grade 
students (18 States);
    <bullet> from 5 to 16 for African-American second-grade students 
(19 States);
    <bullet> from 5 to 9 for Hispanic second-grade students (19 
States); and
    <bullet> from 2 to 12 for second-grade students with disabilities 
(19 States).
    These achievement gains are all the more remarkable because the 
schools served by Reading First are among the lowest-performing schools 
in the country. The early results highlighted by the PART review 
suggest that comprehensive implementation of research-based reading 
instruction can bring about rapid improvement even in some of our worst 
schools.
    The PART data were echoed by the CEP report, Keeping Watch on 
Reading First, which found that the program was ``having a significant 
impact'' on reading instruction in participating districts and schools. 
In particular, more than 90 percent of the 1,700 districts surveyed by 
CEP reported that the Reading First instructional program and 
assessment system were ``important'' or ``very important'' causes of 
gains in student achievement in reading.
    Another critical benefit of Reading First cited by the CEP report 
was the use of Reading First as a school improvement strategy under No 
Child Left Behind. In part, this reflects the statutory requirement 
that States use Reading First funds to make available professional 
development in reading instruction to all schools, and not just those 
participating in Reading First. About 80 percent of States reported 
that offering professional development through Reading First was a key 
strategy for schools identified for improvement under NCLB, and a 
similar percentage of States said that providing curriculum and 
assessment materials through Reading First was a key improvement 
strategy. More importantly, about three-fifths of States reported that 
these Reading First-based strategies were ``moderately or very 
effective in raising student achievement.''
    A March 2007 report from the Government Accountability Office (GAO) 
also indicated that States have reported that there have been a number 
of changes, as well as improvements, in reading instruction since the 
implementation of Reading First. According to the report, 69% of all 
States reported great or very great improvement in reading instruction 
since inception of Reading First.
Management Issues
    My message today is that the senior leadership of the Department of 
Education shares the widespread public concern about these issues, and 
has moved decisively and rapidly to respond to the issues raised by the 
Inspector General. Most significantly, in last year's annual 
performance and accountability report to Congress and the public, I 
declared a material weakness for program management at the Department 
based in large part on the issues raised about the management of the 
Reading First program. The material weakness does not diminish the 
significant progress we have made as a Department in improving the 
management of our programs, but rather reminds us that our work to 
ensure that our programs are managed to the highest standards is not 
yet complete. In addition, I have instructed my senior staff to 
implement each of the recommendations from the Inspector General's 
report. More specifically, the Department has already completed more 
than a 20 action steps in response to those recommendations. These have 
included:
    <bullet> Appointing Dr. Joseph Conaty, a well-respected career 
executive with nearly 20 years of experience at the Department of 
Education, to manage the program;
    <bullet> Establishing an intra-Departmental group that meets 
regularly to help guide the implementation of the program. The group is 
made up of various officials within the Department, including 
representatives from the Office of Elementary and Secondary Education, 
the Office of the General Counsel, and the Office of the Chief 
Financial Officer;
    <bullet> Expanding Reading First staff to reduce reliance on 
outside contractors;
    <bullet> Providing guidance on ensuring fairness and objectivity in 
the peer review process in all formula grant programs. This guidance 
was specific to issues involving conflict of interest;
    <bullet> Providing additional guidance to contractors and 
subcontractors to enhance the objectivity and effectiveness of their 
services, including clarifying conflict-of-interest prohibitions 
pertaining to the use of peer review panels and private contractors;
    <bullet> Reviewing all Reading First applications to ensure 
compliance with funding criteria. This review determined that the 
majority of State applications had the appropriate documentation. The 
Department is continuing to work with the additional States to resolve 
any remaining issues; and
    <bullet> Conducting outreach to States on potential concerns about 
Reading First issues. To date, the Department has received 25 letters 
from States. 16 of those letters said only positive things about the 
Reading First program. An additional 13 States responded that they 
either had no concerns or did not intend to write a letter. We remain 
committed to working with all States to address any concerns they may 
have about the program.
    In addition, the new Reading First program director, together with 
representatives from the Office of Inspector General and the Office of 
the General Counsel, delivered a presentation at the end of January to 
the National Association of State Title I Directors on the ``lessons 
learned'' from the IG's findings, including on the implementation of 
new internal controls designed to ensure the integrity of the grant 
application process. This presentation also described steps that the 
Department is taking to ensure that our officials, consistent with the 
Department of Education Organization Act, do not take actions that 
could be interpreted as directing or controlling State and local 
curriculum decisions.
    I have also developed a charter for the peer review panel in 
Reading First that would further strengthen the program's 
implementation in line with the Federal Advisory Committee Act. This 
panel would help the Department review issues that arise with State 
applications for Reading First and evaluate the third-year progress 
reports from the States. A notice of intent to establish this panel in 
accordance with the Federal Advisory Committee Act was published in the 
Federal Register on March 1, 2007.
    We believe that these comprehensive actions will help restore 
public confidence in the Department's ability to fairly and impartially 
administer the Reading First State Grants program, and allow us to 
build on the progress that States, school districts, and schools have 
made under this program in improving reading instruction in the early 
grades.
    I urge the Members of this Committee to look at the entire record, 
and not just the recent headlines, as you evaluate the progress of 
Reading First and consider changes during the upcoming budget and 
reauthorization debates. If you do, I think you will agree that Reading 
First, with its emphasis on research-based instruction in the critical 
early years, is one of our best tools to ensure that all students 
receive a high-quality education, and it that merits your strong 
support.
    I would also like to take this opportunity to thank Congressman 
McKeon and Congressman Castle for introducing H.R. 1939, the Reading 
First Improvement Act. This legislation goes a long way toward 
addressing many of the concerns about the early implementation of 
Reading First. I look forward to continuing to work with Mr. McKeon, 
Mr. Castle, and other members of the Committee to strengthen Reading 
First.
Conclusion
    Where the law needs changing, let's do it. And where families need 
our help, let's provide it. Together, we can enact policies that better 
prepare more students for college * * * and help make sure they can 
afford it once they get there!
    But together, we can and must do more. From K-12 to higher 
education, you and I now have an opportunity to enact meaningful new 
policies that make a real difference for students and families--just as 
we did 5 years ago.
    There's no time to wait. Nearly two-thirds of all high-growth, 
high-wage jobs created in the next decade will require a college 
degree-a degree that only one third of Americans have. I stand ready to 
work with you to make a real difference in the lives of the people 
we're all here to serve.
    Thank you. I would be happy to answer your questions.
                                 ______
                                 
    Chairman Miller. Thank you very much for your testimony.
    As everyone is aware, the bells have rung, but let us go 
ahead and begin.
    Madam Secretary, I would hope that you would not 
characterize the concerns that have been raised by this 
committee, by the Senate committee, by the state attorneys 
general as peripheral to the program.
    The integrity of these programs is absolutely essential to 
its core, which I think you say elsewhere in your testimony, 
and the questions that have been raised, the suggestion that 
somehow this only dealt with private loans and therefore it is 
sort of out of your jurisdiction, I would like to point out 
that in many instances these are the same entities making 
public and private loans in their negotiations and discussions, 
and that is where we get into trouble sometimes with the 
institutions of higher education.
    And we will all stipulate to your statement that the 
federal aid has failed to keep up with the soaring cost of 
education, which therefore makes every one of these dollars and 
our ability to get them to students and to families even more 
valuable.
    As you point out, the Congress has long had a policy, the 
law, against inducements, prohibitive inducements, and this 
issue has been raised for a considerable period of time within 
the department. To date, with all due respect, the department 
hasn't actually acted on these with any sense or haste or 
urgency. And over the last several months, we have seen a 
number of inducements identified and people have settled or 
people have paid money or they have said they will never do it 
again.
    But if I could just ask, if I could have your sense of 
these inducements. We had ones where clearly there were revenue 
sharing and referral fees paid by lenders to colleges. Do you 
consider that an acceptable practice?
    Secretary Spellings. No, and, Mr. Chairman, this is where I 
think we really need some changes in law. The hurdle is very 
high. For me to establish a violation, I must prove a quid pro 
quo between the----
    Chairman Miller. We will get there. We will get there.
    Lenders were offering pools of money for lending--private 
pools of money for lending in exchange for placement on the 
preferred lender and exchange for a percentage of the federal 
loan volume on campus. I assume you don't agree with that as a 
practice, and that is an inducement. Lenders paying for 
financial aid officer's trips to resorts and to serve on the 
``advisory boards.''
    Secretary Spellings. As I said, Mr. Chairman, I need to 
clarify what the provisions are around inducements and the----
    Chairman Miller. I understand that.
    Lenders paying for supplementing the salaries and school 
aid officers, I assume you do not find that an acceptable 
practice. Is that correct?
    Secretary Spellings. That is correct.
    Chairman Miller. Financial aid officers holding stock in 
the lenders that they are recommending to students.
    Secretary Spellings. Mr. Chairman, of course I don't find 
that acceptable, but I have to clarify whose roles and 
responsibilities are implicated as we discuss those things.
    Chairman Miller. I understand that. Let me get to my point 
here.
    My concern is about the department in the broad sense of 
the word and the image, that from 2001 guidance was requested 
and provided to the department about how to deal with this 
issue. There were complaints from other lenders, there were 
concerns within the department, and nothing was done with 
respect to that guidance.
    An alert was again provided in August 1 of 2003 and at the 
end of long protracted discussions with the inspector general, 
essentially, what you had was the department saying, ``We are 
going to continue to monitor this,'' until we find the stories 
coming out of the New York attorney general about actions that 
were taken there.
    I just don't quite understand how if monitoring was the 
solution that the department chose, how it is that they didn't 
pick up any of these activities. Again, these were people who 
were skilled and, as Mr. McKeon pointed out, came from the 
industry, understood it, and somehow they missed every one of 
these, even though we now see them almost in every state in the 
union and across a significant number of colleges and lenders.
    Secretary Spellings. Well, Mr. Chairman, it is appropriate 
that I parse the various issues that you have raised, because 
there are different enforcement capabilities around a variety 
of them.
    Let me start with Nelnet, the issue that was raised----
    Chairman Miller. Let's just stick with the inducements for 
a second.
    Secretary Spellings. All right. Let's stick with the 
inducements.
    Chairman Miller. So why is it from 2001 until recently when 
you started negotiated rulemaking, and that failed; did that 
alert you to some of the problems around the inducements until 
your appointment of the task force after this all came to 
light?
    Secretary Spellings. Mr. Chairman, when I became secretary, 
I immediately began my work on higher education. I have 
probably been the most active secretary in this policy arena in 
a very long time. That is why I appointed a commission. But I 
think we also have to be aware of the interrelated nature of 
all these things.
    As they did their work, it became abundantly clear to me 
that I needed to initiate a negotiated rulemaking process in 
the absence of congressional action. It was the first time, 
except for the Fed Up initiative that Congressman McKeon had 
precipitated before, that that had been done. And that is why I 
initiated the process, the 18-month process, and in December of 
last year began to raise these issues before that negotiated 
rulemaking group. They failed to reach consensus.
    I said that I would take that advice under consultation 
that they had, that they did not reach consensus on those 
matters, and that is why I have acted to recommend and to post 
to the Federal Register these aspects to end this inducement 
practice.
    Now, I also have to say, Mr. Chairman----
    Chairman Miller. With all due respect, Madam Secretary, 
this isn't about you. It is about the department. It is about 
the failure of the department over a period of 5 years to deal 
with the problem that is growing in intensity, growing in its 
ethical unacceptance and probably in its criminal behavior.
    And as we now see, settlement after settlement, all across 
the country, at no time did anybody in the department think of 
picking up the phone and telling people, ``You have got to stop 
this. We are going to work on a regulation.''
    It essentially has gone on to today without an official 
statement by the department about its unacceptability. That is 
the point.
    Secretary Spellings. Well, Mr. Chairman, I agree in large 
part with aspects of your point, but I think it is appropriate, 
and this is one of those a picture is worth a thousand words 
sorts of instances where I would like to commend you to our 
little diagram about how oversight of this program works.
    Chairman Miller. I have seen it. I have looked at it.
    Secretary Spellings. Now, I want to talk specifically about 
inducement matters, and that is that the hurdle that must be 
cleared by the department for us to assert a violation in the 
SL Program is a quid pro quo relationship between the awarding 
of a particular loan and the cruise of New York Harbor, for 
example, so that I must prove a direct relationship between 
that act and the awarding of the loan. And that is why we need 
changes in the law.
    Chairman Miller. But with all due respect, the question of 
whether you can prove that or not and your understanding, and 
apparently a lot of other people's understanding, as they 
prosecuted this, is to, at a minimum, its ethical 
unacceptability. The idea that if you couldn't prove it there, 
that therefore no action is taken, ``We are going to monitor 
it.''
    On all of the monitoring, over 5 years, you couldn't make 
the determination as a department that these practices should 
have been stopped?
    These practices, people were laying out millions of dollars 
of these inducements. I appreciate that there is not a piece of 
paper between the University of Indiana and a $3 million grant 
from Sallie Mae and they drive the Direct Student Loan Program, 
a federal program off campus. But, you know, when they were 
caught at it, they pledged to never do it again and paid back 
the money. You know, when these other people were caught at the 
cruises and it was brought to light, they paid back the money, 
they rebated money to students, they swore they would never do 
it again.
    So none of that was about proving it in the court of law. 
People were caught and the officials showed up at their front 
door and said, ``This practice is unethical and illegal.'' They 
didn't say, ``Well, take me to the Supreme Court.'' They were 
caught, but nobody from the Department of Education showed up 
at the front door. That is what I don't understand.
    Secretary Spellings. And I guess my question would be, did 
anyone show up from the FTC or the SEC or these other bodies--
--
    Chairman Miller. But they are not here today, with all due 
respect.
    Secretary Spellings. Well, Mr. Chairman----
    Chairman Miller. This is about your program. Your program 
is coupled; you can't suggest that this is laid off on the 
private loan sector. This is coupled with the very same 
parties. It is convenient to decouple them, but the fact of the 
matter is, Sallie Mae was offering private pools of money in 
exchange for an increased federal participation in the loan 
volume. They were coupled----
    Secretary Spellings. Mr. Chairman----
    Chairman Miller [continuing]. And when they were caught, 
Madam Chairman, when it was suggested that we understood what 
they were doing, they said they will never do it again.
    Other lenders had brought this to the attention of the 
department.
    Secretary Spellings. I agree with you that we need changes 
in the law to make it more robust with respect to enforcement.
    Chairman Miller. What went wrong?
    Secretary Spellings. Mr. Chairman, as you know, and as I 
have pointed out on this diagram, there are 6,000 institutions. 
This is a multibillion dollar industry. There are aspects that 
relate to eligibility and authorities governing the SL Program 
and others that relate to SL. There are multiple grant 
programs.
    Chairman Miller. When it was suggested that students would 
not get a loan they applied for because it was not the lender 
that the school chose, you issued a, ``Dear Colleague.'' Boom, 
you stopped the practice.
    Secretary Spellings. And I have the authority to do that 
under current law.
    Chairman Miller. For paying people, for putting people on 
their payroll, for providing trips and inducements, for taking 
the federal program off campus for money, there is no ``Dear 
Colleague,'' there is no letter, there is no phone call that 
the department, the director of the program, whoever, can make 
to say, ``This is unacceptable''?
    Secretary Spellings. We have conducted thousands and 
thousands of audits of programs over the last several years, 
obviously.
    Chairman Miller. But, apparently, not related to this.
    Secretary Spellings. Well, to the extent that I am charged 
with implementing a law and enforcing a law that has a very 
high hurdle to be cleared, then perhaps we need a change in the 
law.
    Chairman Miller. With all due respect, I cannot accept that 
answer, because it isn't about the high hurdles to be cleared. 
It is about whether or not you look at a situation, and, again, 
other law enforcement looked at the situation, made a 
determination and the practice ended. Nobody went to the 
Supreme Court, nobody went over the high hurdle.
    It was clear on its face the egregious nature of the 
inducement, the conflict of interest and the unethical 
behavior. Nowhere in 5 years of monitoring, which was your--the 
department's, not yours--the department's accepted practice did 
anybody make an effort to call a halt to these practices, with 
all of the audits that you cite in your testimony.
    Secretary Spellings. Well, as I said, we monitor these 
programs vigilantly. There are----
    Chairman Miller. Apparently not, Madam Secretary. I 
understand what you are saying, and that was what you told the 
inspector general, that your choice of enforcement was 
continuing monitoring. Who was monitoring? Did they have 
blinders on?
    Secretary Spellings. Thousands of audits and----
    Chairman Miller. Not with respect to this problem. I know 
you have audits and people paid money, and you found problems 
with the programs all over the campuses.
    Secretary Spellings. And fines.
    Chairman Miller. You never found one of these problems, 
apparently.
    Secretary Spellings. Well, to the extent that it was not a 
violation of the laws that I am charged with overseeing, then, 
no, we didn't take action.
    Chairman Miller. Well, then you made an assumption, that 
whether you put people on a cruise to the Caribbean, whether 
you pay millions of dollars to kick a federal program off 
campus, whether you provide private money so you can buy a 
larger share of the Federal Loan Program on a particular 
campus, you made a decision at the outset that none of that was 
a violation of the law and it was not worthy of any discussion 
with the campus, with the college president, with the lending 
authority or with the loan officer on campus.
    Secretary Spellings. Clearly, I was concerned about those 
practices, and that is why I initiated the rulemaking last 
fall. But I would say that the ability to try to prove that 
level of legal burden in such cases was not something that----
    Chairman Miller. I am afraid that has become a crutch. That 
is sort of like you said it is a high burden on Nelnet, so, 
therefore, we will let them keep the $300 million and they will 
give up the--they gave up $1 billion and you said this was too 
high a burden to think about going to court and the minute you 
walked in the door they gave $1 billion.
    Secretary Spellings. Mr. Chairman----
    Chairman Miller. They must have had a hell of a strong 
case. They must have said, ``Boy, we have got that Department 
of Education nailed. We have got them so nailed we are going to 
give up $1 billion.'' It is just not plausible.
    Secretary Spellings. Well, I would like to take a moment 
and explain the Nelnet settlement, if I may.
    Chairman Miller. We are going to have to decide whether we 
are going to run and vote. We have 2 minutes.
    Secretary Spellings. When you get back.
    Chairman Miller. Yes. With baited breath, we wait for the 
answer.
    Secretary Spellings. Yes, sir.
    Chairman Miller. Thank you, Madam Secretary.
    Secretary Spellings. Thank you.
    [Recess.]
    Chairman Miller. The committee will come back to order.
    Madam Secretary, thank you very much for putting up with 
the interruption. You are no stranger to the Hill, so you know 
how this works. But also thank you very much.
    The secretary has agreed to stay till 1:30 to allow as many 
members as possible to have an opportunity to question.
    I think I have about 5 minutes left.
    Madam Secretary, when we left, I was concerned that the 
department for a considerable period of time had chosen the 
alternative in looking at inducements of monitoring, of 
continuous monitoring of this program and the fact that it did 
not appear that in all of that monitoring that they became 
aware of many of the egregious practices that you, I and Mr. 
McKeon and almost everybody else think were wrong within the 
program. And I just don't understand why that was the selected 
practice.
    Secretary Spellings. Mr. Chairman, I agree that we have 
work to do on preferred lenders and inducements, and that is 
why today I have taken action to post those rules.
    As you know, much of this has come to our attention through 
the attorney general of New York, and, like you, I have read 
about much of that in the newspaper. Those are things that 
violate various state deceptive trade practices, laws and so 
forth, and I do, I think this speaks to an area where we need 
to strengthen the law and strengthen the ability to have 
oversight.
    As I said before, the threshold is very high for us to 
prove a direct quid quo pro between the inducement, the group 
and the actual loan or increase in lending. But is there more 
to do on inducements? You bet, and that is why I am doing so.
    Chairman Miller. Well, I appreciate that answer, and I 
welcome those changes, and I think they are important, because 
I find that more in keeping with the OIG's recommendation where 
the OIG stated that, ``We are looking for the department to 
take a strong role and provide guidance to the community, not 
wait and see what the community wants them to say about it.'' 
That was in response to the August 1, 2003, guidance.
    And I think the OIG had it right, and I think it has been a 
costly lapse in enforcement by the department to the 
credibility of this program, because I think it is very clear, 
when we held our hearings and when we agreed upon the bill, 
when we talked about the practices, there is an agreement here 
that these are just unacceptable inside of this program.
    And my concern is that it may be a high legal barrier, but 
I suspect we haven't completely lost a sense of shame, and when 
you are dealing with marquis universities and marquis public 
companies, these practices just don't hold up very well in the 
light of day.
    And I think that the Office of the Secretary and the 
department have got to let these people know that these 
practices are unacceptable. We will deal with the legalities 
later, but they have got to be told that this is unacceptable 
to the ethical standards of the department, to the Congress and 
certainly to the people who are borrowing money.
    Secretary Spellings. I will use what moral suasion I have, 
but I also----
    Chairman Miller. It is considerable.
    Secretary Spellings [continuing]. Want to use the 
negotiated rulemaking to do something that we can enforce.
    Chairman Miller. No, I understand that. I understand that, 
and you have been working that process. I am just saying at 
some point you have got to stop the bleeding. And in this case, 
I think there is enough moral suasion in the department to stop 
the bleeding while you go forward with that.
    If I can turn, in my remaining time, to the question of the 
9.5, the so-called Nelnet issue. There you engaged in the 
settlement with Nelnet, which ended up, I believe, if I 
characterize this right, they kept $278 million from past 
practices, and they forego potential revenue on a continuation 
of those practices into the future of $800 million over X 
number of years. Is that a fair statement?
    Secretary Spellings. The potentiality for additional costs 
of the government was nearing $1 billion, yes.
    Chairman Miller. Right. Can you tell us why the settlement 
in that frame?
    Secretary Spellings. Yes, sir, I can. And this is a highly 
complex part of the law, the 9.5 percent special allowance 
payment provision. It has not been tested in a court. There are 
four practices that were brought to bear as part of this. You 
all closed three of those four in HERA and in the Teacher 
Taxpayer Protection Act.
    Chairman Miller. Right.
    Secretary Spellings. For the record, I will say that the 
president was very early in observing this practice in January 
of 2004. In his 2005 budget, he sought to close it and so 
forth. So that chapter is closed.
    With respect to one other practice, the transferring, it 
was not considered to be unlawful to the extent that they were 
first and second generation loans.
    Chairman Miller. Right.
    Secretary Spellings. My inspector general brought to my 
attention that that organization was misusing that particular 
aspect. We, at the Department of Education, had sent, I think, 
an unclear answer and continued to make payments in the year 
between Nelnet's request for an answer and subsequent action. 
And, as such, I believed, and obviously anyone can second guess 
the legal settlement, that we had significant exposure to this 
government and significant liability potential for not only 
this entity but potentially impacting others.
    And so that is why, I think, as a matter of prudence, I 
agreed to end, finally, this practice, settle that lawsuit for 
approximately $278 million, mitigating it against the nearly $1 
billion of additional damage that might have been incurred had 
we lost that lawsuit. I worked with my inspector general to 
provide a methodology that would be sound and that could apply 
about legitimate reimbursements under that, and that is what we 
have done.
    Chairman Miller. Thank you. And I appreciate that action. 
Again, I say this not to hold you responsible, but this is a 
review of the department with respect to enforcement. This 9.5 
problem was outlined in 2001 in a department-wide memo saying 
that, essentially, that these people put together a scheme to 
extend the life and this exorbitant subsidy at a time of record 
low interest rates, costing this huge amount of money. And it 
really isn't until Nelnet comes to light quite later and you 
deal with that.
    But, again, the failure to respond to this, to look at it, 
to engage with it over 4 years until Nelnet, we paid out a lot 
of money in those 9.5s.
    And, apparently, there were others who were doing the same 
kind of things. You have sent them a ``Dear Colleague.'' It 
appears you may have stopped them in their tracks when you said 
they are going to have to prove the trail of their right to the 
9.5 and you are going to ask for an audit of each one of those.
    Again, my concern is that $1 billion is on the table--and 
there is no question I am second guessing your judgment here--
you make a determination there is a very high legal barrier to 
do this and yet the people who are engaged in the same practice 
stop the practice when they get a ``Dear Colleague.''
    And Nelnet, as I said before, if it is such an easy case 
for them, why do they walk away from $1 billion? I mean, if 
they spent $100 million on lawyers, if it was so easy, they 
would be in great shape.
    Secretary Spellings. Well, that is something we will----
    Chairman Miller. It was a scheme.
    Secretary Spellings [continuing]. Obviously we will never 
know the answer to that of----
    Chairman Miller. That is right. That is my concern.
    Secretary Spellings [continuing]. Who would have won a 
lawsuit in this case. I was concerned that having paid, I 
think, four or five quarterly payments to that and many other 
organizations around that, that we had significant legal 
exposure, and all I could do at the time was all I could do, 
which was to end definitively once and for all that practice by 
closing that loophole and applying a methodology broadly across 
the industry.
    Chairman Miller. Well, I think, as we saw with your ``Dear 
Colleague,'' that might have stopped Nelnet in their tracks 
too, and it could have stopped from the department, not 
necessarily when you were there but either while you were there 
or your predecessor and could have stopped this hemorrhaging of 
money that they were not entitled to, that had been brought to 
their attention.
    I have run out of time. I don't think this is the last we 
are going to hear about it. My understanding is that the 
Department of Justice is now looking at that audit and we will 
see where that takes us.
    I recognize Mr. McKeon.
    Mr. McKeon. Thank you, Mr. Chairman.
    Madam Secretary, I know that you have been at the 
department now for a little less than 2 years, but we keep 
talking about before you got there, so I want to go back even a 
little further than before you got there.
    You have been criticized, your administration's been 
criticized for lack of oversight, but there is really no 
context for that allegation. In comparison to the Clinton 
administration, can you tell us how many program reviews and 
audits were handled by the Federal Student Aid Office during 
the Clinton administration and the current one?
    Secretary Spellings. Mr. Chairman--I mean, Congressman, no, 
I do not----
    Mr. McKeon. That is okay. [Laughter.]
    Secretary Spellings. Pardon me, Mr. Chairman.
    Chairman Miller. I call him a Democrat all the time. You 
might as well call him chairman. It will balance out over time.
    Secretary Spellings. Pardon me, Mr. Chairman.
    Well, we have not done any analysis about that, candidly, 
and I----
    Mr. McKeon. Maybe you could do it for the record as a 
follow up.
    Secretary Spellings. I would be glad to, but my 
understanding is that it is somewhat in excess of the kind of 
monitoring, the thousands of monitoring investigations that go 
on as part of FSA enforcement. We will certainly look at that. 
I am about going forward.
    Mr. McKeon. I had a follow-up question on that, and maybe I 
can get that for the record too. Just, kind of, if you could do 
a comparison between the 6 years that President Bush has been 
president----
    Secretary Spellings. I would be delighted to do that.
    Mr. McKeon [continuing]. And the 8 years and even before 
that, if we want to go back 20 years, because some of these 
programs have been around that long.
    You have been criticized for not addressing the issue of 
the 9.5 loans in a timely fashion, an issue that has been 
around for at least 20 years. We know that the Clinton 
administration actually increased the number of loans eligible 
for 9.5 when they published their 1996 ``Dear Colleague'' 
letter. But what I want to know is what the Clinton 
administration did to limit payment on those 9.5 loans.
    Secretary Spellings. I am not aware of any action that they 
took.
    Mr. McKeon. Maybe you could find out, if you could clarify 
that in the record.
    Secretary Spellings. I will.
    Mr. McKeon. Madam Secretary, isn't it true that you 
personally took this issue on and pushed Congress to enact 
legislation to limit 9.5 loans when the general counsel at the 
Department of Education advised you that negotiated rulemaking 
would be required to change policy, and you realized that such 
a progress would take longer than getting Congress to act?
    Secretary Spellings. Well, I think I would say a couple of 
things. First, in January of 2004, actually, February of 2004, 
in the president's 2005 budget, he recommended the closing of 
this loophole. As I have explained, it is a complicated 
provision, that there are actually four aspects of this law. 
And with respect to the one that did not need additional 
statutory action, we did clarify that through a ``Dear 
Colleague'' letter.
    Mr. McKeon. Madam Secretary, you have been criticized for 
not enforcing the inducement prohibition in the Higher 
Education Act. We know that the Clinton administration took an 
action against Sallie Mae, which was decided in Sallie Mae's 
favor by an administrative law judge in 1996.
    For the record, do you know how many other enforcement 
actions were taken by the Clinton administration with respect 
to inducements?
    Secretary Spellings. I do know that the department lost 
that case that you mentioned. With respect to other actions 
that they may have taken, I will tell you that as high as the 
threshold is, that the hurdle is, we have taken action against 
some of these inducement issues, and there are some examples of 
that in my written testimony, with the Dr. Scholl's Podiatric 
College and various other entities where a direct relationship 
was proved. But I will also do analysis of the previous 
administration and ours about enforcement around those matters.
    Mr. McKeon. Madam Secretary, has your administration taken 
any such action against lenders?
    Secretary Spellings. On inducements?
    Mr. McKeon. Yes.
    Secretary Spellings. Well, as I said, the statutory burden 
that I have to prove and that is brought to bear by me is a 
difficult one to prove. However, obviously, all these various 
other things that are going on with attorneys general around 
the country and the like are brought to bear under state laws 
and various other enforcement authorities. So to the extent 
that that might implicate other lenders, I am not aware.
    I do want to say quickly that we have contacted the 
Attorney General's Office in New York and asked him for all the 
information that he has found, and he has made one contact with 
my inspector general's office with respect to personnel 
matters, but I am very anxious to get what information he has 
and, as I said in my opening statement, have sent teams to the 
44 institutions that we have read about in the paper, and I am 
anxious to get what information he might have internally.
    Mr. McKeon. Madam Secretary, last week, the testimony of 
Dallas Martin, president of the National Association of Student 
Financial Aid Administrators, before the Subcommittee on Higher 
Education, Lifelong Learning and Competitiveness, stated that 
the department has never fined an institution of higher 
education for lack of administrative capability and that had 
the department done so schools would not have accepted help 
with staffing in the financial aid office or with call centers 
or brochures.
    Do you think that is true? And in light of his testimony, 
do you plan on fining more schools for lack of administrative 
capability if someone at the U.S. Department of Education 
believes the institution needs more staff in the financial aid 
office?
    Secretary Spellings. Well, I would say a couple of things 
about that. One is, that that is something that we do look at 
as part of the reviews of the programs, and since 2004, we have 
assessed citations or fines at 124 different instances of those 
matters, to the tune of nearly $4.5 million.
    However, having said that, I mean, the staffing of 
universities is not within the purview of the Department of 
Education, and so while it is something we certainly look with 
respect to capacity adequately serving students and eligibility 
for these programs, yes, but in the aggregate of how many 
people does it take at the University of Texas to run a 
program, that is certainly in their jurisdiction.
    Mr. McKeon. Madam Secretary, did you ever imagine you would 
be expected to be the ethics police for our nation's colleges?
    Secretary Spellings. No, Congressman. I didn't imagine it, 
and I don't think I am. I think the academy has a role to play 
here and should. In fact, I have found in some cases the 
silence to be a little deafening, and I think they can do more 
internally through codes of conduct at institutions or state 
legislative policies or higher education governing board 
policies and those sorts of things. But it would be 
imponderable for me to be fully aware of the individual 
situations of staff and financial aid officers and more than 
6,000 different colleges and universities in this country.
    Mr. McKeon. Are you surprised that our colleges have not 
been addressing the ethics issues that have been written about 
in the press?
    Secretary Spellings. Well, I think I am encouraged when I 
see that when it is called to their attention they have gone to 
work. Obviously, it is not in their interest to have a lack of 
credibility and lack of confidence around their good 
reputations. And so I think they have sprung into action in 
those isolated cases.
    I do think they can do more. I think there can be codes of 
conduct put in place and so forth, and I will urge them to do 
so.
    Mr. McKeon. I said in my opening statement that I hope that 
what we could get out of this kind of a hearing is a chance for 
us to work together to get action to stop bad acts that have 
taken place and move forward together. Because, really, all of 
us should be focused on what is best for the young people or 
sometimes not so young people in our nation that are trying to 
get an education to better themselves to achieve the American 
dream. That should be our focus, in my view, not to play gotcha 
with things that have happened in the past, unless we use it as 
a learning thing to move forward.
    I really am concerned that some of the things that have 
been written, some of the things that have been said, even some 
of the things that have happened in hearings here tend to paint 
a bad light on 6,000 schools when it may be just a very small 
number of those that are really doing things they shouldn't be 
doing. The same with the number of lenders. Yes, the ones that 
are out of line, that are doing things that are violating the 
things that the chairman talked about that we all agree on, 
those should be taken care of. And the bill, I think, that we 
passed yesterday in the House moves to help that.
    Yesterday, the New York Times quoted Terry Hartle, a former 
Kennedy staffer and current senior vice president of the 
American Council of Education, as saying many of the problems 
that have come to light had not been considered a problem 
before. Lots of things that were seen as acceptable 3 months 
ago are no longer regarded that way.
    Why do you think that is? Are things really as bad as the 
press would like us to think or is this political theatrics?
    Secretary Spellings. Well, Congressman, I will let others 
be the judge of that, but I do think what is, kind of, a 
teachable moment out of all of this is that we have learned 
there is major room for improvement in all of this, and I do 
think that there has been some service in that.
    I do think, in light of your comment previous to that as 
well as the one you just made is, that it is hard enough to get 
kids qualified and interested and unintimidated enough with 
accessing higher education in the first place. And we need to 
do all we can to provide a lot of confidence and a lot of sense 
of security around that process.
    And we must understand, kind of, the macro level policy 
picture here, which is not just about a special allowance 
payment but how all of this fits together for kids, how easy it 
is, how early it is, how rich the package of benefits are with 
respect to the level of a Pell Grant or whatever, transparency 
about choosing an institution, issues about quality.
    I mean, I think there is a whole lot of grist for the mill 
here, and I think it would be a missed opportunity if we only 
jumped on just one narrow aspect. And I hope we won't, and I 
know we won't, and I really commend you all for the step you 
took yesterday.
    Mr. McKeon. I have one final question, and then I want to 
yield time to Mr. Keller, the ranking member on the 
subcommittee.
    One of the concerns that I have had is that people that are 
giving up their time, they could be working in private 
industry, but they come to work for the government, not so much 
out of how much money they could make or how much power they 
can enjoy but out of a dedication really to serve.
    Madam Secretary, I see from the press that your chief 
operating officer, Terri Shaw, just resigned, although I 
understand from your announcement she told you back in February 
that she intended to resign. Yesterday, The Washington Post 
quoted Michael Dannenberg, a former Kennedy staffer and 
longtime critic of the FFEL Program of saying, ``Her tenure has 
been characterized by lack of oversight and negligent 
administration of the Student Loan Program.''
    And even Senator Obama felt compelled to comment and 
implied that Mrs. Shaw was more interested in helping banks 
than students.
    Would you care to react to that statement?
    Secretary Spellings. I would, and I want to thank Terri 
publicly for her service these last 5 years as the head of this 
performance-based organization, the FSA. She is not a political 
appointee, is not confirmed by the Senate, serves in that 
capacity of one of three performance-based organizations.
    She did come to me earlier this year--her term is expiring 
this summer--and indicated her desire to leave somewhat short 
of that for personal and family reasons.
    She has had a major hand in seeing this organization 
removed from the high risk status that they were under for 
years and years. You all will remember the stolen credit card--
I mean, the stolen computers and the credit cards and on and on 
and on, the 61-inch television purchased, et cetera, as well as 
these five clean audits.
    And I think she has given good service to this government. 
I look forward to finding a strong manager and someone with 
expertise to replace her, and we will work hard to do that 
quickly so we can all get about this business of making sure 
this program is one of great integrity.
    Mr. McKeon. Thank you very much.
    Mr. Chairman, I would like to yield time now to Mr. Keller.
    Mr. Keller. I thank the gentleman from California for 
yielding.
    And I thank you for being here, Madam Secretary.
    I am going to ask you a series of specific questions, but 
to put it in perspective, I think there is some confusion that 
I read about in the news media about the $85 billion student 
lending industry. In reality, about $60 billion of that is the 
Federal Stafford Student Loans, which is roughly 70 percent of 
the $85 billion. And a much smaller percentage are these 
alternative private loans, which are not federal loans 
guaranteed under Title IV of the Higher Education Act.
    The principal and almost exclusive focus of the New York 
Attorney General Cuomo was on these alternative private loans, 
which aren't governed by the Higher Education Act.
    And when he was here, he talked about students being hurt, 
and I asked him specifically, ``Do you have any evidence of any 
student receiving a federal loan under title IV being hurt as a 
result of paying a higher interest rate or higher origination 
fee than the federal law allows,'' and he said, no, he didn't 
have any of that.
    He did say that there were one or two schools that only had 
one FFEL lender and he hoped that they would have more. I think 
we can all agree on that. But even then no evidence anyone was 
hurt.
    So with that as background, let me ask you a few questions. 
As a U.S. secretary of education, do you have jurisdiction to 
conduct oversight and regulation of these alternative private 
loans which aren't federal loans guaranteed under title IV of 
the Higher Education Act?
    Secretary Spellings. No, sir, I don't.
    Mr. Keller. Okay. And you cannot, on your own, even if you 
wanted to, go out today and promulgate a bunch of regulations 
which essentially say that you want to apply the Higher 
Education Act anti-inducement provision to these private 
alternative consumer credit loans because you don't have that 
legal authority. Is that correct?
    Secretary Spellings. That is correct, but I do think it is 
appropriate that as a member of the president's cabinet, and I 
have said today that I intend to work with the chairs of the 
SEC, the FTC, the FDIC, among others, to make sure that we have 
a system of integrity throughout the government.
    Mr. Keller. Right. And, in fact, you know that we passed 
the Sunshine Student Loan Act yesterday by an overwhelming 
margin, which would, for the first time, give you some 
oversight over some of these loans. For example, you would, for 
the first time, be able to issue a fine of $25,000 to colleges 
or non-federal lenders which have violated the provisions of 
that law. Are you familiar with that?
    Secretary Spellings. Yes, sir.
    Mr. Keller. But as of this date, you don't have that 
authority, obviously, because we haven't passed it through the 
Senate, and it hasn't been signed into law by the president, 
correct?
    Secretary Spellings. That is correct.
    Mr. Keller. So with that as background, I was somewhat 
perplexed at the testimony on April 25 from New York Attorney 
General Andrew Cuomo, who said, ``The U.S. Department of 
Education has been asleep at the switch. The entity charged 
with maintaining the integrity of the student loan market 
failed. The failure of the department to pass adequate 
regulations is disappointing and irresponsible.''
    Prior to that testimony by the attorney general from New 
York, Cuomo, on April 25, did he ever call you and say, ``Hey, 
Margaret Spellings, this is your fellow former cabinet member 
here, and I just want you to know that I think you have been 
asleep at the switch as head of the U.S. Department of 
Education''?
    Secretary Spellings. No, sir, he didn't. And as I have 
said, his office had one contact with one individual in my 
inspector general's office around a personnel matter only, 
which is the subject of an inspector general investigation. But 
that is the only contact we have had. We have sent letters, 
made calls and received late last night a letter from his 
deputy.
    Mr. Keller. And prior to that April 25 hearing, Attorney 
General Cuomo never called you to say that you have failed to 
maintain the integrity of the student loan department?
    Secretary Spellings. No, sir, he has not.
    Mr. Keller. Prior to April 25, he never called you and said 
that he is disappointed in you and you have been irresponsible 
as head of the Department of Education?
    Secretary Spellings. No, sir, he has not.
    Mr. Keller. Now, after that appearance, he then went out 
and had a press conference on April 25 and issued a press 
release, which I have here, dated April 25, entitled, ``Cuomo 
Testifies Before House Education Committee on Student Loan 
Industry. Cuomo says Department of Education Asleep at the 
Switch.'' And then he goes through in three separate times here 
says that your department has been asleep at the switch. ``I am 
not quick to criticize, but I believe in this case the 
Department of Education has been asleep at the switch.''
    Since that press conference and this press release on April 
25, has Attorney General Cuomo ever called you to have any 
discussions with you about improvements you can make?
    Secretary Spellings. No, sir, he has not.
    Mr. Keller. Okay. Well, I have had a chance to look at the 
record, as you might imagine here, and I can tell you from 
reviewing it that the U.S. Department of Education under your 
leadership has a far better record of oversight than existing 
during the Clinton administration. And I could give you several 
examples but I am limited on time so I will just give you one 
to start with.
    Ever since you have been in charge of the Department of 
Education, the GAO has removed the Student Financial Aid Office 
from their high risk list for programs which are at risk of 
waste, fraud and abuse. The Department of Education under the 
Clinton administration in 1992 to 2000 was on that list 
consistently.
    And since Attorney General Cuomo was so critical of you as 
a cabinet secretary, I thought, well, let me just take a look 
at his record. And then I saw that he was the secretary of HUD 
from January 1997 to January 2001 and guess what? The GAO put 
his entire department on the high risk list for waste, fraud 
and abuse.
    So I guess the moral of this story is that people who live 
in glass HUD houses probably shouldn't being throwing stones.
    Let me ask you a little bit about the direct lending versus 
FFEL. Would you agree with me that there is room for the 
existence and healthy competition for both of these programs, 
direct lending and FFEL, because they improve together customer 
service and lower costs for students and taxpayers?
    Secretary Spellings. I absolutely would, and I think we 
have a lot of good arguments that would show support for that. 
Lots of consumer choice.
    Mr. Keller. Since I have laid out some of the criticisms, 
let me just ask you, do you feel that you have been guilty of 
lax oversight or you have somehow been asleep at the switch?
    Secretary Spellings. No, sir, I don't. In fact, some have 
said I am the most active secretary of education in these 
higher ed matters that has been seen for a long time.
    Mr. Keller. Okay. I believe Congressman McKeon's time has 
expired but----
    Chairman Miller. The gentleman's time has expired. Mr. 
McKeon's time has expired.
    Mr. Kildee?
    Mr. Kildee. Yes, sir. I yield 30 seconds to Chairman 
Miller.
    Chairman Miller. Well, since the defense of Clinton made me 
do it, I thought we would enter Mr. Clinton's 2001 budget where 
he also asked for the repeal of the 9.5.
    And the question of whether or not the beat goes on, again, 
Cuomo announced that he has entered into a cooperative 
agreement today with CIT and Student Loan Xpress where they 
have agreed to join him in the investigation of those two 
entities on a cooperative basis of Student Loan Xpress and of 
Matteo Fontana, the Department of Education official who 
received stock and other benefits from Student Loan Xpress.
    Mr. Kildee?
    Mr. Kildee. Thank you, Mr. Chairman.
    Madam Secretary, greed is a vice that every human 
institution has to guard against, including the Congress 
itself, obviously. The problem with the student loans and the 
Reading First really are worded in greed. And vigilance is a 
great guardian against greed. We read in scripture, who will 
watch the watchman?
    One would hope that someone decides the inspector general 
would be vigilant. Oversight within a department really has to 
come from the top down. There are only two people involved in 
the day-to-day administration of the Reading First Program, and 
most of the work was contracted out by the department.
    Why did the department fail to provide the appropriate 
resources to this very vital program, which distributes roughly 
$1 billion per year? And what has the department done to ensure 
sufficient resources are now being devoted to Reading First?
    Secretary Spellings. Well, Congressman, I think the Reading 
First Program is one of the hallmark accomplishments of No 
Child Left Behind and it has caused great improvement in 
reading instruction for kids. It is a national program. The 
contracted efforts largely have centered around regional 
technical assistance to make sure that users in states and 
districts have access to guidance and technical assistance as 
they have implemented that program.
    It was certainly something that we did with expertise from 
throughout the country and in the field.
    Mr. Kildee. But I think that within the department there 
was a big change. You had two people really in a day-by-day 
basis watching it. Within the department the vigilance has to 
be there, and when the inspector general uncovers these things 
and the inspector general tells us that matters were such that 
he had referred much of this problem or some of this problem to 
the Justice Department, that is indicative that there could 
have been greater vigilance.
    Secretary Spellings. Well, I certainly agree that there is 
much room for improvement in the oversight of that program. 
That is why I adopted every single aspect of his inspector 
general's report. I have worked hard to put changes in place, 
including making personnel changes, instituting training 
programs for my staff, safeguarding the peer review process, 
reaching out to states and on and on. I do think improvements 
can and should be made. I think it is obviously very 
detrimental to a very effective program when that sort of thing 
is called into question.
    Mr. Kildee. Within your department have you asked yourself, 
who is watching the watchman? There has to be a system. It is 
great to have an inspector general, we have inspector generals 
for our departments, but when it reaches that level and we find 
some problems there, there has been some problems above that, 
what structurally have you done to try to avoid those problems 
in the future?
    Secretary Spellings. Well, I have increased the staff from 
two, that you mentioned, to seven people who work as part of 
the embrace of the inspector general's work. I can tell you at 
the time, this early implementation happened, kind of, in the 
2002-2003 timeframe. Obviously, Secretary Paige was at the 
helm. There was a deputy, there was a person who was in charge 
of elementary and secondary education and then Mr. Doherty, who 
was here before you a few weeks ago, who managed the program.
    Mr. Kildee. Well, I appreciate what you are doing and I 
really--wherever there is money and wherever there are people 
we have to say guard against greed, because greed is the root 
of all these things. And I think that your department, you are 
entrusted with an enormous amount of taxpayer dollars for 
programs that are very, very important. And No Child Left 
Behind Reading First is such an important element.
    Secretary Spellings. Absolutely.
    Mr. Kildee. So I commend you for increasing the number of 
two to seven, but I think you have to help breed an increasing 
culture within the department to watch for these possibilities 
where greed leads to the loss of taxpayer dollars and a 
weakening of the program.
    Secretary Spellings. I certainly intend to do that, and no 
one is hurt more by that lack of confidence than me and my 
department and the senior management of it and then 
specifically, kind of, a lack of confidence and the ability to 
invest in these very effective programs. And I regret that.
    Mr. Kildee. Thank you, Madam Secretary.
    Mr. Keller. I thank the gentleman for yielding.
    I started to ask you, Madam Secretary, if you felt that you 
have done a good job with oversight and I believe you said you 
think you have done a good job with oversight?
    Secretary Spellings. Yes, sir.
    Mr. Keller. Isn't it true that you guys have under your 
leadership already started performing on-site reviews at 44 
different colleges with respect to 26 separate lenders relating 
to the anti-inducement provisions of the Higher Education Act?
    Secretary Spellings. Yes, we have. I mentioned that in my 
opening statement, and I would be anxious to get whatever 
internal information General Cuomo has that might aid our work 
in that regard. But we have sent teams to every single one of 
those institutions, yes.
    Mr. Keller. Well, I hope you now get a call from Attorney 
General Cuomo.
    Secretary Spellings. With your help.
    Mr. Keller. I know the press release that I read was one of 
15 press releases that he has issued only since February 1 on 
the student loan issue, so I know he has got some free time. I 
hope he picks up the phone and calls you.
    Let me then ask you about some of this allegation of being 
too close with some of the FFEL lenders, because some of the 
people who used to work in the lending industry now work at the 
Department of Education, and some people are upset about that, 
which to me is like saying if you used to be a farmer and you 
know what you are talking about, you are not allowed to go to 
work at the Department of Agriculture.
    So with that said, isn't it true that during the Clinton 
administration that you had some senior former student lending 
executives, like Barry Morrow with Sallie Mae and John Reeves 
as president of a large lender called Educaid who went on and 
worked in the Clinton administration student loan department?
    Secretary Spellings. Yes, sir. There obviously have been 
people from various organizations that have served at the 
Department of Education in this administration and the one 
previous.
    Mr. Keller. Okay. And in terms of cracking down, I know you 
had one instance where you put an employee on administrative 
leave when you learned that they had certain stock by a lender, 
and some people might want to inquire, ``Hey, why didn't you 
just fire that person?'' Isn't it true that in reality that 
person actually had acquired that stock well before even 
joining the Department of Education?
    Secretary Spellings. Yes. And, obviously, we count on--I 
mean, the burden is on the individual, as it is on all of us, 
to complete the 278 form to be accurate and honest in the 
reflection of what holdings they have.
    And to the extent that Mr. Fontana did not meet that 
standard, I have asked the inspector general to review that 
case and have in the meantime put him on administrative leave. 
Obviously, we live in a country where you are innocent until 
proven guilty, and I will be glad to report back to this 
committee about what the inspector general finds.
    Mr. Keller. Okay. Thank you.
    Let me walk through some of the provisions of the Sunshine 
Student Loan Act, and the reason I want to is I know your task 
force hasn't reached a final consensus, and so I want to see 
how comfortable you are with what we have agreed to here.
    First, with respect to preferred lenders, under the 
Sunshine Student Loan Act, it says you can still have a 
preferred lender list, but you have to have at least three FFEL 
lenders and you have to explain why they were selected and why 
it benefits the students.
    That is something pretty consistent with your task force 
recommendations. Are you comfortable with that provision?
    Secretary Spellings. Absolutely. In fact, in my statement, 
I said that I am moving forward and will post those in the 
Federal Register very shortly, and they will become effective 
in November.
    Mr. Keller. Great. Also, the Sunshine Student Loan Act 
provides a code of conduct which essentially says there can be 
no conflicts of interests, gifts or revenue sharing between 
lenders and the colleges or their employees. Are you 
comfortable with that language as well?
    Secretary Spellings. Yes, sir.
    Mr. Keller. Okay. Some people, in light of the somewhat 
unrelated scandal up in New York, have said that, well, maybe 
we should just completely abolish the preferred lender list and 
do away with it, and I want to ask you about that.
    I am concerned about that approach, because if you are an 
18-year-old freshman in college, the preferred lender list 
really creates order out of chaos. There are over 1,000 
lenders, and some of these lenders provide very low interest 
rates, low origination fees, are very flexible when you want to 
defer payments and have great customer service. Other lenders 
may have higher rates and fees, bad customer service and could 
be characterized as somewhat fly by night operations.
    So as long as the preferred lender list is done right, I 
think it is a pretty good idea sometimes to have a financial 
aid administrator who has been doing that job for 2 or 3 
decades to be able to give these 18-year-olds some advice on, 
``Here are four or five lenders that we think are pretty 
good.'' Would you agree with that assessment?
    Secretary Spellings. Absolutely agree with you.
    Mr. Keller. Okay.
    I am sorry, my time has expired, Mr. Chairman.
    Chairman Miller. Mr. Andrews?
    Mr. Andrews. Thank you.
    I thank the secretary for her testimony.
    Madam Secretary, you were confirmed in the first quarter of 
2005; is that right?
    Secretary Spellings. That is correct.
    Mr. Andrews. And when you were confirmed, was Ms. Shaw the 
chief operating officer of the student aid operation?
    Secretary Spellings. Yes, she was. She is in a 5-year term, 
which will expire this summer.
    Mr. Andrews. I assume that you met with her when you first 
came aboard and did you ask her were there any outstanding 
audit issues or problems with her area?
    Secretary Spellings. In January of 2005, we had just been 
removed from the high risk list----
    Mr. Andrews. Right.
    Secretary Spellings [continuing]. Which she had worked very 
hard to do, so I was very encouraged by that then recent event. 
But, certainly, I asked her about the work of her operation, as 
you would expect me to as a manager.
    Mr. Andrews. Did she indicate that there were any 
outstanding issues from the inspector general of the 
department?
    Secretary Spellings. I don't remember that we talked 
specifically about individual aspects of particular ongoing 
inspector general reports, but, certainly, those have since 
come to my attention, and I do talk with her about it. Whether 
I did it in January 2005, in the first quarter, I can't recall.
    Mr. Andrews. Okay. On August 1 of 2003, Cathy Lewis, 
assistant inspector general of the department, sent a memo to 
Sally Stroup, called an alert memorandum, and I am going to 
quote from that.
    It talks about a review that had been done and it says, 
``Our review,'' meaning the IG of your department, ``concluded 
that there are bargaining practices between schools and lenders 
for FFEL preferred loan status and private loan volume that 
should be addressed through statutory and regulatory changes or 
further department guidance. Given the current marketing 
practices by schools and lenders, the department should examine 
the roles and responsibilities of schools as well as lenders 
and lender affiliates in the inducement issue.''
    Between your tenure, beginning in the first quarter of 2005 
and January of 2007, did you take any actions at all in 
response to that report from the inspector general?
    Secretary Spellings. Well, yes, Congressman, absolutely. 
And my inspector general at FSA, there are many, many technical 
things, much of which has been worked through to the 
satisfaction of the inspector general, and some of those remain 
open.
    Mr. Andrews. So what did you do prior to January of 2007 
about this report?
    Secretary Spellings. Well, I give to you a lengthy list of 
the various steps that have been taken around particular 
issues. As I have said, some of those have been reached to the 
satisfaction of the inspector general and some of have not, and 
we continue to work on those.
    Mr. Andrews. Well, let me ask you specifically----
    Secretary Spellings. But also may I mention quickly that--
--
    Mr. Andrews. Yes.
    Secretary Spellings [continuing]. The negotiated 
rulemaking, of course, that we initiated last August is an 
important thing to call attention to, and certainly we put 
specific language on the table, in December, for the 
negotiators to consider----
    Mr. Andrews. Did you assign any of the investigators or 
analysts from the department to do the examination the 
inspector general asked you to? Did you send them out to look 
at schools or lenders to see if these inducement payments were 
taking place?
    Secretary Spellings. We have thousands of monitoring visits 
that occur from year to year. Some of them are in the arena of 
inducements. You have heard me get asked about administrative 
capacity and staffing, among other things.
    Mr. Andrews. I understand that, but you have a specific 
recommendation from your inspector general that dates back to 
August 1 of 2003 when you were not there, when you were not 
there, that says that the specific problem of inducements in 
the bargaining practices between schools and lenders should be 
looked at.
    I am asking you to submit to the committee anything that 
you have, any document, any e-mail, any documentary evidence 
which shows what the department did in response to that 
specific report of August 1, 2003. Because I see a flurry of 
activity starting in January 2007 when this becomes a public 
issue. But I am specifically wondering, did you meet with Ms. 
Shaw and talk about this issue prior to January of 2007?
    Secretary Spellings. I spoke with her about many things, 
including inducements, in the entire operation. I will 
certainly provide that analysis to you, but I have three 
examples--April 2004, March of 2006 and April of 2007--about 
three specific issues related to impermissible inducements.
    Mr. Andrews. Okay. So what did you do in April of 2004?
    Secretary Spellings. Marketing practices that U.S. Bank 
National Association violated anti-inducement provisions of the 
HEA. The bank was required to cease those practices, prohibited 
from making payments, required to obtain the pending 
applications from the borrower.
    Mr. Andrews. So it sounds like you did have authority to do 
something about it. How many of those enforcement actions did 
you direct the department to conduct between January of 2005 
and January of 2007?
    Secretary Spellings. I don't have a specific number off the 
top of my head. I will get that for you. As I said, these are 
cases where that very high hurdle, that very strong threshold 
has been cleared.
    Mr. Andrews. I understand. My time has expired.
    I would just, Mr. Chairman, make the comment that perhaps 
Mr. Cuomo came in and filled a vacuum that existed before this 
happened, and I would be curious to see whether the vacuum 
existed or not, and I am sure the secretary will show us.
    Secretary Spellings. Thank you, Congressman.
    Chairman Miller. Mr. Castle?
    Mr. Castle. Thank you, Mr. Chairman.
    Madam Secretary, I have a lot of respect for you and the 
job that you have done, but obviously there are some problems 
here, and one of my concerns is how can we resolve some of 
these issues as far as the future is concerned.
    I am looking at the president's fiscal year 2008 budget 
request, and in it he has some reductions in a variety of 
categories--special allowance lender insurance, exceptional 
performer, lender paid origination fee, collection retention, 
et cetera.
    I assume this was prepared with consultation with your 
department and that you are in favor of all of these changes; 
is that correct?
    Secretary Spellings. Yes, that is right.
    Mr. Castle. Are you also in favor of all of the changes in 
the bipartisan Student Loan Sunshine Act, which was the bill we 
passed yesterday, in case you don't recognize the name?
    Secretary Spellings. I do recognize the name, and I think 
it is a great step in the right direction, Congressman.
    Mr. Castle. Yes. I actually do too, and I congratulate the 
chairman and the ranking member for their good work as far as 
that is concerned.
    I will tell you my problem with all of this: I mean, I 
don't like the lending problems, I don't like the conflicts we 
have heard about----
    Secretary Spellings. Me neither.
    Mr. Castle [continuing]. Either within or without the 
department. All these things concern me a great deal.
    I have been on this committee for a while now, and to me it 
is very confusing to really be able to follow the bouncing ball 
with all these different programs. You indicated, I think, 
there are 20 programs which aid students earlier, and you 
indicated there are layers and layers of inefficiencies. And 
you also said that you are convening chairs to end student 
abuse and I know you have had some things going on with respect 
to that.
    Don't we need a big bang solution here? I mean, do we have 
too much out there in terms of the offerings? I mean, I am just 
really surprised at all the different methods by which a 
private lending institution can make money in this.
    I mean, I think even I could put together a lending 
institution and make money on it with these provisions. Not 
that anybody would be dumb enough to borrow from me, but it 
just seems to me that there are a lot of problems with respect 
to that. There is a lot of conflict with the Direct Lending 
Program versus using the private banks.
    Should we be doing something different to make it simpler? 
I mean, I am all for transparency, I think it is highly 
important, and choice, but is it just such a complicated system 
that we have put together that it just doesn't work well for 
the students and their families?
    Secretary Spellings. I think, absolutely, and I think the 
student is the one that suffers. You have seen my picture over 
here of all the various aspects here, the various grants, the 
various loans, and then on top of whatever state aid there is 
or institutional aid. So it is highly complex and confusing.
    I have fairly recently issued an RFP to take a look at a 
more comprehensive system of streamlining how that might work, 
just as a matter of good policy and sound management, but I do, 
I think it is very, very complex for the borrower and subject 
to abuse, particularly in a time of rapidly increasing costs, 
which is much and much less covered by federal grants.
    Mr. Castle. Well, I would hope in all this, I mean, I hope 
we would really push on simplification, which I hope would 
reduce bureaucracy, inefficiency and then reduce some of the 
costs of all of this, particularly to the consumer, so, 
ultimately, we could have lower interest rates, which are 
guaranteed after all, but lower interest rates being paid by 
these students and by their families.
    But let me change subjects for a moment here. You mentioned 
in your opening that I think in the last 25 years the cost of 
college has gone up 400 percent.
    Secretary Spellings. Four hundred percent.
    Mr. Castle. Which is far above the cost of living. And I 
don't know what that would be on a compounded basis, but it 
would be 14 or 15 percent or something of that nature, which to 
me is astounding. And I have talked about this before, but I 
have never really been satisfied with it. And it just seems to 
me that you have the bully pulpit, we have the bully pulpit, 
the president has a bully pulpit, that this is more than just 
problems in the lending industry.
    And I would hope that as part of this overall problem of 
simplification and trying to deal with the lending practices, 
that we could also try to work on holding down the costs of 
higher education and use these bully pulpits to make sure they 
understand that they have got to keep their cost reductions in 
line, at least with the cost of living, if not less.
    Is anything happening along those lines at this time?
    Secretary Spellings. Yes, and I think, absolutely, use the 
bully pulpit, but I think we ought to do more, and I think a 
big first step, a great first step is more transparency. The 
president asked for $25 million to start doing some pilot 
programs about better data and information systems so that 
parents can be confident when they look at information in the 
IPEDS database about completion rates, about post-graduate 
employment and things like that that might be brought to bear 
for more effective, more prudent consumers.
    In addition to that, we have asked for resources and some 
of this is going on in the field, and I appreciate that 
leadership. As to the value added by the learning experience, 
after a mom or dad spends hundreds of thousands of dollars for 
an education, is their kid coming back home to live with them 
or did they actually know how to think, cipher, write, compute 
and so forth that is going to be necessary for the workforce.
    So I think we have to have a lot more information, and I 
think that will be a good first step in helping get a handle on 
some of these cost issues.
    Mr. Castle. Thank you, Madam Secretary.
    Thank you, Mr. Chairman. I yield back.
    Chairman Miller. Mr. Hinojosa? The gentleman is recognized 
for 5 minutes.
    Mr. Hinojosa. Thank you, Mr. Chairman.
    Madam Secretary, the actions that you have reported taking 
for the Reading First will primarily address the future 
management and the operations of that program. However, the 
current impact of the conflicts of interest and the 
inappropriate involvement in curriculum by the department and 
its contractors has not been addressed.
    What affirmative steps will your department take to inform 
the states that were coerced into using certain products that 
they may have the option of expanding or modifying their 
Reading First Program to incorporate other tools and materials 
that are research-based?
    Secretary Spellings. In the aftermath of the inspector 
general's report, which I told you I embrace completely, at his 
suggestion, and I certainly heeded it, had engaged with each 
and every single state in our country about areas where they 
found problems or recommended improvements, and we have done 
that. And I am pleased to report that the vast majority of 
states and school people are highly supportive of Reading 
First.
    Can we make improvements? Should we make improvements with 
respect to subcontractor relationships, as has been brought to 
bear by the investigation yesterday? Yes, we can and we should.
    But I also want to put in the context that this is a state 
program. We fund states who then, in turn, make decisions as to 
local school districts about curriculum products that are 
purchases by them or by the state. It is usually by the school 
district. And so I am not sure yet, and certainly intend to 
look at very carefully, about particular ethical violations 
that might have occurred in that context. But if it has, I 
certainly intend to take strong action about it.
    Mr. Hinojosa. So will you ask and inquire as to see what 
individuals in different states, such as my state of Texas, did 
things that were unethical and that were not under your 
instructions? And if so, what actions are you going to take to 
penalize them?
    Secretary Spellings. The allegations that have been brought 
to our attention have to do with the potential conflicts of 
those who were offering technical assistance in a regional 
sense, and I intend to investigate those. I do not have 
evidence as of yet that there has been any violation or misdeed 
by any state official with respect to that. In fact, this law 
builds in a lot of authority for states to make curriculum 
decisions and purchase products as they see fit, and they have 
across the gamut of various products and programs.
    Mr. Hinojosa. I want to now go to the student loans. This 
administration focused on culture of accountability for state 
education agencies, school districts and now colleges and 
universities. However, when it came to enforcing and regulating 
against prohibited inducements, your department's preference 
was to have the lending community police itself. Why this 
double standard, and who should be held accountable in the 
administration for failing to curb these abuses?
    Secretary Spellings. Congressman, I would disagree with 
your assessment that we let the lending community police 
itself. We have conducted thousands and thousands of reviews 
and program audits. We have assessed fines. We have sanctioned 
and cited various violations, including the three that I just 
mentioned to Congressman Andrews about inducements.
    Can we do more, should we do more? You bet. I am an 
accountability-oriented person, and that certainly applies to 
the student loan business as well.
    Mr. Hinojosa. Well, on this question, we will just have to 
agree to disagree, because there is too much evidence of 
wrongdoing.
    Now, I will ask you another question on the use of private 
loans. Private student loans have become a larger percentage of 
the new loans over the last few years. Do you believe this is 
and should be a concern, and should they be allowed to flourish 
unregulated in this current environment?
    Secretary Spellings. Well, I do agree that, as I said, in 
this sort of complicated process as the Pell Grant has failed 
to keep up with the very rapidly increasing cost of college, 
there has come to be more reliance on the private loan sector. 
Those loans are not overseen by me and my department but by 
other regulators--the FTC, SEC, Federal Reserve and on and on--
as well as state attorneys general as part of their deceptive 
trade practices or whatever banking laws and consumer loan laws 
might apply in those particular cases.
    Mr. Hinojosa. Your chart indicates that it has about $16 
billion worth of business----
    Secretary Spellings. That is correct.
    Mr. Hinojosa [continuing]. And growing very rapidly. So it 
seems to me that if your department doesn't have authority and 
oversight and our committee doesn't either, then there will be 
another committee, Financial Services, that could certainly 
look into this and take whatever action necessary to regulate 
them.
    Secretary Spellings. I hope they will. As well, I said I 
would convene my colleagues from those various other agencies, 
and you all certainly took some steps yesterday in the passage 
of the law that Congressman Miller authored.
    Mr. Hinojosa. I yield back.
    Secretary Spellings. Mr. Fortuno?
    Mr. Fortuno. Thank you, Chairman Miller.
    And thank you, Madam Secretary, for being here with us 
today. I appreciate, certainly, you taking the time to address 
very important issues as to the laws in Reading First. However, 
as the only congressman from Puerto Rico, I will try to bring 
it closer to home, if I may, certainly as it relates to Reading 
First and related programs in my district, in Puerto Rico.
    I am very concerned with the chronic mismanagement within 
the Puerto Rico Department of Education, and my concern is that 
over 575,000 American citizens who attend the public school 
system in Puerto Rico are being shortchanged while very few in 
San Juan and Washington seem to care about their fate and the 
improper use of taxpayers' money by the Puerto Rico Department 
of Education.
    Time and time again I have raised before this committee and 
your staff clear evidence that the Puerto Rico Department of 
Education is underperforming. I must have a parentheses here. I 
must commend Julia Phillips from your congressional relations 
staff. She has tried really hard, and we will keep trying 
really hard, and that is what I am trying to get to.
    But let me give you some examples. First, there exists 
clear evidence that the Puerto Rico Department of Education is 
not complying with AYP requirements. This past March, your 
department sent two letters to the department down there 
detailing violations of NCLB's AYP requirements and stated they 
will withhold over $800,000 as administrative fees in 
punishment. Clearly, the Puerto Rico Department of Education is 
not meeting NCLB standards in this case. Actually, less than 
half of the public schools there are meeting it.
    Are you aware, Madam Secretary, that--and I would like to 
certainly have some questions to be answered at the end in 
writing, ideally--that of all jurisdictions within our nation, 
Puerto Rico Department of Education sends the most funds back 
to Washington annually? In the past 2 years, the department has 
returned over $35 million in federal funding to the U.S. 
Treasury due to mismanagement.
    Additionally, the department at the state level has 
consistently ignored the needs of our special education 
students. In March 21 of this year, the Education and Labor 
Committee hearing here, I shared letters with Chairman Miller 
and Ranking Member McKeon from Ms. Maria Miranda, who is the 
director of the Technical Assistance Program at the University 
of Puerto Rico, and Mr. Alpidio Rolon, who chairs the Puerto 
Rico chapter of the American Federation of the Blind.
    In his letter, Mr. Rolon wrote, ``The Department of 
Education''--he is talking about the Puerto Rico Department of 
Education--``states that 29 blind students out of 439 received 
brail books during 2006-2007, clearly, failing their 
responsibility to the students with special needs.''
    Puerto Rico is also the only jurisdiction in the nation not 
to participate in the Reading First Program, believe it or not, 
a key NCLB program designed to assist students attending K 
through third grade. Puerto Rico is standing to lose more than 
$207 million in federal funding due to both their refusal to 
comply with federal guidelines and repeated failure to submit 
successful applications.
    And, finally, the recent NAEP scores are dismal. NAEP 
results also show that the majority of students in Puerto Rico 
fall short of demonstrating basic achievement in math, which 
indicates partial mastery of the knowledge and skills needed 
for proficiencies in the subject. Only 9 percent of fourth 
graders and 4 percent of eighth graders reach basic level. Less 
than 1 percent of students reach the proficient or advanced 
levels of achievement. These are among the lowest scores in the 
nation.
    Madam Secretary, I have three questions for your, and I 
would rather, if it is possible, have answers for the committee 
in writing. I know that you are probably not prepared to 
address them all.
    First, in your view, what continues to be the chronic 
problems that plague the department in Puerto Rico and prevent 
them from doing a better job? Specifically, how do you and your 
department plan for better federal oversight of the Puerto Rico 
Department of Education, given what I told you?
    Second, my staff and the Congressional Research Service 
have had continual problems obtaining reliable data on NCLB 
implementation in Puerto Rico. My staff was advised by your 
staff that Puerto Rico only recently agreed they needed to 
update their data collection systems. The question is, what 
progress have they made in that area and what will your 
department do to have them get their act together?
    Thirdly, how is your department helping them increase staff 
retention in the Puerto Rico Department of Education? That is 
another, actually, item that has been brought to our attention, 
and they are having serious problems in retaining staff.
    So, Madam Secretary, I would appreciate it if you could 
send us back those answers.
    Secretary Spellings. I would be glad to do that, 
Congressman.
    And it is a very regrettable and sad situation, especially 
for the kids in Puerto Rico. As you have said, they lack 
capacity in personnel, and they lack capacity in data and 
management. As I know you want me to be a good steward of 
federal tax dollars, they have to right the ship if they are to 
participate in programs like Reading First.
    And I pledge to answer those questions and look forward to 
our work together and your leadership to right the ship there. 
And I appreciate your interest.
    Mr. Fortuno. Thank you, Madam Secretary.
    I yield back. Thank you.
    Chairman Miller. The gentleman's time has expired.
    Mr. Tierney?
    Mr. Tierney. Thank you, Mr. Chairman, Madam Secretary.
    Madam Secretary, I am somewhat concerned about the whole 
Nelnet situation, the special allowances payments on that. I 
just look at the history of the failure of the department to 
send out a clarifying letter over a period of time, though it 
belatedly did, but I also note that on a Friday afternoon is 
when the decision came down. We all know what Friday afternoons 
are in terms of announcing decisions of what we are going to 
do.
    But the department decides to allow the company to keep 
$278 million. It boggles my mind why we don't get the entire 
amount of money back and what the excuse was to allow somebody 
to get away with essentially theft of the situation and not 
take the whole thing back, as your inspector general's report 
clearly indicated should be done.
    Secretary Spellings. Well, Congressman, I don't know that 
you were in the room at the time, but, obviously, as I settled 
this lawsuit, could we have taken a different point of view, 
and you may have, certainly, that is the case.
    But let me tell you the facts as I know them, which is that 
we had continued to pay that organization, as well as others, 
quarterly special allowance payments under the transferring 
provision, a legal authority for first and second generation 
loans. It was discovered by my inspector general that that 
organization had abused provision and was doing something other 
than that. You all have previously----
    Mr. Tierney. But they also discovered that back in 2005 
with respect to another organization, so it is not like this is 
the first eye opening that the department had.
    Secretary Spellings. There are four parts of the special 
allowance payments, and so various ones of those were 
implicated throughout the investigation in New Mexico and 
Nelnet in this case.
    The reason that I settled this lawsuit, to get to your 
fundamental question, is because there was a risk of an 
additional nearly $900 million that this government was at risk 
of losing had we lost the lawsuit. This law has----
    Mr. Tierney. So you totally disagree with your inspector 
general who made a clear indication that they didn't think that 
that risk was there and that you ought to collect the entire 
amount. And that is also not the reason that Ms. Tucker gave on 
her Friday afternoon expose on here when she indicated that she 
thought it was because it would jeopardize the financial status 
of some small nonprofit lenders on the situation, which would 
boggle the mind, I think, if she is arguing that there is some 
shortage of capital out there on the situation.
    Secretary Spellings. Well, obviously, this particular issue 
and case has implications for nonprofit and for-profit 
organizations other than Nelnet.
    Mr. Tierney. I hope you are not arguing seriously that 
there is some shortage of capital out there that means that we 
should tolerate theft in order to resolve this.
    Secretary Spellings. No, clearly not. I made the judgment 
that it was better to end, finally and with certainty, this 
practice, to describe a methodology that the industry could 
apply across the board.
    Mr. Tierney. I hear what you are saying. I mean, I think 
you were extremely belated in doing that, given the history of 
this thing, but tell me what you didn't have confidence in with 
respect to your inspector general's report who had the exact 
opposite conclusion that you reached. You don't have confidence 
in your inspector general?
    Secretary Spellings. No, I have a great deal of confidence 
in my inspector general. I don't agree with him 100 percent of 
the time on every matter.
    Mr. Tierney. Well, I am going to leave it at that, but I am 
entirely uncomfortable with this, for the whole scenario of how 
it occurred, the Friday afternoon release, the large amount of 
money that was given here, the total disagreement with the 
inspector general on this. I think it is very weak, the 
presentation that you make on that, and I think we should all 
be careful.
    Mr. Chairman, I hope that we do some more oversight on that 
issue alone and how many people were allowed to just take the 
money and run as a result of that decision, which I think that 
maybe we could have the inspector general in to find out what 
it is that the secretary and the inspector general don't seem 
to jive on.
    Because you agreed in one instance, and when you took back 
a certain amount of money you found that you were in total 
agreement with his decision. Just going forward you apparently 
had some problems letting them keep the money.
    Mr. Chairman, I yield to you if you have some additional 
questions.
    Chairman Miller. In your request, there is a bipartisan 
request in to further proceed on the Nelnet matter, given the 
range of the money.
    I am just a little concerned here that somehow the problem 
here is Andrew Cuomo, and I just want to state for the record, 
I think but for the attorney general of New York, Andrew Cuomo, 
we wouldn't be here today. We would not have passed the 
Sunshine Act, and the public would not be aware of the outright 
incredible unethical, at a minimum, behavior, I think criminal 
behavior in a number of cases, that not only is he 
investigating but attorney generals all over the country and 
the U.S. attorney are taking a look at where people have bribed 
their way onto campus.
    And to suggest that somehow he only dealt with the private 
loans when in fact he told this committee that they are 
connected, and we know that, well, they are connected when the 
person says, ``We will give you private money if you give us 
more federal access to the program,'' as Sallie Mae did, and 
when you blew the whistle on them, they promised never to do 
that again. Other lenders have been yelling about that practice 
for a long, long time.
    So there was a connection between access to private 
lending, to campus and the federal program, and among the 
larger lenders those programs have in fact been coupled.
    And the suggestion that somehow that the problem is here 
that Andrew Cuomo, who used to be the secretary of HUD, where, 
by the way, he received many, many awards from national 
organizations for innovative leadership of that department, is 
outrageous to suggest that.
    I suspect that the parents who are borrowing this money and 
the students who are borrowing this money are very happy to 
have Mr. Cuomo blow the whistle on this activity. I wish that 
somebody else had done it prior to his doing it, somebody with 
direct oversight of the department, but that didn't happen.
    And since we are in a revisionist history here, let the 
record show that but for the actions of Mr. Kildee and Mr. Van 
Hollen who dogged on the floor the 9.5 problem, there would 
have never been legislation on the 9.5, in spite of the 
recommendation of the Clinton administration, in spite of the 
recommendation of the Bush administration. Because the 9.5 
lenders had it about the way they wanted it in the Congress, 
but, finally Mr. Kildee and Mr. Van Hollen got the amendment 
accepted in HHS and the rest is history as to what took place 
there, finally in 2006, 2 years later, after Kildee and Van 
Hollen had dogged them down.
    So I would just like to straighten that part out of the 
record.
    And Mr. Petri is recognized for 5 minutes.
    Mr. Petri. Thank you very much, Mr. Chairman, and I will be 
submitting additional questions for a response for the record 
by the secretary. Time is limited at this particular occasion.
    Madam Secretary, you kind of inherited a whole series of 
programs and our legal framework, and I know you are doing your 
best within that to operate the department. I would like to 
explore a little bit more with you the subject that has been 
raised by the chairman and several others, and that is the 
Nelnet situation.
    They submitted, as I understand it, some $1,100,000 worth 
of reimbursements under a 9.5 percent arrangement and did 
receive some $278 million that they had and then you entered 
into a settlement with them to basically stabilize the 
situation where it stood, and they agreed to give up their 
additional claims for the remainder of the $1.1 billion and the 
department agreed to not ask for the $278 million back.
    And as the chairman pointed out, if they were confident 
that they could have got their $1.1 billion total, they 
probably wouldn't have agreed to this agreement. So there is 
clearly somewhat of a grey area.
    The inspector general recommended that we attempt, as a 
government, to collect the whole amount back, but there was 
some element of uncertainty here, and you entered into that 
settlement.
    We asked the Congressional Research Service to review the 
whole thing, and they basically seemed to indicate to us in 
their study that your authority is total and complete. It is 
not subject to review by us within the existing law, by the 
Justice Department or anyone else. And that is not your fault, 
that is our fault, really.
    And we have a system with checks and balances. There are a 
number of other outstanding claims, and under the current 
situation, you are going to have to enter into a final 
agreement that presumably could be subject to no challenge. So 
you signed a check, in effect, for $278 million of taxpayers' 
money. You have the authority to enter into similar agreements 
that cannot be reviewed or challenged by anyone under current 
law for I don't know how much.
    Perhaps you could say how many outstanding claims are you 
reviewing and, secondly, whether you think this is really sound 
or whether we ought to review that and figure out if there can 
be some sort of system of checks and balances or where the 
Justice Department or some other people could do an independent 
analysis or review to see if they think the government should 
pursue these claims or they should throw upon you who may not 
even have legal training the authority to enter into contracts 
that are final.
    Secretary Spellings. Well, I certainly can do that. As you 
said, I do have the authority to enter into agreements such as 
this. This is an $85 billion enterprise. Two-hundred-seventy-
eight-million dollars, I guess some might suggest, I certainly 
would, that we may have saved the taxpayers another 800-and-
some-odd-million dollars in payments had we lost the lawsuit.
    But, certainly, we can get you----
    Mr. Petri. On that point, it is my understanding--I could 
stand corrected--that, actually, Nelnet reserved the right to 
reopen the agreement, but the Education Department gave up the 
right to reopen the agreement, and it is final so far as the 
government is concerned.
    Secretary Spellings. And to the extent that you would like 
us to look at various authorities that I have in comparison 
with other departments and agencies, we can certainly do that 
or the GAO can do that.
    But, I guess, one of the things, and I certainly don't mean 
this facetiously is, as a policymaker and administrator, on the 
one hand, I hear you say, take immediate, aggressive action to 
stop X, but don't use your judgment as the primary authority 
over these programs to use it.
    Mr. Petri. Well, ma'am, you didn't have to enter into an 
immediate agreement. You could have just stopped payment and 
let them sue you, and we would have been no worse off. So that 
is not necessarily the case.
    Do you have an idea of the total amount of potential claims 
that are outstanding under this, similar to Nelnet?
    Secretary Spellings. I certainly can get that.
    Mr. Petri. How much more are we talking about?
    Secretary Spellings. Obviously, there are many other 
lenders that would be subject to that. That is why this final 
and certain methodology that the inspector general endorsed was 
so important to bring to bear virtually simultaneously in doing 
that.
    But, absolutely, I can get that information for you.
    Mr. Petri. Thank you.
    Chairman Miller. Mr. Bishop?
    Mr. Bishop of New York. Thank you, Mr. Chairman. Thank you 
for holding this hearing.
    And, Madam Secretary, thank you for coming and giving us so 
much time this morning.
    I certainly share the concerns that my colleagues have 
raised with respect to the level of oversight on the student 
loan issue and on Reading First, but I want to focus in on an 
area that is very troubling to the higher ed community, 
somewhat more obscure, but has to do with a subject that you 
have raised a few times this morning, and that is the 
negotiated rulemaking.
    It is my view, and I think this is shared broadly across 
the higher ed community, that the department is using the 
negotiated rulemaking process to achieve by regulatory means 
that which the department has been unable to achieve by 
legislative means.
    And I think there are three examples of this, what the 
department is attempting to do right now with transfer of 
credit policy, what the department is attempting to do in terms 
of what has been characterized in certain newspapers as a slow 
bleed of the Perkins Loan Program and, lastly, what the 
department seems to be attempting to do to impose what appears 
to be a uniform standard, sort of a national level of 
competence that all college students would be expected to 
adhere to, as administered through the accreditation process.
    And let me just take the transfer of credit. My 
understanding is that the current negotiated rulemaking process 
goes forward under the aegis of allowing regulations to conform 
to the Higher Education Reconciliation Act of 2005. That act 
contains not a single mention of transfer of credit policy. 
Transfer of credit policy is an issue that is under active 
consideration in this Congress. In fact, there was language in 
the Higher Ed Act that passed out of this committee.
    Congressman Souder and I offered a bipartisan amendment to 
strip that language, but now the department is attempting to 
reimpose that language by virtue of this negotiated rulemaking 
process.
    And I would like you to comment on that. Why is this 
something that falls to the authority of the department and 
doesn't remain within the legislative authority of the Congress 
in your view?
    Secretary Spellings. Well, the Congress, obviously, has the 
authority to trump any and everything at the U.S. Department of 
Education or any department at any time. The negotiated 
rulemaking is such and is so lengthy to allow for lots of 
public commentary and so forth. It followed on the heels of a 
year-long commission report that I had initiated and so forth. 
So a lot of public awareness and public debate occurred on 
these various issues.
    These issues are certainly not----
    Mr. Bishop of New York. If I may interrupt, if the 
department is interested in transfer of credit, for example, 
the 1998 Higher Ed Act mandated that the department conduct a 
study of transfer of credit policies and their effect on 
student enrollment. That study has never been conducted.
    Why doesn't the department conduct that study as opposed to 
attempting to circumvent the legislative process and impose 
through regulatory means whatever the department's agenda is?
    Secretary Spellings. Well, we can certainly bring to bear 
information that we have about the implications of transfer of 
credit for students and taxpayers, and we will do that.
    Mr. Bishop of New York. Okay. But will you allow the 
negotiated rulemaking process to go forward or will you allow 
the Congress to work its will? We are going to undertake and 
pass a Higher Ed Act that will address the issue of transfer of 
credit, which is where it rightly belongs, here in the 
Congress.
    Secretary Spellings. I hope you will do that. Nobody would 
be more excited for the Higher Ed Act to be newly reauthorized 
than the secretary of education.
    Mr. Bishop of New York. I think some of us might be 
excited.
    Secretary Spellings. But, obviously, I am going to proceed 
with, as I have told you, particularly in light of these 
various issues related to financial oversight and stewardship, 
a prudent negotiated rulemaking process on these issues. Have 
they concluded yet? Will there be opportunity for public 
comment and so on? Are these issues far from finally resolved? 
Absolutely, they are not, but the process is ongoing.
    Mr. Bishop of New York. Even though the Congress would 
retain the right to impose their legislative will.
    Secretary Spellings. When the Congress imposes their 
legislative will, that will certainly trump any and all efforts 
with respect to a negotiated rulemaking, including the law that 
you passed yesterday.
    Mr. Bishop of New York. And you position, I take it, would 
be the same on the issue of accreditation?
    Secretary Spellings. Yes, sir. As I said, the process is 
ongoing. No final decision has been reached about the issues 
that you are concerned about and raise. But I precipitated the 
public debate around those issues in the absence of a statute 
last August and through the spring of this year. They are not 
complete.
    Mr. Bishop of New York. And that public debate is pursuant 
to the issuance of the report, the so-called Spellings 
commission report?
    Secretary Spellings. The initiation of the rulemaking was, 
in part, out of that, as well as these issues that have been 
raised. I used the negotiated rulemaking process to investigate 
a series of issues.
    Mr. Bishop of New York. I just want to assure you that this 
Congress is going to address in the Higher Ed Act these issues 
from all vantage points that you are attempting to address via 
the regulatory process. We are going to exercise our 
legislative authority to address these issues.
    Thank you very much. I appreciate your time.
    Secretary Spellings. Thank you.
    Chairman Miller. The gentleman's time has expired, and all 
time for this hearing has expired.
    Madam Secretary, thank you very much, one for agreeing to 
appear before the committee today. Thank you for answering the 
questions of the members. Especially thank you for staying an 
additional time due to the interruption we had with the votes.
    I thank you for all of your responses. I think you can see 
the level of concern by the committee. You share that concern. 
You made that clear today.
    I want to, again, make it clear that this is a hearing on 
oversight of this department, which you happen to head at this 
time, but, as you heard, many of the concerns here predated 
you, and these problems started to grow in intensity and in 
concern and in different levels of activity by people who 
should be working to serve the students and families of the 
Student Loan Program or the districts under Reading First. They 
have got crossways in this system.
    There are other ongoing investigations of some of these 
personalities and some of the audits done. We will continue 
that effort, and we look forward to your cooperation.
    This is about this committee moving forward. We wanted to 
demonstrated that with the passage of the bipartisan bill and 
inclusion of suggestions that Mr. Keller made and Mr. McKeon 
had made and others, because we think that there is just very 
little distinction on our commitment to the integrity of the 
Student Loan Program.
    Mr. McKeon apologized for leaving. He had a leadership 
meeting where I think there were some votes to be taken within 
the leadership and he had to leave early, but he left it in the 
very capable hands of Mr. Keller.
    And thank you very much for your time and your 
consideration. I know there were some questions that people 
wanted to get for the record, and we will transmit those to 
you, and we look forward to the answers.
    Secretary Spellings. Thank you, Mr. Chairman. I appreciate 
it.
    Chairman Miller. Thank you.
    [Additional submissions for the record by Mr. Miller 
follow:]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                           [VIA FACSIMILE],
                                                      May 16, 2007.
Hon. Margaret Spellings, Secretary of Education,
U.S. Department of Education, Washington, DC.
    Dear Secretary Spellings: Thank you again for testifying at the May 
10, 2007 hearing, ``Accountability for the Department of Education's 
Oversight of Student Loans and the Reading First Program.'' As 
discussed during the hearing, the Committee would appreciate your 
assistance in providing written responses to the enclosed questions to 
ensure that the Committee's hearing record is complete. We would 
appreciate your responses in Word format, no later than May 24, 2007. 
If you have any questions, please do not hesitate to contact Michael 
Zola, Chief Investigative Counsel for the Committee at (202) 226-9403.
            Sincerely,
                                             George Miller,
                                                          Chairman.

    Representative Jason Altmire (D-PA) has asked that you respond to 
the following questions:

    1. The former Reading First Director, Chris Doherty, was referred 
to the Justice Department because he had a conflict of interest coming 
into the Department of Education that he did not properly disclose. Mr. 
Doherty's wife works for an organization with ties to a specific 
reading methodology and with ties to reading products. Can you please 
explain why the Department failed to properly address this conflict?
    2. When was the first time you learned that Mr. Doherty's wife 
worked for an organization with ties to reading products? What did you 
do about it?
    3. What steps will the Department take going forward to proactively 
identify and address conflicts of interest among its own employees?
    4. What was your role in the implementation of Reading First while 
you served in the White House?
    5. Did you play any role in selecting program officials, 
contractors, sub-contractors, or consultants?
    6. Did you ever have discussions with Beth Ann Bryan, Douglas 
Carnine, or Reid Lyon about Reading First prior to joining the 
Department? What specifically did those conversations entail?

    Representative Robert Scott (D-VA) has asked that you respond to 
the following questions:

    1. Are you aware that Kentucky made changes to its Reading First 
grant application to eliminate certain reading programs before 
receiving their federal grant? Have you submitted inquiries to states 
to determine which, if any, additional states changed their Reading 
First grant application to eliminate certain reading programs before 
receiving their grant? Assuming that such changes were made, what 
remedies will be available for organizations that were eliminated in 
grant applications?
    2. What campaign contributions were made by Nelnet in the two years 
prior to the company's settlement with the Department?

    Representative Donald Payne (D-NJ) has asked that you respond to 
the following questions:

    1. The purpose of the National Student Loan Data is to serve as a 
central repository on student loans for lenders, guarantors, schools, 
borrowers, and the Department to update and obtain information needed 
administering the student loan programs. This is not the case of 
someone hacking into a government database; the Department must approve 
all users and monitors their use. How do you justify the fact that for 
the nearly a month, the vast majority of users who have done nothing, 
have not been able to use the system to administer the loan programs?
    2. Last year, there was a significant backlog in Consolidation loan 
processing because of unexpected guidance that the Department issued in 
April, which Congress later overturned by repealing the ``single holder 
rule.'' Your decision to lock lenders out of the NSLDS seems to be 
creating another backlog this year. What are you going to do to restore 
access to the system now and avoid causing another situation which 
results in borrowers waiting months to be able to lower their monthly 
payments using Consolidation loans?
    3. The Department notes that it has begun to restore access to the 
system. How many lenders have been allowed to regain access to the 
system? Why hasn't the Department provided lenders with information and 
a timeline for restoring access?
    4. Before you made your decision on April 17th to lock lenders out 
of the system, didn't the system already record each access of every 
borrower's record, noting the time and user who accessed a borrower's 
record? Why wasn't this enough information for the Department to be 
able to investigate whether users were not properly accessing records? 
What has the shut down accomplished that couldn't have been done while 
still maintaining access to users in compliance?
    5. Were any security breaches by unauthorized users identified by 
the Inspector General before you made your decision on April 17th?
    6. Have there ever been any instances of identity theft 
attributable to a user accessing NSLDS?
    7. With regard to the charge that lenders were using the system for 
marketing, are lenders able to obtain a borrower's address from the 
system? Phone number? E-mail? How can the system be used for marketing, 
if it contains no contact information on borrowers?
    8. Can you confirm that lenders able to obtain from NSLDS lists of 
borrowers at a given institution who have outstanding student loans?
    9. Can a user access a borrower's record in NSLDS without already 
knowing the borrower's social security number?
    10. Were you aware that your decision would result in certain 
lenders not being able to verify borrowers' eligibility for 
consolidation loans or would significantly disrupt the loan 
consolidation process?
    11. What specific threat did you believe you were addressing when 
you made the decision on April 17th?
    12. Are you aware that the shut down of the system benefits large 
lenders who already hold a borrower's loans such as Sallie Mae, Nelnet, 
and the Department's Direct Loan program, since they do not need to 
access NSLDS in order make Consolidation loans to their borrowers? Why 
would you take an action that would limit a borrower's choice of 
lender, when clearly it is the intent of this body to offer borrowers 
the broadest degree of choices?

    Representative Howard ``Buck'' McKeon (R-CA) has asked that you 
respond to the following questions:
Student Loans
    1. Chairman Miller has recently sent some marketing documents to 
the Federal Trade Commission in order to determine if such documents 
are deceptive marketing material. I have seen some of those materials 
and they look fairly deceptive to me. Has the Department sent such 
marketing documents to the FTC in the past and what was the response?
    2. Madam Secretary, you have been criticized for not enforcing the 
inducement prohibition in the Higher Education Act. We know that the 
Clinton Administration took an action against Sallie Mae which was 
decided in Sallie Mae's favor by an administrative law judge in 1996. 
For the record, do you know how many other enforcement actions were 
taken by the Clinton Administration with respect to inducements?
    3. Madam Secretary, has your administration taken any such actions 
against lenders or other parties?
    4. One of the things Chairman Miller has asked you to implement is 
``emergency regulations'' to put an end to some of the practices that 
have been in the media lately. To your knowledge, has the Department 
ever enacted ``emergency regulations?'' Does the Department even have 
the legal authority to enact ``emergency regulations'' for an activity 
like this?
    5. There seems to be a lot of confusion about what is a prohibited 
inducement even though the law is clear about not paying a school for 
loan applicants. The Department issued guidance explaining the law when 
it was first enacted and it has not significantly changed since its 
enactment more than 15 years ago. Do we have a problem with the law or 
is this really more of an ethics issue for colleges?
    6. The bill we passed yesterday addresses the ethics issue but it 
did nothing to address the statutory provision on inducements so if 
this is a problem with the law, what should Congress do to solve the 
problem?
    7. While the press has been pointing to a report by the Office of 
the Inspector General that alleges that the close relationship the 
Office of Federal Student Aid has with lenders and guaranty agencies 
has impeded FSA's ability to do proper compliance and oversight of 
these entities, that is not what I have seen or heard from companies in 
my state. What are your thoughts on this?
Reading First
    8. From the various reports that have been released, including the 
report issued by Senator Kennedy yesterday, it is clear that mistakes 
were made in the implementation of the program related to conflicts of 
interest, mismanagement, and curriculum control. In your testimony, you 
outline many of the things that the Department has done or is doing to 
respond to these various reports. As you know, last month I introduced 
H.R. 1939, the Reading First Improvement Act, to address many of those 
findings related to conflicts of interest, mismanagement, and 
curriculum control. Many of the provisions in this bill codify steps 
you are already taking. Do you believe H.R. 1939 reflects the approach 
that Congress should take to provide the Department more clarity in 
terms of how the Department should implement this unique program? How 
can Congress partner with you to strengthen this program going forward?
    9. Madam Secretary, it is clear from the Inspector General's 
reports that some states felt pressured at different points during the 
implementation of the program and that the application process was not 
perfectly transparent, and I hope that we can fix those problems going 
forward. Yet, I also received a letter following our first Reading 
First hearing from a state Reading First director speaking very highly 
of the program and Chris Doherty in particular. This state director was 
not only thrilled with the program's outcomes, he felt that those 
outcomes were directly attributable to the hard work of Chris and 
others at the Department. You have stated that the department has 
reached out to states to solicit their feedback on the program. How 
would you characterize state feelings about Reading First?

    Representative Joe Wilson (R-SC) has asked that you respond to the 
following questions:

    1. Given the consequences to borrowers of continuing to limit 
access to NSLDS during a time when many borrowers would like to 
consolidate their loans, how will the Department communicate with 
borrowers and industry going forward when issues such as this arise?
    2. I understand that limited notice was provided to users of NSLDS 
of the restrictions imposed a few weeks ago. What was the process 
undertaken by the Department in determining the amount of notice given 
to NSLDS users prior to imposing a restriction on the system's access?
    3. I understand that the restrictions on the system are beginning 
to be lifted for guaranty agencies. How long do you expect that the 
restrictions will continue to be in place for other users of the 
system?
    4. Madam Secretary, in conducting investigations into the 
relationships between institutions and lenders, the New York Attorney 
General submitted notices to many institutions, including an 
institution in my home state--Clemson University. It is my 
understanding that Clemson received funds that it puts towards need-
based grant aid to students through an arrangement it has with a 
private loan lender. The South Carolina Attorney General Henry McMaster 
reviewed the agreement, at the urging of Attorney General Andrew Cuomo, 
and found nothing wrong with the agreement. Since this is a private 
loan arrangement, do you have any authority over these arrangements and 
is it an illegal inducement under the HEA?
    5. Do you have suggestions for how the federal government should 
respond to issues when attorneys general in 2 different states disagree 
about what constitutes inappropriate behavior?

    Representative Thomas Petri (R-WI) has asked that you respond to 
the following questions:
I. Department Loan Program Mismanagement
    1. Given the prevalence of unethical relationships between lenders 
and financial aid offices, would you agree that the Department has 
failed to provide sufficient leadership to prevent and identify these 
practices?
    2. Can you explain the Department's failure to implement gift and 
ethics regulations, as it was advised to do in 2001 and again in 2004 
after the Financial Aid Administrators Assn' failed to adopt industry 
standards?
    3. It's become increasingly clear that various Department officials 
failed to act to prevent subsidy abuse and unethical lender practices 
over the last decade. Would you agree that these officials should be 
held to account for their mismanagement?
II. Nelnet $278 Million Settlement
    You recently forgave $278 million to student lender Nelnet, which 
manipulated subsidies to bill taxpayers at the 9.5% rate. I received 
your response within an hour prior to this hearing:
    1. How do you justify your decision, given Nelnet's brazen abuse 
and manipulation of taxpayer funds, not to try to fully collect these 
payments?
    2. Can you please provide all other lenders, subsidy figures, and 
loan volume in question with regards to 9.5%?
    3. You indicated that you would conduct audits of all other 
potential 9.5% abusers before offering any further forgiveness.
    a. Have any additional settlements been reached and;
    b. Do you still intend to offer forgiveness on a case-by-case basis 
in accordance to the audit results?
    4. According to some legal analysts, neither individual taxpayers 
nor the Department of Justice has the legal authority to challenge your 
settlement, only the lender.
    5. Would you agree that Congress should include an oversight 
mechanism in HEA for future settlements, given the large sums of 
taxpayer funds at stake?
III. On the Guaranteed Loan Program
    The Bush Administration's Office of Management and Budget and 
Treasury Department, along with the Congressional Budget Office, 
Government Accountability Office, and private economists have all 
agreed that the guaranteed loan program is significantly more expensive 
than the Direct Loan alternative--costing taxpayers an estimated $3--5 
billion annually in excess subsidies.
    1. Would you agree that these wasteful subsidies in the guaranteed 
program are a product of a structurally-broken system?
    2. Would you agree that a market-based loan guarantee auction would 
reduce wasteful spending by requiring lenders competitively bid for 
taxpayer subsidies?
    3. Why did it take the Administration six years to publicly 
recognize on the excess subsidies in the guaranteed loan program given 
the strong supporting evidence?
    4. Can you please provide a complete list of FFELP lenders and 
federal subsidy payments for the most recent year that data is 
available?
IV. Misc. Direct Loan Question
    The Higher Education Act (Section 455) mandates that the Direct 
Loan program provide ``the same terms, conditions, and benefits'' as 
the FFEL program.
    The only lender to provide federal loan borrowers lower interest 
rates in recent years has been MyRichUncle which has offered 5.8% 
rates. Reducing Direct Loan interest rates to 5.8% as MyRichUncle has 
would save the typical student borrower $1,000 in student loan 
payments.
    In 1999, Secretary Riley enforced this provision and lowered Direct 
Loan program fees to match the lower origination fees that guaranteed 
lenders were offering.
    1. Why hasn't the Bush Administration lowered interest rates for 
Direct Loans to match the lower interest rates being offered by 
guaranteed lenders like MyRichUncle?

    Representative Mark Souder (R-IN) has asked that you respond to the 
following questions:

    1. Madam Secretary, can you tell us what statutory authority exists 
in the Higher Education Act that allows schools in the Direct Loan 
program to force students and parents to borrow from the government, 
thereby restricting their free choice in selecting a student loan 
lender?
    2. Considering much of the current discussion began as a result of 
lenders complaining that schools were restricting the choices of 
students and parents, how do you justify allowing the Direct Loan 
program to eliminate all choices and forcing students to borrow from 
one lender?
    3. There has been a proposal in Congress that would bribe schools 
to join the Direct Loan program with the lure of potential grant funds. 
What is your opinion of that proposal? Could the Department of 
Education handle a substantial increase in Direct Loan volume? Do you 
support bribing schools in this fashion or would you prefer that a 
robust level of competition continues to exist between the two loan 
programs?
    4. Included in H.R. 890, The Student Loan Sunshine Act, was a 
provision that required institutions with preferred lender lists to 
disclose to both you and the public why the lenders were placed on the 
list. The Democrats opposed including a provision that was in H.R. 
1994, The Financial Aid Accountability & Transparency Act, which 
required Direct Loan schools to disclose why they selected the 
Department as their lender. It seems to me that if one argues that 
students need to know why a school selected 3 to 4 lenders in the FFEL 
program, then it is even more important that students be given that 
same information when their school only selects ONE lender for them 
just like a school does in the DL program. What do you think about 
that?
                                 ______
                                 

   Responses to May 16, 2007 Written Questions for the Committee on 
                          Education and Labor

    Rep. Jason Altmire (D-PA):

    1. The former Reading First Director, Chris Doherty, was referred 
to the Justice Department because he had a conflict of interest coming 
into the Department of Education that he did not properly disclose. Mr. 
Doherty's wife works for an organization with ties to a specific 
reading methodology and with ties to reading products. Can you please 
explain why the Department failed to properly address this conflict?
    I have reviewed the matter and determined that the Department 
reviewers acted in a reasonable way in addressing this matter. However, 
because this matter has been referred to the U.S. Attorney's Office as 
a possible criminal matter, it would be inappropriate to discuss the 
specifics of the Department's actions until that review has been 
completed.
    2. When was the first time you learned that Mr. Doherty's wife 
worked for an organization with ties to reading products? What did you 
do about it?
    See the answer to Question 1 above.
    3. What steps will the Department take going forward to proactively 
identify and address conflicts of interest among its own employees?
    The Department runs an ethics program in accordance with 
regulations and guidance issued by OGE, an independent Executive branch 
agency charged with establishing government-wide ethics policy. The 
Department has received periodic program reviews by the OGE. Most 
recently, the Department's ethics program was recognized for excellence 
in training when it received the OGE 2007 Ethics Training Award. In 
2004, OGE reported, ``ED's ethics program is essentially sound and 
appears to be appropriately tailored to the needs of agency employees'' 
and that the ethics training requirements are ``not only being met, but 
also exceeded in many ways.'' In the report of its 1997 review, OGE 
stated that, ``Education's ethics program is sound and well managed. We 
are impressed with the commitment shown by [the staff] to providing 
high quality services to employees and with the measures taken to 
prevent actual or the appearance of conflicts of interest on the part 
of Education employees.'' In OGE's report of its 1993 review, it noted, 
``In many respects [the ED ethics program] is one that could serve as a 
model for other executive branch agencies.''
    Moving forward, the Department will continue to vigorously review 
and evaluate financial disclosure reports filed by Department 
employees. In order to enhance our current program, the Department has 
instituted a two-attorney review of each public financial disclosure 
report. Additionally, I have asked the head of the Department's ethics 
office to identify best practices in the government ethics programs and 
to prepare a report with recommendations on ways to further enhance the 
Department's ethics program. Finally, both the Department's OIG and OGE 
have recently initiated reviews of the Department's ethics program. We 
are cooperating with both of these reviews and believe the results will 
further inform our efforts to enhance the ethics program at the 
Department.
    4. What was your role in the implementation of Reading First while 
you served in the White House?
    My duties at the Domestic Policy Council (DPC) included budget and 
policy issues for well over 500 federal grant and loan programs across 
eight Cabinet and other major agencies. While at DPC, I had 
responsibilities with regard to the development and implementation of 
many government initiatives, including those involving Global Aids, 
Immigration, Postal Reform, Food Safety, Pandemic Flu, and the overall 
implementation of the No Child Left Behind Act, which includes Reading 
First.
    5. Did you play any role in selecting program officials, 
contractors, sub-contractors, or consultants?
    The Department's officials had delegated authority from the 
Secretary of Education to select program officials, contractors, 
subcontractors, and consultants.
    6. Did you ever have discussions with Beth Ann Bryan, Douglas 
Carnine, or Reid Lyon about Reading First prior to joining the 
Department? What specifically did those conversations entail?
    In my role at DPC, I generally discussed matters about the 
Department with Reid Lyons and Beth Ann Bryan, but it would be 
inappropriate for me to discuss the details of these discussions as a 
former senior adviser to the President of the United States.

    Rep. Bobby Scott (D-VA):

    1. Are you aware that Kentucky made changes to its Reading First 
grant application to eliminate certain reading programs before 
receiving their federal grant? Have you submitted inquiries to states 
to determine which, if any, additional states changed their Reading 
First grant application to eliminate certain reading programs before 
receiving their grant? Assuming that such changes were made, what 
remedies will be available for organizations that were eliminated in 
grant applications?
    Although I am not aware of the specifics of every State's Reading 
First application, I am aware of the testimony of that was provided by 
Star Jones, the Associate Commissioner for the Office of Teaching and 
Learning at the Kentucky Department of Education, at your Committee's 
April 20th hearing on the implementation of the Reading First program.
    In an effort to address any concerns about the Reading First 
program, on September 29, 2006, then-Assistant Secretary for Elementary 
and Secondary Education Henry Johnson, sent a letter to State Reading 
First Directors notifying them of the report from the Department's 
Office of the Inspector General entitled The Reading First Program's 
Grant Application Process. In the letter, Dr. Johnson asked each State 
to notify the Department of any concerns it may have with the process 
used to review State Reading First applications. He also requested that 
they notify us if they did not have any complaints.
    The Department received responses from 25 States. Of the 25 States 
that responded, 16 (Alabama, Alaska, Arizona, Arkansas, Colorado, 
Hawaii, Kansas, Maryland, Mississippi, Missouri, Rhode Island, South 
Dakota, Tennessee, Utah, Washington, and the Virgin Islands) expressed 
no concerns with the review process, and a number had positive comments 
about the program or review process. For example, Kansas indicated that 
it was approved without identifying a core reading program and likely 
had the most flexible Reading First plan. Kansas also indicated that it 
had no problems during the review process that were not resolved, and 
that they appreciated the help that they received from the Department. 
Seven States (Maine, Massachusetts, Montana, New Hampshire, New Jersey, 
North Dakota, and Wisconsin) expressed concerns with the review 
process. For example, New Hampshire expressed concerns with the 
efficiency of the review process. The State noted that the Department 
did not provide it with comments from the peer-review panel in a timely 
manner, and that the length of the review process put stress on the 
system at the state and local level. Two States, Oregon and 
Pennsylvania, responded to the letter but did not express an opinion on 
the quality of the review process.
    Program staff contacted each State that did not reply to the 
request to provide comments on the review process. In conversations 
between Department and State program staff, seven States (California, 
Delaware, Iowa, South Carolina, Texas, Vermont, and American Samoa) 
indicated that they had no concerns with the review process and did not 
plan to submit a response. Kentucky indicated that the State had 
concerns with the process but did not submit a response because it had 
previously communicated its concerns to the Department. The remaining 
States did not respond to Department staff or indicated that they had 
no comments on the review process.
    Any State that believes that it was pressured to remove a specific 
reading program from its Reading First application may submit an 
amendment to its application. The State would have to demonstrate that 
the program proposed for inclusion meets the criteria described in its 
Reading First plan for identifying programs based on scientifically 
based reading research. Since the OIG issued its inspection report, 
staff have held meetings of all the Reading First State directors and 
the States were told about the process for submitting amendments to 
their approved State plans.
    2. What campaign contributions were made by Nelnet in the two years 
prior to the company's settlement with the Department?
    The Department does not have this information.

    Rep. Donald Payne (D-NJ):

    1. The purpose of the National Student Loan Data is to serve as a 
central repository on student loans for lenders, guarantors, schools, 
borrowers, and the Department to update and obtain information needed 
[in] administering the student loan programs. How do you justify the 
fact that for nearly a month, the vast majority of users who have done 
nothing, have not been able to use the system to administer the loan 
programs?
    Access for Guaranty Agencies, Lenders, and Lender Servicers was 
temporarily suspended on April 18, 2007. Access for borrowers, 
students, and institutions of higher education was not affected and 
these entities represent the majority of NSLDS users. While Guaranty 
Agencies, Lenders, and Lender Servicers were affected by the temporary 
suspension, we are working diligently to restore their access. We 
reinstated NSLDS access for 32 out of 35 Guaranty Agencies (91%) of 
Guaranty Agencies. We anticipate restoring access to the remainder of 
the Guaranty Agencies in the near future. We requested additional 
certifications from lenders and lender servicers and access to these 
entities will be provided when the requested information is received. 
To date, we have reinstated access for approximately 11% of the lenders 
who had accessed the system within the past year and approximately 24% 
of the lender servicers who had accessed the system within the past 
year. We are still developing a process to reinstate access for those 
entities that participate in the program as Eligible Lender Trustees.
    That said, we understand that this temporary suspension has delayed 
some functions by the affected organizations. However, ensuring 
appropriate access to NSLDS to protect the confidentiality of our 
borrowers' financial information is our highest priority.
    2. Last year, there was a significant backlog in Consolidation loan 
processing because of unexpected guidance that the Department issued in 
April, which Congress later overturned by repealing the ``single holder 
rule.'' Your decision to lock lenders out of the NSLDS seems to be 
creating another backlog this year. What are you going to do to restore 
access to the system now and avoid causing another situation which 
results in borrowers waiting months to be able to lower their monthly 
payments using Consolidation loans?
    Borrowers can log onto the NSLDS Borrower website to obtain the 
data needed to complete the consolidation loan application. Lenders can 
continue to process the application without accessing NSLDS.
    Additionally, because of the new fixed student loan rates and the 
increased consolidation volume in previous years, we anticipate a lower 
volume of consolidation requests this year.
    3. The Department notes that it has begun to restore access to the 
system. How many lenders have been allowed to regain access to the 
system? Why hasn't the Department provided lenders with information and 
a timeline for restoring access?
    Appropriate instructions for Guaranty Agencies and Lenders, 
including Lender Servicers, were sent on May 2, 2007 and May 15, 2007, 
respectively, to the Chief Operating Officer of each organization via 
e-mail. As the entity responds and the data is reviewed, access is 
being restored.
    4. Before you made your decision on April 17th to lock lenders out 
of the system, didn't the system already record access of every 
borrower's record, noting the time and user who accessed a borrower's 
record? Why wasn't this enough information for the Department to be 
able to investigate whether users were not properly accessing records? 
What has the shut down accomplished that couldn't have been done while 
still maintaining access to users in compliance?
    We continuously monitor access to NSLDS to prevent unauthorized 
use. As a result of this monitoring, we issued a Dear Colleague Letter 
(DCL) in April 2005 reiterating NSLDS usage requirements. Following the 
release of the DCL, we observed a significant increase in usage by 
lenders, loan holders, servicers, and guaranty agencies. This was a 
matter of concern to us and we began considering potential courses of 
action. After consideration of alternatives, the Department temporarily 
suspended access to NSLDS by lenders, lender servicers, and guaranty 
agencies. Please note there is no indication of any unauthorized access 
to NSLDS.
    5. Were any security breaches by unauthorized users identified by 
the Inspector General before you made your decision on April 17th?
    No. We are not aware of any NSLDS security breaches by unauthorized 
users identified by the Inspector General.
    6. Have there ever been any instances of identity theft 
attributable to a user accessing NSLDS?
    No. We are not aware of any instances of identity theft 
attributable to a user accessing NSLDS.
    7. With regard to the charge that lenders were using the system for 
marketing, are lenders able to obtain a borrower's address from the 
system? Phone number? E-mail? How can the system be used for marketing, 
if it contains no contact information on borrowers?
    NSLDS does not provide access to email addresses, phone numbers or 
addresses of borrowers, nor does it authorize the analysis or database 
searches of multiple borrower records. However, lenders that 
participate in the FFEL Program often purchase data from credit bureaus 
and other sources for the specific purpose of making an offer of credit 
to an individual, in this case a FFELP consolidation loan. Within this 
solicitation is a request for permission to access NSLDS to obtain 
information on the borrower's loans.
    8. Can you confirm that lenders [are] able to obtain from NSLDS 
lists of borrowers at a given institution who have outstanding student 
loans?
    Authorized NSLDS users cannot obtain lists of borrowers at a given 
institution who have outstanding student loans. NSLDS only allows a 
user to look up a single borrower at a time and only if the user has a 
relationship with the borrower or, until recently, had specific 
permission from the borrower to do so. The use of automated tools is 
prohibited. Federal Student Aid deploys a variety of tools and 
monitoring techniques to alert us to the possibility that automated 
tools are being used and automatically suspend the access for the user 
ID.
    9. Can a user access a borrower's records in NSLDS without knowing 
the borrower's social security number?
    No. Prior to April 30th, in order to access a borrower's records in 
NSLDS, the user had to, at a minimum, enter the borrower's social 
security number to access the records. Beginning on April 30th, the 
social security number, date of birth, and borrower's first name are 
required to access a borrower's records.
    10. Were you aware your decision would result in lenders not being 
able to verify borrower's eligibility for consolidation loans or would 
significantly disrupt the loan consolidation process?
    Lenders can continue to process consolidation loan applications 
without accessing NSLDS. Borrowers can log onto the NSLDS Borrower 
website to obtain the data needed to complete the consolidation loan 
application.
    That said, we understand that this temporary suspension has delayed 
some functions by the affected organizations. However, ensuring 
appropriate access to NSLDS to protect the confidentiality of our 
borrowers' financial information is our highest priority.
    11. What specific threat did you believe you were addressing when 
you made the decision on April 17th?
    We continuously monitor access to NSLDS to prevent unauthorized 
use. As a result of this monitoring, we issued a Dear Colleague Letter 
(DCL) in April 2007 reiterating NSLDS usage requirements. Following the 
release of the DCL, we observed a significant increase in usage by 
lenders, loan holders, servicers, and guaranty agencies. This was a 
matter of concern to us and we began considering potential courses of 
action. After consideration of alternatives, the Department temporarily 
suspended access to NSLDS by lenders, lender servicers, and guaranty 
agencies. Please note there is no indication of any unauthorized access 
to NSLDS.
    12. Are you aware that the shut down of the system benefits large 
lenders who already hold a borrower's loans such as Sallie Mae, Nelnet, 
and the Department's Direct Loan program, since they do need to access 
NSLDS in order to make Consolidation loans to their borrowers? Why 
would you take an action that would limit a borrower's choice of 
lender, when clearly it is the intent of this body to offer borrowers 
the broadest degree of choices?
    The borrower is free to select any eligible, participating lender 
by selecting a consolidation loan application and working with his/her 
lender of choice.
    As we mentioned above, the data needed by the consolidation 
borrowers is still accessible to complete the consolidation loan 
application. Borrowers can log onto the NSLDS Borrower website to 
obtain the data needed to complete the loan application. Lenders can 
continue to process the application without accessing NSLDS.
    Ranking Member McKeon (R-CA):
    1. Chairman Miller has recently sent some marketing documents to 
the Federal Trade Commission in order to determine if such documents 
are deceptive marketing materials. I have seen some of those materials 
and they look fairly deceptive to me. Has the Department sent such 
marketing documents to the FTC in the past and what was the response?
    The Department shares the Committee's concern. In fact, during 2003 
and 2004, the Department of Education referred to the FTC 31 complaints 
about 10 private student loan companies who were distributing marketing 
materials that the department thought might be deceptive. We understand 
from FTC staff that they have given careful consideration to these 
complaints. The Department of Education and FTC staffs currently are 
discussing how to improve cooperation on all matters related to private 
student loans, including improving the sharing of information 
concerning marketing materials that could be deceptive.
    2. Madam Secretary, you have been criticized for not enforcing the 
inducement prohibition in the Higher Education Act. We know that the 
Clinton Administration took an action against Sallie Mae which was 
decided in Sallie Mae's favor by an administrative law judge in 1996. 
For the record, do you know how many other enforcement actions were 
taken by the Clinton Administration with respect to inducements?
    We are not aware of any other formal enforcement actions taken by 
the Clinton Administration with respect to inducements.
    3. Madam Secretary, has your administration taken any such actions 
against lenders or other parties?
    Fair and effective oversight and monitoring of the nearly 3,500 
lenders, guaranty agencies, and servicers that participate in the FFEL 
Program, is one of the Department's highest priorities. In fact, our 
oversight and monitoring activities conducted between fiscal year 2003 
and the present resulted in the assessment, collection, or return of 
over $712,000,000 by lenders, guarantee agencies, and third-party 
servicers in the Federal Family Education Loan Program (FFELP).
    In addition, Federal Student Aid (FSA) monitors the school and 
lending community by reviewing required annual compliance audits and 
financial statements, performing on-site program reviews, and analyzing 
partner-specific data to detect trends and areas that could be of 
concern. FSA has reviewed many audits and completed a number of on-site 
program reviews of schools, lenders, guaranty agencies, and third-party 
servicers for fiscal years 2001 though 2006, and is, in fact currently 
engaged in several dozen reviews of program participants with regard to 
the payment of possibly improper inducements.
    Last year, the Department created an intra-department team to 
conduct targeted reviews and investigate complaints from students and 
lenders. When the Department determines a violation may have occurred, 
we look into it and, if necessary, take appropriate actions to stop it. 
Typically, we contact the lender, servicer, or guaranty agency and tell 
it to stop and, in most cases, it halts the questionable practice. 
Cease-and-desist letters have been issued to those entities that were 
found to be in noncompliance with the regulations.
    We are planning to review schools, lenders, and eligible lender 
trustees and, in fact, have begun our on-site visits.
    4. One of the things Chairman Miller has asked you to implement is 
``emergency regulations'' to put an end to some of the practices that 
have been in the media lately. To your knowledge, has the Department 
ever enacted ``emergency regulations?'' Does the Department even have 
the legal authority to enact ``emergency regulations'' for an activity 
like this?
    In our May 9th written response to the Chairman, we provided a 
detailed answer to the question of ``emergency regulations.'' First, it 
is incorrect to suggest that the Department possessed the authority 
under current law to ``immediately publish emergency regulations'' on 
``inducements and bribes.'' Section 492(b)(2) of the Higher Education 
Act of 1965 (HEA), states that the Department must conduct negotiated 
rulemaking ``unless the Secretary determines that applying such a 
requirement with respect to given regulations is impracticable, 
unnecessary, or contrary to the public interest'' within the meaning of 
section 553(b)(3)(B) of title 5, United States Code.
    In addition to the requirements for negotiated rulemaking, the 
Administrative Procedure Act provides, in 5 USC 553(b), that the 
Department must allow for public notice and comment when undertaking 
rulemaking unless ``the agency for good cause finds ... that notice and 
public procedure thereon are impracticable, unnecessary, or contrary to 
the public interest.'' As interpreted by the courts, rulemaking is 
considered ``impracticable'' when execution of the agency's statutory 
duties would be unavoidably prevented by undertaking public rulemaking. 
Notice and comment is ``unnecessary'' in those limited situations in 
which the administrative rule is a routine determination, insignificant 
in nature and impact, and inconsequential to the industry and to the 
public. Finally, ``contrary to the public interest'' applies only in 
the narrow circumstance when the interest of the public would be 
defeated by any requirement of advance notice of rulemaking, such as 
when announcement of a proposed rule would enable financial 
manipulation that the rule sought to prevent.
    Accordingly, the matters referred to by Chairman Miller do not fit 
any of the exceptions to the negotiated-rulemaking requirement or the 
notice-and-comment requirement. Any regulatory action on lender issues 
by the Department would not be routine, insignificant, or 
inconsequential. Moreover, notice-and-comment rulemaking would not 
``unavoidably prevent'' the Department from fulfilling its 
responsibilities to provide federal financial assistance or perform 
other functions.
    Finally, given the intense interest in financial aid issues, it 
would be impossible to argue that preventing notice and comment could 
be in the ``public interest.'' And even if some emergency authority for 
waiving the proposed rulemaking and negotiated rulemaking requirement 
existed, changes to the federal student financial aid regulations 
published by the Department cannot, because of Sec. 482(c) of the HEA, 
be effective until July 1 after the year they are published (and, even 
then, only if they are published by November 1). The Department has no 
authority to disregard the November 1 deadline. Thus, any regulations 
published now cannot take effect until July 1, 2008.
    5. There seems to be a lot of confusion about what is a prohibited 
inducement even though the law is clear about not paying a school for 
loan applicants. The Department issued guidance explaining the law when 
it was first enacted and it has not significantly changed since its 
enactment more than 15 years ago. Do we have a problem with the law or 
is this really more of an ethics issue for colleges?
    In order to answer the question of whether the law is insufficient 
or not, a dialogue is necessary among the various stakeholders.
    6. The bill we passed yesterday addresses the ethics issue but it 
did nothing to address the statutory provision on inducements so if 
this is a problem with the law, what should Congress do to solve the 
problem?
    If Congress determines that the law is not adequate in addressing 
the issue of inducement, then Congress should amend the law.
    7. While the press has been pointing to a report by the Office of 
the Inspector General that alleges that the close relationship the 
Office of Federal Student Aid has with lenders and guaranty agencies 
has impeded FSA's ability to do proper compliance and oversight of 
these entities, that is not what I have seen or heard from companies in 
my state. What are your thoughts on this?
    I hold the employees at the Department of Education in high regard. 
Collectively, they are dedicated and committed to ensuring that 
borrowers have a competitive and robust system at their disposal. In 
addition, they value maintaining the integrity of that system.
    With regard to hiring, the business community seeks individuals who 
meet certain requirements for their jobs. In many cases, these 
requirements include a skill or knowledge set around the particular 
job. In fact, Congress hires individuals to staff key positions on 
Committees with individuals who have a background in the appropriate 
specialized field. I would venture to guess that some banking 
experience would be necessary to be considered for a policy-level 
position at the Committee on Financial Services. As such, it is wholly 
appropriate and, indeed, responsible for my Department to seek 
individuals who have a background in certain areas of education. With 
regard to the duties required of someone who works in the Federal 
Student Aid, most of the strongest candidates come from the lending 
community, as they have the requisite knowledge and understanding of 
the system.
    8. From the various reports that have been released, including the 
report issued by Senator Kennedy yesterday, it is clear that mistakes 
were made in the implementation of the program related to conflicts of 
interest, mismanagement, and curriculum control. In your testimony, you 
outline many of the things that the Department has done or is doing to 
respond to these various reports. As you know, last month I introduced 
H.R. 1939, the Reading First Improvement Act, to address many of those 
findings related to conflicts of interest, mismanagement, and 
curriculum control. Many of the provisions in this bill codify steps 
you are already taking. Do you believe H.R. 1939 reflects the approach 
that Congress should take to provide the Department more clarity in 
terms of how the Department should implement this unique program? How 
can Congress partner with you to strengthen this program going forward?
    As you note, the Department has implemented all of the 
recommendations in the Office of Inspector General's (OIG) inspection 
report on an expedited basis and, in some cases, went beyond what was 
suggested by the OIG to implement improvements. This should be very 
helpful in the effective implementation of the Reading First program 
and build on the many successes of the program. The provisions in H.R. 
1939 are consistent with, and supplement well, the actions the 
Department has taken. The implementation of corrective measures and the 
provisions in H.R. 1939 will help to further ensure the integrity, 
objectivity, and transparency of the Reading First program. We look 
forward to working with Congress on this issue.
    9. Madam Secretary, it is clear from the Inspector General's 
reports that some states felt pressured at different points during the 
implementation of the program and that the application process was not 
perfectly transparent, and I hope that we can fix those problems going 
forward. Yet, I also received a letter following our first Reading 
First hearing from a state Reading First director speaking very highly 
of the program and Chris Doherty in particular. This state director was 
not only thrilled with the program's outcome, he felt those outcomes 
were directly attributable to the hard work of Chris and others at the 
Department. You have stated that the [D]epartment has reached out to 
states to solicit their feedback on the program. How would you 
characterize state feelings about the program?
    I believe that States are very happy with the increases in reading 
achievement that they are seeing in schools participating in the 
Reading First program. For example, in California, over 73 percent of 
school districts participating in Reading First showed improvements in 
reading comprehension for second graders, while more than 70 percent 
showed improvement in reading fluency for first graders. In the second 
grade, proficiency in reading comprehension increased nearly 11 percent 
for Hispanic students, 10 percent for economically disadvantaged 
students, and nearly 8 percent for limited English proficient students.
    Nationally, students who participated in Reading First are 
experiencing tremendous gains in reading achievement. On average, 
States increased the percentage of Reading First students meeting or 
exceeding proficiency on fluency outcome measures--a 16 percent average 
gain for 1st graders, 14 percent for 2nd graders, and 15 percent for 
3rd graders. Similar increases for reading comprehension outcome 
measures were also found--a 15 percent average gain for 1st graders, 6 
percent for 2nd graders, and 12 percent for 3rd graders.

    Rep. Joe Wilson (R-SC):

    1. Given the consequences to borrowers of continuing to limit 
access to NSLDS during a time when many borrowers would like to 
consolidate their loans, how will the Department communicate with 
borrowers and industry going forward when issues such as this arise?
    Under the current temporary suspension, borrowers are able to 
consolidate their loans and are able to log onto the NSLDS Borrower 
website to obtain the data needed to complete the consolidation loan 
application. We continue to communicate with the community through 
established means--including postings to Federal Student Aid Websites, 
Dear Colleague Letters, Dear Partner Letters, and individual letters 
and emails to industry organizations.
    2. I understand that limited notice was provided to users of NSLDS 
of the restrictions imposed a few weeks ago. What was the process 
undertaken by the Department in determining the amount of notice given 
to NSLDS users prior to imposing a restriction on the system's access?
    Through the Department's ongoing and targeted monitoring of NSLDS, 
we observed a significant increase in usage by lenders, loan holders, 
servicers, and guaranty agencies. After consideration of alternatives, 
the Department, on April 17, 2007, temporarily suspended access to 
NSLDS by those entities.
    Ensuring appropriate access to NSLDS to protect the confidentiality 
of our borrowers' financial information is our highest priority. The 
new security measures include two functions and added minimal burden to 
users. First, after logging into NSLDS, a user is prompted with a box 
that contains several random letters and/or numbers. The user must 
correctly enter the information displayed in the box to receive 
authorization to continue into NSLDS. This process should take less 
than a few seconds, but provides added security against automated tools 
logging onto NSLDS. Second, all queries into NSLDS web access requires 
the user to provide the social security number, date of birth, and 
first name of the borrower. This added security measure also adds 
little time to the borrower look-up process but provides an added level 
of security for borrowers' private financial information.
    Additional security measures are currently being researched. If 
these new security features change the system in such a way that users 
will need training or notice, we will communicate this change to the 
community.
    3. I understand that the restrictions on the system are beginning 
to be lifted for guaranty agencies. How long to you expect that the 
restrictions will continue to be in place for other users of the 
system?
    Instructions for Guaranty Agencies and Lenders, including Lender 
Servicers, were sent on May 2, 2007 and May 15, 2007, respectively, to 
the Chief Operating Officers of each organization via e-mail. As the 
entity responds and we review the data, we restore their access. So 
far, we have restored NSLDS access for 32 out of 36 Guaranty Agencies 
(89%). We anticipate restoring access to the remainder of the Guaranty 
Agencies in the near future. We requested additional certifications 
from lenders and lender servicers and access to these entities will be 
provided when the requested information is received. To date, we have 
reinstated access for approximately 11% of the lenders who had accessed 
the system within the past year and approximately 24% of the lender 
servicers who had accessed the system within the past year. We are 
still developing a process to reinstate access for those entities that 
participate in the program as Eligible Lender Trustees.
    4. Madam Secretary, in conducting investigations into the 
relationships between institutions and lenders, the New York Attorney 
General submitted notices to many institutions, including an 
institution in my home state--Clemson University. It is my 
understanding that Clemson received funds that it puts towards need-
based grant aid to students through an arrangement it has with a 
private loan lender. The South Carolina Attorney General Henry McMaster 
reviewed the agreement, at the urging of Attorney General Andrew Cuomo, 
and found nothing wrong with the agreement. Since this is a private 
loan arrangement, do you have any authority over these arrangements and 
is it an illegal inducement under the HEA?
    The HEA proscribes inducements paid by lenders to secure 
applications for FFELP loans, and the HEA gives the Department 
authority to take action where such inducements are made. We have not 
reviewed either the text of, or circumstances surrounding, the 
agreement with Clemson University you refer to, and thus, have no 
opinion whether this agreement constitutes an inducement within the 
scope of the HEA.
    5. Do you have suggestions for how the federal government should 
respond to issues when attorneys general in 2 different states disagree 
about what constitutes inappropriate behavior?
    Our understanding is that the attorneys general of New York and 
South Carolina do not disagree about the propriety of the Clemson 
arrangement. To the contrary, it appears that the facts you describe 
show deference by one attorney general to the views and authority of 
the attorney general of another state. This conduct is consistent with 
the principles of federalism that apply to any response by the 
Department: the Department's authority extends under current law only 
to determining whether payments were made by lenders to ``...secure 
applicants for loans under the [FFELP]'', 20 U.S.C. Sec. 1085(d)(5)(A), 
and, if so, taking action regarding the lender and the loans in 
question. The authority of state attorneys general extends to whether 
conduct by either lenders or schools violated state law(s). In some 
instances, the conduct under scrutiny may be the same as examined by 
the Department. The respective authorities of the Department and states 
differ, and no conflict arises from each pursuing their own 
responsibilities with respect to that conduct.

    Rep. Tom Petri (R-WI):
I. Department Loan Program Mismanagement
    1. Given the prevalence of unethical relationships between lenders 
and financial aid offices, would you agree that the Department has 
failed to provide sufficient leadership to prevent and identify these 
practices?
    I do not agree. Under my leadership, the Department raised these 
issues in its announced intention to enter into negotiated rulemaking 
nearly a year ago.
    2. Can you explain the Department's failure to implement gift and 
ethics regulations, as it was advised to do in 2001 and again in 2004 
after the Financial Aid Administrators Assn' failed to adopt industry 
standards?
    The Department issued guidance on prohibited inducements to the 
student loan community in 1989. That guidance, along with some limited 
additional guidance issued in 1995, was incorporated into the Federal 
Student Aid Handbook. For most of the intervening period, lenders, 
guarantee agencies and institutions appeared to have been abiding by 
the Department's guidance.
    That began to change, however, as competition for loan volume, 
particularly consolidation volume, intensified. The Department began to 
observe some lender's practices that did not appear to be compliance 
with the prior guidance. In certain instances we directed the offending 
lenders to cease the practice and take certain corrective actions.
    By late 2004, the Department recognized the need to provide more 
definitive guidance and worked on a Dear Colleague letter. However, the 
Department determined that, to be more enforceable, the requirements 
would need to be incorporated into the student loan regulations and 
began to plan for rulemaking when the reauthorization of the Higher 
Education Act occurred. However, a comprehensive reauthorization did 
not--and still has not--occurred. Despite this fact, the Department 
decided in June 2006 to begin rulemaking to address this and other 
urgent issues. Rulemaking in the student loan area is governed by 
Section 492 of the Higher Education Act of 1965, which requires the 
Department, before publishing proposed regulations, to obtain public 
involvement in the development of the proposed regulations.
    The Department held regional hearings in Berkeley, California; 
Chicago, Illinois; Orlando, Florida; and Washington, DC during the fall 
of 2006 to determine public interest in topics for negotiated 
rulemaking. In addition, we invited parties to submit topics for 
consideration in writing.
    After obtaining advice and recommendations from individuals and 
representatives of groups involved in the Federal student financial aid 
programs, the Department must subject proposed regulations to 
negotiated rulemaking. On December 8, 2006, we published a notice in 
the Federal Register (71 FR 71117) announcing the establishment of two 
negotiated rulemaking committees: the Loans Committee, to address 
topics related to the Federal student loan programs authorized by Title 
IV, Parts B, D, and E of the HEA, and the American Competitiveness 
Grants (ACG) and National SMART Grant Committee, to address issues 
related to those two new programs. On January 30, 2007, we published 
another notice in the Federal Register (72 FR 4221) announcing the 
establishment of two more committees: the General Provisions Committee, 
to address programmatic, institutional eligibility, and general 
provisions topics related to Title IV, Parts A (except for Academic 
Competitiveness Grants (ACG) and National SMART Grant programs), C, G, 
and H (except subpart 2) of the HEA, and the Accreditation Committee, 
to address accreditation topics (Title IV, Part H, Subpart 2 of the 
HEA). The Loans Committee met to develop proposed regulations over the 
course of several months, beginning in December 2006.
    Since the last meeting of the Loans Committee, we developed an NPRM 
that we believe fully addresses the issues that have been identified on 
preferred lender lists and prohibited inducements. That NPRM was 
published on June 12, at 72 FR 32410.
    3. It's become increasingly clear that various Department officials 
failed to act to prevent subsidy abuse and unethical lender practices 
over the last decade. Would you agree that these officials should be 
held to account for their mismanagement?
    I do not share your view that Department officials have failed to 
act to prevent abuses and unethical practices. The Department has 
investigated and continues to investigate practices that appear 
inappropriate. Let me assure you that we will continue rigorous 
oversight of these activities.
II. Nelnet $278 Million Settlement
    You recently forgave $278 million to student lender Nelnet, which 
manipulated subsidies to bill taxpayers at the 9.5% rate. I received 
your response within an hour prior to this hearing:
    1. How do you justify your decision, given Nelnet's brazen abuse 
and manipulation of taxpayer funds, not to try to fully collect these 
payments?
    The Department exercises oversight over all higher education 
lenders that participate in programs under Title IV, Part B of the HEA. 
Indeed, the Department has exercised due care in resolving very complex 
questions about the use of special allowance payments (SAP) at the 9.5 
percent rate on Federal Family Education Loan Program (FFELP) loans 
under Title IV. We continue to carefully scrutinize FFELP loans to 
determine whether the loans are from eligible sources, and thus qualify 
for the 9.5 percent SAP.
            (1) Actions in Regard to Lenders' Use of 9.5 Percent SAP 
                    and Oversight of Additional Lenders.
    In our ``Dear Colleague'' letter of January 23, 2007, which 
enclosed a more detailed letter that was sent to all lenders claiming 
9.5 percent SAP, the Department stated it would not pay any further 9.5 
percent SAP on loans other than first-generation or second-generation 
loans. We advised each lender that sought the 9.5 percent SAP that an 
audit of its loans would be required to verify the loans were first- or 
second-generation loans. Additionally, to receive the 9.5 percent SAP, 
we advised that a lender must provide, with each billing submitted to 
the Department, a management certification that all such loans are 
first- or second-generation loans. In a second ``Dear Colleague'' 
letter issued April 27, which also enclosed a letter sent to all 
affected lenders, we provided an Auditor Guide that explained how the 
required audit must be conducted, and we explained the methodology on 
which the audit procedures are based. Lenders may use an independent 
auditor of their choice, or may have the audit conducted by an audit 
firm that will be retained by the Department. We enclose copies of 
these letters
            (2) Nelnet, Inc. (Nelnet) Settlement.
    By way of background, the Department's Office of Inspector General 
(OIG) issued an audit report on September 29, 2006 analyzing certain 
Nelnet practices regarding 9.5 percent SAP (Special Allowance Payments 
to Nelnet for Loans Funded by Tax-Exempt Obligations, ED-OIG/A07F0017, 
hereinafter ``IG Audit Report ''). The IG Audit Report found that 
Nelnet had used an ineligible funding source to acquire loans on which 
it had claimed SAP at the 9.5 percent minimum return rate. OIG 
estimated that Nelnet was improperly paid as much as $278 million in 
special allowance payments for these loans from the quarter ending 
March 31, 2003 through the quarter ending June 30, 2005, and that 
Nelnet could be improperly paid as much as $882 million for the 
ineligible loans in the months and years after June 2005 if Nelnet's 
billings are not corrected. OIG recommended that the Chief Operating 
Officer (COO) for Federal Student Aid (FSA) instruct Nelnet to exclude 
all the affected loans from future claims for payment at the 9.5 
percent minimum return rate, and require Nelnet to calculate and repay 
the amounts overpaid on these loans.
    Nelnet filed a response to the report on November 14, 2006. In its 
response, Nelnet argued it was entitled to retain all 9.5 percent SAP 
previously paid to it by the Department on FFELP loans. Nelnet further 
argued it was entitled to receive the 9.5 percent SAP on billings in 
future years over the life of the bond(s), which, as noted earlier, the 
IG Audit Report had estimated might total as much as $882 million, or 
more than triple what the Department already paid out.
    The disputed statute and regulation at issue in the IG Audit Report 
involved novel and complex questions of law. No court has rendered any 
decision interpreting this specific statutory provision or regulation. 
Upon a thorough review of the IG Audit Report, the statute and 
regulation in question, and Department practices, and considering 
potential litigation risks and costs, the inherent uncertainty pending 
a definitive court decision (and any appeals), and the potential for an 
unfavorable decision, the Department settled its claims against Nelnet. 
The settlement ensured that the estimated $882 million of improper 
payments (less amounts paid for the period from July 1, 2005 through 
June 30, 2006) would be saved or not paid out by the Department to 
Nelnet in future years, while resolving disputed claims over past 
payments that could have resulted in protracted and costly litigation, 
potentially delaying resolution of these matters for several years.
            (3) January 23, 2007 Dear Colleague Letter.
    The Department has not changed policy with regard to 9.5 percent 
SAP. The regulation governing eligibility of student loans for 9.5 
percent SAP dates to 1993. This same regulation was the subject of our 
Dear Colleague letter of January 23, 2007. The statutory authority 
underlying the regulation has been in place even longer--since 1980.
    As stated in the Dear Colleague letter, ``[r]ecent examination of 
activities involving tax-exempt financing of [FFELP] loans indicates 
that it is appropriate to restate the * * * regulations that control 
whether FFELP loans * * * [are] eligib[le] for SAP.'' (emphasis added). 
The Dear Colleague letter (and the corresponding letter sent to 
lenders) simply advised other lenders that we would not pay 9.5 percent 
SAP on loans other than first-generation or second-generation loans, as 
set forth in the regulation. Further, the Department required lenders 
to take certain actions as a condition for receiving the 9.5 percent 
SAP. This approach was consistent with the legal requirements restated 
in the Dear Colleague letter that loans other than first-generation and 
second-generation loans are not eligible for 9.5 percent SAP.
    The Department also offered lenders the opportunity to resolve any 
liability for the return of previously received 9.5 percent SAP for 
loans other than first- or second-generation loans. To do so, lenders 
were required to take the steps specified in the Dear Colleague letter 
and forego asserting any claim to continued receipt of 9.5 percent SAP 
for loans other than first- or second-generation loans. We further 
noted that, should any lender bring a cause of action against the 
Department for continued receipt of 9.5 percent SAP on loans that are 
neither first- or second-generation loans, the offer in the January 23 
Dear Colleague letter to resolve any liability would be retracted. In 
such a case, we would confer with the Department of Justice about the 
advisability of filing any counterclaim against the lender for all 9.5 
percent SAP previously paid to that lender on loans that were neither 
first- or second-generation loans. Alternatively, we could exercise the 
option of recovering those funds through administrative offset against 
any payments then owed the lender.
    2. Can you please provide all other lenders, subsidy figures and 
loan volume in question with regards to 9.5%?
    This information is provided in the enclosed table.
    3. You indicated that you would conduct audits of all other 
potential 9.5% abusers before offering any further forgiveness.
    a. Have any additional settlements been reached and;
    b. Do you still intend to offer forgiveness on a case-by-case basis 
in accordance to the audit results?
    The only written settlement agreement entered into by the 
Department regarding 9.5 percent SAP is with Nelnet. The other 
``settlements'' will occur by practice on the part of the lenders. The 
attached letter to the January 23, 2007 Dear Colleague Letter to 
individual lenders sets forth the steps that must be followed for 
lenders to receive any additional 9.5 percent SAP, and settle any 
potential Department claims on previous overpayments. Therefore, the 
Department does not expect, or require, a lender to execute any 
document to memorialize acceptance of the offer. A lender can accept 
the Department's offer simply by the conduct described in that offer.
    4. According to some legal analysts, neither individual taxpayers 
nor the Department of Justice has the legal authority to challenge your 
settlement, only the lender.
    Because the Higher Education Act gives the Secretary independent 
authority to compromise claims arising under the FFEL program, we agree 
that neither individual taxpayers nor the Department of Justice has 
authority to challenge the Department's settlement with Nelnet. That 
said, the Department of Justice is not foreclosed from pursuing, as 
appropriate, separate remedies under other applicable provisions of the 
law, including under the False Claims Act.
    5. Would you agree that Congress should include an oversight 
mechanism in HEA for future settlements, given the large sums of 
taxpayer funds at stake?
    An additional oversight mechanism is not necessary. The Department 
has authority under the HEA to compromise claims under the FFEL program 
and has exercised that authority properly.
III. Guaranteed Loan Program
    The Bush Administration's Office of Management and Budget and 
Treasury Department along with the Congressional Budge Office and 
Government Accountability Office, and private economists have all 
agreed that the guaranteed loan program is significantly more expensive 
than the Direct Loan alternative--costing taxpayers an estimated $3-5 
billion annually in excess subsidies
    1. Would you agree that these wasteful subsidies in the guaranteed 
program are a product of a structurally broken system?
    The Administration strongly supports the continued availability of 
both guaranteed and direct student loans. Competition between these 
programs, and among lenders in the guaranteed program, enhances 
borrower and institutional choice and drives innovation and improved 
service in both programs. That said, the President's FY 2008 Budget 
includes a comprehensive set of reforms that reduce costs, streamline 
operations, and increase efficiency in the guaranteed loan program.
    2. Would you agree that a market-based loan guarantee would reduce 
wasteful spending by requiring lenders to competitively bid for 
taxpayer subsidies?
    The Administration believes the comprehensive package of proposals 
included in the FY 2008 Budget represents the best approach to 
enhancing the efficiency and effectiveness of the student loan programs 
for students, schools, and taxpayers.
    3. Why did it take the Administration six years to publicly 
recognize on the excess subsidies in the guaranteed loan program given 
the strong supporting evidence?
    The Administration has long proposed structural reforms to improve 
the efficiency of the student loan programs. The FY 2005, 2006, 2007, 
and 2008 President's Budgets have all included major student loan 
proposals to expand risk-sharing, increase efficiency, streamline 
operations, and reduce costs to the taxpayer.
    4. Can you provide a complete list of FFELP lenders and federal 
subsidy payments for the most recent year that data is available?
    Attached is a summary of special allowance subsidies (both regular 
and tax-exempt) provided to lenders in 2006.
IV. Misc. Direct Loan Question
    1. The Higher Education Act (Section 455) mandates that the Direct 
Loan program provide ``the same terms, conditions, and benefits'' as 
the FFEL program. The only lender to provide federal loan borrowers 
lower interest rates in recent years has been MyRichUncle, which has 
offered 5.8% rates. Reducing Direct Loan interest rates to 5.8% as 
MyRichUncle has would save the typical student borrower $1,000 in 
student loan payments.
    In 1999, Secretary Riley enforced this provision and lowered Direct 
Loan program fees to match the lower origination fees that guaranteed 
lenders were offering.
    Why hasn't the Bush Administration lowered interest rates for 
Direct Loans to match the lower interest rates being offered by 
guaranteed lenders like MyRichUncle?
    Former Secretary Riley used his authority to provide a reduced 
interest rate, in the form of an upfront interest rebate, as a 
repayment incentive as provided for under Section 455(a)(8) of the HEA. 
He did not provide an across-the-board interest rate reduction as you 
suggest because that would have been inconsistent with precise language 
of the statute that you referenced, which reads: ``Unless otherwise 
specified in this part, loans made to borrowers under this part shall 
have the same terms, conditions, and benefits, and be available in the 
same amounts, as loans made to borrowers under sections 428, 428B, and 
428H of this title.'' Interest rates are clearly specified in the part 
and, thus, cannot be reduced except as done by Secretary Riley, as a 
repayment incentive.

    Rep. Mark Souder (R-IN):

    1. Madam Secretary, can you tell us what statutory authority exists 
in the Higher Education Act that allows schools in the Direct Loan 
program to force students and parents to borrow from the government, 
thereby restricting their free choice in selecting a student loan 
lender?
    The Higher Education Act of 1965, as amended, created the William 
D. Ford Federal Direct Loan (DL) program as an alternative to the 
Federal Family Education Loan program. By law, institutions must apply 
to participate in the DL program. Once the institution is accepted for 
participation in the program, the institution can choose to continue to 
make FFEL loans available to students or not. That is reflected in the 
agreement that each institution has with the Department. The choice of 
whether to permit a student (or parent in the case of PLUS) is left to 
the institutions subject to the exercise of Secretary's discretion 
pursuant to Section 454(a)(4) of the HEA.
    2. Considering much of the current discussion began as a result of 
lenders complaining that schools were restricting the choices of 
students and parents, how do you justify allowing the Direct Loan 
program to eliminate all choices and forcing students to borrow from 
one lender?
    As noted above, by statute, borrower choice is provided for within 
the FFEL program. The DL program clearly provides institutions with the 
choice to participate in that program.
    Institutions have made the choice to participate in the DL program 
for a variety of reasons.
    When the institution decided to apply to participate in the DL 
program, it provided reasonable benefits when compared to the FFEL 
program for students attending similar institutions. Many of the 
institutions that participate in the DL program are for-profit trade 
and technical schools that haven't benefited from the competition for 
loan volume that has been evident in recent years. Thus, the terms and 
conditions available in DL are comparable to those provided in FFEL for 
those schools.
    In addition, some institutions found the DL program made it simpler 
for them to administer the Federal aid programs by having a single 
funding source (ED) and a single mechanism for delivering those funds. 
This makes it easier for the financial aid office to package and 
disburse aid to students quickly and efficiently.
    3. There has been a proposal in Congress that would bribe schools 
to join the Direct Loan program with the lure of potential grant funds. 
What is your opinion of that proposal? Could the Department of 
Education handle a substantial increase in Direct Loan volume? Do you 
support bribing schools in this fashion or would you prefer that a 
robust level of competition continue to exist between the two loan 
programs?
    We do not support the proposal that some in Congress have put 
forward to encourage institutions to join the DL program. We believe 
that grant funds should be increased overall from savings that are 
achieved through reductions in lender subsidies in the FFEL program. To 
provide grant funds only to institutions that participate in the DL 
program, as some have proposed, would be inequitable.
    With appropriate notice and resources, the Department could over 
time increase operations to accommodate the projected increase in 
volume.
    Finally, we agree with you that it is important to continue the 
robust competition that exists between the two loan programs and among 
the FFEL lenders. This competition has greatly improved the quality of 
service and reduced costs for borrowers and taxpayers.
    4. Included in H.R. 890, The Student Loan Sunshine Act, was a 
provision that required institutions with preferred lender lists to 
disclose to both you and the public why the lenders were placed on that 
list. The Democrats opposed including a provision that was in H.R. 
1994, The Financial Aid Accountability & Transparency Act, which 
required Direct Loan schools to disclose why they selected the 
Department as their lender. It seems to me that if one argues that the 
students need to know why a school selected 3 to 4 lenders in the FFEL 
program, then it is even more important that students be give that same 
information when their school only selects ONE lender for them just 
like a school does in the DL program. What do you think about that?
    We are not opposed to the inclusion in a Sunshine Act of a 
provision that requires institutions to explain their choice to 
participate in the DL program either exclusively or in combination with 
the FFEL program.
                                 ______
                                 
                                           [VIA FACSIMILE],
                                                      May 23, 2007.
Hon. Margaret Spellings, Secretary of Education,
U.S. Department of Education, Washington, DC.
    Dear Secretary Spellings: Following the letter sent to you on May 
16, 2007, we have collected further questions the Committee would like 
answered for the record.
    During the course of the hearing, Members of the Committee asked 
questions which you were unable to respond to at the time. We now 
respectfully request that you respond to these questions. Additionally, 
I have personally asked two final questions so that we may have a total 
understanding of the testimony you provided at the May 10, 2007 
hearing. Please provide your responses to these questions in Word 
format by COB on Friday, May 25, 2007. If you have any questions, 
please do not hesitate to contact Michael Zola, Chief Investigative 
Counsel for the Committee at (202) 226-9403.
            Sincerely,
                                             George Miller,
                                                          Chairman.

    Ranking Member Howard ``Buck'' McKeon (R-CA) asked you to respond 
to the following questions for the record:

    1. ``In comparison to the Clinton administration, can you tell us 
how many program reviews and audits were handled by the Federal Student 
Aid Office during the Clinton administration and the current one?''
    2. Additionally, please provide a comparison of the past 20 years 
in number of reviews and audits.
    3. What actions did the Clinton administration take to limit 9.5 
payments following their 1996 ``Dear Colleague'' Letter which increased 
the number of loans eligible for 9.5?

    Representative Thomas Petri (R-WI) asked you to respond to the 
following question for the record:

    1. How many other potential claims are there similar to Nelnet?

    Representative Luis Fortuno (R-PR) asked you to respond to the 
following questions for the record:

    1. In your view, what are the chronic problems that plague the 
Puerto Rico Department of Education (PRDE) and prevent them from 
reaching peak performance? Why are they continuing to fail in providing 
a decent education to Puerto Rico's 575,000 public school children?
    2. How do you plan for better Federal oversight of the PRDE? 
Clearly, the plans they have proposed for improvement are not at all 
effective. In your response, I would like to see a detailed timeline, a 
list of benchmarks for success, and deadlines for improvement. In 
addition, I would like to receive bimonthly written updates upon 
receipt of your response.
    3. My staff and the Congressional Research Service have had 
continual problems obtaining reliable data on NCLB implementation in 
Puerto Rico. My staff was advised by your employees that the PRDE only 
recently agreed they needed to update their data collection systems. 
What progress have they made in that area, and what new data have they 
submitted in recent weeks?
    4. How is your Department helping to increase the PRDE's staff 
retention?
    5. As Representative of the 4 million citizens of Puerto Rico, it 
is my responsibility to help ensure that Puerto Rican children receive 
a quality public school education and that NCLB guidelines are 
followed. As we have identified the PRDE's widespread mismanagement, 
what recommendations do you have for me in my role as Member of the 
Committee to improve Puerto Rico's situation? How do you think I can 
serve in the most helpful role in NCLB reauthorization?

    I, Chairman George Miller (D-CA) ask that you respond to the 
following questions:

    1. In your written statement, you note that the Department is 
investigating whether there have been violations of the anti-inducement 
provisions of the HEA and that FSA has teams performing on-site reviews 
of 44 schools and 26 lenders. When were these teams established? For 
each of the 44 schools and 26 lenders, please provide the date(s) on 
which FSA teams performed an on-site review. Also, please provide the 
guidance, standards, and criteria the Department has provided to these 
teams to conduct these on-site reviews for the purpose of establishing 
violations or potential violations of the anti-inducement provisions of 
the HEA.
    2. In your written statement, you note that the Department has 
issued schools 124 citations and assessments totaling nearly $4.4 
million for lack of administrative capability over the last 5 fiscal 
years. How many of these citations involved violations or potential 
violations of the anti-inducement provisions of the HEA? How many of 
these citations involved schools' administration of the title IV 
student loan programs? Please specify the number of schools that had 
violations, the specific violations, and the number of violations for 
each school, by fiscal year. How many of these violations were 
identified as a result of on-site reviews conducted by FSA?
                                 ______
                                 

   Responses to May 23, 2007 Written Questions for the Committee on 
                          Education and Labor

Rep. McKeon
    1. In comparison to the Clinton Administration, can you tell us how 
many program reviews and audits were handled by the Federal Student Aid 
Office during the Clinton administration and the current one?

    Federal Student Aid monitors schools and lenders that participate 
in the Title IV federal student aid programs by reviewing required 
annual compliance audits and financial statements, performing on-site 
program reviews, and analyzing industry data to detect trends and areas 
that could be of concern. Thirty-five thousand eight hundred and 
seventy five (35,875) program reviews, on-site program reviews, reviews 
of annual compliance audits received and reviews of financial 
statements received for schools, lenders, guaranty agencies, and third-
party servicers were completed by Federal Student Aid for six fiscal 
years beginning in FY 2001 and continuing through FY 2006. While we do 
not have comparable data for the full prior eight-year period, between 
FY 1994 and FY 1999, Federal Student Aid completed thirty-five thousand 
three hundred and seventy four (35,374) such reviews for schools, 
lenders, guaranty agencies, and third-party servicers participating in 
our programs.

    2. In addition, please provide a comparison of the last 20 years in 
number of reviews and audits.

    We have data for the past 13 years. Since FY 1994, the Department 
has conducted well over 70,000 on-site, annual compliance audit or 
financial statement reviews of schools and lenders participating in the 
Title IV programs. Thus, the requested comparison shows that about the 
same number of program reviews and audits had been conducted during the 
six-year period FY 94--FY 99 as were conducted in the six-year period 
FY 01--FY 06.

    3. What actions did the Clinton administration take to limit 9.5 
payments following their 1996 ``Dear Colleague'' letter which increased 
the number of loans eligible for 9.5?

    We know of no specific government actions, prior to legislative 
changes in 2004, to limit increases for any reason in the number of 
loans eligible for 9.5 percent SAP. However, the question refers to the 
1996 Dear Colleague Letter as increasing the number of loans eligible 
for 9.5 percent SAP. Because the Dear Colleague simply interpreted 
existing regulations, the letter did not change those regulations to 
make eligible for 9.5 percent SAP loans that were not otherwise 
eligible for 9.5 percent SAP under the HEA and Department regulations. 
The Dear Colleague Letter may have made lenders aware of latitude 
already available under those existing regulations, and may have 
prompted lenders in later years to engage in practices that increased 
the number of loans eligible for 9.5 percent SAP over what they might 
otherwise have acquired and treated as eligible for 9.5 percent SAP. 
However, the Dear Colleague Letter, as we have explained repeatedly, in 
no way supported the practice of Nelnet or other lenders that treated 
loans which were neither first-generation nor second-generation loans, 
as explained in Dear Colleague Letter FP-07-01, as 9.5 percent SAP-
eligible.
Rep. Thomas Petri
    1. How many lenders have made claims similar to Nelnet and what is 
the loan volume associated with these claims for 9.5% subsidy?

    Nelnet's Project 950 was unique in its scope. The Department has 
not conducted reviews to determine whether other lenders made ``similar 
claims,'' and if so, to what extent such claims were made. As to the 
question of loan volume, please see the 9.5% Summary Excel File 
(Attachment 1), which presents all 9.5% volume, billed each year, as of 
September 30, 2007.
Rep. Fortuno
    1. In your view, what are the chronic problems that plague the 
Puerto Rico Department of Education (PRDE) and prevent them from 
reaching peak performance? Why are they continuing to fail in providing 
a decent education to Puerto Rico's 575,000 public school children?

    The major problems that need to be addressed include the following: 
the need to improve the functioning of a complex financial management 
system; the hiring and retention of qualified management staff to 
oversee Federal programs; the establishment of an independent internal 
audit capability; and the development of a reliable academic data 
management system required for decisions leading to informed academic 
instruction decisions and improved student learning. Additional 
problems have been identified in annual single audits, and other 
monitoring, audits and reviews. For example in the most recent single 
audit, the problems identified included the following: delays in 
implementing corrective steps in developing internal audit capability; 
deficiencies in the time distribution system and in payroll processing; 
and deficiencies in procurement documentation, and in equipment 
inventory due to transactions not being properly recorded. PRDE is 
making progress on some of these items and those mentioned above, but 
further progress is important in improving the provision of education 
to students in Puerto Rico.

    2. How do you plan for better Federal oversight of the PRDE? 
Clearly, the plans they have proposed for improvement are not at all 
effective. In you response, I would like to see a detailed timeline, a 
list of benchmarks for success, and deadlines for improvement. In 
addition, I would like to receive bimonthly written updates upon 
receipt of your response.

    The Department has a risk management team that works very closely 
with each of the Department's program offices and PRDE to ensure that 
there is appropriate monitoring of these and other issues, to help 
provide appropriate technical assistance to PRDE, and to hold PRDE 
accountable for progress towards compliance with all applicable Federal 
program and fiscal requirements. This team meets with PRDE quarterly to 
review progress of the current corrective action plans that were 
implemented under the current compliance agreement between the 
Department and PRDE, and to provide technical assistance. Based on two 
and a half years of implementation of the action plans, the team has 
determined that PRDE's plans for improvement were somewhat effective, 
and helped PRDE make progress in certain areas. PRDE's expectation, 
however, that the improvements needed could be achieved in 3 years was 
not, in all cases, realistic. Federal oversight has resulted in several 
letters regarding compliance with NCLB, which include timelines and 
benchmarks and consequences for noncompliance. The letters are attached 
for your reference (Attachment 2).

    3. My staff and the Congressional Research Service have had 
continual problems obtaining reliable data on NCLB implementation in 
Puerto Rico. My staff was advised by your employees that the PRDE only 
recently agreed they needed to update their data collection systems. 
What progress have they made in that area, and what new data have they 
submitted in recent weeks?

    PRDE recently submitted their proposed EDFacts Transition Plan for 
providing data including NCLB data for 2006-07, 2007-08, and 2008-09. 
The Plan is currently being evaluated by the Department. PRDE also 
recently submitted a Highly Qualified Teacher Plan, which is currently 
being evaluated by the Department.

    4. How is your Department helping to increase the PRDE's staff 
retention?

    Retention of qualified staff is an important area for improvement 
that was identified jointly by the Department and PRDE. However, while 
the Department is encouraging attention to this problem of staff 
retention, the resolution of this concern appears to involve matters 
that are primarily ones that should be resolved locally and not through 
Federal action.

    5. As Representative of the 4 million citizens of Puerto Rico, it 
is my responsibility to help ensure that Puerto Rican children receive 
a quality public school education and that NCLB guidelines are 
followed. As we have identified the PRDE's widespread mismanagement, 
what recommendations do you have for me in my role as Member of the 
Committee to improve Puerto Rico's situation? How do you think I can 
serve in the most helpful role in NCLB reauthorization?

    I appreciate that you have shared your concerns for the education 
of the children of Puerto Rico. We look forward to working with you to 
address the concerns you have expressed in these questions and during 
the May 10 hearing as we continue to provide assistance and hold PRDE 
accountable for improving the management of Federal grants and 
improving student achievement.
Chairman George Miller
    1. In your written statement, you note the Department is 
investigating whether there have been violations of the anti-inducement 
provisions of the HEA and that FSA has teams performing on-site reviews 
of 44 schools and 26 lenders. When were these teams established? For 
each of the 44 schools and 26 lenders, please provide the date(s) on 
which the FSA teams performed an on-site review. Also, please provide 
the guidance, standards and criteria the Department has provided to 
these teams to conduct these on-site reviews for the purpose of 
establishing violations or potential violations of the anti-inducement 
provisions of the HEA.

    Federal Student Aid established the teams conducting those reviews 
referenced in the May 10 testimony in April 2007. Of the reviews 
referenced in that testimony, to date, we have conducted inducement 
reviews at the University of Wisconsin-Milwaukee, Student Loan Express 
and Fifth Third Bank. We are in the process of conducting three 
additional school reviews and plan to conduct two additional school, 
three lender and one Eligible Lender Trustee reviews later this summer. 
We will continue to schedule and perform reviews at the remaining 
educational and financial institutions.
    In order to ensure effective reviews, we do not disclose the 
specifics of the program review procedures that we use to review these 
organizations. However, general areas of review will include:
    <bullet> Agreements, policies, practices or procedures between 
schools and lenders, loan holders, servicers, software providers or 
marketing firms acting on their behalf;
    <bullet> Participation by school personnel on advisory boards of 
lenders, loan holders, servicers or software providers;
    <bullet> Consulting or other paid relationships or agreements 
between school officials and lenders, loan holders, servicers or 
software providers;
    <bullet> Financial interest by school personnel in lender, loan 
holders, servicers or software providers; and
    <bullet> Compensation provided to schools personnel by lender, loan 
holders, servicers or software providers.

    2. In your written statement, you note the Department has issued 
schools 124 citations and assessments totaling nearly $4.4 million for 
lack of administrative capability over the last 5 fiscal years. How 
many of these citations involved violations or potential violations of 
the anti-inducement provisions of the HEA? How many of these citations 
involved schools' administration of the title IV student loan programs? 
Please specify the number of schools that had violations, the specific 
violations, and the number of violations for each school, by fiscal 
year. How many of these violations were identified as a result of on-
site reviews conducted by FSA?

    As we indicated, through our on-site program reviews, we identified 
some 236 instances (including the 124 mentioned in the statement) in 
which schools demonstrated failures to administer Federal student aid 
according to general administrative requirements, as opposed to 
violations of specific program rules. These findings were not for 
violations of the inducement provisions. In these 236 instances we 
cited the schools and we required corrective action, even though the 
deficiencies may not have caused a specific, identified misuse of 
Federal funds. We also identified in these reviews numerous instances--
totaling some $4.4 million--in which these very deficiencies actually 
resulted in improper expenditures of Federal student aid, for which the 
school is liable.
    The following chart details the number of violations (including the 
original 124) cited by deficiency by year; all but 10 of which were 
identified in our on-site program reviews.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
                                                      May 11, 2007.
Hon. George Miller, Chairman,
Committee on Education and Labor, Rayburn House Office Building, 
        Washington, DC.
    Dear Chairman Miller: During the May 10 hearing on ``Accountability 
for the Department of Education's Oversight of Student Loans and the 
Reading First Program,'' in which Secretary of Education Margaret 
Spellings testified, you reported that Indiana University left the 
Federal Direct Loan Program as a result of receiving a $3 million 
dollar line of credit from Sallie Mae. This is incorrect. This false 
assertion has appeared in some national media and may have been brought 
to your attention without having been verified.
    Indiana University is comprised of seven campuses. Prior to 2003, 
two of those campuses participated in the Direct Loan Program and five 
were in the Federal Family Education Loan Program (FFELP). In 2003, 
Indiana University went through a major software conversion. A review 
of non-academic services was completed by Arthur Anderson Consultants 
in 2001. The recommendation was to use either the Direct Loan Program 
or the FFELP for all campuses. Both programs worked well for Indiana 
University, but a committee was formed to review the consultants' 
recommendations and the decision was made to use the FFELP for all 
campuses. This decision was made independently from any relationship 
with the lending community.
    Indiana University sent a request for proposal for student loan 
processing to multiple vendors in June 2003. The request for proposal 
did not include any opportunity loan provisions. The $3 million in 
opportunity loans was included as a private loan alternative and is not 
based on loan volume. These funds are used as a last resort loan for 
students with no other options to fund a college education. Indiana 
University exhausts all other financing options before suggesting an 
opportunity loan.
    Indiana University did not receive any funds from Sallie Mae for 
transferring from the Direct Loan Program to FFELP. It was determined 
that supporting both programs would require additional implementation 
and maintenance costs for the new student information system. The 
decision to move to a single system was made in the interest of 
efficiency, student service and cost savings.
    Thank you for the opportunity to respond to the inaccurate 
statement about Indiana University and the reason for the transfer to 
the FFELP for two of the IU campuses. It is our hope that the official 
hearing record would be corrected to reflect the fact that we did not 
receive any payments for leaving the Direct Loan Program. We stand 
ready to provide any additional information on this matter.
            Sincerely,
                                           Thomas C. Healy,
                           Vice President for Government Relations.
                                 ______
                                 
    [Additional submissions from Secretary Spellings follow:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                          2006 9.5 SAP SUMMARY
------------------------------------------------------------------------
                                              Tax Exempt Loans
                                  --------------------------------------
  Lender                            Special Allowance   Ending Principal
                                        Payments            Balance
------------------------------------------------------------------------
833500     WELLS FARGO ELT NELNET       $158,373,973      $2,728,074,557
            ED LOAN FUND.
828924     AES/PHEAA.............        $59,627,998      $1,196,188,921
826688     KENTUCKY HIGHER ED            $40,106,950        $699,065,806
            STUDENT LOAN COR.
833948     BANK OF NY ELT EDSOUTH        $30,940,457        $564,620,484
830075     VSAC EDUCATION LOAN           $28,034,326        $530,904,225
            FINANCE PROGRAM.
827825     IOWA STUDENT LOAN             $21,291,088        $412,178,900
            LIQUIDITY CORP.
832095     WELLS FARGO ELT               $18,360,030        $348,849,840
            PANHANDLE PLAINS.
825585     MICHIGAN HIGHER               $17,561,882        $412,663,043
            EDUCATION STUD LOAN.
830630     SOUTHWEST STUDENT SERV        $17,235,161        $307,516,895
            TRUST WFB EL.
822717     NEW MEXICO EDUC ASST          $13,855,233        $259,928,343
            FOUNDATION.
834097     WELLS FARGO ELT NTHEA         $11,976,579        $251,471,061
            INC.
827866     COLLEGEINVEST.........        $11,738,633        $253,422,510
833806     US BANK ELT BHEA......        $10,511,074        $254,471,434
828476     UTAH STATE BOARD OF            $9,613,279        $163,242,746
            REGENTS.
828863     MISSOURI HIGHER                $8,878,031        $153,817,735
            EDUCATION LOAN AUTH.
833211     BANK OF NY ELT GTHEA..         $7,707,205        $178,406,284
833405     US BANK ELT ED LOANS           $7,450,821        $133,316,799
            INC.
831245     SOUTHWEST STUDENT SRV          $7,400,183        $141,012,628
            TRUST WFB ELT.
829769     UTAH STATE BOARD OF            $7,039,426        $131,567,279
            REGENTS.
899980     INDIANA SECONDARY              $6,653,206        $140,764,497
            MARKET.
833016     SC STUDENT LOAN-93 RES         $6,545,140         $47,205,330
            (SL03).
830631     STUDENT LOAN FUNDING           $6,089,827        $114,871,881
            US BANK ELT.
832934     BANK OF NY ELT GTHEA           $5,892,372        $121,595,074
            (93AB).
828868     TRUSTMARK BANK ELT             $5,808,316        $103,988,173
            MHEAC.
805149     BANK OF NY ELT TTEE            $5,087,971         $72,942,850
            LELA.
826764     INDUSTRIAL COMMISSION.         $4,737,974         $60,863,311
826717     UTAH STATE BOARD OF            $4,706,039        $103,914,544
            REGENTS.
828577     RHODE ISLAND STUDENT           $4,217,950         $97,681,990
            LOAN AUTHORITY.
833264     WELLS FARGO ELT STHEA          $3,608,890         $83,814,523
            INC.
831008     STUDENT LOAN FUNDING           $3,604,935         $72,552,371
            US BANK ELT.
830344     WELLS FARGO ELT MHESAC         $3,251,656         $66,350,212
834086     WELLS FARGO ELT BRAZOS         $3,096,241         $53,575,742
            HEA.
832919     BANK OF NY ELT ALL             $3,036,588         $53,246,222
            STUDENT LOAN COR.
826351     ILL DESIGNATED ACCOUNT         $2,611,876         $52,661,912
            PURCHASE PR.
821666     WELLS FARGO ELT FOR            $2,567,218         $45,034,222
            SLAAA.
827283     WYOMING STUDENT LOAN           $2,542,007         $61,487,189
            CORPORATION.
826966     ALASKA (ACPE).........         $2,460,035         $50,258,274
829691     ZIONS BANK ELT SLFA-WA         $2,087,202         $38,565,684
            INC.
833017     S C STUDENT LLR.......         $1,881,549         $17,466,740
832339     BANK OF NY ELT GTHEA           $1,785,080         $36,960,240
            (92AB).
830351     SC STUDENT LOAN CORP           $1,604,563         $33,220,877
            (SL05).
833691     NELLIE MAE JPMORGAN            $1,538,672         $26,697,813
            CHASE ELT.
834023     MISSOURI HIGHER                $1,529,182         $72,746,901
            EDUCATION LOAN AUTH.
820164     UNION BK CA ELT CHELA          $1,392,916              $3,168
            FUND I (TEFFC).
831692     STUDENT LOAN FUNDING           $1,391,900          $7,961,956
            US BANK ELT.
833741     WELLS FARGO ELT CTSLC          $1,375,356         $29,801,033
            LLC.
833347     BANK OF NY ELT                 $1,321,448         $26,243,226
            PANHANDLE PLAINS HEA.
825659     OKLAHOMA STUDENT LOAN          $1,253,033         $29,069,493
            AUTHORITY.
830628     IDAPP.................           $745,832         $28,202,834
808780     FIFTH THIRD ELT SLFR             $709,541         $11,900,531
            MD 10907A.
832776     JPMORGAN CHASE ELT SMS           $687,419         $13,055,632
            CORP--HI.
833752     BANK OF NY ELT ALL               $684,281         $17,952,418
            STUDENT LOAN COR.
805178     BANK OF NY ELT TTEE              $600,580         $23,137,957
            LELA.
830248     UTAH STATE BOARD OF              $572,615         $12,443,094
            REGENTS/STNF.
812089     TEXAS HIGHER EDUCATION           $424,017         $16,891,628
            COORD BOARD.
831300     MELMAC LLC ZIONS BANK            $325,853         $18,014,051
            ELT.
831785     STUDENT LOAN FUNDING             $296,983          $5,440,874
            US BANK ELT.
831387     BANK OF MISSISSIPPI              $295,997         $12,569,426
            ELT MHEAC.
821614     UNION BANK CA ELT                $249,317   .................
            CHELA FUND I (TEF).
807037     COLLEGE FOUNDATION INC           $193,126          $5,484,040
834096     BANCORPSOUTH ELT MHEAC           $183,356          $8,482,235
834170     BANK OF NY ELT EDSOUTH           $175,307          $3,383,077
833668     SC STUDENT LOAN CORP             $124,154          $2,057,939
            (LL05).
829189     ALABAMA HIGHER                   $101,677          $3,074,842
            EDUCATION LOAN CORP.
834095     TRUSTMARK ELT MHEAC...            $65,978          $4,260,964
828875     COLLEGEINVEST.........            $53,595          $1,207,439
821623     UNION BANK CA ELT                 $37,883   .................
            CHELA FUND I (TEF).
813285     UNION BK CA ELT CHELA             $34,706   .................
            FUND I (TEFFC).
821628     UNION BANK CA ELT                 $29,916                  $0
            CHELA FUND I (TEF).
833174     BANK OF NY ELT ALL                $23,262            $905,667
            STUDENT LOAN COR.
827116     SLF OF IDAHO MARKETING            $20,190                  $0
            ASSN INC.
829064     SOUTHWEST STUDENT SERV            $16,503            $521,059
            TRUST WFB EL.
820163     UNION BANK CA ELT                 $12,940                  $0
            CHELA FUND II (TE).
828200     M H E S A C...........             $4,992            $522,781
834246     US BANK ELT                          $226   .................
            KNOWLEDGEFUNDING OHIO.
834225     STUDENT LENDING WORKS                 $57   .................
            INC.
805095     FIRST NATIONAL BANK OF                ($5)  .................
            JEANERETTE.
823817     JPMORGAN CHASE ELT                   ($14)  .................
            BRAZOS HEA.
833617     US BANK ELT EFSI......               ($14)  .................
834092     M&T BANK ELT PHEAA                   ($21)                 $0
            LOAN TRUST I.
828148     UNIVERSITY FEDERAL                   ($29)  .................
            CREDIT UNION.
833285     US BANK ELT PSFC......               ($43)  .................
808717     JPMORGAN CHASE NA ELT                ($43)  .................
            BRAZOS HEA IN.
824573     ZIONS BANK ELT EFS                   ($87)  .................
            FINANCE CO.
833495     ZIONS ELT EMT CORP....              ($109)  .................
821920     FIRSTRUST SAVINGS BANK              ($111)  .................
833934     ZIONS BANK ELT NELNET               ($151)  .................
            TRUST.
831453     US BANK ELT EDAMERICA.              ($769)  .................
825600     NEW JERSEY HIGHER                 ($1,507)                 $0
            EDUCA ASST AUTH.
834099     UNION BANK CA ELT               ($784,111)                 $0
            CHELA FUND I (TEF)).
826509     ARKANSAS STUDENT LOAN         ($5,968,655)        $74,272,483
            AUTHORITY.
                                  --------------------------------------
               Total.............       $581,296,104     $11,106,045,909
------------------------------------------------------------------------


                          2005 9.5 SAP SUMMARY
------------------------------------------------------------------------
                                              Tax Exempt Loans
                                  --------------------------------------
  Lender                            Special Allowance   Ending Principal
                                        Payments            Balance
------------------------------------------------------------------------
833500     WELLS FARGO ELT NELNET       $177,688,062      $3,026,977,030
            ED LOAN FUND.
828924     AES/PHEAA.............       $101,293,604      $1,729,507,729
826688     KENTUCKY HIGHER ED            $51,890,219        $810,766,884
            STUDENT LOAN COR.
833948     BANK OF NY ELT EDSOUTH        $39,282,038        $699,762,255
830075     VSAC EDUCATION LOAN           $36,111,916        $718,336,382
            FINANCE PROGRAM.
827825     IOWA STUDENT LOAN             $31,287,769        $605,324,814
            LIQUIDITY CORP.
830630     SOUTHWEST STUDENT SERV        $30,968,234        $520,582,111
            TRUST WFB EL.
832095     WELLS FARGO ELT               $26,747,125        $449,047,641
            PANHANDLE PLAINS.
820164     UNION BK CA ELT CHELA         $24,467,330        $329,975,617
            FUND I (TEFFC).
834097     WELLS FARGO ELT NTHEA         $23,323,937        $462,486,498
            INC.
833806     US BANK ELT BHEA......        $23,093,916        $393,742,962
825585     MICHIGAN HIGHER               $20,376,928        $450,996,409
            EDUCATION STUD LOAN.
833211     BANK OF NY ELT GTHEA..        $17,823,455        $220,936,475
832934     BANK OF NY ELT GTHEA          $16,361,856        $151,217,885
            (93AB).
822717     NEW MEXICO EDUC ASST          $16,271,646        $326,534,104
            FOUNDATION.
831008     STUDENT LOAN FUNDING          $15,899,060        $227,530,128
            US BANK ELT.
834071     SLM EDUCATION FINANCE         $14,527,226   .................
            CREDIT CORP.
827866     COLLEGEINVEST.........        $12,629,659        $284,213,538
833691     NELLIE MAE JPMORGAN           $12,278,053         $50,311,950
            CHASE ELT.
899980     INDIANA SECONDARY             $11,943,493        $233,680,646
            MARKET.
805149     BANK OF NY ELT TTEE           $11,278,126        $107,124,886
            LELA.
826509     ARKANSAS STUDENT LOAN         $10,966,627        $268,612,484
            AUTHORITY.
831245     SOUTHWEST STUDENT SRV         $10,547,670        $189,107,512
            TRUST WFB ELT.
831593     JPMORGAN CHASE ELT            $10,349,941                  $0
            GTSLC (96AB).
828863     MISSOURI HIGHER               $10,331,060        $304,572,569
            EDUCATION LOAN AUTH.
833405     US BANK ELT ED LOANS          $10,305,698        $174,003,209
            INC.
831692     STUDENT LOAN FUNDING          $10,182,570        $161,507,049
            US BANK ELT.
829769     UTAH STATE BOARD OF           $10,102,619        $169,990,910
            REGENTS.
833016     SC STUDENT LOAN-93 RES         $8,988,615        $144,520,758
            (SL03).
830631     STUDENT LOAN FUNDING           $8,948,896        $147,542,516
            US BANK ELT.
834099     UNION BANK CA ELT              $7,627,815        $173,922,158
            CHELA FUND I (TEF).
826764     INDUSTRIAL COMMISSION.         $6,592,389         $94,111,474
828868     TRUSTMARK BANK ELT             $6,128,911        $126,468,029
            MHEAC.
826351     ILL DESIGNATED ACCOUNT         $5,800,642         $90,634,395
            PURCHASE PR.
832919     BANK OF NY ELT ALL             $5,093,520         $68,678,726
            STUDENT LOAN COR.
828476     UTAH STATE BOARD OF            $4,964,739        $133,197,009
            REGENTS.
828577     RHODE ISLAND STUDENT           $4,748,651         $95,636,652
            LOAN AUTHORITY.
830344     WELLS FARGO ELT MHESAC         $4,618,439        $120,945,705
833264     WELLS FARGO ELT STHEA          $4,374,596         $87,616,895
            INC.
834086     WELLS FARGO ELT BRAZOS         $4,094,512         $72,051,061
            HEA.
821666     WELLS FARGO ELT FOR            $4,032,091         $50,896,131
            SLAAA.
820163     UNION BANK CA ELT              $3,674,599          $4,017,617
            CHELA FUND II (TE).
832339     BANK OF NY ELT GTHEA           $3,558,893         $45,731,912
            (92AB).
833017     S C STUDENT LLR.......         $3,485,006         $42,755,080
827283     WYOMING STUDENT LOAN           $2,921,208         $70,811,614
            CORPORATION.
808780     FIFTH THIRD ELT SLFR           $2,491,743         $27,959,915
            MD 10907A.
826966     ALASKA (ACPE).........         $2,404,331         $50,235,014
829691     ZIONS BANK ELT SLFA-WA         $2,396,153         $45,325,275
            INC.
833741     WELLS FARGO ELT CTSLC          $2,368,570         $62,465,045
            LLC.
826717     UTAH STATE BOARD OF            $2,181,643        $145,952,647
            REGENTS.
834023     MISSOURI HIGHER                $2,161,068         $95,015,441
            EDUCATION LOAN AUTH.
825659     OKLAHOMA STUDENT LOAN          $1,936,903         $33,256,289
            AUTHORITY.
833347     BANK OF NY ELT                 $1,776,017         $28,990,206
            PANHANDLE PLAINS HEA.
821628     UNION BANK CA ELT              $1,669,391         $12,800,834
            CHELA FUND I (TEF).
830628     IDAPP.................         $1,335,648         $40,390,786
812089     TEXAS HIGHER EDUCATION         $1,303,147         $25,159,870
            COORD BOARD.
830351     SC STUDENT LOAN CORP           $1,248,275         $45,878,614
            (SL05).
813285     UNION BK CA ELT CHELA          $1,154,967         $12,440,671
            FUND I (TEFFC).
805178     BANK OF NY ELT TTEE            $1,043,293         $28,206,702
            LELA.
831640     STUDENT LOAN FUNDING           $1,037,846                  $0
            US BANK ELT.
821623     UNION BANK CA ELT              $1,024,679         $21,041,801
            CHELA FUND I (TEF).
830248     UTAH STATE BOARD OF              $927,051         $16,965,643
            REGENTS/STNF.
831387     BANK OF MISSISSIPPI              $848,309         $15,805,618
            ELT MHEAC.
831299     STUDENT LOAN FUNDING             $807,046   .................
            US BANK ELT.
832776     JPMORGAN CHASE ELT SMS           $700,352         $16,395,135
            CORP--HI.
833668     SC STUDENT LOAN CORP             $626,137          $3,890,796
            (LL05).
831785     STUDENT LOAN FUNDING             $573,244          $7,459,365
            US BANK ELT.
831300     MELMAC LLC ZIONS BANK            $453,860         $23,016,566
            ELT.
807037     COLLEGE FOUNDATION INC           $445,779          $8,339,524
834096     BANCORPSOUTH ELT MHEAC           $430,433         $11,450,137
821614     UNION BANK CA ELT                $276,645          $1,053,869
            CHELA FUND I (TEF).
829189     ALABAMA HIGHER                   $249,645          $4,618,133
            EDUCATION LOAN CORP.
834095     TRUSTMARK ELT MHEAC...           $177,395          $7,193,421
823817     JPMORGAN CHASE ELT               $161,505   .................
            BRAZOS HEA.
808717     JPMORGAN CHASE NA ELT            $129,245   .................
            BRAZOS HEA IN.
828875     COLLEGEINVEST.........           $122,282          $1,773,636
827116     SLF OF IDAHO MARKETING           $109,817          $3,183,063
            ASSN INC.
833174     BANK OF NY ELT ALL                $50,134          $1,547,485
            STUDENT LOAN COR.
829064     SOUTHWEST STUDENT SERV            $41,777            $871,183
            TRUST WFB EL.
833752     BANK OF NY ELT ALL                $34,905          $7,263,341
            STUDENT LOAN COR.
833487     BANK OF NY ELT                    $22,574   .................
            LOANSTAR.
828200     M H E S A C...........            $10,165            $904,738
831453     US BANK ELT EDAMERICA.             $2,355                  $0
888885     SLM ECFC..............             $1,363   .................
831119     MO HIGHER ED LOAN                    $550   .................
            AUTHORITY.
832057     JPMORGAN CHASE ELT                   $319                  $0
            GTSLC.
833253     JPMORGAN CHASE ELT                   $238   .................
            SLMA TRUST MS181.
821920     FIRSTRUST SAVINGS BANK               $111             $29,950
828148     UNIVERSITY FEDERAL                    $29   .................
            CREDIT UNION.
805095     FIRST NATIONAL BANK OF                 $5   .................
            JEANERETTE.
805079     JP MORGAN CHASE ELT                 ($123)  .................
            TTEE LELA.
834092     M&T BANK ELT PHEAA                  ($192)                 $0
            LOAN TRUST I.
833934     ZIONS BANK ELT NELNET               ($254)                 $0
            TRUST.
804959     CLS-NATIONAL CITY BANK              ($727)                 $0
            KENTUCKY.
825600     NEW JERSEY HIGHER                 ($2,121)  .................
            EDUCA ASST AUTH.
834170     BANK OF NY ELT EDSOUTH            ($3,374)                 $0
833659     US BANK ELT THEA INC..            ($6,148)  .................
833495     ZIONS ELT EMT CORP....          ($654,253)                 $0
833617     US BANK ELT EFSI......          ($830,817)  .................
                                  --------------------------------------
               Total.............       $911,222,291     $15,443,268,122
------------------------------------------------------------------------


                          2004 9.5 SAP SUMMARY
------------------------------------------------------------------------
                                              Tax Exempt Loans
                                  --------------------------------------
  Lender                            Special Allowance   Ending Principal
                                        Payments            Balance
------------------------------------------------------------------------
833500     WELLS FARGO ELT NELNET       $165,964,491      $3,339,192,122
            ED LOAN FUND.
828924     AES/PHEAA.............        $94,245,479      $2,311,383,351
833691     NELLIE MAE JPMORGAN           $58,945,506        $366,796,730
            CHASE ELT.
833948     BANK OF NY ELT EDSOUTH        $43,963,416        $797,497,368
826688     KENTUCKY HIGHER ED            $41,119,877      $1,070,239,627
            STUDENT LOAN COR.
830075     VSAC EDUCATION LOAN           $32,826,782        $740,944,702
            FINANCE PROGRAM.
831008     STUDENT LOAN FUNDING          $31,037,558        $475,709,505
            US BANK ELT.
827825     IOWA STUDENT LOAN             $30,830,826        $683,631,789
            LIQUIDITY CORP.
830630     SOUTHWEST STUDENT SERV        $29,684,151        $550,761,841
            TRUST WFB EL.
820164     UNION BK CA ELT CHELA         $26,896,311        $504,522,280
            FUND I (TEFFC).
832095     WELLS FARGO ELT               $22,516,965        $514,752,201
            PANHANDLE PLAINS.
825585     MICHIGAN HIGHER               $21,164,723        $489,247,950
            EDUCATION STUD LOAN.
834097     WELLS FARGO ELT NTHEA         $18,031,831        $509,801,570
            INC.
828863     MISSOURI HIGHER               $16,651,011        $317,323,001
            EDUCATION LOAN AUTH.
833806     US BANK ELT BHEA......        $13,898,231        $517,184,628
820163     UNION BANK CA ELT             $11,262,397        $215,890,951
            CHELA FUND II (TE).
826717     UTAH STATE BOARD OF           $11,121,882        $244,121,663
            REGENTS.
829769     UTAH STATE BOARD OF           $10,717,805        $204,570,100
            REGENTS.
899980     INDIANA SECONDARY             $10,700,910        $271,214,078
            MARKET.
827866     COLLEGEINVEST.........        $10,679,367        $254,431,325
831692     STUDENT LOAN FUNDING          $10,466,391        $166,146,221
            US BANK ELT.
833455     ZIONS FNB ELT NMEAF...        $10,328,327   .................
833016     SC STUDENT LOAN-93 RES         $9,097,091        $201,738,488
            (SL03).
830631     STUDENT LOAN FUNDING           $8,719,417        $142,499,296
            US BANK ELT.
833405     US BANK ELT ED LOANS           $8,253,708        $169,965,769
            INC.
833211     BANK OF NY ELT GTHEA..         $7,361,585        $164,006,075
826509     ARKANSAS STUDENT LOAN          $7,044,031        $182,739,742
            AUTHORITY.
826351     ILL DESIGNATED ACCOUNT         $6,985,563        $117,024,701
            PURCHASE PR.
826764     INDUSTRIAL COMMISSION.         $6,596,849        $103,371,995
831245     SOUTHWEST STUDENT SRV          $5,934,696        $190,947,186
            TRUST WFB ELT.
831299     STUDENT LOAN FUNDING           $5,719,413         $93,090,614
            US BANK ELT.
830344     WELLS FARGO ELT MHESAC         $5,301,677        $114,205,552
822717     NEW MEXICO EDUC ASST           $4,999,746        $323,123,068
            FOUNDATION.
832934     BANK OF NY ELT GTHEA           $4,977,023         $86,411,002
            (93AB).
808780     FIFTH THIRD ELT SLFR           $4,939,979         $75,846,587
            MD 10907A.
821628     UNION BANK CA ELT              $4,436,641         $82,972,203
            CHELA FUND I (TEF).
832919     BANK OF NY ELT ALL             $4,434,016         $77,916,222
            STUDENT LOAN COR.
821666     WELLS FARGO ELT FOR            $4,204,932         $69,862,785
            SLAAA.
828868     TRUSTMARK BANK ELT             $3,929,426         $87,712,640
            MHEAC.
833088     BANK ONE NA TRUSTEE            $3,899,945   .................
            FOR NTHEA.
833017     S C STUDENT LLR.......         $3,353,552         $56,735,313
828577     RHODE ISLAND STUDENT           $3,329,379         $95,024,933
            LOAN AUTHORITY.
833264     WELLS FARGO ELT STHEA          $3,063,498         $69,366,228
            INC.
827283     WYOMING STUDENT LOAN           $2,897,287         $70,928,544
            CORPORATION.
833741     WELLS FARGO ELT CTSLC          $2,883,579         $66,312,905
            LLC.
821623     UNION BANK CA ELT              $2,596,843         $45,241,468
            CHELA FUND I (TEF).
834023     MISSOURI HIGHER                $2,490,650        $117,047,788
            EDUCATION LOAN AUTH.
828476     UTAH STATE BOARD OF            $2,469,654         $52,740,015
            REGENTS.
829691     ZIONS BANK ELT SLFA-WA         $2,372,818         $41,300,532
            INC.
825659     OKLAHOMA STUDENT LOAN          $2,173,014         $35,716,015
            AUTHORITY.
813285     UNION BK CA ELT CHELA          $2,061,163         $41,199,973
            FUND I (TEFFC).
834099     UNION BANK CA ELT              $1,901,702         $70,847,326
            CHELA FUND I (TEF).
833347     BANK OF NY ELT                 $1,880,185         $32,971,477
            PANHANDLE PLAINS HEA.
831387     BANK OF MISSISSIPPI            $1,643,182         $27,783,192
            ELT MHEAC.
832339     BANK OF NY ELT GTHEA           $1,623,020         $33,822,916
            (92AB).
812089     TEXAS HIGHER EDUCATION         $1,544,534         $29,772,965
            COORD BOARD.
831640     STUDENT LOAN FUNDING           $1,430,866         $22,186,105
            US BANK ELT.
826966     ALASKA (ACPE).........         $1,428,616         $31,348,683
805178     BANK OF NY ELT TTEE            $1,374,494         $33,308,294
            LELA.
830351     SC STUDENT LOAN CORP           $1,300,524         $32,011,598
            (SL05).
830628     IDAPP.................         $1,257,000         $39,944,500
831593     JPMORGAN CHASE ELT             $1,246,822         $16,390,928
            GTSLC (96AB).
821614     UNION BANK CA ELT                $963,442         $14,727,917
            CHELA FUND I (TEF).
830248     UTAH STATE BOARD OF              $953,652         $22,537,458
            REGENTS/STNF.
831300     MELMAC LLC ZIONS BANK            $929,420         $31,794,957
            ELT.
833668     SC STUDENT LOAN CORP             $877,654         $12,686,042
            (LL05).
833617     US BANK ELT EFSI......           $834,516                  $0
834086     WELLS FARGO ELT BRAZOS           $804,451         $54,471,862
            HEA.
807037     COLLEGE FOUNDATION INC           $637,097         $11,596,990
832776     JPMORGAN CHASE ELT SMS           $562,109         $13,814,741
            CORP--HI.
831785     STUDENT LOAN FUNDING             $490,083          $7,437,095
            US BANK ELT.
832765     WELLS FARGO BANK ELT             $470,140   .................
            NMEAF.
834096     BANCORPSOUTH ELT MHEAC           $422,949         $17,455,990
829189     ALABAMA HIGHER                   $413,647          $7,026,190
            EDUCATION LOAN CORP.
805079     JP MORGAN CHASE ELT              $267,789              $5,134
            TTEE LELA.
823817     JPMORGAN CHASE ELT               $219,454                  $0
            BRAZOS HEA.
827116     SLF OF IDAHO MARKETING           $198,544          $5,087,693
            ASSN INC.
828875     COLLEGEINVEST.........           $159,206          $2,152,006
834095     TRUSTMARK ELT MHEAC...           $137,782         $10,896,666
833174     BANK OF NY ELT ALL                $73,994          $2,149,982
            STUDENT LOAN COR.
829064     SOUTHWEST STUDENT SERV            $68,553          $1,327,959
            TRUST WFB EL.
831453     US BANK ELT EDAMERICA.            $54,509              $5,109
833495     ZIONS ELT EMT CORP....            $17,408                  $0
828200     M H E S A C...........            $15,674          $1,388,099
829988     NELLIE MAE JPMORGAN                $4,933             $68,418
            CHASE ELT.
824573     ZIONS BANK ELT EFS                 $4,653   .................
            FINANCE CO.
808717     JPMORGAN CHASE NA ELT              $3,985                  $0
            BRAZOS HEA IN.
804959     CLS-NATIONAL CITY BANK             $2,605             $11,337
            KENTUCKY.
831119     MO HIGHER ED LOAN                    $994             $14,332
            AUTHORITY.
832057     JPMORGAN CHASE ELT                   $445             $30,977
            GTSLC.
806466     STATE BANK OF FAIRMONT                $41   .................
818119     FARMERS & MERCHANTS                    $9   .................
            STATE BANK.
832775     JP MORGANCHASE ELT USA                 $2   .................
            GROUP SMS.
821347     OREGONIANS CU.........               ($11)  .................
823990     FAMILY CREDIT UNION...               ($30)  .................
833078     US BANK ELT BSFC......               ($66)  .................
813020     MELLON BANK MARYLAND                ($117)  .................
            REGION.
828384     THE FIRST NATIONAL                  ($123)  .................
            BANK/BALLINGER.
809747     MELLON BANK NA                      ($140)  .................
            (WESTERN REGION).
828737     COUNTYWIDE FEDERAL                  ($156)  .................
            CREDIT UNION.
822239     COMPASS BANK..........              ($228)  .................
804091     IOWA FALLS STATE BANK.              ($235)  .................
805149     BANK OF NY ELT TTEE                 ($258)                 $0
            LELA.
828729     CENTRAL MICHIGAN                    ($338)  .................
            COMMUNITY FED CR U.
828148     UNIVERSITY FEDERAL                  ($512)                 $0
            CREDIT UNION.
833295     TAIWANESE AMERICAN FCU              ($719)  .................
834092     M&T BANK ELT PHEAA                  ($801)                 $0
            LOAN TRUST I.
827291     PEOPLES BANK AND TRUST              ($927)  .................
            COMPANY.
831783     COMMUNITY CHOICE                  ($1,780)  .................
            CREDIT UNION.
825600     NEW JERSEY HIGHER                 ($2,165)                 $0
            EDUCA ASST AUTH.
833659     US BANK ELT THEA INC..            ($2,187)  .................
831651     FIRST NATIONAL BANK OF            ($2,664)                 $0
            COWETA.
817717     BRIDGETON ONIZED FCU..            ($3,658)  .................
834047     UNIVERSITY OF NORTHERN            ($4,473)  .................
            COLORADO.
804655     GREENSBURG STATE BANK.            ($4,907)  .................
827952     EXCHANGE STATE BANK...           ($10,799)  .................
804134     UNITED METHOD                    ($35,323)  .................
            MINISTERS' CU.
                                  --------------------------------------
               Total.............       $885,729,480     $18,107,485,580
------------------------------------------------------------------------


                          2003 9.5 SAP SUMMARY
------------------------------------------------------------------------
                                              Tax Exempt Loans
                                  --------------------------------------
  Lender                            Special Allowance   Ending Principal
                                        Payments            Balance
------------------------------------------------------------------------
833691     NELLIE MAE JPMORGAN           $78,675,283      $1,178,697,172
            CHASE ELT.
828924     AES/PHEAA.............        $60,831,265      $1,474,903,695
833500     WELLS FARGO ELT NELNET        $38,362,110      $1,713,168,009
            ED LOAN FUND.
831008     STUDENT LOAN FUNDING          $32,625,958        $613,901,913
            US BANK ELT.
831453     US BANK ELT EDAMERICA.        $27,910,960          $2,818,796
820164     UNION BK CA ELT CHELA         $27,340,787        $579,720,816
            FUND I (TEFFC).
827825     IOWA STUDENT LOAN             $18,218,039        $371,770,704
            LIQUIDITY CORP.
830075     VSAC EDUCATION LOAN           $16,674,557        $376,722,853
            FINANCE PROGRAM.
825585     MICHIGAN HIGHER               $16,297,070        $433,979,096
            EDUCATION STUD LOAN.
828863     MISSOURI HIGHER               $16,115,479        $343,105,897
            EDUCATION LOAN AUTH.
820163     UNION BANK CA ELT             $14,667,627        $279,486,256
            CHELA FUND II (TE).
833088     BANK ONE NA TRUSTEE           $14,565,432        $523,844,323
            FOR NTHEA.
830630     SOUTHWEST STUDENT SERV        $13,606,742        $443,675,943
            TRUST WFB EL.
833948     BANK OF NY ELT EDSOUTH        $12,409,428        $731,856,034
833455     ZIONS FNB ELT NMEAF...        $11,937,524        $264,347,556
832095     WELLS FARGO ELT               $10,728,192        $324,372,129
            PANHANDLE PLAINS.
831692     STUDENT LOAN FUNDING           $9,838,752        $168,001,806
            US BANK ELT.
899980     INDIANA SECONDARY              $9,263,013        $197,918,837
            MARKET.
829769     UTAH STATE BOARD OF            $8,544,200        $169,792,082
            REGENTS.
830631     STUDENT LOAN FUNDING           $8,318,284        $139,643,822
            US BANK ELT.
827866     COLLEGEINVEST.........         $8,091,712        $208,334,230
826351     ILL DESIGNATED ACCOUNT         $7,899,572        $140,511,889
            PURCHASE PR.
826717     UTAH STATE BOARD OF            $7,861,983        $229,995,733
            REGENTS.
833016     SC STUDENT LOAN-93 RES         $6,764,299         $68,108,896
            (SL03).
833211     BANK OF NY ELT GTHEA..         $6,465,973        $163,391,061
823817     JPMORGAN CHASE ELT             $5,883,464        $136,411,025
            BRAZOS HEA.
821628     UNION BANK CA ELT              $5,408,653        $112,302,037
            CHELA FUND I (TEF).
831299     STUDENT LOAN FUNDING           $5,089,830         $89,305,736
            US BANK ELT.
826688     KENTUCKY HIGHER ED             $5,073,105        $136,312,611
            STUDENT LOAN COR.
826764     INDUSTRIAL COMMISSION.         $4,499,494        $104,907,072
808717     JPMORGAN CHASE NA ELT          $4,310,059         $35,280,976
            BRAZOS HEA IN.
821666     WELLS FARGO ELT FOR            $4,284,619         $68,465,008
            SLAAA.
808780     FIFTH THIRD ELT SLFR           $4,173,252         $65,719,217
            MD 10907A.
830344     WELLS FARGO ELT MHESAC         $4,024,835        $108,386,740
832934     BANK OF NY ELT GTHEA           $3,860,891         $84,468,523
            (93AB).
821623     UNION BANK CA ELT              $3,235,656         $61,249,458
            CHELA FUND I (TEF).
833405     US BANK ELT ED LOANS           $3,173,883         $67,452,344
            INC.
832919     BANK OF NY ELT ALL             $3,122,903         $60,589,875
            STUDENT LOAN COR.
831387     BANK OF MISSISSIPPI            $2,692,150         $63,307,248
            ELT MHEAC.
833017     S C STUDENT LLR.......         $2,532,399         $35,626,528
828868     TRUSTMARK BANK ELT             $2,419,052         $77,484,091
            MHEAC.
828577     RHODE ISLAND STUDENT           $2,400,484         $73,583,427
            LOAN AUTHORITY.
833741     WELLS FARGO ELT CTSLC          $2,297,619         $58,158,647
            LLC.
829691     ZIONS BANK ELT SLFA-WA         $2,119,020         $49,083,113
            INC.
813285     UNION BK CA ELT CHELA          $1,923,004         $48,685,608
            FUND I (TEFFC).
826509     ARKANSAS STUDENT LOAN          $1,921,244         $74,211,364
            AUTHORITY.
812089     TEXAS HIGHER EDUCATION         $1,893,581         $36,523,386
            COORD BOARD.
825659     OKLAHOMA STUDENT LOAN          $1,822,052         $38,174,126
            AUTHORITY.
833347     BANK OF NY ELT                 $1,791,907         $28,743,753
            PANHANDLE PLAINS HEA.
833266     BANK ONE ELT STHEA....         $1,773,145         $47,586,033
831640     STUDENT LOAN FUNDING           $1,547,340         $22,660,287
            US BANK ELT.
805178     BANK OF NY ELT TTEE            $1,518,773         $40,763,210
            LELA.
831245     SOUTHWEST STUDENT SRV          $1,314,890         $43,422,371
            TRUST WFB ELT.
821614     UNION BANK CA ELT              $1,300,545         $19,643,252
            CHELA FUND I (TEF).
830628     IDAPP.................         $1,286,647         $41,433,204
832339     BANK OF NY ELT GTHEA           $1,285,713         $29,806,824
            (92AB).
822717     NEW MEXICO EDUC ASST           $1,151,503         $28,272,251
            FOUNDATION.
832765     WELLS FARGO BANK ELT             $999,725         $21,491,750
            NMEAF.
834023     MISSOURI HIGHER                  $970,155        $129,784,496
            EDUCATION LOAN AUTH.
807037     COLLEGE FOUNDATION INC           $754,079         $14,997,434
833806     US BANK ELT BHEA......           $693,925         $26,587,035
831593     JPMORGAN CHASE ELT               $689,561         $13,148,045
            GTSLC (96AB).
830248     UTAH STATE BOARD OF              $629,224         $14,979,018
            REGENTS/STNF.
831785     STUDENT LOAN FUNDING             $558,738          $7,596,011
            US BANK ELT.
826966     ALASKA (ACPE).........           $478,661         $14,306,569
832776     JPMORGAN CHASE ELT SMS           $432,781         $13,059,569
            CORP--HI.
827116     SLF OF IDAHO MARKETING           $310,113          $8,096,832
            ASSN INC.
830351     SC STUDENT LOAN CORP             $259,730         $33,562,244
            (SL05).
828476     UTAH STATE BOARD OF              $171,218         $11,966,285
            REGENTS.
829064     SOUTHWEST STUDENT SERV           $106,879          $2,323,599
            TRUST WFB EL.
833174     BANK OF NY ELT ALL               $101,738          $2,728,290
            STUDENT LOAN COR.
828875     COLLEGEINVEST.........            $94,662          $2,810,561
833668     SC STUDENT LOAN CORP              $88,623         $14,116,397
            (LL05).
805079     JP MORGAN CHASE ELT               $82,899          $1,459,695
            TTEE LELA.
831119     MO HIGHER ED LOAN                 $65,524             $51,478
            AUTHORITY.
828200     M H E S A C...........            $24,735          $2,047,943
804134     UNITED METHOD                     $24,050            $493,504
            MINISTERS' CU.
832260     WELLS FARGO ELT MHESAC             $8,280   .................
829988     NELLIE MAE JPMORGAN                $6,469             $87,443
            CHASE ELT.
827952     EXCHANGE STATE BANK...             $4,925             $55,617
804655     GREENSBURG STATE BANK.             $4,907            $119,397
834047     UNIVERSITY OF NORTHERN             $4,556            $756,092
            COLORADO.
817717     BRIDGETON ONIZED FCU..             $2,270   .................
831651     FIRST NATIONAL BANK OF             $2,066             $29,014
            COWETA.
817380     TVA CU................             $1,848   .................
819907     JP MORGAN CHASE ELT                $1,841   .................
            TTEE LELA.
804959     CLS-NATIONAL CITY BANK             $1,201             $26,102
            KENTUCKY.
804071     HARTWICK STATE BANK...             $1,132   .................
833295     TAIWANESE AMERICAN FCU               $839             $15,843
832057     JPMORGAN CHASE ELT                   $826             $35,060
            GTSLC.
827291     PEOPLES BANK AND TRUST               $498             $11,009
            COMPANY.
830427     JP MORGAN CHASE ELT                  $313                  $0
            TTEE LELA.
828729     CENTRAL MICHIGAN                     $262             $11,279
            COMMUNITY FED CR U.
806466     STATE BANK OF FAIRMONT               $232             $10,005
828737     COUNTYWIDE FEDERAL                   $176              $7,463
            CREDIT UNION.
828384     THE FIRST NATIONAL                   $123              $4,175
            BANK/BALLINGER.
831455     STUDENT LOAN FUNDING                  $67   .................
            US BANK ELT.
815678     US BANK NA............                $63   .................
808524     CITY BANK & TRUST CO..                $20   .................
821347     OREGONIANS CU.........                $11   .................
833193     S C STUDENT LOAN-                     $10                $814
            TAXABLE.
833307     S C STUDENT LOAN                       $6   .................
            TAXABLE-LLR.
833934     ZIONS BANK ELT NELNET                  $4                  $0
            TRUST.
805095     FIRST NATIONAL BANK OF                 $2   .................
            JEANERETTE.
833495     ZIONS ELT EMT CORP....                 $2                  $0
808237     FIRST NATIONAL BANK &                  $0             $37,252
            TRUST COMPANY.
807743     CITIBANK ELT STUDENT                  ($1)  .................
            LOAN CORP.
831056     WELLS FARGO ELT                      ($44)  .................
            PANHANDLE PLAINS SL.
829486     ESF/TRUSTMARK NATIONAL               ($45)  .................
            BANK.
824821     UNIVERSITY OF DENVER..               ($59)  .................
828949     CBW SCHOOLS FEDERAL                 ($355)                 $0
            CREDIT UNION.
824573     ZIONS BANK ELT EFS                  ($368)  .................
            FINANCE CO.
828947     WYSE FEDERAL CREDIT                 ($713)  .................
            UNION.
825600     NEW JERSEY HIGHER                 ($2,894)                 $0
            EDUCA ASST AUTH.
805149     BANK OF NY ELT TTEE               ($4,173)                 $0
            LELA.
822648     MICHIGAN RURAL                    ($6,465)           $624,081
            REHABILITATION CORPO.
822239     COMPASS BANK..........           ($12,755)                 $0
826651     UNIVERSITY OF MIAMI...           ($56,392)  .................
831821     WELLS FARGO ELT                  ($79,084)  .................
            PANHANDLE PLAINS.
829189     ALABAMA HIGHER                  ($518,861)        $11,175,694
            EDUCATION LOAN CORP.
827283     WYOMING STUDENT LOAN            ($867,884)        $71,440,289
            CORPORATION.
833816     US BANK ELT OHIO              ($1,282,246)  .................
            CENTRIC.
831300     MELMAC LLC ZIONS BANK         ($2,788,259)        $38,121,088
            ELT.
832994     NEW HAMPSHIRE HIGHER         ($11,534,867)  .................
            ED LOAN CORP.
                                  --------------------------------------
               Total.............       $565,570,456     $13,588,263,365
------------------------------------------------------------------------


                          2002 9.5 SAP SUMMARY
------------------------------------------------------------------------
                                              Tax Exempt Loans
                                  --------------------------------------
  Lender                            Special Allowance   Ending Principal
                                        Payments            Balance
------------------------------------------------------------------------
833691     NELLIE MAE JPMORGAN           $81,667,972      $1,199,720,541
            CHASE ELT.
828924     AES/PHEAA.............        $28,291,028      $1,189,679,093
831453     US BANK ELT EDAMERICA.        $23,565,189        $765,567,958
831008     STUDENT LOAN FUNDING          $19,912,337        $663,041,437
            US BANK ELT.
825585     MICHIGAN HIGHER               $14,112,086        $497,383,781
            EDUCATION STUD LOAN.
833500     WELLS FARGO ELT NELNET        $13,309,163        $376,465,236
            ED LOAN FUND.
820164     UNION BK CA ELT CHELA         $13,234,653        $543,758,155
            FUND I (TEFFC).
827825     IOWA STUDENT LOAN             $12,547,774        $373,788,651
            LIQUIDITY CORP.
828863     MISSOURI HIGHER               $12,040,378        $416,594,983
            EDUCATION LOAN AUTH.
830075     VSAC EDUCATION LOAN           $11,528,341        $393,420,365
            FINANCE PROGRAM.
830630     SOUTHWEST STUDENT SERV         $9,723,594        $321,041,286
            TRUST WFB EL.
833088     BANK ONE NA TRUSTEE            $9,247,952        $366,431,965
            FOR NTHEA.
829769     UTAH STATE BOARD OF            $6,955,446        $192,781,410
            REGENTS.
831692     STUDENT LOAN FUNDING           $6,935,880        $164,342,909
            US BANK ELT.
826351     ILL DESIGNATED ACCOUNT         $6,822,046        $183,033,936
            PURCHASE PR.
832994     NEW HAMPSHIRE HIGHER           $6,618,184        $209,999,546
            ED LOAN CORP.
820163     UNION BANK CA ELT              $6,411,766        $383,002,395
            CHELA FUND II (TE).
827866     COLLEGEINVEST.........         $6,293,324        $217,655,698
830631     STUDENT LOAN FUNDING           $6,253,642        $141,191,180
            US BANK ELT.
899980     INDIANA SECONDARY              $6,200,874        $199,779,668
            MARKET.
833016     SC STUDENT LOAN-93 RES         $6,107,365        $182,447,646
            (SL03).
833455     ZIONS FNB ELT NMEAF...         $5,776,014        $160,797,721
823817     JPMORGAN CHASE ELT             $4,738,633        $155,255,245
            BRAZOS HEA.
826688     KENTUCKY HIGHER ED             $4,374,446        $143,543,273
            STUDENT LOAN COR.
832095     WELLS FARGO ELT                $4,333,056        $157,025,862
            PANHANDLE PLAINS.
833211     BANK OF NY ELT GTHEA..         $4,332,264        $158,999,495
826717     UTAH STATE BOARD OF            $4,272,288        $147,798,283
            REGENTS.
831299     STUDENT LOAN FUNDING           $3,450,165         $76,792,814
            US BANK ELT.
829691     ZIONS BANK ELT SLFA-WA         $3,315,020         $39,390,913
            INC.
808717     JPMORGAN CHASE NA ELT          $2,921,723         $99,166,652
            BRAZOS HEA IN.
813285     UNION BK CA ELT CHELA          $2,894,412         $62,704,364
            FUND I (TEFFC).
821628     UNION BANK CA ELT              $2,870,920        $143,926,230
            CHELA FUND I (TEF).
830344     WELLS FARGO ELT MHESAC         $2,768,850         $95,909,968
821666     WELLS FARGO ELT FOR            $2,742,329         $72,532,145
            SLAAA.
832934     BANK OF NY ELT GTHEA           $2,601,631         $84,339,893
            (93AB).
831387     BANK OF MISSISSIPPI            $2,509,386         $86,137,540
            ELT MHEAC.
832339     BANK OF NY ELT GTHEA           $2,359,482         $28,688,240
            (92AB).
833741     WELLS FARGO ELT CTSLC          $2,214,351         $72,080,828
            LLC.
808780     FIFTH THIRD ELT SLFR           $2,127,984         $80,246,304
            MD 10907A.
828577     RHODE ISLAND STUDENT           $2,048,687         $79,105,290
            LOAN AUTHORITY.
821614     UNION BANK CA ELT              $1,995,256         $35,743,670
            CHELA FUND I (TEF).
812089     TEXAS HIGHER EDUCATION         $1,955,774         $56,616,863
            COORD BOARD.
827283     WYOMING STUDENT LOAN           $1,923,118         $68,447,523
            CORPORATION.
826764     INDUSTRIAL COMMISSION.         $1,879,127         $84,503,279
831300     MELMAC LLC ZIONS BANK          $1,877,687        $118,301,571
            ELT.
833405     US BANK ELT ED LOANS           $1,845,806         $47,947,511
            INC.
822717     NEW MEXICO EDUC ASST           $1,774,217         $39,853,643
            FOUNDATION.
832919     BANK OF NY ELT ALL             $1,768,789         $47,272,316
            STUDENT LOAN COR.
828868     TRUSTMARK BANK ELT             $1,482,907         $66,450,618
            MHEAC.
832765     WELLS FARGO BANK ELT           $1,407,549         $44,862,141
            NMEAF.
825659     OKLAHOMA STUDENT LOAN          $1,327,184         $35,151,913
            AUTHORITY.
821623     UNION BANK CA ELT              $1,311,898         $82,866,729
            CHELA FUND I (TEF).
831640     STUDENT LOAN FUNDING           $1,165,453         $26,946,686
            US BANK ELT.
830628     IDAPP.................         $1,098,471         $50,103,526
833017     S C STUDENT LLR.......         $1,088,009         $37,743,174
826509     ARKANSAS STUDENT LOAN          $1,052,635         $50,377,767
            AUTHORITY.
833816     US BANK ELT OHIO               $1,047,493         $25,234,323
            CENTRIC.
833266     BANK ONE ELT STHEA....         $1,037,952         $47,707,530
829189     ALABAMA HIGHER                   $937,782         $17,687,180
            EDUCATION LOAN CORP.
833347     BANK OF NY ELT                   $767,074         $33,578,370
            PANHANDLE PLAINS HEA.
830427     JP MORGAN CHASE ELT              $693,388              $5,804
            TTEE LELA.
805178     BANK OF NY ELT TTEE              $692,530         $48,737,387
            LELA.
807037     COLLEGE FOUNDATION INC           $641,218         $19,385,396
833806     US BANK ELT BHEA......           $641,176         $27,940,728
830248     UTAH STATE BOARD OF              $552,491         $20,474,252
            REGENTS/STNF.
831593     JPMORGAN CHASE ELT               $495,021         $12,387,403
            GTSLC (96AB).
830351     SC STUDENT LOAN CORP             $488,147         $87,161,063
            (SL05).
827116     SLF OF IDAHO MARKETING           $359,109         $12,985,555
            ASSN INC.
831245     SOUTHWEST STUDENT SRV            $353,450         $14,560,598
            TRUST WFB ELT.
831785     STUDENT LOAN FUNDING             $340,856         $10,200,575
            US BANK ELT.
832776     JPMORGAN CHASE ELT SMS           $265,016         $12,932,655
            CORP--HI.
805149     BANK OF NY ELT TTEE              $215,634             $36,009
            LELA.
833668     SC STUDENT LOAN CORP             $186,227                  $0
            (LL05).
831119     MO HIGHER ED LOAN                $110,230          $2,105,226
            AUTHORITY.
829064     SOUTHWEST STUDENT SERV           $104,709          $3,753,045
            TRUST WFB EL.
833174     BANK OF NY ELT ALL               $102,152          $3,835,306
            STUDENT LOAN COR.
832260     WELLS FARGO ELT MHESAC            $94,734          $8,379,925
819907     JP MORGAN CHASE ELT               $87,619          $2,408,569
            TTEE LELA.
805079     JP MORGAN CHASE ELT               $77,102          $2,028,243
            TTEE LELA.
826651     UNIVERSITY OF MIAMI...            $56,392          $2,749,696
828875     COLLEGEINVEST.........            $10,690            $130,472
826966     ALASKA (ACPE).........            $10,628          $2,500,988
804134     UNITED METHOD                      $8,380            $779,857
            MINISTERS' CU.
827952     EXCHANGE STATE BANK...             $5,874            $167,485
817380     TVA CU................             $2,545             $63,742
822648     MICHIGAN RURAL                     $2,506             $50,275
            REHABILITATION CORPO.
828200     M H E S A C...........             $2,379            $178,199
817717     BRIDGETON ONIZED FCU..             $1,021             $85,886
832057     JPMORGAN CHASE ELT                   $705             $42,512
            GTSLC.
831455     STUDENT LOAN FUNDING                 $507             $10,500
            US BANK ELT.
831651     FIRST NATIONAL BANK OF               $503             $48,753
            COWETA.
831419     CHASE TEXAS AS TRUSTEE               $294   .................
            FOR BHEA.
827291     PEOPLES BANK AND TRUST               $277             $12,902
            COMPANY.
829561     B & V CREDIT UNION....               $229   .................
830308     NELLIE MAE JPMORGAN                  $178   .................
            CHASE ELT.
833295     TAIWANESE AMERICAN FCU               $106              $8,124
806466     STATE BANK OF FAIRMONT                $80             $14,200
828729     CENTRAL MICHIGAN                      $77             $12,679
            COMMUNITY FED CR U.
829076     NELLIE MAE JPMORGAN                   $53   .................
            CHASE ELT.
822991     MONROE TELCO FEDERAL                  $20   .................
            CREDIT UNION.
831819     JP MORGAN CHASE ELT                    $6   .................
            TTEE LELA.
832775     JP MORGANCHASE ELT USA                 $5                  $0
            GROUP SMS.
833702     ZIONS ELT NELNET II...                 $1                  $0
808036     M & T BANK EDUCATIONAL                ($0)  .................
            LENDING.
831484     UNION BANK & TRUST--                  ($7)                 $0
            IHELP.
824573     ZIONS BANK ELT EFS                   ($57)                 $0
            FINANCE CO.
825600     NEW JERSEY HIGHER                 ($1,324)                 $0
            EDUCA ASST AUTH.
822318     CABOT & NOI EMPLOYEES             ($1,482)  .................
            CREDIT UNION.
833575     EDUCATION SERVICES                ($1,913)  .................
            FOUNDATION.
833789     ZIONS ELT STUDENT LN             ($38,903)  .................
            FIN ASSOC INC.
829988     NELLIE MAE JPMORGAN             ($230,280)           $150,078
            CHASE ELT.
833207     STUDENT LOAN FUNDING            ($253,731)  .................
            US BANK ELT.
829626     STUDENT LOAN FUNDING            ($751,211)                 $0
            US BANK ELT.
811077     ZIONS FIRST NATIONAL          ($1,592,433)                 $0
            BANK FOR CHELA.
                                  --------------------------------------
           Total.................       $402,907,734     $12,239,289,319
------------------------------------------------------------------------


                          2001 9.5 SAP SUMMARY
------------------------------------------------------------------------
                                              Tax Exempt Loans
                                  --------------------------------------
  Lender                            Special Allowance   Ending Principal
                                        Payments            Balance
------------------------------------------------------------------------
833691     NELLIE MAE JPMORGAN           $53,524,019      $2,387,488,335
            CHASE ELT.
828924     AES/PHEAA.............        $12,793,896        $883,732,849
831453     US BANK ELT EDAMERICA.        $10,124,992        $604,533,520
820164     UNION BK CA ELT CHELA          $9,827,596        $686,781,785
            FUND I (TEFFC).
833500     WELLS FARGO ELT NELNET         $6,535,159        $392,997,065
            ED LOAN FUND.
825585     MICHIGAN HIGHER                $6,347,999        $423,481,750
            EDUCATION STUD LOAN.
828863     MISSOURI HIGHER                $6,314,979        $430,156,562
            EDUCATION LOAN AUTH.
830075     VSAC EDUCATION LOAN            $6,121,467        $377,589,887
            FINANCE PROGRAM.
827825     IOWA STUDENT LOAN              $5,988,363        $378,466,805
            LIQUIDITY CORP.
833088     BANK ONE NA TRUSTEE            $5,796,546        $400,878,120
            FOR NTHEA.
831008     STUDENT LOAN FUNDING           $5,239,395        $510,058,708
            US BANK ELT.
830630     SOUTHWEST STUDENT SERV         $5,009,769        $309,829,380
            TRUST WFB EL.
826351     ILL DESIGNATED ACCOUNT         $4,174,803        $224,857,602
            PURCHASE PR.
831300     MELMAC LLC ZIONS BANK          $4,162,222        $402,406,577
            ELT.
827866     COLLEGEINVEST.........         $3,380,096        $219,952,005
829769     UTAH STATE BOARD OF            $3,112,834        $203,785,301
            REGENTS.
899980     INDIANA SECONDARY              $2,856,104        $189,416,162
            MARKET.
823817     JPMORGAN CHASE ELT             $2,700,075        $179,705,241
            BRAZOS HEA.
833016     SC STUDENT LOAN-93 RES         $2,685,642        $249,079,937
            (SL03).
833455     ZIONS FNB ELT NMEAF...         $2,524,096        $149,800,537
832095     WELLS FARGO ELT                $2,396,021        $171,596,119
            PANHANDLE PLAINS.
830631     STUDENT LOAN FUNDING           $2,374,818        $149,824,308
            US BANK ELT.
832994     NEW HAMPSHIRE HIGHER           $2,317,468        $140,033,914
            ED LOAN CORP.
831692     STUDENT LOAN FUNDING           $2,235,889        $149,938,212
            US BANK ELT.
826717     UTAH STATE BOARD OF            $2,155,198        $131,670,508
            REGENTS.
826688     KENTUCKY HIGHER ED             $2,154,988        $162,440,981
            STUDENT LOAN COR.
833211     BANK OF NY ELT GTHEA..         $2,101,807        $151,622,974
829691     ZIONS BANK ELT SLFA-WA         $2,063,603        $149,325,958
            INC.
821614     UNION BANK CA ELT              $1,920,994         $99,911,567
            CHELA FUND I (TEF).
813285     UNION BK CA ELT CHELA          $1,629,630         $84,447,675
            FUND I (TEFFC).
832339     BANK OF NY ELT GTHEA           $1,533,708         $99,814,098
            (92AB).
831387     BANK OF MISSISSIPPI            $1,469,076        $106,978,561
            ELT MHEAC.
831299     STUDENT LOAN FUNDING           $1,356,174        $100,243,926
            US BANK ELT.
808717     JPMORGAN CHASE NA ELT          $1,337,580         $93,774,412
            BRAZOS HEA IN.
812089     TEXAS HIGHER EDUCATION         $1,280,057         $88,429,490
            COORD BOARD.
821666     WELLS FARGO ELT FOR            $1,274,373         $72,551,318
            SLAAA.
822717     NEW MEXICO EDUC ASST           $1,183,798         $85,316,233
            FOUNDATION.
828577     RHODE ISLAND STUDENT           $1,179,089         $80,993,495
            LOAN AUTHORITY.
830344     WELLS FARGO ELT MHESAC         $1,121,260         $95,672,803
833405     US BANK ELT ED LOANS           $1,103,936         $49,774,209
            INC.
827283     WYOMING STUDENT LOAN           $1,103,641         $70,386,993
            CORPORATION.
832765     WELLS FARGO BANK ELT             $882,179         $58,623,647
            NMEAF.
826764     INDUSTRIAL COMMISSION.           $870,802         $58,332,770
829626     STUDENT LOAN FUNDING             $813,579         $74,422,509
            US BANK ELT.
833741     WELLS FARGO ELT CTSLC            $764,872         $65,820,003
            LLC.
828868     TRUSTMARK BANK ELT               $743,141         $56,652,891
            MHEAC.
811077     ZIONS FIRST NATIONAL             $713,868         $41,371,174
            BANK FOR CHELA.
830628     IDAPP.................           $697,461         $58,588,588
832934     BANK OF NY ELT GTHEA             $690,222         $43,100,831
            (93AB).
832919     BANK OF NY ELT ALL               $684,043         $38,039,909
            STUDENT LOAN COR.
829189     ALABAMA HIGHER                   $659,622         $43,115,591
            EDUCATION LOAN CORP.
825659     OKLAHOMA STUDENT LOAN            $609,020         $36,549,218
            AUTHORITY.
833266     BANK ONE ELT STHEA....           $569,571         $47,154,675
826509     ARKANSAS STUDENT LOAN            $550,228         $56,040,820
            AUTHORITY.
831593     JPMORGAN CHASE ELT               $525,176         $37,823,885
            GTSLC (96AB).
833017     S C STUDENT LLR.......           $518,309         $31,168,754
831640     STUDENT LOAN FUNDING             $452,623         $26,241,986
            US BANK ELT.
830427     JP MORGAN CHASE ELT              $440,670         $33,132,107
            TTEE LELA.
830248     UTAH STATE BOARD OF              $433,816         $36,148,666
            REGENTS/STNF.
805178     BANK OF NY ELT TTEE              $400,247         $22,781,127
            LELA.
833816     US BANK ELT OHIO                 $360,811         $34,042,490
            CENTRIC.
807037     COLLEGE FOUNDATION INC           $349,386         $23,722,293
833806     US BANK ELT BHEA......           $293,546         $22,819,434
833207     STUDENT LOAN FUNDING             $255,185   .................
            US BANK ELT.
827116     SLF OF IDAHO MARKETING           $246,450         $20,700,161
            ASSN INC.
829988     NELLIE MAE JPMORGAN              $245,335            $192,118
            CHASE ELT.
805149     BANK OF NY ELT TTEE              $238,293          $9,975,239
            LELA.
832776     JPMORGAN CHASE ELT SMS           $237,370         $19,902,582
            CORP--HI.
833403     EDUCATION FUNDING                $158,623                  $0
            ASSOCIATION, INC.
833174     BANK OF NY ELT ALL               $134,621          $5,068,945
            STUDENT LOAN COR.
833347     BANK OF NY ELT                   $130,289          $9,901,728
            PANHANDLE PLAINS HEA.
833668     SC STUDENT LOAN CORP             $122,875         $13,033,208
            (LL05).
832260     WELLS FARGO ELT MHESAC           $107,605         $12,240,521
831119     MO HIGHER ED LOAN                $101,081          $6,345,508
            AUTHORITY.
831785     STUDENT LOAN FUNDING              $87,112          $9,736,091
            US BANK ELT.
829064     SOUTHWEST STUDENT SERV            $70,190          $5,767,364
            TRUST WFB EL.
831419     CHASE TEXAS AS TRUSTEE            $66,990          $1,475,736
            FOR BHEA.
819907     JP MORGAN CHASE ELT               $45,997          $2,895,366
            TTEE LELA.
833789     ZIONS ELT STUDENT LN              $41,040          $3,493,355
            FIN ASSOC INC.
805079     JP MORGAN CHASE ELT               $38,090          $2,422,919
            TTEE LELA.
832640     CHASE TEXAS AS TRUSTEE            $25,065                  $0
            FOR BHEA.
822239     COMPASS BANK..........            $12,754   .................
821623     UNION BANK CA ELT                  $2,774              $7,513
            CHELA FUND I (TEF).
833575     EDUCATION SERVICES                 $1,913            $158,685
            FOUNDATION.
828200     M H E S A C...........             $1,680            $239,257
822648     MICHIGAN RURAL                     $1,358             $56,982
            REHABILITATION CORPO.
817380     TVA CU................             $1,311             $77,335
829561     B & V CREDIT UNION....               $685             $45,031
833078     US BANK ELT BSFC......               $545                  $0
822318     CABOT & NOI EMPLOYEES                $520             $21,120
            CREDIT UNION.
831455     STUDENT LOAN FUNDING                 $388             $34,725
            US BANK ELT.
832057     JPMORGAN CHASE ELT                   $330             $72,680
            GTSLC.
829076     NELLIE MAE JPMORGAN                  $217              $2,625
            CHASE ELT.
832347     BANK OF NY ELT GREATER               $211   .................
            TX FOUND.
822991     MONROE TELCO FEDERAL                  $39              $2,625
            CREDIT UNION.
831819     JP MORGAN CHASE ELT                   $24              $2,662
            TTEE LELA.
827800     CHASE TEXAS AS TRUSTEE                $16   .................
            FOR BHEA.
833093     BANK OF NY ELT                        ($0)                 $0
            COLLEGEINVEST.
831245     SOUTHWEST STUDENT SRV                ($17)                 $0
            TRUST WFB ELT.
830308     NELLIE MAE JPMORGAN                  ($37)             $3,401
            CHASE ELT.
810742     CITIZENS STATE BANK...               ($71)  .................
829077     SOUTHWEST STUDENT SERV              ($325)  .................
            TRUST WFB EL.
825600     NEW JERSEY HIGHER                   ($645)                 $0
            EDUCA ASST AUTH.
                                  --------------------------------------
               Total.............       $209,912,235     $13,009,314,732
------------------------------------------------------------------------


                                              FY 2006 SAP SUMMARY FOR BOTH TAXABLE AND TAX EXEMPT BY LENDER
                                                                  [As of February 2007]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                              Tax Exempt Loans                          Taxable Loans                   Total Tax Exempt and Taxable
                                  ----------------------------------------------------------------------------------------------------------------------
   Lender                           Special Allowance   Ending Principal    Special Allowance   Ending Principal    Special Allowance   Ending Principal
                                        Payments        Balance (9/30/06)       Payments        Balance (9/30/06)       Payments       Balance (9/30/06)
--------------------------------------------------------------------------------------------------------------------------------------------------------
833253       JPMORGAN CHASE ELT                   $0      $1,802,329,592     $74,940,356,897      $1,802,329,592     $74,940,356,897
              SLMA TRUST MS181.
826878       CITIBANK NA ELT                      $0        $315,682,238     $11,680,757,944        $315,682,238     $11,680,757,944
              STUDENT LOAN CORP.
833934       ZIONS BANK ELT                    ($151)       $311,440,494     $11,034,155,191        $311,440,343     $11,034,155,191
              NELNET TRUST.
833500       WELLS FARGO ELT            $158,373,973      $2,728,074,557         $53,056,233      $1,704,324,001        $211,430,206      $4,432,398,558
              NELNET ED LOAN FUND.
807929       CITIBANK ELT SLC                     $0        $203,924,816      $7,773,270,449        $203,924,816      $7,773,270,449
              RECEIVABLES I.
828924       AES/PHEAA...........        $59,627,998      $1,196,188,921        $141,365,788      $6,034,052,934        $200,993,786      $7,230,241,855
807176       WELLS FARGO                          $0        $200,422,957      $8,375,680,811        $200,422,957      $8,375,680,811
              EDUCATION FIN SVCS.
833806       US BANK ELT BHEA....        $10,511,074        $254,471,434        $174,175,727      $6,432,933,188        $184,686,801      $6,687,404,622
833835       BANK OF NY ELT                       $0        $154,423,843      $4,463,175,468        $154,423,843      $4,463,175,468
              COLLEGIATE FUNDING
              S.
834072       SLM EDUCATION LOAN                   $0        $125,864,525      $1,171,619,774        $125,864,525      $1,171,619,774
              CORP.
833733       JP MORGAN CHASE ELT                  $0        $121,803,417      $4,181,311,700        $121,803,417      $4,181,311,700
              COLLEGE LOAN CO.
833923       DEUTSCHE BANK ELT                    $0        $120,227,634      $3,910,655,210        $120,227,634      $3,910,655,210
              CLC.
833529       US BANK ELT                          $0        $118,004,365      $2,843,266,812        $118,004,365      $2,843,266,812
              NORTHSTAR.
830005       WACHOVIA EDUCATION                   $0        $113,624,333      $4,551,023,831        $113,624,333      $4,551,023,831
              FINANCE INC.
808851       DEUTSCHE BANK ELT                    $0        $110,906,428      $3,148,735,025        $110,906,428      $3,148,735,025
              ACCESS GROUP.
830630       SOUTHWEST STUDENT           $17,235,161        $307,516,895         $89,150,081      $1,833,104,447        $106,385,242      $2,140,621,342
              SERV TRUST WFB EL.
834071       SLM EDUCATION                        $0         $84,223,286      $5,953,227,258         $84,223,286      $5,953,227,258
              FINANCE CREDIT CORP.
834042       FIFTH THIRD ELT ED                   $0         $80,884,293      $2,248,300,950         $80,884,293      $2,248,300,950
              FUND CAP TRUST.
834023       MISSOURI HIGHER              $1,529,182         $72,746,901         $73,983,094      $2,248,440,652         $75,512,276      $2,321,187,553
              EDUCATION LOAN AUTH.
833948       BANK OF NY ELT              $30,940,457        $564,620,484         $44,019,921      $1,989,870,640         $74,960,378      $2,554,491,124
              EDSOUTH.
833955       ZIONS FNB ELT GCO ED                 $0         $68,007,757      $2,385,571,562         $68,007,757      $2,385,571,562
              LOAN FUND TRUS.
834117       BANK OF NY ELT GOAL                  $0         $65,510,966      $2,843,243,476         $65,510,966      $2,843,243,476
              FINANCIAL LLC.
834223       JPMORGAN CHASE BANK                  $0         $59,630,959      $3,110,590,712         $59,630,959      $3,110,590,712
              ELT WACHOVIA LL.
833860       FIFTH THIRD ELT                      $0         $57,516,028      $1,828,856,055         $57,516,028      $1,828,856,055
              STUDENT LOAN XPRESS.
827825       IOWA STUDENT LOAN           $21,291,088        $412,178,900         $31,938,669      $1,196,943,101         $53,229,757      $1,609,122,001
              LIQUIDITY CORP.
826688       KENTUCKY HIGHER ED          $40,106,950        $699,065,806         $11,571,384        $624,357,973         $51,678,334      $1,323,423,779
              STUDENT LOAN COR.
833405       US BANK ELT ED LOANS         $7,450,821        $133,316,799         $39,479,346      $1,891,047,059         $46,930,167      $2,024,363,858
              INC.
807037       COLLEGE FOUNDATION             $193,126          $5,484,040         $45,629,583      $1,854,427,408         $45,822,708      $1,859,911,448
              INC.
833922       BONY ELT GOAL                        $0         $45,576,486      $1,399,247,664         $45,576,486      $1,399,247,664
              FINANCIAL LLC.
830075       VSAC EDUCATION LOAN         $28,034,326        $530,904,225         $17,352,344        $636,445,046         $45,386,669      $1,167,349,271
              FINANCE PROGRAM.
824756       CITIBANK (NEW YORK                   $0         $38,705,014      $1,018,358,417         $38,705,014      $1,018,358,417
              STATE) SLC.
834059       BONY ELT COLLEGIATE                  $0         $38,620,917      $1,296,946,139         $38,620,917      $1,296,946,139
              FUND SVCS RI/CF.
825585       MICHIGAN HIGHER             $17,561,882        $412,663,043         $17,217,962      $1,123,591,445         $34,779,844      $1,536,254,488
              EDUCATION STUD LOAN.
828863       MISSOURI HIGHER              $8,878,031        $153,817,735         $25,076,192      $1,860,485,566         $33,954,223      $2,014,303,301
              EDUCATION LOAN AUTH.
813830       WACHOVIA EDUCATION                   $0         $33,565,354        $872,043,214         $33,565,354        $872,043,214
              FINANCE INC.
830628       IDAPP...............           $745,832         $28,202,834         $32,560,798      $1,582,646,623         $33,306,630      $1,610,849,457
826351       ILL DESIGNATED               $2,611,876         $52,661,912         $29,601,493        $995,981,796         $32,213,370      $1,048,643,708
              ACCOUNT PURCHASE PR.
834097       WELLS FARGO ELT             $11,976,579        $251,471,061         $18,902,055        $828,644,527         $30,878,634      $1,080,115,588
              NTHEA INC.
828868       TRUSTMARK BANK ELT           $5,808,316        $103,988,173         $24,225,751        $805,120,733         $30,034,067        $909,108,906
              MHEAC.
833872       BANK OF NY ELT GOAL                  $0         $29,978,848      $1,076,047,420         $29,978,848      $1,076,047,420
              FINANCIAL LLC.
833078       US BANK ELT BSFC....                 $0         $29,569,743      $1,029,806,602         $29,569,743      $1,029,806,602
833220       JPMORGAN CHASE ELT                   $0         $29,385,932      $1,603,409,143         $29,385,932      $1,603,409,143
              KEYCORP.
828476       UTAH STATE BOARD OF          $9,613,279        $163,242,746         $18,589,477        $655,079,675         $28,202,756        $818,322,421
              REGENTS.
832095       WELLS FARGO ELT             $18,360,030        $348,849,840          $8,446,118        $455,385,330         $26,806,148        $804,235,170
              PANHANDLE PLAINS.
899980       INDIANA SECONDARY            $6,653,206        $140,764,497         $19,868,346        $732,662,069         $26,521,551        $873,426,566
              MARKET.
800061       SUNTRUST BANK.......                 $0         $26,083,968        $165,814,278         $26,083,968        $165,814,278
833193       S C STUDENT LOAN-                    $0         $26,010,755      $1,194,647,372         $26,010,755      $1,194,647,372
              TAXABLE.
834092       M&T BANK ELT PHEAA                 ($21)                 $0         $25,626,796        $802,776,693         $25,626,775        $802,776,693
              LOAN TRUST I.
834226       BANK OF NY ELT GOAL                  $0         $25,204,317        $837,741,813         $25,204,317        $837,741,813
              CAP FUND TRUST.
827866       COLLEGEINVEST.......        $11,738,633        $253,422,510         $13,239,892        $743,823,698         $24,978,525        $997,246,208
831008       STUDENT LOAN FUNDING         $3,604,935         $72,552,371         $19,822,008        $703,116,150         $23,426,943        $775,668,521
              US BANK ELT.
829691       ZIONS BANK ELT SLFA-         $2,087,202         $38,565,684         $20,973,552        $704,782,171         $23,060,754        $743,347,855
              WA INC.
832994       NEW HAMPSHIRE HIGHER                 $0         $22,482,534        $886,569,918         $22,482,534        $886,569,918
              ED LOAN CORP.
811304       SUNTRUST BANK.......                 $0         $22,239,514        $309,498,641         $22,239,514        $309,498,641
802218       WILMINGTON TRUST ELT                 $0         $21,059,715      $1,778,156,962         $21,059,715      $1,778,156,962
              SLMA ED.
811078       ZIONS BANK ELT SLM                   $0         $20,755,606        $422,507,350         $20,755,606        $422,507,350
              RESOURCES LLC.
809921       PNC EDUCATION LOAN                   $0         $20,486,663        $783,584,233         $20,486,663        $783,584,233
              CTR.
834202       BANK OF NY ELT CIT                   $0         $20,187,612        $829,269,302         $20,187,612        $829,269,302
              ED LOAN TRUST.
830344       WELLS FARGO ELT              $3,251,656         $66,350,212         $16,873,999        $633,139,162         $20,125,656        $699,489,374
              MHESAC.
825659       OKLAHOMA STUDENT             $1,253,033         $29,069,493         $17,917,474        $781,134,433         $19,170,507        $810,203,926
              LOAN AUTHORITY.
822717       NEW MEXICO EDUC ASST        $13,855,233        $259,928,343          $4,815,728        $245,062,012         $18,670,962        $504,990,355
              FOUNDATION.
832775       JP MORGANCHASE ELT                   $0         $17,973,952      $1,175,213,494         $17,973,952      $1,175,213,494
              USA GROUP SMS.
832919       BANK OF NY ELT ALL           $3,036,588         $53,246,222         $14,892,044        $535,045,597         $17,928,633        $588,291,819
              STUDENT LOAN COR.
829076       NELLIE MAE JPMORGAN                  $0         $16,385,510      $1,083,851,451         $16,385,510      $1,083,851,451
              CHASE ELT.
824421       BOA STUDENT BANKING/                 $0         $16,169,392        $841,912,619         $16,169,392        $841,912,619
              CA9-169-04-01.
800097       REGIONS BANK........                 $0         $16,076,023        $793,864,927         $16,076,023        $793,864,927
834170       BANK OF NY ELT                 $175,307          $3,383,077         $15,586,708        $685,230,403         $15,762,014        $688,613,480
              EDSOUTH.
833960       DEUTSCHE BANK ELT                    $0         $15,525,146        $394,691,369         $15,525,146        $394,691,369
              ACCESS GROUP INC.
899989       SLM ECFC............                 $0         $15,220,474      $1,004,571,050         $15,220,474      $1,004,571,050
820177       JP MORGAN CHASE BANK                 $0         $14,864,455        $554,265,414         $14,864,455        $554,265,414
              NA.
834159       ZIONS FNB ELT GCO ED                 $0         $14,475,354        $122,650,717         $14,475,354        $122,650,717
              LN FUND & AFF.
833211       BANK OF NY ELT GTHEA         $7,707,205        $178,406,284          $6,661,187        $393,933,234         $14,368,392        $572,339,518
832260       WELLS FARGO ELT                      $0         $14,205,021        $502,213,947         $14,205,021        $502,213,947
              MHESAC.
834278       BANK OF NY ELT ED                    $0         $14,000,127        $842,491,931         $14,000,127        $842,491,931
              LOAN TRUST IV LLC.
834076       DEUTSCHE BANK ELT                    $0         $12,386,519        $790,373,139         $12,386,519        $790,373,139
              ACADEMIC LOAN GRO.
824690       JPMORGAN CHASE ELT                   $0         $12,068,798      $1,361,648,985         $12,068,798      $1,361,648,985
              SMS.
826717       UTAH STATE BOARD OF          $4,706,039        $103,914,544          $7,320,399        $390,715,417         $12,026,437        $494,629,961
              REGENTS.
834250       DEUTSCHE BANK ELT                    $0         $12,001,382        $546,631,041         $12,001,382        $546,631,041
              SUNTRUST.
831067       CITIBANK (NEW YORK                   $0         $11,971,695        $398,288,582         $11,971,695        $398,288,582
              STATE) SLC.
831245       SOUTHWEST STUDENT            $7,400,183        $141,012,628          $4,339,276        $245,487,022         $11,739,458        $386,499,650
              SRV TRUST WFB ELT.
834119       BANK OF NY ELT GOAL                  $0         $11,361,449          $3,243,823         $11,361,449          $3,243,823
              FINANCIAL LLC.
833670       WELLS FARGO BANK ELT                 $0         $11,080,984        $470,859,927         $11,080,984        $470,859,927
              NHELP III.
834145       BANK OF NY ELT US                    $0         $10,959,501        $270,232,708         $10,959,501        $270,232,708
              EDUCATION LOAN TR.
829739       WACHOVIA EDUCATION                   $0         $10,583,735        $524,546,198         $10,583,735        $524,546,198
              FINANCE INC.
811303       SUNTRUST BANK.......                 $0         $10,484,724        $177,526,126         $10,484,724        $177,526,126
810691       SUNTRUST BANK NA....                 $0         $10,430,396        $436,175,451         $10,430,396        $436,175,451
834086       WELLS FARGO ELT              $3,096,241         $53,575,742          $7,120,401        $488,775,847         $10,216,642        $542,351,589
              BRAZOS HEA.
833617       US BANK ELT EFSI....               ($14)        $10,180,699        $352,142,260         $10,180,685        $352,142,260
816386       BANK OF NORTH DAKOTA                 $0         $10,103,644        $376,079,579         $10,103,644        $376,079,579
805149       BANK OF NY ELT TTEE          $5,087,971         $72,942,850          $4,856,997        $255,393,418          $9,944,968        $328,336,268
              LELA.
806746       BANK OF AMERICA N A.                 $0          $9,873,261        $435,605,399          $9,873,261        $435,605,399
829769       UTAH STATE BOARD OF          $7,039,426        $131,567,279          $2,660,773        $124,595,069          $9,700,199        $256,162,348
              REGENTS.
833264       WELLS FARGO ELT              $3,608,890         $83,814,523          $6,038,460        $322,017,126          $9,647,350        $405,831,649
              STHEA INC.
828577       RHODE ISLAND STUDENT         $4,217,950         $97,681,990          $5,401,630        $239,294,653          $9,619,580        $336,976,643
              LOAN AUTHORITY.
828614       CSLF/SUSIE MAE......                 $0          $9,508,801        $419,755,866          $9,508,801        $419,755,866
830351       SC STUDENT LOAN CORP         $1,604,563         $33,220,877          $7,493,857        $234,577,224          $9,098,419        $267,798,101
              (SL05).
819873       SUNTRUST BANK.......                 $0          $8,788,364        $526,278,762          $8,788,364        $526,278,762
833838       US BANK ELT EDINVEST                 $0          $8,243,928        $240,724,570          $8,243,928        $240,724,570
              CO.
833016       SC STUDENT LOAN-93           $6,545,140         $47,205,330          $1,377,356            $586,640          $7,922,496         $47,791,970
              RES (SL03).
830492       ASSOCIATED BANK NA..                 $0          $7,862,009        $346,870,502          $7,862,009        $346,870,502
822904       CITIBANK ELT STUDENT                 $0          $7,843,123        $554,769,727          $7,843,123        $554,769,727
              LOAN CORP.
811925       JPMORGAN CHASE BANK                  $0          $7,613,852         $89,508,303          $7,613,852         $89,508,303
              NA.
821654       US BANK NA..........                 $0          $7,577,909        $131,357,144          $7,577,909        $131,357,144
833659       US BANK ELT THEA INC                 $0          $7,561,049        $201,875,314          $7,561,049        $201,875,314
807807       JP MORGAN CHASE BANK                 $0          $7,384,789         $44,764,395          $7,384,789         $44,764,395
899995       SLM ECFC............                 $0          $7,127,303        $320,848,659          $7,127,303        $320,848,659
833770       US BANK ELT USEFC...                 $0          $6,938,059        $234,529,690          $6,938,059        $234,529,690
832733       BANK OF AMERICA NA..                 $0          $6,833,225        $336,637,005          $6,833,225        $336,637,005
827283       WYOMING STUDENT LOAN         $2,542,007         $61,487,189          $4,223,420        $226,727,729          $6,765,427        $288,214,918
              CORPORATION.
818334       BANK OF AMERICA N A.                 $0          $6,683,652        $285,051,406          $6,683,652        $285,051,406
832934       BANK OF NY ELT GTHEA         $5,892,372        $121,595,074            $777,078         $39,647,285          $6,669,450        $161,242,359
              (93AB).
833880       CITIZENS BANK C/O                    $0          $6,527,206        $252,951,986          $6,527,206        $252,951,986
              EDUCATION FINANCE.
827273       PNC EDUCATION LOAN                   $0          $6,436,913            $452,051          $6,436,913            $452,051
              CTR C/O G REITER.
830631       STUDENT LOAN FUNDING         $6,089,827        $114,871,881            $261,454         $22,160,434          $6,351,281        $137,032,315
              US BANK ELT.
834081       BANK OF NY ELT US                    $0          $6,335,464        $195,316,428          $6,335,464        $195,316,428
              EDUCATION LOAN TR.
813760       KEY BANK NA.........                 $0          $6,323,068        $103,907,975          $6,323,068        $103,907,975
833457       ZIONS FNB ELT NELNET                 $0          $5,945,741        $589,066,763          $5,945,741        $589,066,763
              I.
831846       BANK OF AMERICA N A.                 $0          $5,776,305        $217,143,227          $5,776,305        $217,143,227
807743       CITIBANK ELT STUDENT                 $0          $5,720,879          $1,427,187          $5,720,879          $1,427,187
              LOAN CORP.
808047       HSBC BANK USA NA....                 $0          $5,720,657        $298,675,840          $5,720,657        $298,675,840
831821       WELLS FARGO ELT                      $0          $5,603,161        $173,403,679          $5,603,161        $173,403,679
              PANHANDLE PLAINS.
815502       NAVY FEDERAL CREDIT                  $0          $5,502,235        $239,737,649          $5,502,235        $239,737,649
              UNION.
833067       AMS EDUCATION LOAN                   $0          $5,401,041        $405,536,647          $5,401,041        $405,536,647
              TRUST.
834064       WELLS FARGO ELT                      $0          $5,357,733            $134,336          $5,357,733            $134,336
              STUD. ASST. MT.
833285       US BANK ELT PSFC....               ($43)         $5,289,227         $58,005,609          $5,289,184         $58,005,609
826764       INDUSTRIAL                   $4,737,974         $60,863,311            $485,663         $34,717,169          $5,223,638         $95,580,480
              COMMISSION.
801871       BOA STDNT BKNG CA9-                  $0          $5,204,274        $124,383,392          $5,204,274        $124,383,392
              169-04-01.
830308       NELLIE MAE JPMORGAN                  $0          $5,165,708        $218,183,144          $5,165,708        $218,183,144
              CHASE ELT.
833890       FIFTH THIRD ELT                      $0          $5,039,685        $308,601,940          $5,039,685        $308,601,940
              STUDENT LOAN XPRESS.
808780       FIFTH THIRD ELT SLFR           $709,541         $11,900,531          $4,159,863        $221,009,292          $4,869,403        $232,909,823
              MD 10907A.
833307       S C STUDENT LOAN                     $0          $4,729,031        $318,724,549          $4,729,031        $318,724,549
              TAXABLE-LLR.
831453       US BANK ELT                       ($769)         $4,597,629        $209,391,740          $4,596,861        $209,391,740
              EDAMERICA.
831455       STUDENT LOAN FUNDING                 $0          $4,578,795        $315,259,912          $4,578,795        $315,259,912
              US BANK ELT.
831300       MELMAC LLC ZIONS               $325,853         $18,014,051          $4,239,761        $225,659,716          $4,565,614        $243,673,767
              BANK ELT.
833079       AMS EDUCATION LOAN                   $0          $4,559,506        $272,276,821          $4,559,506        $272,276,821
              TRUST.
813979       COMMERCE BANK N A...                 $0          $4,552,243        $170,634,968          $4,552,243        $170,634,968
810509       WELLS FARGO                          $0          $4,355,406        $165,660,440          $4,355,406        $165,660,440
              EDUCATIONAL FIN
              SVCS.
831495       BANK OF AMERICA.....                 $0          $3,897,795        $220,149,785          $3,897,795        $220,149,785
821666       WELLS FARGO ELT FOR          $2,567,218         $45,034,222          $1,042,270         $77,606,303          $3,609,488        $122,640,525
              SLAAA.
833347       BANK OF NY ELT               $1,321,448         $26,243,226          $2,090,023        $105,610,457          $3,411,471        $131,853,683
              PANHANDLE PLAINS
              HEA.
830310       BNY ELT COLLEGE                      $0          $3,337,847          $1,845,448          $3,337,847          $1,845,448
              BOARD.
829626       STUDENT LOAN FUNDING                 $0          $3,284,350        $228,192,651          $3,284,350        $228,192,651
              US BANK ELT.
833228       US BANK ELT BEA INC.                 $0          $3,228,731          $5,306,245          $3,228,731          $5,306,245
833207       STUDENT LOAN FUNDING                 $0          $3,154,060        $196,950,834          $3,154,060        $196,950,834
              US BANK ELT.
807745       CITIZENS BANK NA....                 $0          $3,118,154        $128,759,891          $3,118,154        $128,759,891
824515       UNIVERSITY OF                        $0          $3,098,468            $243,243          $3,098,468            $243,243
              PENNSYLVANIA.
829030       CAPITAL ONE NA......                 $0          $3,021,454        $176,911,479          $3,021,454        $176,911,479
833495       ZIONS ELT EMT CORP..              ($109)         $3,015,239         $89,980,020          $3,015,130         $89,980,020
818611       UNIVERSITY OF                        $0          $2,905,647         $92,497,824          $2,905,647         $92,497,824
              WISCONSIN CU.
833471       AMS EDUCATION LOAN                   $0          $2,883,360         $97,914,831          $2,883,360         $97,914,831
              TRUST JPMORGAN E.
834124       DEUTSCHE BANK ELT                    $0          $2,867,731        $118,801,666          $2,867,731        $118,801,666
              K2FINANCIAL LLC.
832547       WACHOVIA EDUCATION                   $0          $2,845,505        $271,569,898          $2,845,505        $271,569,898
              FINANCE INC.
834218       ARIZONA HIGHER ED                    $0          $2,783,783         $72,745,288          $2,783,783         $72,745,288
              LOAN AUTHORITY.
834308       DEUTSCHE BANK ELT                    $0          $2,766,238        $168,749,813          $2,766,238        $168,749,813
              NEXTSTUDENT ELF/M.
814548       US BANK NA..........                 $0          $2,753,069        $117,403,693          $2,753,069        $117,403,693
834051       DEUTSCHE BANK ELT                    $0          $2,730,608            $417,175          $2,730,608            $417,175
              NEXTSTUDENT/NS IN.
830694       US BANK NA..........                 $0          $2,698,011        $156,208,209          $2,698,011        $156,208,209
833074       JPMORGAN CHASE ELT                   $0          $2,692,677        $169,891,428          $2,692,677        $169,891,428
              WELLS FARGO TRUS.
825600       NEW JERSEY HIGHER               ($1,507)                 $0          $2,679,446        $123,716,298          $2,677,939        $123,716,298
              EDUCA ASST AUTH.
834127       US BANK ELT                          $0          $2,672,481        $122,924,298          $2,672,481        $122,924,298
              EDUCATIONAL FUNDING
              SVC.
808959       KEY BANK NA.........                 $0          $2,664,862         $14,840,181          $2,664,862         $14,840,181
820192       UNION BANK CA ELT                    $0          $2,611,956             $52,853          $2,611,956             $52,853
              CHELA FUND I (TEF).
833921       MASSACHUSETTS ED                     $0          $2,538,132        $116,385,653          $2,538,132        $116,385,653
              FINANCING.
826966       ALASKA (ACPE).......         $2,460,035         $50,258,274              $9,697          $1,554,330          $2,469,731         $51,812,604
824135       SUNTRUST BANK.......                 $0          $2,439,223         $14,461,226          $2,439,223         $14,461,226
832347       BANK OF NY ELT                       $0          $2,383,656        $183,551,524          $2,383,656        $183,551,524
              GREATER TX FOUND.
833017       S C STUDENT LLR.....         $1,881,549         $17,466,740            $497,673            $263,528          $2,379,222         $17,730,268
833741       WELLS FARGO ELT              $1,375,356         $29,801,033          $1,002,634         $75,770,804          $2,377,990        $105,571,837
              CTSLC LLC.
829640       SLM ECFC............                 $0          $2,373,440        $157,668,238          $2,373,440        $157,668,238
888885       SLM ECFC............                 $0          $2,351,575        $180,245,373          $2,351,575        $180,245,373
826509       ARKANSAS STUDENT            ($5,968,655)        $74,272,483          $8,284,678        $299,373,748          $2,316,023        $373,646,231
              LOAN AUTHORITY.
833032       NOVA SOUTHEASTERN                    $0          $2,221,131         $16,614,420          $2,221,131         $16,614,420
              UNIVERSITY.
828154       CITIBANK NA.........                 $0          $2,195,298        $216,035,775          $2,195,298        $216,035,775
803688       FIFTH THIRD BANK OF                  $0          $2,167,514        $123,720,822          $2,167,514        $123,720,822
              CENTRAL INDIANA.
830868       UNION BANK & TRUST                   $0          $2,158,514         $18,176,484          $2,158,514         $18,176,484
              COMPANY ASAP.
809081       STILLWATER NATIONAL                  $0          $2,121,695         $74,082,909          $2,121,695         $74,082,909
              BANK & TRUST CO.
827269       US BANK NA..........                 $0          $2,118,347        $108,401,453          $2,118,347        $108,401,453
833702       ZIONS ELT NELNET II.                 $0          $2,096,280        $357,205,490          $2,096,280        $357,205,490
820164       UNION BK CA ELT              $1,392,916              $3,168            $582,322            $331,193          $1,975,238            $334,361
              CHELA FUND I
              (TEFFC).
816086       US BANK NA..........                 $0          $1,962,883        $111,563,725          $1,962,883        $111,563,725
834131       BANK OF NY ELT                       $0          $1,957,501            $189,988          $1,957,501            $189,988
              GOLDMAN SACHS.
830731       NOTRE DAME CREDIT                    $0          $1,950,330         $71,465,903          $1,950,330         $71,465,903
              UNION.
833881       CITIZENS BANK C/O                    $0          $1,918,082         $88,997,882          $1,918,082         $88,997,882
              EDUCATION FINANCE.
810513       WELLS FARGO                          $0          $1,910,139          $6,038,015          $1,910,139          $6,038,015
              EDUCATIONAL FIN
              SVCS.
833691       NELLIE MAE JPMORGAN          $1,538,672         $26,697,813            $359,871         $32,469,911          $1,898,543         $59,167,724
              CHASE ELT.
808877       NATIONAL CITY BANK                   $0          $1,877,327         $12,703,518          $1,877,327         $12,703,518
              OF OHIO.
810388       US BANK NA..........                 $0          $1,866,176         $84,463,646          $1,866,176         $84,463,646
809582       PNC EDUCATION LOAN                   $0          $1,856,504          $2,860,121          $1,856,504          $2,860,121
              CTR.
830604       HSBC BANK USA.......                 $0          $1,828,112         $43,115,212          $1,828,112         $43,115,212
813298       WELLS FARGO                          $0          $1,812,613        $102,513,578          $1,812,613        $102,513,578
              EDUCATION FIN SVCS.
808037       JP MORGANCHASE BANK.                 $0          $1,805,888          $2,844,847          $1,805,888          $2,844,847
820682       SAN ANTONIO FCU.....                 $0          $1,801,427        $129,612,699          $1,801,427        $129,612,699
814321       JPMORGAN CHASE BANK                  $0          $1,793,414          $9,200,269          $1,793,414          $9,200,269
              NA.
832339       BANK OF NY ELT GTHEA         $1,785,080         $36,960,240              $1,990            $780,758          $1,787,070         $37,740,998
              (92AB).
817729       CITIZENS BANK C/O                    $0          $1,763,691         $70,465,282          $1,763,691         $70,465,282
              EDUCATION FINANCE.
831692       STUDENT LOAN FUNDING         $1,391,900          $7,961,956            $352,334         $31,423,824          $1,744,234         $39,385,780
              US BANK ELT.
813894       WELLS FARGO                          $0          $1,725,450         $81,363,754          $1,725,450         $81,363,754
              EDUCATION FIN SVCS.
822583       DOLLAR BANK.........                 $0          $1,691,616         $12,643,205          $1,691,616         $12,643,205
832776       JPMORGAN CHASE ELT             $687,419         $13,055,632            $990,276         $54,377,983          $1,677,695         $67,433,615
              SMS CORP--HI.
833128       SC STUDENT LOAN                      $0          $1,665,457              $8,916          $1,665,457              $8,916
              TAXABLE.
833864       US BANK ELT ACADEMIC                 $0          $1,592,920        $108,775,186          $1,592,920        $108,775,186
              FIN CORP.
819414       BENEFICIAL SAVINGS                   $0          $1,590,920         $71,898,895          $1,590,920         $71,898,895
              BANK.
833570       US BANK ELT ACCESS                   $0          $1,567,997         $59,191,082          $1,567,997         $59,191,082
              GROUP.
833752       BANK OF NY ELT ALL             $684,281         $17,952,418            $863,612         $59,908,581          $1,547,893         $77,860,999
              STUDENT LOAN COR.
821359       FIRST NATIONAL BANK                  $0          $1,544,988         $39,351,990          $1,544,988         $39,351,990
              OF BRYAN.
810612       REGIONS BANK........                 $0          $1,501,607         $17,431,726          $1,501,607         $17,431,726
805317       BANK OF AMERICA.....                 $0          $1,498,939          $7,622,306          $1,498,939          $7,622,306
811698       US BANK NA..........                 $0          $1,485,878         $74,835,812          $1,485,878         $74,835,812
831056       WELLS FARGO ELT                      $0          $1,484,071         $89,084,720          $1,484,071         $89,084,720
              PANHANDLE PLAINS SL.
822573       GEORGIA STUDENT                      $0          $1,472,832         $69,263,687          $1,472,832         $69,263,687
              FINANCE AUTHORITY.
823011       ANCHORBANK F S B....                 $0          $1,429,720         $93,734,160          $1,429,720         $93,734,160
821728       TCF NATIONAL BANK...                 $0          $1,420,971          $3,496,978          $1,420,971          $3,496,978
811323       WACHOVIA EDUCATION                   $0          $1,397,569          $6,603,030          $1,397,569          $6,603,030
              FINANCE INC.
833356       YORK BK CNS ELT 97I                  $0          $1,373,195         $96,980,273          $1,373,195         $96,980,273
              EDUCAID/WACHOVI.
820564       SUNTRUST BANK.......                 $0          $1,356,653         $42,507,133          $1,356,653         $42,507,133
829988       NELLIE MAE JPMORGAN                  $0          $1,325,244         $63,702,208          $1,325,244         $63,702,208
              CHASE ELT.
834082       WELLS FARGO NA ELT                   $0          $1,319,689         $84,839,990          $1,319,689         $84,839,990
              EDUCAP INC.
801890       US BANK NA..........                 $0          $1,315,323         $71,814,047          $1,315,323         $71,814,047
834105       FINANCE AUTHORITY OF                 $0          $1,303,124         $84,797,360          $1,303,124         $84,797,360
              MAINE.
815745       SIMMONS FIRST                        $0          $1,283,663         $63,487,446          $1,283,663         $63,487,446
              NATIONAL BANK.
828141       NORTHWEST SAVINGS                    $0          $1,266,337             $66,448          $1,266,337             $66,448
              BANK.
804267       US BANK NA..........                 $0          $1,241,231         $46,712,572          $1,241,231         $46,712,572
803909       UNION BANK & TRUST..                 $0          $1,213,916         $65,533,889          $1,213,916         $65,533,889
833668       SC STUDENT LOAN CORP           $124,154          $2,057,939          $1,087,813         $61,281,871          $1,211,966         $63,339,810
              (LL05).
808036       M & T BANK                           $0          $1,202,253            $288,568          $1,202,253            $288,568
              EDUCATIONAL LENDING.
805204       CITIZENS BANK C/O                    $0          $1,180,637         $45,536,303          $1,180,637         $45,536,303
              EDUCATION FINANCE.
833456       ZIONS FNB ELT NHELP                  $0          $1,174,786         $39,685,480          $1,174,786         $39,685,480
              II INC.
824206       JPMORGAN CHASE BANK                  $0          $1,164,667          $7,186,088          $1,164,667          $7,186,088
              NA.
824650       WELLS FARGO                          $0          $1,146,631         $62,854,858          $1,146,631         $62,854,858
              EDUCATION FIN SVCS.
834011       FIFTH THIRD ELT                      $0          $1,126,717         $76,841,810          $1,126,717         $76,841,810
              STUDENT LOAN XPRESS.
831416       ANCHORBANK FSB......                 $0          $1,108,530         $95,895,899          $1,108,530         $95,895,899
834172       US BANK ELT GRADUATE                 $0          $1,105,957         $16,763,617          $1,105,957         $16,763,617
              LEVERAGE.
828707       SOVEREIGN BANK......                 $0          $1,104,340         $45,894,529          $1,104,340         $45,894,529
807674       BANK OF AMERICA N A.                 $0          $1,102,626         $47,605,912          $1,102,626         $47,605,912
833883       CITIZENS BANK C/O                    $0          $1,052,872         $21,971,422          $1,052,872         $21,971,422
              EDUCATION FINANCE.
833816       US BANK ELT OHIO                     $0          $1,047,102         $36,488,233          $1,047,102         $36,488,233
              CENTRIC.
810148       CLS--NATIONAL CITY                   $0          $1,009,846          $5,050,766          $1,009,846          $5,050,766
              BANK PITTSBURG.
806773       BOONE COUNTY                         $0          $1,009,678         $19,921,177          $1,009,678         $19,921,177
              NATIONAL BANK.
826079       BANK OF AMERICA N A.                 $0            $996,456         $40,344,830            $996,456         $40,344,830
834158       BANK OF NY ELT                       $0            $991,247            $659,745            $991,247            $659,745
              COLLEGE SOLUTIONS
              NE.
829503       PA HIGHER ED ASST                    $0            $962,633         $21,228,386            $962,633         $21,228,386
              AGENCY.
804609       US BANK NA..........                 $0            $960,725         $47,155,192            $960,725         $47,155,192
808258       US BANK NA..........                 $0            $955,083         $54,642,469            $955,083         $54,642,469
833732       US BANK ELT                          $0            $934,110          $3,145,736            $934,110          $3,145,736
              AMERIFUND.
813385       MEMBERS 1ST FEDERAL                  $0            $926,491         $34,267,174            $926,491         $34,267,174
              CREDIT UNION.
824514       UNIVERSITY OF                        $0            $892,757         $25,838,212            $892,757         $25,838,212
              CHICAGO.
821920       FIRSTRUST SAVINGS                 ($111)           $889,420         $32,254,627            $889,310         $32,254,627
              BANK.
831221       SC STUDENT LOAN                      $0            $856,898                  $0            $856,898                  $0
              CORPORATION.
808626       JPMORGAN CHASE BANK                  $0            $856,378             $85,362            $856,378             $85,362
              NA.
834093       WEBSTER UNIVERSITY..                 $0            $850,828          $2,029,694            $850,828          $2,029,694
808140       CHARTER ONE BANK NA.                 $0            $835,765         $37,148,049            $835,765         $37,148,049
834246       US BANK ELT                        $226            $834,584         $58,592,235            $834,809         $58,592,235
              KNOWLEDGEFUNDING
              OHIO.
810883       FROST NATIONAL BANK.                 $0            $828,510         $19,098,314            $828,510         $19,098,314
817455       ZIONS BANK..........                 $0            $823,376         $36,693,546            $823,376         $36,693,546
811949       M&I MARSHALL &                       $0            $816,884          $4,563,367            $816,884          $4,563,367
              ILSLEY BANK.
819590       SECURITY SERVICE FCU                 $0            $813,973         $44,148,006            $813,973         $44,148,006
822373       AMERICA FIRST CREDIT                 $0            $804,989         $36,175,943            $804,989         $36,175,943
              UNION.
833820       ZIONS ELT EDUCATION                  $0            $800,735          $3,036,199            $800,735          $3,036,199
              SOLUTIONS INC.
834132       HANCOCK BANK ELT                     $0            $798,930         $37,662,768            $798,930         $37,662,768
              MHEAC.
805178       BANK OF NY ELT TTEE            $600,580         $23,137,957            $196,885         $13,444,894            $797,465         $36,582,851
              LELA.
808543       UNION BANK & TRUST..                 $0            $792,752          $5,424,546            $792,752          $5,424,546
806361       BREMER BANK NA......                 $0            $786,220         $36,115,943            $786,220         $36,115,943
829077       SOUTHWEST STUDENT                    $0            $772,177         $48,595,148            $772,177         $48,595,148
              SERV TRUST WFB EL.
804435       COMMERCE BANK AND                    $0            $759,942         $43,789,998            $759,942         $43,789,998
              TRUST.
819958       FARMERS SAVINGS BANK                 $0            $759,369         $15,252,377            $759,369         $15,252,377
823584       BANK OF LAKE MILLS..                 $0            $731,683          $3,600,131            $731,683          $3,600,131
833789       ZIONS ELT STUDENT LN                 $0            $728,851         $43,831,618            $728,851         $43,831,618
              FIN ASSOC INC.
812265       CITIZENS BANK C/O                    $0            $726,467         $31,010,542            $726,467         $31,010,542
              EDUCATION FINANCE.
810457       FNB SIOUX FALLS.....                 $0            $720,050              $9,062            $720,050              $9,062
833214       STUDENT LOAN FUNDING                 $0            $718,588         $39,819,685            $718,588         $39,819,685
              US BANK ELT.
820043       WASHINGTON MUTUAL                    $0            $716,020            $415,735            $716,020            $415,735
              BANK FA.
802445       WACHOVIA EDUCATION                   $0            $714,772         $11,365,416            $714,772         $11,365,416
              FINANCE INC.
834006       KEY BANK NA ELT                      $0            $688,571          $2,633,540            $688,571          $2,633,540
              INDIANA SECONDARY M.
827954       GUARANTY BANK.......                 $0            $676,733          $4,724,332            $676,733          $4,724,332
812089       TEXAS HIGHER                   $424,017         $16,891,628            $251,411         $16,112,294            $675,428         $33,003,922
              EDUCATION COORD
              BOARD.
833331       USC CREDIT UNION....                 $0            $673,880         $29,306,292            $673,880         $29,306,292
802176       BANK OF AMERICA.....                 $0            $659,382          $1,890,601            $659,382          $1,890,601
833443       COMPASS BANK........                 $0            $652,746         $34,424,569            $652,746         $34,424,569
834004       FIRST NATIONAL BANK.                 $0            $636,552          $4,542,076            $636,552          $4,542,076
833908       FIFTH THIRD ELT                      $0            $623,214          $5,703,629            $623,214          $5,703,629
              STUDENT LOAN XPRESS.
829771       TCF NATIONAL BANK...                 $0            $620,503            $141,566            $620,503            $141,566
833487       BANK OF NY ELT                       $0                  $0            $619,173         $24,257,024            $619,173         $24,257,024
              LOANSTAR.
810240       CITIZENS BANK C/O                    $0            $612,565         $30,834,135            $612,565         $30,834,135
              EDUCATION FINANCE.
820163       UNION BANK CA ELT               $12,940                  $0            $594,319            $439,200            $607,259            $439,200
              CHELA FUND II (TE).
828893       PENNSYLVANIA STATE                   $0            $605,136         $25,980,472            $605,136         $25,980,472
              EMPLOYEES CREDIT.
818260       FIRST HAWAIIAN BANK.                 $0            $604,450         $30,109,871            $604,450         $30,109,871
824246       CONNECTICUT STUDENT                  $0            $604,034         $22,645,855            $604,034         $22,645,855
              LOAN FOUNDATION.
816376       TINKER FEDERAL                       $0            $600,361         $34,106,833            $600,361         $34,106,833
              CREDIT UNION.
821614       UNION BANK CA ELT              $249,317            $342,927            $107,157            $592,244            $107,157
              CHELA FUND I (TEF).
834040       WELLS FARGO ELT OPUS                 $0            $588,256            $989,146            $588,256            $989,146
              FINANCIAL INC.
827427       MISSION FEDERAL                      $0            $579,561         $21,973,311            $579,561         $21,973,311
              CREDIT UNION.
834204       FIFTH THIRD BANK ELT                 $0            $573,416         $25,001,032            $573,416         $25,001,032
              FINANSURE STUD.
830248       UTAH STATE BOARD OF            $572,615         $12,443,094                  $0            $572,615         $12,443,094
              REGENTS/STNF.
805156       JPMORGAN CHASE BANK                  $0            $571,243          $3,142,300            $571,243          $3,142,300
              NA.
828957       PHILADELPHIA FEDERAL                 $0            $570,306         $23,769,305            $570,306         $23,769,305
              CREDIT UNION.
808190       TEACHERS FCU........                 $0            $570,091         $24,459,881            $570,091         $24,459,881
808857       JPMORGAN CHASE BANK                  $0            $560,748          $6,538,059            $560,748          $6,538,059
              NA.
831543       WASHINGTON MUTUAL                    $0            $558,840          $2,680,739            $558,840          $2,680,739
              BANK FA.
833174       BANK OF NY ELT ALL              $23,262            $905,667            $535,552         $68,339,754            $558,814         $69,245,421
              STUDENT LOAN COR.
828875       COLLEGEINVEST.......            $53,595          $1,207,439            $500,090         $27,629,717            $553,684         $28,837,156
810815       FIRST NATIONAL BANK.                 $0            $549,131         $33,695,801            $549,131         $33,695,801
833585       JPMORGANCHASE ELT                    $0            $548,273         $27,978,860            $548,273         $27,978,860
              AMS FINANCING ENT.
831428       MIDWESTERN                           $0            $546,465          $2,077,022            $546,465          $2,077,022
              UNIVERSITY.
811978       WELLS FARGO                          $0            $540,224         $32,240,818            $540,224         $32,240,818
              EDUCATIONAL FIN
              SVCS.
800635       BOA STUDENT BANKING/                 $0            $537,944         $24,001,213            $537,944         $24,001,213
              CA9-169-04-01.
809063       BANK OF OKLAHOMA....                 $0            $532,789          $7,749,693            $532,789          $7,749,693
828148       UNIVERSITY FEDERAL                 ($29)           $525,861            $521,259            $525,832            $521,259
              CREDIT UNION.
828078       COMPASS BANK........                 $0            $523,061         $33,549,363            $523,061         $33,549,363
806965       US BANK NA..........                 $0            $520,642         $23,502,153            $520,642         $23,502,153
805987       COMERICA BANK.......                 $0            $517,134            $333,522            $517,134            $333,522
834101       US BANK ELT SCHOOL                   $0            $516,005         $16,357,111            $516,005         $16,357,111
              LOANS CORP.
809478       M &T BANK                            $0            $512,935          $1,046,750            $512,935          $1,046,750
              EDUCATIONAL LENDING.
808622       FIRSTMERIT BANK N.             $511,245         $24,050,927            $511,245         $24,050,927
              A$0.
833751       BANK OF NY ELT ALL                   $0            $503,284         $53,546,992            $503,284         $53,546,992
              STUDENT LOAN COR.
830445       AGGIELAND CREDIT                     $0            $488,915         $21,004,285            $488,915         $21,004,285
              UNION.
813721       TRUSTMARK NATIONAL                   $0            $487,581            $332,109            $487,581            $332,109
              BANK.
823291       FIRSTMARK CREDIT                     $0            $486,518              $2,658            $486,518              $2,658
              UNION.
807329       CITIZENS BANK C/O                    $0            $464,394         $16,836,386            $464,394         $16,836,386
              EDUCATION FINANCE.
833364       JPMORGAN CHASE ELT                   $0            $462,979         $94,605,451            $462,979         $94,605,451
              PNC.
819628       JPMORGAN CHASE BANK                  $0            $461,600          $1,512,004            $461,600          $1,512,004
              NA.
804581       EMPRISE BANK........                 $0            $460,964         $24,387,568            $460,964         $24,387,568
832384       WELLS FARGO                          $0            $456,230         $30,059,956            $456,230         $30,059,956
              EDUCATION FIN SVCS.
831387       BANK OF MISSISSIPPI            $295,997         $12,569,426            $156,170         $26,424,912            $452,166         $38,994,338
              ELT MHEAC.
824289       LASALLE BANK........                 $0            $446,335          $1,290,887            $446,335          $1,290,887
818464       SUNCOAST SCHOOLS FCU                 $0            $446,262         $18,732,294            $446,262         $18,732,294
801764       WELLS FARGO                          $0            $444,805             $60,114            $444,805             $60,114
              EDUCATION FIN SVCS.
819480       EDUCATORS CREDIT                     $0            $443,003         $21,579,334            $443,003         $21,579,334
              UNION.
833669       UNION BANK & TRUST                   $0            $438,967          $1,393,835            $438,967          $1,393,835
              ELT NAT'L ED LNS.
817546       MOUNTAIN AMERICA                     $0            $438,437         $19,582,424            $438,437         $19,582,424
              CREDIT UNION.
806627       BANCORPSOUTH........                 $0            $435,975             $74,787            $435,975             $74,787
820238       BANC FIRST..........                 $0            $435,412         $24,189,367            $435,412         $24,189,367
831726       BANC FIRST..........                 $0            $430,097         $13,149,428            $430,097         $13,149,428
833930       UNION BANK ELT                       $0            $427,032         $13,410,499            $427,032         $13,410,499
              TROJAN FINANCIAL.
828352       JPMORGAN CHASE BANK                  $0            $426,109          $1,225,455            $426,109          $1,225,455
              NA.
803143       ALBANY BANK AND                      $0            $423,235            $757,113            $423,235            $757,113
              TRUST CO.
828062       DOW CHEMICAL                         $0            $421,514         $17,296,566            $421,514         $17,296,566
              EMPLOYEES' CU.
810753       COMMERCIAL BANK OF                   $0            $420,455         $19,879,101            $420,455         $19,879,101
              TEXAS N A.
811353       SUNTRUST BANK.......                 $0            $410,913         $14,305,335            $410,913         $14,305,335
810088       FULTON BANK.........                 $0            $409,154         $18,652,555            $409,154         $18,652,555
815678       US BANK NA..........                 $0            $399,267         $17,115,477            $399,267         $17,115,477
811025       KEY BANK NA.........                 $0            $399,222         $10,008,059            $399,222         $10,008,059
822135       TCF NATIONAL BANK...                 $0            $398,077          $3,076,875            $398,077          $3,076,875
823459       ROYAL CREDIT UNION..                 $0            $388,700         $18,133,551            $388,700         $18,133,551
811735       BANK OF AMERICA NA..                 $0            $387,926         $12,167,032            $387,926         $12,167,032
805243       BANK OF AMERICA.....                 $0            $382,275          $1,326,982            $382,275          $1,326,982
824565       NORTHWESTERN                         $0            $381,068         $11,748,595            $381,068         $11,748,595
              UNIVERSITY.
810166       UNIVEST NATIONAL                     $0            $377,389         $14,102,649            $377,389         $14,102,649
              BANK & TRUST.
808865       JPMORGAN CHASE BANK                  $0            $375,719          $8,484,936            $375,719          $8,484,936
              NA.
810710       AMARILLO NATIONAL                    $0            $374,534         $16,700,717            $374,534         $16,700,717
              BANK.
826861       CITIZENS BANK C/O                    $0            $374,086         $18,316,088            $374,086         $18,316,088
              EDUCATION FINANCE.
833130       SUMMIT CREDIT UNION.                 $0            $364,823         $13,278,282            $364,823         $13,278,282
819129       BANK MUTUAL.........                 $0            $361,719         $16,317,046            $361,719         $16,317,046
831459       WESTCONSIN CREDIT                    $0            $360,860         $14,853,331            $360,860         $14,853,331
              UNION.
825509       JPMORGAN CHASE BANK                  $0            $358,836          $1,185,978            $358,836          $1,185,978
              N A.
802828       NATIONAL CITY BANK                   $0            $357,631         $10,292,596            $357,631         $10,292,596
              MI-IL.
829257       PURDUE EMPLOYEES F C                 $0            $351,402             $67,394            $351,402             $67,394
              U.
824821       UNIVERSITY OF DENVER                 $0            $344,761                  $0            $344,761                  $0
824945       MICHIGAN STATE                       $0            $342,803                  $0            $342,803                  $0
              UNIVERSITY.
833575       EDUCATION SERVICES                   $0            $338,511            $909,020            $338,511            $909,020
              FOUNDATION.
800301       ARVEST BANK.........                 $0            $338,231          $1,073,618            $338,231          $1,073,618
811930       US BANK NA..........                 $0            $338,023         $17,475,823            $338,023         $17,475,823
809070       BANC FIRST..........                 $0            $336,822         $13,580,878            $336,822         $13,580,878
825163       GEORGE WASHINGTON                    $0            $332,016            $282,293            $332,016            $282,293
              UNIVERSITY.
833416       FIRST NAT'L BANK--                   $0            $323,684         $17,347,345            $323,684         $17,347,345
              HUNTSVILLE.
808238       FIRST NATIONAL BANK                  $0            $323,189         $12,845,187            $323,189         $12,845,187
              OF OMAHA.
834058       DEUTSCHE BANK ELT                    $0            $322,888         $14,573,121            $322,888         $14,573,121
              MEDPREFERRED.
807878       FIRST NIAGARA                        $0            $322,697         $20,613,004            $322,697         $20,613,004
              FINANCIAL GROUP.
829505       WASHINGTON MUTUAL                    $0            $322,420            $112,712            $322,420            $112,712
              BANK FA.
834036       UNION BANK ELT WAYNE                 $0            $316,460            $316,460                  $0
              STATE U.
812967       PENN SECURITY BANK &                 $0            $314,750         $12,919,099            $314,750         $12,919,099
              TRUST CO.
820605       KLEBERG FIRST                        $0            $313,277         $15,362,989            $313,277         $15,362,989
              NATIONAL BANK.
807772       FIVE STAR BANK......                 $0            $312,808             $63,634            $312,808             $63,634
831785       STUDENT LOAN FUNDING           $296,983          $5,440,874             $10,675          $1,150,439            $307,659          $6,591,313
              US BANK ELT.
824697       OXFORD BANK & TRUST.                 $0            $307,115         $14,763,688            $307,115         $14,763,688
829123       UTAH COMMUNITY                       $0            $306,941         $13,757,613            $306,941         $13,757,613
              CREDIT UNION.
808956       JPMORGAN CHASE BANK                  $0            $303,536         $48,044,014            $303,536         $48,044,014
              NA.
831003       ARVEST BANK NORMAN..                 $0            $300,059         $12,536,082            $300,059         $12,536,082
823546       UNIVERSITY OF                        $0            $299,362            $721,773            $299,362            $721,773
              MISSOURI-KANSAS
              CITY.
828943       ERIE FCU............                 $0            $293,041         $10,244,155            $293,041         $10,244,155
820807       REGIONS BANK........                 $0            $291,707         $15,313,057            $291,707         $15,313,057
833314       PLAINSCAPITAL BANK..                 $0            $289,121                  $0            $289,121                  $0
809514       FIRST COMMONWEALTH..                 $0            $288,503         $11,045,786            $288,503         $11,045,786
833197       DAUPHIN CNS ELT 95I                  $0            $286,311              $3,369            $286,311              $3,369
              EDUCAID/WACHOVI.
803238       THE NATIONAL BANK...                 $0            $284,281              $5,245            $284,281              $5,245
807015       FIRST INTERSTATE                     $0            $283,468          $8,599,921            $283,468          $8,599,921
              BANK OF MONTANA.
831643       ROSALIND FRANKLIN                    $0            $281,128             $61,950            $281,128             $61,950
              UNIV/MED&SCIENCE.
831836       ORANGE COUNTY                        $0            $280,900         $13,218,986            $280,900         $13,218,986
              TEACHERS FCU.
833963       US BANK ELT ACAPITA.                 $0            $280,785         $16,085,468            $280,785         $16,085,468
834037       TUFTS UNIVERSITY....                 $0            $280,602             $22,222            $280,602             $22,222
821628       UNION BANK CA ELT               $29,916                  $0            $249,643            $652,584            $279,558            $652,584
              CHELA FUND I (TEF).
803310       JPMORGAN CHASE BANK                  $0            $278,414          $3,245,543            $278,414          $3,245,543
              NA.
826651       UNIVERSITY OF MIAMI.                 $0            $270,515            $453,832            $270,515            $453,832
810563       FIRST TENNESSEE BANK                 $0            $265,627            $126,555            $265,627            $126,555
804189       SECURITY NATIONAL                    $0            $263,829          $9,321,387            $263,829          $9,321,387
              BANK.
821375       ALTRA FCU...........                 $0            $261,028          $9,353,314            $261,028          $9,353,314
802560       SUNTRUST BANK.......                 $0            $260,367         $10,228,961            $260,367         $10,228,961
808628       US BANK NA..........                 $0            $259,679         $14,337,251            $259,679         $14,337,251
818093       JPMORGAN CHASE BANK                  $0            $259,433          $1,194,043            $259,433          $1,194,043
              NA.
833102       TSB MCALLEN- ELT                     $0            $254,236         $12,015,251            $254,236         $12,015,251
              COSTEP.
834060       US BANK ELT                          $0            $249,538          $1,651,785            $249,538          $1,651,785
              EDAMERICA.
809094       ARVEST BANK.........                 $0            $248,682         $12,973,914            $248,682         $12,973,914
821176       KANSAS STATE BANK OF                 $0            $248,607            $159,716            $248,607            $159,716
              MANHATTAN KS.
824310       WASHINGTON                           $0            $248,527              $8,460            $248,527              $8,460
              UNIVERSITY.
805974       JPMORGAN CHASE BANK                  $0            $245,518            $682,789            $245,518            $682,789
              NA.
824890       REGIS UNIVERSITY....                 $0            $241,519             $60,486            $241,519             $60,486
830674       WELLS FARGO                          $0            $240,149         $16,171,173            $240,149         $16,171,173
              EDUCATION FIN SVCS.
831036       INDEPENDENCE FSB....                 $0            $238,206          $4,920,253            $238,206          $4,920,253
833738       PALMER COLLEGE OF                    $0            $237,751                  $0            $237,751                  $0
              CHIROPRACTIC.
830526       ST LOUIS COMMUNITY                   $0            $237,154          $8,623,664            $237,154          $8,623,664
              CREDIT UNION.
834096       BANCORPSOUTH ELT               $183,356          $8,482,235             $51,173          $3,849,670            $234,529         $12,331,905
              MHEAC.
811111       SUNTRUST BANK.......                 $0            $234,449        $132,375,855            $234,449        $132,375,855
827305       UNIVERSITY CREDIT                    $0            $232,857         $10,223,683            $232,857         $10,223,683
              UNION.
833895       ZIONS ELT NELNET                     $0            $230,573        $724,431,823            $230,573        $724,431,823
              MGMT CORP-1 & AFF.
830489       COMERICA BANK.......                 $0            $227,181         $10,433,934            $227,181         $10,433,934
810742       CITIZENS STATE BANK.                 $0            $224,727          $5,866,170            $224,727          $5,866,170
834111       US BANK ELT PCOM                     $0            $224,594             $44,351            $224,594             $44,351
              STUDENT LOAN LLC.
833901       BANK OF NY ELT US                    $0            $223,376                  $0            $223,376                  $0
              EDUCATION LOAN TR.
834048       KANSAS CITY UNIV MED                 $0            $223,038                  $0            $223,038                  $0
              & BIO SCI.
831506       COMMUNITY TRUST BANK                 $0            $221,775         $12,026,509            $221,775         $12,026,509
827526       MISSOULA FEDERAL                     $0            $220,717          $6,467,257            $220,717          $6,467,257
              CREDIT UNION.
830132       UNIVERSITY OF UTAH                   $0            $219,517          $9,590,992            $219,517          $9,590,992
              CU.
824837       AMERICAN UNIVERSITY.                 $0            $214,843            $110,030            $214,843            $110,030
813331       CHARLEROI FEDERAL                    $0            $210,665          $7,997,110            $210,665          $7,997,110
              SAVINGS & LOAN.
834129       UNIVERSITY OF SAN                    $0            $210,610              $2,258            $210,610              $2,258
              FRANCISCO.
833965       UNIVERSITY OF MD                     $0            $209,449                  $0            $209,449                  $0
              BALTIMORE.
815961       UNITED MISSOURI BANK                 $0            $209,126          $7,561,724            $209,126          $7,561,724
              OF KANSAS CITY.
826910       COMMUNITY FIRST                      $0            $208,876          $9,329,203            $208,876          $9,329,203
              CREDIT UNION.
820718       INTERNATIONAL BANK                   $0            $208,669          $5,217,099            $208,669          $5,217,099
              OF COMMERCE.
831925       ZIONS BANK (OREGON                   $0            $206,450          $2,513,359            $206,450          $2,513,359
              FIRST).
808588       JPMORGAN CHASE BANK                  $0            $205,354         $27,863,404            $205,354         $27,863,404
              NA.
829441       MARINE CREDIT UNION.                 $0            $203,596          $8,372,756            $203,596          $8,372,756
820998       SPOKANE TEACHERS                     $0            $202,909          $9,076,496            $202,909          $9,076,496
              CREDIT UNION.
831366       CITIBANK NA ELT                      $0            $200,903          $7,322,637            $200,903          $7,322,637
              STUDENT LOAN CORP.
831011       SUN EAST FCU........                 $0            $199,397          $7,881,858            $199,397          $7,881,858
829443       WRIGHT-PATT CREDIT                   $0            $195,709         $10,706,997            $195,709         $10,706,997
              UNION INC.
805148       WHITNEY NATIONAL                     $0            $194,333            $777,802            $194,333            $777,802
              BANK.
829384       WAKEFIELD CO-                        $0            $188,978          $4,472,263            $188,978          $4,472,263
              OPERATIVE BANK.
831216       JP MORGANCHASE BANK.                 $0            $187,955          $6,445,332            $187,955          $6,445,332
831555       US BANK NA..........                 $0            $186,450          $4,086,339            $186,450          $4,086,339
810778       FIRST FINANCIAL BANK                 $0            $184,266            $229,964            $184,266            $229,964
              NA.
803799       FIRST FINANCIAL BANK                 $0            $183,874          $8,695,757            $183,874          $8,695,757
808942       CLS-NATIONAL CITY                    $0            $181,431            $781,461            $181,431            $781,461
              BANK.
820946       US BANK NA..........                 $0            $179,170          $7,485,273            $179,170          $7,485,273
822466       CASE WESTERN RESERVE                 $0            $178,456            $288,963            $178,456            $288,963
              UNIVERSITY.
822660       COMERICA BANK.......                 $0            $172,358          $1,237,646            $172,358          $1,237,646
831083       A.T. STILL UNIV OF                   $0            $170,972             $29,437            $170,972             $29,437
              HEALTH SCI.
834231       US BANK ELT AFFINITY                 $0            $170,808          $1,943,288            $170,808          $1,943,288
              DIRECT.
830612       A.T. STILL UNIV OF                   $0            $169,242                  $0            $169,242                  $0
              HEALTH SCI.
800246       ARKANSAS RURAL                       $0            $169,087            $169,087                  $0
              ENDOWMENT FUND INC.
833395       JPMORGAN CHASE ELT                   $0            $168,003         $20,575,107            $168,003         $20,575,107
              FIRST UNION NAT'.
820622       JPMORGAN CHASE BANK                  $0            $165,862         $13,566,008            $165,862         $13,566,008
              NA.
828454       ADELPHI UNIVERSITY..                 $0            $164,920             $23,038            $164,920             $23,038
834182       UNIVERSITY OF NEW                    $0            $163,144             $77,558            $163,144             $77,558
              MEXICO.
824705       PATRIOT FEDERAL                      $0            $161,742          $6,209,907            $161,742          $6,209,907
              CREDIT UNION.
806722       CADENCE BANK NA.....                 $0            $161,221          $6,563,556            $161,221          $6,563,556
825175       UNIVERSITY OF DAYTON                 $0            $159,614             $13,969            $159,614             $13,969
833946       US BANK ELT 1ST                      $0            $159,045          $9,124,946            $159,045          $9,124,946
              STUDENT FINANCIAL.
830977       POLICE & FIRE                        $0            $158,241          $9,443,803            $158,241          $9,443,803
              FEDERAL CREDIT
              UNION.
833599       WACHOVIA EDUCATION                   $0            $157,104          $5,967,876            $157,104          $5,967,876
              FINANCE INC.
828341       TEXAS STATE BANK....                 $0            $156,891          $7,650,844            $156,891          $7,650,844
811076       ZIONS BANK                           $0            $154,815          $2,508,573            $154,815          $2,508,573
              (WASHINGTON FIRST).
802486       SUNTRUST BANK.......                 $0            $154,751            $154,751                  $0
821623       UNION BANK CA ELT               $37,883            $115,310            $113,914            $153,194            $113,914
              CHELA FUND I (TEF).
833918       SOUTHERN METHODIST                   $0            $152,748             $41,668            $152,748             $41,668
              UNIVERSITY.
833750       WESTERN UNIV OF                      $0            $152,584            $618,085            $152,584            $618,085
              HEALTH SCIENCES.
801891       US BANK NA..........                 $0            $152,242              $3,095            $152,242              $3,095
831824       US BANK NA..........                 $0            $150,818          $5,660,015            $150,818          $5,660,015
832215       NET FCU.............                 $0            $149,801          $5,512,386            $149,801          $5,512,386
809643       HARLEYSVILLE NAT'L                   $0            $149,172          $7,910,371            $149,172          $7,910,371
              BANK AND TRUST.
827242       HOME SAVINGS & LOAN                  $0            $149,064              $7,000            $149,064              $7,000
              CO YOUNGSTOWN.
831122       THE INDEPENDENT                      $0            $148,550          $6,451,709            $148,550          $6,451,709
              BANKERS BANK.
803634       JPMORGAN CHASE BANK                  $0            $147,689            $148,804            $147,689            $148,804
              NA.
812187       UNIVERSITY OF                        $0            $147,610                  $0            $147,610                  $0
              OKLAHOMA LEW WENTZ
              FO.
813389       FIRST COMMONWEALTH F                 $0            $147,192          $5,374,625            $147,192          $5,374,625
              C U.
829189       ALABAMA HIGHER                 $101,677          $3,074,842             $42,896          $2,915,872            $144,573          $5,990,714
              EDUCATION LOAN CORP.
830186       JP MORGAN CHASE BANK                 $0            $142,652          $6,418,076            $142,652          $6,418,076
809685       LAFAYETTE BANK......                 $0            $142,173          $5,632,003            $142,173          $5,632,003
823699       ASSOCIATED BANK                $141,984            $141,984                  $0
              N.A$0.
833810       CARNEGIE INSURANCE                   $0            $139,948            $574,430            $139,948            $574,430
              COMPANY.
824721       DUKE UNIVERSITY.....                 $0            $139,463             $38,125            $139,463             $38,125
832748       OMEGA FCU...........                 $0            $138,183          $5,427,096            $138,183          $5,427,096
809870       PEOPLES NATIONAL                     $0            $134,626          $5,204,439            $134,626          $5,204,439
              BANK.
834121       PACE UNIVERSITY.....                 $0            $132,801             $20,486            $132,801             $20,486
834074       UNIVERSITY OF                        $0            $132,766            $132,766                  $0
              LAVERNE.
828562       MUNICIPAL TRUST &                    $0            $132,578          $7,874,273            $132,578          $7,874,273
              SAVINGS BANK.
804959       CLS-NATIONAL CITY                    $0            $132,321            $647,269            $132,321            $647,269
              BANK KENTUCKY.
811325       FIRST UNION NATIONAL                 $0            $132,226                  $0            $132,226                  $0
              BANK.
819524       PLATTE VALLEY STATE                  $0            $131,990          $5,306,405            $131,990          $5,306,405
              BANK & TRUST CO.
827985       STATE NATIONAL BANK.                 $0            $131,548          $6,337,962            $131,548          $6,337,962
811911       FIRST NATIONAL BANK                  $0            $130,951          $7,173,588            $130,951          $7,173,588
              OF RIVER FALLS.
823422       BOEING EMPLOYEES                     $0            $130,912          $5,884,548            $130,912          $5,884,548
              CREDIT UNION.
833624       GEORGIA STUDENT                      $0            $130,746          $7,578,445            $130,746          $7,578,445
              FINANCE AUTH.
806695       KEESLER FEDERAL                      $0            $130,715          $5,930,296            $130,715          $5,930,296
              CREDIT UNION.
833371       AUSTIN BANK N A.....                 $0            $130,007          $6,233,002            $130,007          $6,233,002
832364       SANFORD INSTITUTION                  $0            $129,174          $5,768,242            $129,174          $5,768,242
              FOR SAVINGS.
809507       FIRST NATIONAL BANK                  $0            $128,073          $6,634,779            $128,073          $6,634,779
              & TRUST CO.
821087       JPMORGAN CHASE BANK                  $0            $127,987          $5,798,539            $127,987          $5,798,539
              NA.
833892       ILLINOIS COLLEGE OF                  $0            $126,620            $126,620                  $0
              OPTOMETRY.
833361       STUDENT LOAN FUNDING                 $0            $125,591          $8,039,480            $125,591          $8,039,480
              US BANK ELT.
834014       PARKER COLLEGE OF                    $0            $124,698                  $0            $124,698                  $0
              CHIROPRACTIC.
818659       GREAT WISCONSIN                      $0            $123,621          $4,622,403            $123,621          $4,622,403
              CREDIT UNION.
834166       LOGAN COLLEGE OF                     $0            $122,879                  $0            $122,879                  $0
              CHIROPRACTIC.
813532       FIRST FEDERAL                        $0            $122,281          $6,554,571            $122,281          $6,554,571
              SAVINGS AND LOAN
              ASSO.
833815       PENNSYLVANIA COLLEGE                 $0            $122,181             $26,707            $122,181             $26,707
              OF OPTOMETRY.
834057       INDIANA WESLEYAN                     $0            $121,877          $2,397,243            $121,877          $2,397,243
              UNIVERSITY.
828910       BELCO COMMUNITY                      $0            $121,240          $4,485,550            $121,240          $4,485,550
              CREDIT UNION.
834136       BASTYR UNIVERSITY...                 $0            $119,924          $4,123,317            $119,924          $4,123,317
802844       US BANK NA..........                 $0            $119,870          $6,647,421            $119,870          $6,647,421
834062       SANTA CLARA                          $0            $119,187                  $0            $119,187                  $0
              UNIVERSITY.
810725       BROADWAY NATIONAL                    $0            $117,092          $5,934,817            $117,092          $5,934,817
              BANK.
831929       WOODFOREST NATIONAL                  $0            $116,030          $5,142,116            $116,030          $5,142,116
              BANK.
832123       UNIVERSITY CREDIT                    $0            $115,954             $76,691            $115,954             $76,691
              UNION.
819256       FOX COMMUNITIES                      $0            $115,006          $6,481,880            $115,006          $6,481,880
              CREDIT UNION.
831059       HSBC BANK USA.......                 $0            $112,709         $16,888,518            $112,709         $16,888,518
833964       LIFE CHIROPRACTIC                    $0            $111,981          $2,424,925            $111,981          $2,424,925
              COLLEGE WEST.
817558       CAMPUS FEDERAL                       $0            $111,791              $4,564            $111,791              $4,564
              CREDIT UNION.
805979       COMERICA BANK.......                 $0            $111,764          $1,030,081            $111,764          $1,030,081
832398       LIFE UNIVERSITY.....                 $0            $111,641          $3,636,886            $111,641          $3,636,886
832600       SB1 FEDERAL CREDIT                   $0            $111,578          $4,302,237            $111,578          $4,302,237
              UNION.
831678       ILLINOIS INSTITUTE                   $0            $111,356            $111,356                  $0
              OF TECHNOLOGY.
828969       AMERICO CU..........                 $0            $111,080          $3,950,869            $111,080          $3,950,869
801953       FIRST NATIONAL BANK.                 $0            $110,596          $7,243,888            $110,596          $7,243,888
831970       THREE RIVERS FEDERAL                 $0            $110,449          $5,999,111            $110,449          $5,999,111
              CREDIT UNION.
809456       ADAMS COUNTY                         $0            $109,378          $3,761,985            $109,378          $3,761,985
              NATIONAL BANK.
828912       USSCO JOHNSTOWN FED                  $0            $108,991          $4,609,721            $108,991          $4,609,721
              CREDIT UNION.
809479       LEBANON VALLEY                       $0            $108,182          $4,621,473            $108,182          $4,621,473
              FARMERS BANK.
833956       NATIONAL-LOUIS                       $0            $107,906                  $0            $107,906                  $0
              UNIVERSITY.
834178       UNION BANK ELT                       $0            $107,370                  $0            $107,370                  $0
              UNIVERSITY OF
              NEBRAS.
806689       HANCOCK BANK........                 $0            $107,128            $241,077            $107,128            $241,077
834187       UNIVERSITY OF                        $0            $106,642            $839,827            $106,642            $839,827
              ARIZONA.
803478       CLS-NATIONAL CITY                    $0            $106,479            $629,447            $106,479            $629,447
              BANK.
834045       MICHIGAN STATE UNIV                  $0            $104,970                  $0            $104,970                  $0
              COLLEGE OF LAW.
819133       BLACK HILLS FEDERAL                  $0            $103,442          $4,952,974            $103,442          $4,952,974
              CREDIT UNION.
833072       TOWN & COUNTRY BANK.                 $0            $103,109          $5,488,177            $103,109          $5,488,177
834044       KANSAS STATE BANK                    $0            $103,059              $7,587            $103,059              $7,587
              ELT KSU FOUNDATIO.
834095       TRUSTMARK ELT MHEAC.            $65,978          $4,260,964             $37,060          $2,935,058            $103,037          $7,196,022
834028       FLORIDA STATE                        $0            $102,842              $2,664            $102,842              $2,664
              UNIVERSITY.
818478       EL PASO AREA                         $0            $102,550          $4,836,051            $102,550          $4,836,051
              TEACHERS FCU.
833011       WACOPSE FCU.........                 $0            $102,181          $3,491,122            $102,181          $3,491,122
834016       NORTHWESTERN HEALTH                  $0            $101,789              $4,250            $101,789              $4,250
              SCI UNIVERSITY.
809817       NATIONAL PENN BANK..                 $0            $101,766          $5,342,790            $101,766          $5,342,790
824573       ZIONS BANK ELT EFS                 ($87)           $101,196          $1,894,938            $101,109          $1,894,938
              FINANCE CO.
828302       SERVICE 1ST FCU.....                 $0            $100,405          $4,292,640            $100,405          $4,292,640
809674       IRWIN BANK & TRUST                   $0            $100,297          $4,312,965            $100,297          $4,312,965
              COMPANY.
805811       UNION TRUST CO--                     $0             $99,381          $6,305,428             $99,381          $6,305,428
              ELLSWORTH.
824518       JOHNSON BANK........                 $0             $98,837          $3,795,255             $98,837          $3,795,255
833252       LEGACYTEXAS BANK....                 $0             $97,697          $4,764,757             $97,697          $4,764,757
834133       UNION BANK ELT MUO                   $0             $96,746                  $1             $96,746                  $1
              FOUNDATION.
806723       RENASANT BANK.......                 $0             $96,429             $13,666             $96,429             $13,666
899996       SLMA................                 $0             $93,579          $6,138,361             $93,579          $6,138,361
804657       SECURITY BANK OF                     $0             $93,445          $3,865,459             $93,445          $3,865,459
              KANSAS CITY.
833828       DESERET FIRST CREDIT                 $0             $92,554          $3,969,697             $92,554          $3,969,697
              UNION.
805801       SKOWHEGAN SAVINGS                    $0             $92,400          $3,689,723             $92,400          $3,689,723
              BANK.
810819       FIRST NATIONAL BANK                  $0             $91,919             $72,591             $91,919             $72,591
              OF CENTRAL TX.
833869       WESTERN ILLINOIS                     $0             $91,907          $4,103,401             $91,907          $4,103,401
              UNIVERSITY.
834021       SHERMAN COLLEGE OF                   $0             $91,783          $2,657,122             $91,783          $2,657,122
              STRAIGHT CHIRO.
829651       TEXAS TECH FEDERAL                   $0             $91,110          $3,645,479             $91,110          $3,645,479
              CREDIT UNION.
807802       EMPOWER FEDERAL                      $0             $90,891          $3,921,333             $90,891          $3,921,333
              CREDIT UNION.
831361       VIEWPOINT BANK......                 $0             $89,152          $4,225,418             $89,152          $4,225,418
809402       PNC EDUCATION LOAN                   $0             $88,726         $10,701,085             $88,726         $10,701,085
              CTR.
826943       ISU FEDERAL CREDIT                   $0             $88,034            $102,041             $88,034            $102,041
              UNION.
830168       ARIZONA FCU.........                 $0             $87,794          $3,761,607             $87,794          $3,761,607
831403       CLS-NATIONAL CITY                    $0             $87,548          $1,348,535             $87,548          $1,348,535
              BANK OF OHIO.
831784       INTERNATIONAL BANK                   $0             $86,834             $24,830             $86,834             $24,830
              OF COMMERCE.
833305       BANK OF TEXAS NA....                 $0             $86,061          $1,731,769             $86,061          $1,731,769
831259       US BANK NA..........                 $0             $85,753          $3,349,168             $85,753          $3,349,168
828972       TIMBERLAND FEDERAL                   $0             $85,604          $3,305,757             $85,604          $3,305,757
              CREDIT UNION.
807809       CHEMUNG CANAL TRUST                  $0             $84,462          $3,664,589             $84,462          $3,664,589
              COMPANY.
834068       DUQUESNE UNIVERSITY.                 $0             $84,036             $84,036                  $0
830317       STATE EMPLOYEES FCU.                 $0             $83,176          $3,404,933             $83,176          $3,404,933
833560       ERIE INSURANCE                       $0             $82,879          $3,228,489             $82,879          $3,228,489
              EXCHANGE CU.
833742       SIMMONS COLLEGE.....                 $0             $82,334             $64,050             $82,334             $64,050
823561       MICHIGAN STATE                       $0             $82,263          $4,629,884             $82,263          $4,629,884
              UNIVERSITY FCU.
805803       OCEAN COMMUNITIES                    $0             $82,129          $3,856,196             $82,129          $3,856,196
              FCU.
820685       INDIANA UNIVERSITY                   $0             $81,307          $5,377,208             $81,307          $5,377,208
              EMPLOYEES FCU.
832139       JPMORGAN CHASE BANK                  $0             $80,855         $65,402,442             $80,855         $65,402,442
              ELT SLFC INC.
834015       DREXEL UNIVERSITY...                 $0             $80,732          $1,383,985             $80,732          $1,383,985
822897       WESTBY CO-OP CREDIT                  $0             $80,496          $3,273,828             $80,496          $3,273,828
              UNION.
827888       WINGS FINANCIAL FCU.                 $0             $80,320          $3,638,387             $80,320          $3,638,387
809321       APOLLO TRUST COMPANY                 $0             $80,263          $4,683,684             $80,263          $4,683,684
833426       UW OSHKOSH CREDIT                    $0             $79,850          $3,833,559             $79,850          $3,833,559
              UNION.
834001       CLEVELAND                            $0             $79,289                  $0             $79,289                  $0
              CHIROPRACTIC
              COLLEGE.
834141       WESTERN STATES CHIRO                 $0             $79,135                  $0             $79,135                  $0
              COLLEGE.
826895       KOHLER CREDIT UNION.                 $0             $78,516          $4,512,589             $78,516          $4,512,589
815483       NORSTATE FEDERAL                     $0             $77,695          $2,868,798             $77,695          $2,868,798
              CREDIT UNION.
802069       TD BANKNORTH NA.....                 $0             $76,802            $272,764             $76,802            $272,764
823619       COVANTAGE CREDIT                     $0             $76,548          $3,419,990             $76,548          $3,419,990
              UNION.
808888       NATIONAL CITY BANK                   $0             $75,337          $1,310,391             $75,337          $1,310,391
              OF OHIO.
822531       SUSQUEHANNA VALLEY                   $0             $75,211          $2,417,453             $75,211          $2,417,453
              FEDERAL CREDIT U.
834194       OHIO NORTHERN                        $0             $74,947                  $0             $74,947                  $0
              UNIVERSITY.
822218       TRI CITY NATIONAL                    $0             $74,727          $4,288,731             $74,727          $4,288,731
              BANK.
810864       HAPPY STATE BANK....                 $0             $74,063          $3,610,827             $74,063          $3,610,827
824674       NORWAY SAVINGS BANK.                 $0             $73,810            $641,304             $73,810            $641,304
899986       SLM ECFC............                 $0             $73,804          $4,283,679             $73,804          $4,283,679
834154       UNIVERSITY OF                        $0             $73,521                  $0             $73,521                  $0
              BRIDGEPORT.
833344       FIRST NATIONAL BK &                  $0             $73,483          $2,346,198             $73,483          $2,346,198
              TR/WEATHERFORD.
822429       SOUTHSIDE STATE BANK                 $0             $73,246          $3,663,775             $73,246          $3,663,775
821995       YALE UNIVERSITY--A.                  $0             $72,192                  $0             $72,192                  $0
              GALLAGHER.
821446       SANDY SPRING BANK...                 $0             $71,887          $2,484,445             $71,887          $2,484,445
833458       SUNTRUST BANK.......                 $0             $71,754                  $0             $71,754                  $0
834126       TEXAS CHIROPRACTIC                   $0             $71,510             $90,998             $71,510             $90,998
              COLLEGE.
824192       BANK OF NEW ORLEANS.                 $0             $71,509          $1,953,003             $71,509          $1,953,003
822551       VISIONS FEDERAL                      $0             $71,502          $4,385,150             $71,502          $4,385,150
              CREDIT UNION.
831775       ATLANTIC REGIONAL                    $0             $71,353          $2,832,011             $71,353          $2,832,011
              FCU.
826592       CTCE FEDERAL CREDIT                  $0             $70,912          $2,751,407             $70,912          $2,751,407
              UNION.
828954       MERHO FEDERAL CREDIT                 $0             $70,632          $2,812,286             $70,632          $2,812,286
              UNION.
805595       WACHOVIA BANK NA....                 $0             $70,333         $38,003,327             $70,333         $38,003,327
819451       US BANK NA..........                 $0             $70,127          $2,173,142             $70,127          $2,173,142
834140       TEXAS CHRISTIAN                      $0             $69,214                  $0             $69,214                  $0
              UNIVERSITY.
825597       COMMERCE BANK NA....                 $0             $68,915          $2,724,976             $68,915          $2,724,976
824038       HUDSON VALLEY                        $0             $68,256          $4,002,864             $68,256          $4,002,864
              FEDERAL CREDIT
              UNION.
834005       UNIVERSITY OF                        $0             $67,941             $14,250             $67,941             $14,250
              MISSOURI ST. LOUIS.
829565       CREIGHTON FCU.......                 $0             $67,814          $2,686,848             $67,814          $2,686,848
834078       UNIVERSITY OF                        $0             $66,875             $66,875                  $0
              CENTRAL FLORIDA.
828965       AMERICAN HERITAGE                    $0             $66,545          $3,959,131             $66,545          $3,959,131
              FEDERAL CREDIT UN.
809713       MARS NATIONAL BANK..                 $0             $66,469          $3,381,765             $66,469          $3,381,765
833920       NAT'L COLLEGE OF                     $0             $66,043                  $0             $66,043                  $0
              NATURPATHIC MED.
833089       THE UNIVERSITY OF                    $0             $65,995                  $0             $65,995                  $0
              TULSA.
833418       WOODFOREST NATIONAL                  $0             $65,367          $3,107,094             $65,367          $3,107,094
              BANK.
808664       PARK NATIONAL BANK..                 $0             $64,551          $4,100,311             $64,551          $4,100,311
828953       COMMERCE BANK.......                 $0             $64,547          $2,578,581             $64,547          $2,578,581
818613       CAPITAL CREDIT UNION                 $0             $64,260          $3,539,858             $64,260          $3,539,858
834160       FIFTH THIRD ELT                      $0             $64,082          $6,949,246             $64,082          $6,949,246
              STUDENT LOAN XPRESS.
831622       SAN ANGELO NATIONAL                  $0             $63,981             $21,749             $63,981             $21,749
              BANK.
831157       THRIVENT FINANCIAL                   $0             $63,385          $3,682,295             $63,385          $3,682,295
              FOR LUTHERANS.
820872       ESB BANK............                 $0             $63,063          $3,653,689             $63,063          $3,653,689
810173       AMERISERV FINANCIAL.                 $0             $62,883          $2,534,503             $62,883          $2,534,503
833731       SOUTHWEST COLLEGE OF                 $0             $62,522                  $0             $62,522                  $0
              NATUROPATHIC.
830307       WEOKIE CREDIT UNION.                 $0             $62,449          $3,605,180             $62,449          $3,605,180
834091       BONY ELT COLLEGIATE                  $0             $61,854            $189,623             $61,854            $189,623
              FUND SVCS RI/CF.
811000       FIRST FINANCIAL BANK                 $0             $61,648             $23,875             $61,648             $23,875
808118       M&T BANK EDUCATIONAL                 $0             $61,595             $42,700             $61,595             $42,700
              LENDING.
805784       OXFORD FCU..........                 $0             $61,487          $2,692,691             $61,487          $2,692,691
833387       SUMMIT BANK.........                 $0             $61,417            $286,868             $61,417            $286,868
813571       FIVEPOINT CREDIT                     $0             $61,168          $2,862,236             $61,168          $2,862,236
              UNION.
832467       MAINE STATE CU......                 $0             $61,015          $2,528,606             $61,015          $2,528,606
828931       TRI COUNTY AREA FCU.                 $0             $60,191          $2,761,284             $60,191          $2,761,284
834128       TRINITY                              $0             $60,070             $88,160             $60,070             $88,160
              INTERNATIONAL
              UNIVERSITY.
805798       MAINE FAMILY CREDIT                  $0             $59,722          $2,038,390             $59,722          $2,038,390
              UNION.
834019       CLAREMONT GRADUATE                   $0             $59,691                  $0             $59,691                  $0
              UNIVERSITY.
806931       STOCKMAN BANK OF                     $0             $59,358             $15,763             $59,358             $15,763
              MONTANA.
809998       EPHRATA NATIONAL                     $0             $59,269          $3,026,150             $59,269          $3,026,150
              BANK.
827999       SMART FINANCIAL                      $0             $59,265          $2,222,027             $59,265          $2,222,027
              CREDIT UNION.
810731       CITIZENS NATIONAL                    $0             $58,899          $2,803,873             $58,899          $2,803,873
              BANK.
826855       PIONEER SAVINGS BANK                 $0             $58,598          $3,382,529             $58,598          $3,382,529
821132       GREAT SOUTHERN                       $0             $58,508          $2,939,311             $58,508          $2,939,311
              SAVINGS BANK.
820278       PITTSBURGH                           $0             $58,243          $1,916,020             $58,243          $1,916,020
              FIREFIGHTERS
              FEDERAL CRE.
805621       BAR HARBOR BANKING &                 $0             $57,899          $2,447,886             $57,899          $2,447,886
              TRUST COMPANY.
834073       UNIVERSITY OF                        $0             $57,785            $635,244             $57,785            $635,244
              PHOENIX.
806700       MERCHANTS & FARMERS                  $0             $57,572             $61,699             $57,572             $61,699
              BANK.
833610       UNION BANK ELT                       $0             $57,517          $5,669,932             $57,517          $5,669,932
              COLLEGE BOUND LOANS.
833957       NATIONAL UNIV OF                     $0             $56,967            $288,715             $56,967            $288,715
              HEALTH SCIENCES.
807510       WACHOVIA EDUCATION                   $0             $56,361          $2,636,399             $56,361          $2,636,399
              FINANCE INC.
833081       US BANK ELT SLFC....                 $0             $56,335          $3,507,528             $56,335          $3,507,528
832723       LEE HOSPITAL CREDIT                  $0             $56,111          $2,157,464             $56,111          $2,157,464
              UNION.
828560       WEST BEND SAVINGS               $56,083          $2,868,056             $56,083          $2,868,056
              BANK S. A$0.
810007       FIRST NATIONAL BANK                  $0             $55,707          $2,120,634             $55,707          $2,120,634
              OF DANVILLE.
811571       JPMORGAN CHASE BANK                  $0             $55,316          $3,232,082             $55,316          $3,232,082
              NA.
829114       OTIS FCU............                 $0             $55,183          $2,208,921             $55,183          $2,208,921
832196       TOBYHANNA ARMY DEPOT                 $0             $55,113          $1,716,079             $55,113          $1,716,079
810104       THE MERCHANTS                        $0             $54,948          $3,045,108             $54,948          $3,045,108
              NATIONAL BANK OF
              KITT.
831222       PENN EAST FCU.......                 $0             $54,931          $1,774,612             $54,931          $1,774,612
833294       BANK OF GLOUCESTER                   $0             $54,647          $1,949,693             $54,647          $1,949,693
              CO /FULTON BNK.
825446       UNISON CREDIT UNION.                 $0             $54,521          $2,157,741             $54,521          $2,157,741
833804       KEY BANK NA.........                 $0             $54,388          $1,141,078             $54,388          $1,141,078
800241       JPMORGAN CHASE BANK                  $0             $54,383          $5,062,741             $54,383          $5,062,741
              NA.
832053       AMERICAN SAVINGS                     $0             $54,244            $119,753             $54,244            $119,753
              BANK FSB.
833928       NAROPA UNIVERSITY...                 $0             $54,136             $54,136                  $0
831606       FIRST CONVENIENCE                    $0             $53,484          $2,509,246             $53,484          $2,509,246
              BANK.
812041       WAUKESHA STATE BANK.                 $0             $53,208          $2,690,906             $53,208          $2,690,906
830146       USU CHARTER FCU.....                 $0             $53,159          $2,488,620             $53,159          $2,488,620
828937       G A P FCU...........                 $0             $53,143          $2,035,515             $53,143          $2,035,515
831179       WELLS FARGO                          $0             $52,939          $1,788,257             $52,939          $1,788,257
              EDUCATION FIN SVCS.
833247       EDUCATIONFIRST                       $0             $52,530          $2,625,653             $52,530          $2,625,653
              FEDERAL CREDIT
              UNION.
833868       SECU EMPLOYEES CU...                 $0             $52,208          $2,322,851             $52,208          $2,322,851
831908       CITY & COUNTY CREDIT                 $0             $51,905          $2,329,114             $51,905          $2,329,114
              UNION.
833634       BANK OF ALBUQUERQUE                  $0             $51,842          $2,096,116             $51,842          $2,096,116
              NA.
818493       CONNEXUS CU.........                 $0             $51,709          $2,203,484             $51,709          $2,203,484
821215       PEOPLES BANK OF                      $0             $51,661            $501,371             $51,661            $501,371
              KANKAKEE COUNTY.
813414       SCOTTDALE BANK &                     $0             $51,408          $2,649,598             $51,408          $2,649,598
              TRUST CO.
819770       FIRST FINANCIAL BANK                 $0             $51,228          $3,254,670             $51,228          $3,254,670
              USA.
820284       SOVEREIGN BANK......                 $0             $50,868          $2,269,072             $50,868          $2,269,072
805800       SEABOARD FEDERAL                     $0             $50,290          $2,123,694             $50,290          $2,123,694
              CREDIT UNION.
832678       WASHINGTON AREA                      $0             $50,157          $1,814,810             $50,157          $1,814,810
              TEACHERS FCU.
821549       SCHUYLKILL COUNTY                    $0             $50,020          $2,121,195             $50,020          $2,121,195
              SCHOOLEMPLOYEES C.
827171       ANDROSCOGGIN SAVINGS                 $0             $49,806             $32,191             $49,806             $32,191
              BANK.
833674       PALMER COLLEGE OF                    $0             $49,561          $2,646,080             $49,561          $2,646,080
              CHIROPRACTIC WEST.
831476       BLACKHAWK CREDIT                     $0             $48,621          $2,852,743             $48,621          $2,852,743
              UNION.
827767       YORK COUNTY FCU.....                 $0             $48,597          $2,033,468             $48,597          $2,033,468
834114       CARDINAL STRITCH                     $0             $48,537          $1,176,005             $48,537          $1,176,005
              UNIVERSITY.
832163       CORNERSTONE                          $0             $48,409          $2,033,974             $48,409          $2,033,974
              COMMUNITY FCU.
829929       IDEPENDENT ORDER OF                  $0             $48,318          $2,648,163             $48,318          $2,648,163
              FORESTERS.
833099       WASHINGTON COMMUNITY                 $0             $48,165          $1,839,097             $48,165          $1,839,097
              FCU.
831258       CITIZENSFIRST CREDIT                 $0             $47,288          $2,244,322             $47,288          $2,244,322
              UNION.
831171       CO-OP CREDIT UNION..                 $0             $47,288          $1,706,340             $47,288          $1,706,340
828917       HERITAGE VALLEY F C                  $0             $47,019          $1,911,775             $47,019          $1,911,775
              U.
810643       FIRST HORIZON BANK..                 $0             $46,844             $18,685             $46,844             $18,685
832955       KEYSTONE FCU........                 $0             $46,634          $1,744,756             $46,634          $1,744,756
803348       CLS-NATIONAL CITY                    $0             $45,052             $45,933             $45,052             $45,933
              BANK INDIANA.
832742       TRI BORO FCU........                 $0             $44,698          $1,749,203             $44,698          $1,749,203
813285       UNION BK CA ELT                 $34,706              $9,793              $7,462             $44,499              $7,462
              CHELA FUND I
              (TEFFC).
824264       COMMONWEALTH ONE                     $0             $44,494          $1,727,685             $44,494          $1,727,685
              FEDERAL CREDIT UNI.
803674       CLS-NATIONAL CITY                    $0             $44,426            $764,884             $44,426            $764,884
              BANK INDIANA.
828898       JSTC EMPLOYEES FCU..                 $0             $44,417          $1,728,204             $44,417          $1,728,204
809659       HONESDALE NATIONAL                   $0             $44,411          $2,524,595             $44,411          $2,524,595
              BANK.
817440       FAMILY FIRST FEDERAL                 $0             $44,170          $1,976,595             $44,170          $1,976,595
              CREDIT UNION.
805727       KATAHDIN FEDERAL                     $0             $43,975          $1,844,927             $43,975          $1,844,927
              CREDIT UNION.
828853       UNITEDONE CU........                 $0             $43,852          $1,865,285             $43,852          $1,865,285
805126       JEFF DAVIS BANK &                    $0             $43,839          $1,925,460             $43,839          $1,925,460
              TRUST COMPANY.
810997       LAREDO NATIONAL BANK                 $0             $43,815          $2,298,370             $43,815          $2,298,370
823400       ARVEST BANK.........                 $0             $43,306                  $0             $43,306                  $0
833821       UNION BANK & TRUST                   $0             $42,758                  $0             $42,758                  $0
              ELT HRB.
823181       OKLAHOMA CITY                        $0             $42,100             $42,100                  $0
              UNIVERSITY.
833643       TEXAS BANK..........                 $0             $41,769          $1,977,498             $41,769          $1,977,498
826104       OZAUKEE BANK........                 $0             $41,738          $2,339,851             $41,738          $2,339,851
826294       BATH SAVINGS                         $0             $41,663          $2,374,384             $41,663          $2,374,384
              INSTITUTION.
832611       N F G #2 FCU........                 $0             $41,358          $1,619,107             $41,358          $1,619,107
810981       FARMERS STATE BANK..                 $0             $41,251          $1,729,478             $41,251          $1,729,478
833012       HORIZON FEDERAL                      $0             $41,052          $1,623,118             $41,052          $1,623,118
              CREDIT UNION.
826584       CENTRAL CITY CREDIT                  $0             $41,026          $2,488,657             $41,026          $2,488,657
              UNION.
833682       CLARION ONIZED                       $0             $40,545          $1,748,065             $40,545          $1,748,065
              FEDERAL CREDIT
              UNION.
833417       POLONIA BANK........                 $0             $40,260          $2,077,592             $40,260          $2,077,592
833882       CITIZENS BANK C/O                    $0             $40,133          $2,365,054             $40,133          $2,365,054
              EDUCATION FINANCE.
832615       LEHIGH VALLEY                        $0             $39,983          $2,380,874             $39,983          $2,380,874
              EDUCATORS CU.
833840       EDUCATION CREDIT                     $0             $39,828          $2,083,470             $39,828          $2,083,470
              UNION.
829340       MEMBERS CREDIT UNION                 $0             $39,665          $2,015,959             $39,665          $2,015,959
814142       MIDCOAST FEDERAL                     $0             $39,475          $1,446,081             $39,475          $1,446,081
              CREDIT UNION.
832743       P & G MEHOOPANY                      $0             $39,399          $1,463,175             $39,399          $1,463,175
              EMPLOYEES FCU.
832203       PARK VIEW FEDERAL                    $0             $39,146          $1,838,316             $39,146          $1,838,316
              CREDIT UNION.
826191       FIRST NEW YORK FCU..                 $0             $39,096          $1,524,536             $39,096          $1,524,536
827165       MATANUSKA VALLEY                     $0             $39,085          $2,213,234             $39,085          $2,213,234
              FEDERAL CREDIT UNI.
834137       US BANK ELT                          $0             $39,020                  $0             $39,020                  $0
              MEDINVEST LLC.
830544       MAINE HIGHLANDS FCU.                 $0             $38,883          $1,509,558             $38,883          $1,509,558
829246       SHORELINE CREDIT                     $0             $38,477          $1,698,445             $38,477          $1,698,445
              UNION.
828564       MIDWEST AMERICA                      $0             $38,288                  $0             $38,288                  $0
              FEDERAL CREDIT UNI.
828099       GLACIER HILLS CREDIT                 $0             $37,998          $1,684,608             $37,998          $1,684,608
              UNION.
828535       STATE NATIONAL BANK.                 $0             $37,921          $1,860,294             $37,921          $1,860,294
833652       FIRST NATIONAL BANK                  $0             $37,674          $2,281,567             $37,674          $2,281,567
              WICHITA FALLS.
810012       COMMUNITY BANKS NA..                 $0             $37,633          $2,390,695             $37,633          $2,390,695
805734       ANDROSCOGGIN SVGS                    $0             $37,630             $16,496             $37,630             $16,496
              BANK.
823864       HCSB................                 $0             $37,588          $1,881,838             $37,588          $1,881,838
817545       GRANITE CREDIT UNION                 $0             $37,487          $1,545,184             $37,487          $1,545,184
807002       FIRST SECURITY BANK                  $0             $37,191          $1,445,686             $37,191          $1,445,686
              OF BOZEMAN.
831488       FIRST TEXOMA NAT'L                   $0             $37,014          $1,425,482             $37,014          $1,425,482
              BANK.
823936       HARVARD UNIVERSITY..                 $0             $36,952          $3,564,694             $36,952          $3,564,694
833540       FIRSTBANK...........                 $0             $36,928          $1,793,620             $36,928          $1,793,620
834151       FOREST INST OF PROF                  $0             $36,532                  $0             $36,532                  $0
              PSYCHOLOGY.
819539       FIRST FINANCIAL BANK                 $0             $36,444             $29,933             $36,444             $29,933
822908       US BANK NA..........                 $0             $36,300          $2,182,583             $36,300          $2,182,583
834206       PACIFIC GRADUATE                     $0             $35,993            $117,049             $35,993            $117,049
              SCHOOL OF PSYCHOLO.
813381       RIVERFRONT FCU......                 $0             $35,788          $2,002,062             $35,788          $2,002,062
831576       LANDMARK BANK NA....                 $0             $35,757          $1,606,322             $35,757          $1,606,322
812880       MERCER COUNTY STATE                  $0             $35,741          $2,021,941             $35,741          $2,021,941
              BANK.
828303       M-C FEDERAL CREDIT                   $0             $35,728          $1,741,233             $35,728          $1,741,233
              UNION.
810721       FIRSTBANK SOUTHWEST.                 $0             $35,597          $1,828,345             $35,597          $1,828,345
828478       ASSOCIATED BANK NA..                 $0             $35,572          $2,224,382             $35,572          $2,224,382
810895       HERRING BANK........                 $0             $35,421             $16,250             $35,421             $16,250
827597       COMMUNITY CREDIT                     $0             $35,320          $1,653,842             $35,320          $1,653,842
              UNION.
821806       WASHINGTON STATE                     $0             $35,045          $1,840,699             $35,045          $1,840,699
              EMPLOYEES CU.
823730       FREED-HARDEMAN                       $0             $34,988             $34,988                  $0
              UNIVERSITY.
807779       GHS FEDERAL CREDIT                   $0             $34,916          $1,434,962             $34,916          $1,434,962
              UNION.
834100       ZIONS FNB ELT NELNET                 $0             $34,706            $123,341             $34,706            $123,341
              ACADEMIC SVCS.
888887       SLM ECFC............                 $0             $34,630          $2,605,673             $34,630          $2,605,673
812095       PARAGON FEDERAL                      $0             $34,471          $2,539,160             $34,471          $2,539,160
              CREDIT UNION.
830791       JORDAN CREDIT UNION.                 $0             $34,453          $1,496,461             $34,453          $1,496,461
806757       BANK OF KIRKSVILLE..                 $0             $34,345            $860,909             $34,345            $860,909
800305       REGIONS BANK........                 $0             $33,989            $235,034             $33,989            $235,034
814096       ACHIEVA CREDIT UNION                 $0             $33,977              $1,838             $33,977              $1,838
826947       NATIONAL CITY BANK                   $0             $33,865          $1,965,898             $33,865          $1,965,898
              MI-IL.
819514       FIRST UNITED BANK &                  $0             $33,746          $1,481,200             $33,746          $1,481,200
              TRUST CO.
813373       PP&L G O L D CREDIT                  $0             $33,664          $1,161,214             $33,664          $1,161,214
              UNION.
832883       K OF C FEDERAL                       $0             $33,439          $1,317,788             $33,439          $1,317,788
              CREDIT UNION.
811959       NATIONAL EXCHANGE                    $0             $33,413          $1,640,696             $33,413          $1,640,696
              BANK & TRUST.
831413       PARKER COMMUNITY                     $0             $33,288          $1,561,599             $33,288          $1,561,599
              CREDIT UNION.
822239       COMPASS BANK........                 $0             $33,204          $2,316,384             $33,204          $2,316,384
833309       ARMSTRONG BANK......                 $0             $33,188                  $0             $33,188                  $0
815727       FIRST PREMIER BANK..                 $0             $33,012          $1,529,118             $33,012          $1,529,118
828949       CBW SCHOOLS FEDERAL                  $0             $33,006          $1,401,793             $33,006          $1,401,793
              CREDIT UNION.
828718       ALLIANCE BANK.......                 $0             $32,835          $1,721,547             $32,835          $1,721,547
829158       WEBER STATE FEDERAL                  $0             $32,716             $14,125             $32,716             $14,125
              CREDIT UNION.
832729       BUTLER ARMCO                         $0             $32,679          $1,744,097             $32,679          $1,744,097
              EMPLOYEES C U.
820174       DUPONT COMMUNITY CU.                 $0             $32,653          $1,895,232             $32,653          $1,895,232
824905       UNIVERSAL 1 CREDIT                   $0             $32,628          $1,500,009             $32,628          $1,500,009
              UNION INC.
833938       FIFTH THIRD ELT                      $0             $32,504             $32,504                  $0
              EDUCATION FUNDING C.
827656       LANDMARK CREDIT                      $0             $32,263          $1,984,079             $32,263          $1,984,079
              UNION.
833051       GREAT VALLEY SVNGS                   $0             $31,980          $1,158,496             $31,980          $1,158,496
              BNK % FULTON BNK.
808426       FREMONT NATIONAL                     $0             $31,927              $2,632             $31,927              $2,632
              BANK & TRUST CO.
834047       UNIVERSITY OF                        $0             $31,705             $31,705                  $0
              NORTHERN COLORADO.
804339       BALDWIN STATE BANK..                 $0             $31,625             $31,625                  $0
832943       FRANKLIN JOHNSTOWN                   $0             $31,581          $1,406,264             $31,581          $1,406,264
              FCU.
812886       MUNCY BANK AND TRUST                 $0             $31,564          $1,967,673             $31,564          $1,967,673
              COMPANY.
832286       ACMG FEDERAL CREDIT                  $0             $31,550          $1,063,183             $31,550          $1,063,183
              UNION.
833953       UNION BANK ELT CHELA                 $0             $31,533          $3,681,110             $31,533          $3,681,110
              EDUCATIONAL FU.
823021       PENN STATE FEDERAL                   $0             $31,510          $1,139,364             $31,510          $1,139,364
              CREDIT UNION.
826492       CCSD FEDERAL CREDIT                  $0             $31,240          $1,948,948             $31,240          $1,948,948
              UNION.
818590       JPMORGAN CHASE BANK                  $0             $31,175          $2,539,066             $31,175          $2,539,066
              NA.
834212       CALIFORNIA BAPTIST                   $0             $31,129             $31,129                  $0
              UNIVERSITY.
831703       CO-OP CREDIT UNION                   $0             $31,058          $1,231,771             $31,058          $1,231,771
              OF MONTEVIDEO.
831923       POINTBANK...........                 $0             $30,975          $1,530,261             $30,975          $1,530,261
820200       TOOELE FEDERAL                       $0             $30,860          $1,599,187             $30,860          $1,599,187
              CREDIT UNION.
827610       STANFORD UNIVERSITY.                 $0             $30,787             $30,787                  $0
823508       ST MARY'S UNIVERSITY                 $0             $30,663              $8,158             $30,663              $8,158
826185       NEW CUMBERLAND                       $0             $30,630          $1,184,811             $30,630          $1,184,811
              FEDERAL CREDIT
              UNION.
828911       PALCO FEDERAL CREDIT                 $0             $30,626          $1,362,075             $30,626          $1,362,075
              UNION.
818596       METABANK............                 $0             $30,601          $1,483,266             $30,601          $1,483,266
829414       HARBOR CREDIT UNION.                 $0             $30,528          $1,337,742             $30,528          $1,337,742
833489       ERIE GENERAL                         $0             $30,197          $1,813,558             $30,197          $1,813,558
              ELECTRIC EMP FCU.
832086       GENESEE CO-OP                        $0             $30,020          $1,136,430             $30,020          $1,136,430
              FEDERAL CREDIT
              UNION.
832887       MARSHFIELD MEDICAL                   $0             $30,005          $1,165,850             $30,005          $1,165,850
              CENTER CREDIT UN.
832201       GREAT RIVER FEDERAL                  $0             $29,966          $1,800,187             $29,966          $1,800,187
              CREDIT UNION.
820393       TIER ONE BANK.......                 $0             $29,934             $24,063             $29,934             $24,063
810458       FIRST BANK & TRUST..                 $0             $29,911                  $0             $29,911                  $0
828582       CROSS VALLEY FCU....                 $0             $29,862          $1,724,511             $29,862          $1,724,511
824856       MID-KANSAS CREDIT                    $0             $29,641            $949,172             $29,641            $949,172
              UNION.
834192       DEUTSCHE BANK ELT                    $0             $29,465          $3,018,525             $29,465          $3,018,525
              STUDENT CAP CORP.
826986       VANTAGE CU..........                 $0             $29,253          $1,114,244             $29,253          $1,114,244
812773       MOBILOIL FCU........                 $0             $29,076          $1,499,754             $29,076          $1,499,754
828785       CREDIT UNION OF                      $0             $28,952          $1,392,911             $28,952          $1,392,911
              DENVER.
816027       PARKVALE SAVINGS                     $0             $28,798              $9,832             $28,798              $9,832
              ASSN.
805069       JPMORGAN CHASE BANK                  $0             $28,794                  $0             $28,794                  $0
              NA.
806658       CLEVELAND STATE BANK                 $0             $28,725            $120,645             $28,725            $120,645
831156       ADVANTAGE CREDIT                     $0             $28,687          $1,395,023             $28,687          $1,395,023
              UNION.
832948       PARKVIEW COMMUNITY                   $0             $28,650          $1,080,548             $28,650          $1,080,548
              FCU.
810617       FIRST FARMERS &                      $0             $28,596          $1,174,334             $28,596          $1,174,334
              MERCHANTS NA.
820280       BENCHMARK FEDERAL CU                 $0             $28,582          $1,296,006             $28,582          $1,296,006
828936       FREEDOM UNITED FCU..                 $0             $28,544          $1,004,820             $28,544          $1,004,820
809110       CORNERSTONE BANK....                 $0             $28,365          $1,316,719             $28,365          $1,316,719
828496       KENNEBEC SAVINGS                     $0             $28,140          $1,413,423             $28,140          $1,413,423
              BANK.
812555       WELLS FARGO                          $0             $28,042            $799,412             $28,042            $799,412
              EDUCATION FIN SVCS.
830336       MN VALLEY FEDERAL                    $0             $27,940          $1,089,340             $27,940          $1,089,340
              CREDIT UNION.
827116       SLF OF IDAHO                    $20,190                  $0              $7,671          $1,944,643             $27,861          $1,944,643
              MARKETING ASSN INC.
811717       US BANK NA..........                 $0             $27,639            $719,148             $27,639            $719,148
808316       HERITAGE BANK.......                 $0             $27,621          $1,162,163             $27,621          $1,162,163
834035       CITY BANK...........                 $0             $27,505             $51,533             $27,505             $51,533
834198       CHICAGO SCHOOL OF                    $0             $27,299              $8,645             $27,299              $8,645
              PROF PSYCHOLOGY.
803463       JPMORGAN CHASE BANK                  $0             $27,066            $151,671             $27,066            $151,671
              NA.
820808       CENTRIS FEDERAL                      $0             $27,057          $1,656,273             $27,057          $1,656,273
              CREDIT UNION.
808260       FIRST NATIONAL BANK                  $0             $26,795          $1,040,804             $26,795          $1,040,804
              & TRUST COMPANY.
833262       NAVIGATOR CREDIT                     $0             $26,757          $1,421,227             $26,757          $1,421,227
              UNION.
825116       BELLCO FEDERAL                       $0             $26,744          $1,058,589             $26,744          $1,058,589
              CREDIT UNION.
833501       WELLS FARGO BNK ELT                  $0             $26,734          $2,128,832             $26,734          $2,128,832
              NHELP I INC.
832499       WINSLOW COMMUNITY                    $0             $26,658          $1,085,735             $26,658          $1,085,735
              FCU.
804866       BANK MIDWEST N A....                 $0             $26,643            $804,689             $26,643            $804,689
820181       BEST ADVANTAGE                       $0             $26,444          $1,246,652             $26,444          $1,246,652
              CREDIT UNION.
834088       US BANK ELT BOSQUE                   $0             $26,260          $3,237,662             $26,260          $3,237,662
              HEA INC.
830538       DANE COUNTY CREDIT                   $0             $25,873            $850,372             $25,873            $850,372
              UNION.
823129       LISTERHILL CREDIT                    $0             $25,846          $1,790,801             $25,846          $1,790,801
              UNION.
828025       AMERICAN FEDERAL                     $0             $25,827            $937,917             $25,827            $937,917
              SAVINGS BANK.
832817       HOPEWELL JOINT                       $0             $25,826            $744,724             $25,826            $744,724
              SCHOOL EMP FCU.
807197       FIRST INTERNATIONAL                  $0             $25,748          $1,264,243             $25,748          $1,264,243
              BANK.
828997       ROCKY MOUNTAIN                       $0             $25,699          $1,039,848             $25,699          $1,039,848
              CREDIT UNION.
806651       THE CITIZENS BANK OF                 $0             $25,649              $5,375             $25,649              $5,375
              PHILADELPHIA.
822475       PEOPLES STATE BANK..                 $0             $25,393                  $0             $25,393                  $0
830922       SHEBOYGAN AREA                       $0             $25,386            $991,714             $25,386            $991,714
              CREDIT UNION.
809342       CB GROVE CITY FCU...                 $0             $25,189            $923,953             $25,189            $923,953
807744       ADIRONDACK TRUST                     $0             $25,118            $905,001             $25,118            $905,001
              COMPANY.
829676       SERVU FCU...........                 $0             $25,070          $1,514,840             $25,070          $1,514,840
831520       GARDINER FCU........                 $0             $25,006            $909,794             $25,006            $909,794
833302       BANK OF THE WEST....                 $0             $24,955            $902,654             $24,955            $902,654
821013       FORT HOOD NATIONAL                   $0             $24,925          $1,557,917             $24,925          $1,557,917
              BANK.
808972       ALVA STATE BANK &                    $0             $24,865            $900,057             $24,865            $900,057
              TRUST CO.
828545       HOME FEDERAL SAVINGS                 $0             $24,750             $55,248             $24,750             $55,248
              AND LOAN ASSOC.
833276       FRIONA STATE BANK...                 $0             $24,656          $1,095,599             $24,656          $1,095,599
828877       BERKS COMMUNITY FCU.                 $0             $24,653          $1,157,587             $24,653          $1,157,587
829088       N.E.W. CREDIT UNION.                 $0             $24,443          $1,042,301             $24,443          $1,042,301
821449       HAGERSTOWN TRUST                     $0             $24,282            $852,776             $24,282            $852,776
              COMPANY.
832724       PITTSBURGH CENTRAL                   $0             $24,257            $752,918             $24,257            $752,918
              FCU.
828090       FIRST NAT'L BANK OF                  $0             $24,246          $1,351,974             $24,246          $1,351,974
              PALMERTON.
832241       SALT LAKE CITY CU...                 $0             $24,134          $1,275,179             $24,134          $1,275,179
823065       CREIGHTON UNIVERSITY                 $0             $23,924             $13,500             $23,924             $13,500
826319       BVA FEDERAL CREDIT                   $0             $23,900          $1,067,506             $23,900          $1,067,506
              UNION.
832262       NEWPORT NEWS                         $0             $23,779          $1,258,057             $23,779          $1,258,057
              SHIPBUILDING ECU.
829174       CALIFORNIA BANK &                    $0             $23,756            $247,329             $23,756            $247,329
              TRUST C/O ZIONS B.
824983       CINFED EMPLOYEES                     $0             $23,694          $1,511,175             $23,694          $1,511,175
              FEDERAL CREDIT UNI.
834161       PHILIPS GRADUATE                     $0             $23,666             $23,666                  $0
              INSTITUTE.
821973       FIVE COUNTY CREDIT                   $0             $23,591            $975,508             $23,591            $975,508
              UNION.
833189       BANK OF ARKANSAS NA.                 $0             $23,482          $1,005,453             $23,482          $1,005,453
832722       JESSOP EMPLOYEES FCU                 $0             $23,297            $725,246             $23,297            $725,246
832916       UFCW FCU............                 $0             $23,177             $23,177                  $0
819105       CITIZENS BANK OF                     $0             $23,138          $1,433,818             $23,138          $1,433,818
              MUKWONAGO.
806952       FARMERS STATE BANK..                 $0             $22,923            $959,175             $22,923            $959,175
830332       RIVERWOOD MARITIME                   $0             $22,919          $1,057,356             $22,919          $1,057,356
              CU.
809087       CITIZENS SECURITY                    $0             $22,916            $926,609             $22,916            $926,609
              BANK & TRUST CO.
830100       UNITED EDUCATORS                     $0             $22,801            $819,252             $22,801            $819,252
              CREDIT UNION.
803538       JPMORGAN CHASE BANK                  $0             $22,553             $18,500             $22,553             $18,500
              NA.
818505       BANK OF PRAIRIE DU                   $0             $22,473          $1,211,064             $22,473          $1,211,064
              SAC.
807838       BANK OF NEW YORK....                 $0             $22,286                  $0             $22,286                  $0
834190       LOYOLA UNIVERSITY...                 $0             $22,212             $22,212                  $0
819253       SUPERIOR CHOICE                      $0             $22,141          $1,052,959             $22,141          $1,052,959
              CREDIT UNION.
830510       FIRST ALLIANCE                       $0             $21,958            $762,093             $21,958            $762,093
              CREDIT UNION.
809547       FIRST NATL BK PORT                   $0             $21,918          $1,366,808             $21,918          $1,366,808
              ALLEGANY.
827096       FIRST NATIONAL                       $0             $21,882          $1,064,162             $21,882          $1,064,162
              COMMUNITY BANK.
828338       FORT COMMUNITY                       $0             $21,879            $990,372             $21,879            $990,372
              CREDIT UNION.
816228       ROBINS FEDERAL                       $0             $21,777          $1,096,680             $21,777          $1,096,680
              CREDIT UNION.
822366       PINNACLE BANK OF                     $0             $21,698              $3,338             $21,698              $3,338
              PAPILLION.
831394       OAKDALE CREDIT UNION                 $0             $21,515            $937,522             $21,515            $937,522
821497       AMERICAN PRIDE                       $0             $21,410            $978,611             $21,410            $978,611
              CREDIT UNION.
828082       WESTERN COOPERATIVE                  $0             $21,390          $1,162,753             $21,390          $1,162,753
              CREDIT UNION.
813853       FIRST NATIONAL BANK                  $0             $21,386          $1,221,471             $21,386          $1,221,471
              OF HUDSON.
833058       MEADVILLE AREA FCU..                 $0             $21,341          $1,023,437             $21,341          $1,023,437
831269       JP MORGAN CHASE BANK                 $0             $21,300             $33,041             $21,300             $33,041
827751       BADGER GLOBE CREDIT                  $0             $21,117            $855,334             $21,117            $855,334
              UNION.
806959       ROCKY MOUNTAIN BANK.                 $0             $21,111          $1,017,047             $21,111          $1,017,047
832823       FRICK TRI COUNTY FCU                 $0             $21,070            $735,849             $21,070            $735,849
830935       ACADIA FCU..........                 $0             $21,048          $1,232,773             $21,048          $1,232,773
832202       CITIZENS COMMUNITY                   $0             $20,969            $971,029             $20,969            $971,029
              CU.
831870       CITIZENS BANK OF                     $0             $20,953              $1,844             $20,953              $1,844
              EDMOND.
828956       WEST PENN PNP FCU...                 $0             $20,904            $855,561             $20,904            $855,561
832124       ASSOCIATED SCHOOL                    $0             $20,784            $814,387             $20,784            $814,387
              EMPLOYEES CREDIT.
827145       MID AMERICA BANK FSB                 $0             $20,752             $86,247             $20,752             $86,247
833646       FIRST FINANCIAL OF S                 $0             $20,722            $816,951             $20,722            $816,951
              ARKANSAS.
828463       MARQUETTE SAVINGS                    $0             $20,695          $1,157,800             $20,695          $1,157,800
              ASSOCIATION.
832675       ERIE TIMES EMPLOYEES                 $0             $20,504            $636,022             $20,504            $636,022
              FCU.
832540       TRUMARK FINANCIAL CU                 $0             $20,493          $1,273,821             $20,493          $1,273,821
828227       CONCHO EDUCATORS                     $0             $20,463            $898,061             $20,463            $898,061
              FEDERAL CREDIT UN.
820680       RANDOLPH-BROOKS                      $0             $20,422                  $0             $20,422                  $0
              FEDERAL CREDIT UNIO.
827567       FIRST STATE BANK                     $0             $20,412            $738,267             $20,412            $738,267
              KEENE INC.
828855       EVERGREEN CREDIT                     $0             $20,349            $844,821             $20,349            $844,821
              UNION.
834134       US BANK ELT XAVIER                   $0             $20,347                  $0             $20,347                  $0
              UNIVERSITY.
809420       COUNTY NATIONAL BANK                 $0             $20,287            $108,291             $20,287            $108,291
825602       RIPCO CREDIT UNION..                 $0             $20,239            $902,369             $20,239            $902,369
821921       NORWIN TEACHERS                      $0             $20,237            $807,699             $20,237            $807,699
              FEDERAL CREDIT UN.
832617       CLARION UNIVERSITY                   $0             $20,214            $819,905             $20,214            $819,905
              FCU.
817895       MONTANA FEDERAL                      $0             $20,103            $686,971             $20,103            $686,971
              CREDIT UNION.
805725       CPORT CU............                 $0             $19,973          $1,265,728             $19,973          $1,265,728
821362       TEXAS DOW EMPLOYEES                  $0             $19,902            $587,437             $19,902            $587,437
              CREDIT UNION.
833359       BCM FEDERAL CREDIT                   $0             $19,883            $714,057             $19,883            $714,057
              UNION.
805815       WINTHROP AREA FCU...                 $0             $19,680            $703,486             $19,680            $703,486
807857       ESL FEDERAL CREDIT                   $0             $19,661          $1,637,311             $19,661          $1,637,311
              UNION.
833093       BANK OF NY ELT                       $0             $19,412          $1,531,443             $19,412          $1,531,443
              COLLEGEINVEST.
827967       CHARTWAY FEDERAL C U                 $0             $19,117          $1,183,428             $19,117          $1,183,428
810532       SIOUX FALLS FEDERAL                  $0             $19,091            $903,135             $19,091            $903,135
              CREDIT UNION.
809322       AUTO WORKERS FEDERAL                 $0             $19,079          $1,160,446             $19,079          $1,160,446
              CREDIT UNION.
815901       EVANSVILLE TEACHERS                  $0             $19,054            $688,337             $19,054            $688,337
              FCU.
804575       COMMERCIAL FEDERAL                   $0             $19,050             $19,050                  $0
              BANK.
831946       CAPITAL ONE NA......                 $0             $19,045          $1,286,152             $19,045          $1,286,152
815994       MEMBERS ALLIANCE                     $0             $18,946            $754,334             $18,946            $754,334
              CREDIT UNION.
833077       TCF NATIONAL BANK...                 $0             $18,889             $24,100             $18,889             $24,100
831484       UNION BANK & TRUST--                 $0             $18,853          $1,019,432             $18,853          $1,019,432
              IHELP.
831552       KEY BANK NA.........                 $0             $18,853          $3,986,596             $18,853          $3,986,596
829260       FIRST SOURCE FCU....                 $0             $18,821            $894,772             $18,821            $894,772
814671       STATEWIDE FEDERAL                    $0             $18,784            $726,684             $18,784            $726,684
              CREDIT UNION.
808170       SIDNEY FEDERAL                       $0             $18,767            $968,815             $18,767            $968,815
              CREDIT UNION.
823417       CINCO FAMILY FCU....                 $0             $18,654            $881,510             $18,654            $881,510
833324       WEST TEXAS NATIONAL                  $0             $18,564            $918,454             $18,564            $918,454
              BANK.
833258       AMERICAN NATIONAL                    $0             $18,555            $988,659             $18,555            $988,659
              BANK.
830772       STANFORD FCU........                 $0             $18,389             $72,612             $18,389             $72,612
833034       FIRST FINANCIAL                      $0             $18,360            $937,801             $18,360            $937,801
              COMMUNITY CU.
833084       METRO CREDIT UNION..                 $0             $18,333            $698,237             $18,333            $698,237
811881       FARMERS & MERCHANTS                  $0             $18,323          $1,036,415             $18,323          $1,036,415
              BANK OF TOMAH.
819191       RAINBOW FCU.........                 $0             $18,315          $1,102,250             $18,315          $1,102,250
813421       NEXTIER BANK........                 $0             $18,179             $14,450             $18,179             $14,450
815951       MILLS COUNTY STATE                   $0             $18,082            $879,136             $18,082            $879,136
              BANK.
812155       FIRST BETHANY BANK..                 $0             $18,061            $392,962             $18,061            $392,962
832486       ENTRUST FEDERAL                      $0             $18,057            $750,519             $18,057            $750,519
              CREDIT UNION.
831722       TOWN NORTH NATIONAL                  $0             $18,001            $727,977             $18,001            $727,977
              BANK.
811613       KITSAP BANK.........                 $0             $17,995          $1,078,980             $17,995          $1,078,980
828715       LA-TEC CREDIT UNION.                 $0             $17,975          $1,164,399             $17,975          $1,164,399
830267       MIDWEST COMMUNITY                    $0             $17,961            $838,989             $17,961            $838,989
              FCU.
808995       FARMERS & MERCHANTS                  $0             $17,889            $755,848             $17,889            $755,848
              BANK & TRUST CO.
819967       SEAWAY NATIONAL BANK                 $0             $17,772          $1,041,034             $17,772          $1,041,034
823116       KEARNEY FEDERAL                      $0             $17,657            $970,447             $17,657            $970,447
              CREDIT UNION.
808028       ASTORIA FEDERAL                      $0             $17,500             $14,306             $17,500             $14,306
              SAVINGS.
832101       CHOICE 1 FEDERAL                     $0             $17,499            $961,794             $17,499            $961,794
              CREDIT UNION.
832992       IBEW LOCAL UNION 712                 $0             $17,486            $676,716             $17,486            $676,716
              FCU.
830130       BEAR PAW CREDIT                      $0             $17,404            $850,677             $17,404            $850,677
              UNION.
809025       FIRST NATIONAL BANK                  $0             $17,226            $793,039             $17,226            $793,039
              & TRUST CO OF M.
830809       CAPITAL CREDIT UNION                 $0             $17,206            $915,819             $17,206            $915,819
830957       TAYLOR CREDIT UNION.                 $0             $17,183            $692,349             $17,183            $692,349
833562       PRICE CREDIT UNION..                 $0             $17,110            $645,842             $17,110            $645,842
818690       BLAIR COUNTY FEDERAL                 $0             $17,106          $1,043,520             $17,106          $1,043,520
              CREDIT UNION.
833596       MARATHON COUNTY EMP                  $0             $16,984            $533,418             $16,984            $533,418
              CU.
832318       DAKOTA WEST CREDIT                   $0             $16,949            $763,396             $16,949            $763,396
              UNION.
833316       LUTHERAN CREDIT                      $0             $16,936            $495,256             $16,936            $495,256
              UNION OF AMERICA.
827908       NORTHWEST FEDERAL                    $0             $16,855            $912,357             $16,855            $912,357
              CREDIT UNION.
832415       FREMONT FEDERAL                      $0             $16,853          $1,058,024             $16,853          $1,058,024
              CREDIT UNION.
826423       NORTHSTAR BANK OF                    $0             $16,834            $882,340             $16,834            $882,340
              TEXAS.
833114       WINNEBAGO COMMUNITY                  $0             $16,812            $670,282             $16,812            $670,282
              CU.
809097       FIRST NATIONAL BANK.                 $0             $16,754                  $0             $16,754                  $0
833273       DELAWARE NATIONAL                    $0             $16,746            $615,109             $16,746            $615,109
              BANK/FULTON BANK.
833318       FORT DAVIS STATE                     $0             $16,733            $874,972             $16,733            $874,972
              BANK.
805090       CAPITAL ONE NA......                 $0             $16,725                  $0             $16,725                  $0
808732       JPMORGAN CHASE BANK                  $0             $16,722          $1,345,272             $16,722          $1,345,272
              NA.
807306       UNION STATE BANK....                 $0             $16,662            $855,245             $16,662            $855,245
833602       WHEATLAND FEDERAL                    $0             $16,581            $543,354             $16,581            $543,354
              CREDIT UNION.
832746       YOUR CHOICE FCU.....                 $0             $16,571            $762,040             $16,571            $762,040
820593       FIRST NATIONAL BANK                  $0             $16,564          $1,106,875             $16,564          $1,106,875
              OF BROWNFIELD.
832861       BUFFALO POSTAL                       $0             $16,546            $710,308             $16,546            $710,308
              COMMUNITY FCU.
828200       M H E S A C.........             $4,992            $522,781             $11,541                  $0             $16,533            $522,781
829064       SOUTHWEST STUDENT               $16,503            $521,059                  $0             $16,503            $521,059
              SERV TRUST WFB EL.
812205       LASALLE BANK NA.....                 $0             $16,500              $3,313             $16,500              $3,313
830241       CHRISTIAN COMMUNITY                  $0             $16,430            $694,019             $16,430            $694,019
              CREDIT UNION.
823099       WESBANCO WHEELING...                 $0             $16,347            $589,871             $16,347            $589,871
828909       MIFFLIN COUNTY                       $0             $16,303            $783,434             $16,303            $783,434
              SAVINGS BANK.
832959       WAUWATOSA CREDIT                     $0             $16,228            $637,808             $16,228            $637,808
              UNION.
825240       YS FCU..............                 $0             $16,197            $657,001             $16,197            $657,001
832438       WESTAR FEDERAL                       $0             $16,153            $546,867             $16,153            $546,867
              CREDIT UNION.
832035       US BANK NA..........                 $0             $16,146            $503,679             $16,146            $503,679
807968       GLENS FALLS NATIONAL                 $0             $16,145              $1,917             $16,145              $1,917
              BANK & TRUST.
818819       FIRST SECURITY BANK.                 $0             $16,138            $694,585             $16,138            $694,585
828841       CITIZENS AND                         $0             $16,118            $153,207             $16,118            $153,207
              NORTHERN BANK.
806958       FIRST NATIONAL BANK                  $0             $16,098            $715,360             $16,098            $715,360
              OF MONTANA.
813517       FIRST FEDERAL                        $0             $16,075            $228,909             $16,075            $228,909
              SAVINGS BANK.
833927       A+ FEDERAL CREDIT                    $0             $16,005            $976,139             $16,005            $976,139
              UNION.
829489       ZIONS FNB ELT NAT'L                  $0             $15,832             $28,180             $15,832             $28,180
              ED LOANS NETWOR.
810454       FIRST DAKOTA                         $0             $15,770                  $0             $15,770                  $0
              NATIONAL BANK.
832950       MARATHON ROTHSCHILD                  $0             $15,740            $547,377             $15,740            $547,377
              CU.
822206       NATIONAL BANK &                      $0             $15,739              $4,349             $15,739              $4,349
              TRUST OF SYCAMORE.
827623       PROSPERA CREDIT                      $0             $15,669            $683,141             $15,669            $683,141
              UNION.
828479       DAIRYLAND POWER                      $0             $15,665            $524,443             $15,665            $524,443
              CREDIT UNION.
818130       THE RIVERBANK.......                 $0             $15,657            $993,685             $15,657            $993,685
824305       HORIZONS FEDERAL                     $0             $15,655            $593,217             $15,655            $593,217
              CREDIT UNION.
832760       ST PIUS TENTH CHURCH                 $0             $15,531            $535,232             $15,531            $535,232
              FCU.
832768       EDUCATIONAL                          $0             $15,523            $952,090             $15,523            $952,090
              EMPLOYEES CU.
823888       FIRST LIBERTY                        $0             $15,497            $694,542             $15,497            $694,542
              FEDERAL CREDIT
              UNION.
833146       GOLDEN RULE                          $0             $15,417            $778,502             $15,417            $778,502
              COMMUNITY CREDIT
              UNION.
819515       CASCADE CENTRAL                      $0             $15,415            $356,056             $15,415            $356,056
              CREDIT UNION.
833893       PROVINCIAL BANK                      $0             $15,367          $2,377,871             $15,367          $2,377,871
              ACADEMIC FUNDING GR.
810785       LEGEND BANK.........                 $0             $15,338            $788,892             $15,338            $788,892
834027       AMERICAN AIRLINES                    $0             $15,332            $713,741             $15,332            $713,741
              FCU.
825641       FARMERS BANK OF COOK                 $0             $15,217            $663,924             $15,217            $663,924
823761       BULLS EYE CU........                 $0             $15,215            $788,776             $15,215            $788,776
804456       EMPORIA STATE BANK &                 $0             $15,212                $448             $15,212                $448
              TRUST CO.
822312       TEXANS CU...........                 $0             $15,210            $683,390             $15,210            $683,390
809027       FIRST NATIONAL BANK.                 $0             $15,202            $534,400             $15,202            $534,400
828812       FORWARD FINANCIAL CU                 $0             $15,202            $762,492             $15,202            $762,492
828366       COMMUNITY CREDIT                     $0             $15,096            $630,202             $15,096            $630,202
              UNION.
805809       STE CROIX REGIONAL                   $0             $15,078            $728,340             $15,078            $728,340
              FCU.
827619       NE PA COMMUNITY                      $0             $14,899            $623,180             $14,899            $623,180
              FEDERAL CREDIT UN.
813376       COPPER AND GLASS FCU                 $0             $14,895            $480,134             $14,895            $480,134
830511       CAPITOL FEDERAL S&L                  $0             $14,764              $3,312             $14,764              $3,312
              ASSC.
832842       TOWER CREDIT UNION..                 $0             $14,743            $524,634             $14,743            $524,634
832407       BUFFALO METROPOLITAN                 $0             $14,654            $613,974             $14,654            $613,974
              FCU.
827616       TOMAH AREA CREDIT                    $0             $14,650            $969,373             $14,650            $969,373
              UNION.
811884       FARMERS & MERCHANTS                  $0             $14,640            $604,787             $14,640            $604,787
              UNION BANK.
829928       AFFINITY PLUS CREDIT                 $0             $14,593            $668,361             $14,593            $668,361
              UNION.
818869       BANK OF ELMWOOD.....                 $0             $14,563            $885,945             $14,563            $885,945
818128       OOSTBURG STATE BANK.                 $0             $14,543            $848,084             $14,543            $848,084
829512       GPO FEDERAL CREDIT                   $0             $14,430            $657,001             $14,430            $657,001
              UNION.
831652       THE BANKERS BANK....                 $0             $14,399            $542,396             $14,399            $542,396
833132       IRVIN WORKS FCU.....                 $0             $14,387            $532,470             $14,387            $532,470
833460       OKLAHOMA EMPLOYEES                   $0             $14,375            $368,753             $14,375            $368,753
              CREDIT UNION.
833902       PACIFIC COLLEGE OF                   $0             $14,373             $14,373                  $0
              ORIENTAL MEDICIN.
829800       HIGHMARK FEDERAL                     $0             $14,344            $628,286             $14,344            $628,286
              CREDIT UNION.
818085       JACKSON COUNTY BANK.                 $0             $14,263            $819,378             $14,263            $819,378
832390       ADDISON AVENUE FCU..                 $0             $14,246            $599,946             $14,246            $599,946
822553       AMERICAN BANK.......                 $0             $14,213            $679,473             $14,213            $679,473
832807       SUNMARK FEDERAL                      $0             $14,096            $965,331             $14,096            $965,331
              CREDIT UNION.
810432       DACOTAH BANK........                 $0             $14,091              $6,625             $14,091              $6,625
821154       PHELPS COUNTY BANK..                 $0             $14,086            $551,101             $14,086            $551,101
809100       COPPERMARK BANK.....                 $0             $14,060            $487,592             $14,060            $487,592
802759       OAK BROOK BANK......                 $0             $14,045            $901,359             $14,045            $901,359
824047       A-K VALLEY FEDERAL                   $0             $14,032            $899,133             $14,032            $899,133
              CREDIT UNION.
834033       FORT SILL FCU.......                 $0             $14,028            $776,198             $14,028            $776,198
832487       ONTARIO SHORES                       $0             $14,012            $540,371             $14,012            $540,371
              FEDERAL CREDIT
              UNION.
833463       HEMPFIELD AREA FCU..                 $0             $13,999            $398,027             $13,999            $398,027
823827       HEARTLAND CREDIT                     $0             $13,997             $40,034             $13,997             $40,034
              UNION.
813471       HANSCOM FEDERAL                      $0             $13,996            $884,401             $13,996            $884,401
              CREDIT UNION.
828555       EDUCATORS CREDIT                     $0             $13,986            $893,931             $13,986            $893,931
              UNION.
832727       UNIV OF SOUTHERN                     $0             $13,972            $789,341             $13,972            $789,341
              MISS CU.
833352       COMMUNITY BANK--                     $0             $13,959             $13,959                  $0
              MISSOULA INC.
832676       MERIT FEDERAL CREDIT                 $0             $13,931                  $0             $13,931                  $0
              UNION.
815854       JP MORGAN CHASE BANK                 $0             $13,798                  $0             $13,798                  $0
828837       WEST-AIRCOMM FCU....                 $0             $13,794            $986,452             $13,794            $986,452
822234       ALTOONA VA HOSPITAL                  $0             $13,780            $547,664             $13,780            $547,664
              FCU.
832848       NORTH DAKOTA AIR                     $0             $13,697            $475,557             $13,697            $475,557
              NATIONAL GUARD CU.
811958       NATIONAL BANK OF                     $0             $13,673            $934,162             $13,673            $934,162
              WAUPUN.
810436       GREAT WESTERN BANK..                 $0             $13,665             $14,999             $13,665             $14,999
828546       LIFETIME CREDIT                      $0             $13,522            $544,327             $13,522            $544,327
              UNION.
813476       MASSBANK............                 $0             $13,510            $672,772             $13,510            $672,772
819855       SOUTHPOINT FEDERAL                   $0             $13,506            $671,993             $13,506            $671,993
              CREDIT UNION.
832105       NIAGARA COUNTY FCU..                 $0             $13,471            $596,774             $13,471            $596,774
818089       DENMARK STATE BANK..                 $0             $13,452            $639,884             $13,452            $639,884
827531       GREAT FALLS TEACHERS                 $0             $13,408            $624,041             $13,408            $624,041
              FEDERAL CU.
833633       BROKAW CREDIT UNION.                 $0             $13,383            $706,315             $13,383            $706,315
824824       NORTH MILWAUKEE                      $0             $13,369            $839,504             $13,369            $839,504
              STATE BANK.
816177       HERITAGEBANK OF THE                  $0             $13,358            $791,861             $13,358            $791,861
              SOUTH.
810798       INTERNATIONAL BANK                   $0             $13,336            $617,795             $13,336            $617,795
              OF COMMERCE-EAGL.
832648       FIRST CAPITAL CREDIT                 $0             $13,331            $548,304             $13,331            $548,304
              UNION.
826495       CORNERSTONE FCU.....                 $0             $13,319            $402,036             $13,319            $402,036
833167       GOVERNMENTAL                         $0             $13,268            $585,049             $13,268            $585,049
              EMPLOYEES CU.
821925       FOX VALLEY SAVINGS                   $0             $13,256            $718,786             $13,256            $718,786
              BANK.
832718       N B A CREDIT UNION..                 $0             $13,199            $471,101             $13,199            $471,101
808923       NATIONAL CITY BANK..                 $0             $13,157             $37,734             $13,157             $37,734
832711       CATHOLIC FAMILY FCU.                 $0             $13,122            $389,400             $13,122            $389,400
833931       EAST CENTRAL CU.....                 $0             $13,106             $13,106                  $0
828714       FIRST AMERICAN                       $0             $13,093            $630,916             $13,093            $630,916
              CREDIT UNION.
821916       KEYSTONE UNITED                      $0             $13,067            $692,585             $13,067            $692,585
              METHODIST FCU.
831848       KEY BANK NA.........                 $0             $12,998              $4,372             $12,998              $4,372
817284       EDCO COMMUNITY                       $0             $12,954            $699,765             $12,954            $699,765
              CREDIT UNION.
817551       CAMERON STATE BANK..                 $0             $12,921                  $0             $12,921                  $0
828906       P G &W EMPLOYEES F C                 $0             $12,916            $602,838             $12,916            $602,838
              U.
805782       NEW DIMENSIONS FCU..                 $0             $12,730            $513,146             $12,730            $513,146
823343       FIRST BANK FINANCIAL                 $0             $12,729            $807,068             $12,729            $807,068
              CENTER.
824714       TCF NATIONAL BANK...                 $0             $12,719          $1,183,815             $12,719          $1,183,815
822814       MON VALLEY COMMUNITY                 $0             $12,702            $657,034             $12,702            $657,034
              FEDERAL CREDIT.
813916       SECURITY STATE BANK                  $0             $12,660            $475,583             $12,660            $475,583
              & TRUST.
832290       TRUWEST CU..........                 $0             $12,556            $634,326             $12,556            $634,326
801894       WELLS FARGO                          $0             $12,553            $893,589             $12,553            $893,589
              EDUCATION FIN SVCS.
830999       INDIANHEAD CREDIT                    $0             $12,514            $477,487             $12,514            $477,487
              UNION.
823384       COASTAL COMMUNITY &                  $0             $12,486                  $0             $12,486                  $0
              TEACHERS CU.
819526       WESTERN STATE BANK..                 $0             $12,469            $621,279             $12,469            $621,279
828768       EAGLE BK & TRUST CO                  $0             $12,421            $521,175             $12,421            $521,175
              OF JEFF CO.
830924       PEOPLES CHOICE                       $0             $12,356            $440,758             $12,356            $440,758
              CREDIT UNION.
821067       MECHANICS SAVINGS                    $0             $12,354            $825,557             $12,354            $825,557
              BANK.
816026       AEDC FEDERAL CREDIT                  $0             $12,334            $796,647             $12,334            $796,647
              UNION.
833805       REDSTONE FCU........                 $0             $12,268              $2,626             $12,268              $2,626
822480       SKY BANK............                 $0             $12,245            $722,286             $12,245            $722,286
825633       UNITED PRAIRIE BANK-                 $0             $12,205            $630,948             $12,205            $630,948
              SLAYTON.
817409       MONROE COUNTY                        $0             $12,161            $770,903             $12,161            $770,903
              COMMUNITY CREDIT
              UNIO.
823247       BFG FEDERAL CREDIT                   $0             $12,083            $407,329             $12,083            $407,329
              UNION.
832650       AMERICHOICE FCU.....                 $0             $12,034            $648,173             $12,034            $648,173
806778       CABOOL STATE BANK...                 $0             $12,019            $428,993             $12,019            $428,993
812355       TELCO TRIAD CREDIT                   $0             $12,000            $662,958             $12,000            $662,958
              UNION.
832630       OUR COMMUNITY CREDIT                 $0             $11,979            $611,476             $11,979            $611,476
              UNION.
828948       1ST CHOICE COMMUNITY                 $0             $11,881            $676,006             $11,881            $676,006
              FCU.
818219       AMERICAN BANK &                      $0             $11,870            $749,996             $11,870            $749,996
              TRUST WISCONSIN.
809231       FIRST TECHNOLOGY                     $0             $11,839            $562,996             $11,839            $562,996
              CREDIT UNION.
827117       RICHLAND COUNTY BANK                 $0             $11,825            $748,104             $11,825            $748,104
833169       FIRST WESTERN BANK                   $0             $11,812                  $0             $11,812                  $0
              OF STURGIS.
827196       STATE DEPARTMENT FCU                 $0             $11,807          $1,169,961             $11,807          $1,169,961
830547       CLS-NATIONAL CITY                    $0             $11,805             $48,375             $11,805             $48,375
              BANK OF PA.
828887       FIRST COMMONWEALTH                   $0             $11,696            $616,992             $11,696            $616,992
              FCU.
810226       VANTAGE TRUST FCU...                 $0             $11,691            $621,030             $11,691            $621,030
832404       ALCO FEDERAL CREDIT                  $0             $11,685            $561,269             $11,685            $561,269
              UNION.
833866       FIFTH THIRD ELT EIC.                 $0             $11,678                  $0             $11,678                  $0
810995       1ST NAT'L BANK OF                    $0             $11,662             $39,829             $11,662             $39,829
              CANADIAN.
832275       UNIVERSITY OF                        $0             $11,656            $800,292             $11,656            $800,292
              MICHIGAN CU.
832626       LANCASTER RED ROSE                   $0             $11,618            $365,508             $11,618            $365,508
              CU.
828876       SCIENCE PARK                         $0             $11,598            $683,122             $11,598            $683,122
              EMPLOYEES C U.
832000       UMB BANK............                 $0             $11,589            $321,826             $11,589            $321,826
828477       VANTAGE WEST CREDIT                  $0             $11,555            $152,215             $11,555            $152,215
              UNION.
813317       MAX FEDERAL CREDIT                   $0             $11,535            $914,163             $11,535            $914,163
              UNION.
826585       STATE CENTRAL CREDIT                 $0             $11,530            $575,446             $11,530            $575,446
              UNION.
832090       DALE EMPLOYEES                       $0             $11,526            $432,767             $11,526            $432,767
              CREDIT UNION.
810479       FIRST STATE BANK....                 $0             $11,486            $588,803             $11,486            $588,803
832816       Y T W FEDERAL CREDIT                 $0             $11,471            $402,612             $11,471            $402,612
              UNION.
808441       HASTINGS STATE BANK.                 $0             $11,462              $2,062             $11,462              $2,062
833038       MEMBERS CHOICE                       $0             $11,416            $403,254             $11,416            $403,254
              CREDIT UNION.
805152       PEOPLES STATE BANK..                 $0             $11,407                  $0             $11,407                  $0
831897       TRI-COUNTY CREDIT                    $0             $11,384            $442,115             $11,384            $442,115
              UNION.
832116       FIREFIGHTERS                         $0             $11,342            $552,994             $11,342            $552,994
              COMMUNITY CU.
833306       MINNCO CREDIT UNION.                 $0             $11,329            $549,471             $11,329            $549,471
833595       NORTHWOODS COMMUNITY                 $0             $11,327            $580,143             $11,327            $580,143
              CU.
817517       CENTRA CREDIT UNION.                 $0             $11,321            $399,460             $11,321            $399,460
824411       HURON AREA EDUCATION                 $0             $11,315            $413,882             $11,315            $413,882
              FEDERAL CREDIT.
820231       FIRST NATIONAL BANK                  $0             $11,299            $605,291             $11,299            $605,291
              AT DARLINGTON.
827708       US BANK NA..........                 $0             $11,156            $366,196             $11,156            $366,196
832292       UNITED CREDIT UNION.                 $0             $11,143            $501,102             $11,143            $501,102
833609       CLASS ACT FCU.......                 $0             $11,133            $602,696             $11,133            $602,696
816480       GEORGIA TELCO CREDIT                 $0             $11,117            $594,665             $11,117            $594,665
              UNION.
825153       RIVER VALLEY CREDIT                  $0             $11,092            $468,646             $11,092            $468,646
              UNION.
832838       CACL FEDERAL CREDIT                  $0             $11,077             $11,077                  $0
              UNION.
832627       MINNESOTA POWER                      $0             $11,074            $478,116             $11,074            $478,116
              EMPLOYEES CREDIT UN.
808335       NEBRASKA ENERGY FCU.                 $0             $10,990            $506,622             $10,990            $506,622
832705       NESC FEDERAL CREDIT                  $0             $10,938            $407,290             $10,938            $407,290
              UNION.
832803       TRI-STATE FCU.......                 $0             $10,901            $631,594             $10,901            $631,594
828580       GREAT MIDWEST BANK              $10,871            $579,605             $10,871            $579,605
              S.S.B$0.
830845       UNO FEDERAL CREDIT                   $0             $10,839             $12,274             $10,839             $12,274
              UNION.
831595       CUDAHY- SOUTHSHORE                   $0             $10,816            $357,331             $10,816            $357,331
              CU.
832264       WESTERN DIVISION FCU                 $0             $10,777            $719,934             $10,777            $719,934
832063       UNIVERSITY OF                        $0             $10,774            $458,672             $10,774            $458,672
              NEBRASKA FEDERAL CU.
834186       SOUTHERN CALIF INST                  $0             $10,743                  $0             $10,743                  $0
              OF ARCH.
824608       WACHOVIA BANK NA....                 $0             $10,721            $596,829             $10,721            $596,829
832561       NIAGARA'S CHOICE FCU                 $0             $10,715            $430,163             $10,715            $430,163
833095       FALCON NATIONAL BANK                 $0             $10,696            $663,303             $10,696            $663,303
829911       PCM EMPLOYEES CU....                 $0             $10,652            $514,644             $10,652            $514,644
831875       AVANTA FEDERAL                       $0             $10,583            $468,978             $10,583            $468,978
              CREDIT UNION.
832582       SUN FEDERAL CREDIT                   $0             $10,561            $578,595             $10,561            $578,595
              UNION.
820888       BANK OF BRODHEAD....                 $0             $10,490            $639,729             $10,490            $639,729
827104       EQUITABLE BANK SSB..                 $0             $10,471            $546,383             $10,471            $546,383
822440       BAY SHORE CREDIT                     $0             $10,467            $622,106             $10,467            $622,106
              UNION.
803609       OLD NATIONAL BANK...                 $0             $10,450             $81,725             $10,450             $81,725
829951       ABERDEEN FEDERAL                     $0             $10,444            $464,501             $10,444            $464,501
              CREDIT UNION.
832234       WHITEFISH CREDIT                     $0             $10,408            $409,907             $10,408            $409,907
              UNION.
833204       ONPOINT COMMUNITY CU                 $0             $10,321            $537,242             $10,321            $537,242
813419       PEOPLESBANK A                        $0             $10,248            $405,577             $10,248            $405,577
              CODORUS VALLEY
              COMPAN.
829795       EMORY FEDERAL CREDIT                 $0             $10,121            $300,632             $10,121            $300,632
              UNION.
817804       MCDOWELL COUNTY                      $0             $10,117            $638,563             $10,117            $638,563
              NATIONAL BANK.
822928       FRANKLIN SAVINGS AND                 $0             $10,106            $552,893             $10,106            $552,893
              LOAN COMPANY.
810536       STATE BANK OF                        $0             $10,096            $456,061             $10,096            $456,061
              ALCESTER.
826408       CORTRUST BANK.......                 $0             $10,087              $3,408             $10,087              $3,408
829299       WEA CREDIT UNION....                 $0             $10,028            $456,288             $10,028            $456,288
833047       CORRY JAMESTOWN                      $0              $9,969            $391,006              $9,969            $391,006
              CREDIT UNION.
827468       BANK OF WASHINGTON..                 $0              $9,943            $403,158              $9,943            $403,158
822022       CORNHUSKER BANK.....                 $0              $9,939              $5,132              $9,939              $5,132
833625       HEARTLAND CREDIT                     $0              $9,920            $371,703              $9,920            $371,703
              UNION.
822818       CENTURY HERITAGE FCU                 $0              $9,892            $502,719              $9,892            $502,719
833205       UNION BANK & TRUST                   $0              $9,851             $90,432              $9,851             $90,432
              ELT NELNET.
817864       NORTHEAST ARKANSAS                   $0              $9,850            $505,080              $9,850            $505,080
              FEDERAL CREDIT U.
829994       NORTHERN HILLS FCU..                 $0              $9,849            $427,839              $9,849            $427,839
826405       SYCAMORE BANK.......                 $0              $9,840            $290,436              $9,840            $290,436
809695       LEBANON VALLEY                       $0              $9,804            $443,211              $9,804            $443,211
              FARMERS BANK.
809323       WEST BRANCH VALLEY                   $0              $9,800            $505,049              $9,800            $505,049
              CU.
834179       FIFTH THIRD ELT                      $0              $9,768            $503,884              $9,768            $503,884
              BUSINESS FIN SOLUTI.
833709       ARVEST BANK.........                 $0              $9,765            $422,016              $9,765            $422,016
833096       KENMORE TEACHERS                     $0              $9,748            $387,611              $9,748            $387,611
              FEDERAL CREDIT UNI.
833469       LAREDO FEDERAL                       $0              $9,700            $465,764              $9,700            $465,764
              CREDIT UNION.
832314       EDUCATIONAL                          $0              $9,673            $487,573              $9,673            $487,573
              COMMUNITY CU.
817696       FIRST CHOICE AMERICA                 $0              $9,656            $614,202              $9,656            $614,202
              COMMUNITY FCU.
830525       LASALLE BANK........                 $0              $9,650                  $0              $9,650                  $0
832715       UNIVERSITY DR VAH                    $0              $9,620            $363,548              $9,620            $363,548
              FCU.
830649       SLM ECFC............                 $0              $9,602          $2,082,578              $9,602          $2,082,578
816358       DELTA COMMUNITY CU..                 $0              $9,589            $687,865              $9,589            $687,865
820694       SACO VALLEY CREDIT                   $0              $9,561            $294,945              $9,561            $294,945
              UNION.
830513       DETROIT EDISON                       $0              $9,558            $448,492              $9,558            $448,492
              CREDIT UNION.
807805       M & T BANK                           $0              $9,556            $509,632              $9,556            $509,632
              EDUCATIONAL LENDING.
828142       SCHUYLKILL FEDERAL                   $0              $9,550            $431,465              $9,550            $431,465
              CREDIT UNION.
808018       LAKE SHORE SAVINGS                   $0              $9,542            $374,757              $9,542            $374,757
              AND LOAN ASSN.
810928       FIRST NATIONAL BANK.                 $0              $9,530              $1,774              $9,530              $1,774
810948       RED RIVER EMPLOYEES                  $0              $9,487            $370,623              $9,487            $370,623
              FEDERAL CREDIT.
832074       GREATER MN CREDIT                    $0              $9,485            $451,622              $9,485            $451,622
              UNION.
833932       NEW ALLIANCE FCU....                 $0              $9,471            $600,302              $9,471            $600,302
832741       PRR SOUTH FORK FCU..                 $0              $9,468            $424,206              $9,468            $424,206
812918       NEW TRIPOLI BANK....                 $0              $9,448            $420,129              $9,448            $420,129
832148       VIRGINIA UNITED                      $0              $9,439            $329,656              $9,439            $329,656
              METHODIST CU.
833824       DODGE CENTRAL CREDIT                 $0              $9,408            $580,463              $9,408            $580,463
              UNION.
814108       REGIONS BANK........                 $0              $9,407             $51,145              $9,407             $51,145
834201       US BANK ELT UNIV OF                  $0              $9,379                  $0              $9,379                  $0
              TX TEXAS EXES.
833480       PRINCIPAL BANK......                 $0              $9,363            $243,694              $9,363            $243,694
816116       FAA EMPLOYEES CREDIT                 $0              $9,297            $561,404              $9,297            $561,404
              UNION.
832355       ERIE SHORES CREDIT                   $0              $9,251            $480,246              $9,251            $480,246
              UNION INC.
821498       TRI VALLEY SERVICE                   $0              $9,233            $340,141              $9,233            $340,141
              FCU.
810903       JOURDANTON STATE                     $0              $9,209            $545,984              $9,209            $545,984
              BANK.
813891       ZIONS BANK (IDAHO                    $0              $9,184             $46,584              $9,184             $46,584
              FIRST).
814651       SIOUX EMPIRE FEDERAL                 $0              $9,180            $484,657              $9,180            $484,657
              CREDIT UNION.
826001       WALWORTH STATE BANK.                 $0              $9,119            $614,667              $9,119            $614,667
832512       BOSSIER FEDERAL                      $0              $9,118            $345,703              $9,118            $345,703
              CREDIT UNION.
832288       C&G SAVINGS                          $0              $9,105            $591,563              $9,105            $591,563
              ASSOCIATION.
818246       ARVEST BANK.........                 $0              $9,091            $462,649              $9,091            $462,649
826679       ELI LILLY FEDERAL                    $0              $9,051            $284,029              $9,051            $284,029
              CREDIT UNION.
823777       ROSE ROCK BANK......                 $0              $9,021            $295,430              $9,021            $295,430
814627       COMMERCIAL TRUST                     $0              $9,001            $320,483              $9,001            $320,483
              COMPANY.
832432       AURORA CREDIT UNION.                 $0              $8,980            $400,013              $8,980            $400,013
832174       NASSAU FINANCIAL FCU                 $0              $8,958            $514,931              $8,958            $514,931
832551       SHAREFAX CREDIT                      $0              $8,925            $467,982              $8,925            $467,982
              UNION INC.
828836       PHOENIXVILLE FEDERAL                 $0              $8,858            $444,935              $8,858            $444,935
              SVGS & LOAN.
832560       AURORA BURLINGTON                    $0              $8,831            $203,474              $8,831            $203,474
              CREDIT UNION.
833013       UGI EMPLOYEES FCU...                 $0              $8,793            $338,081              $8,793            $338,081
816098       THE CITIZENS BANK OF                 $0              $8,765            $287,537              $8,765            $287,537
              CLOVIS.
808237       FIRST NATIONAL BANK                  $0              $8,734            $403,027              $8,734            $403,027
              & TRUST COMPANY.
810225       WILKES BARRE POSTAL                  $0              $8,695            $395,172              $8,695            $395,172
              FCU.
812950       FIRST NATIONAL BANK                  $0              $8,679            $107,140              $8,679            $107,140
              OF BERWICK.
816319       ATLANTA POSTAL                       $0              $8,666            $481,550              $8,666            $481,550
              CREDIT UNION.
832184       SUMMIT CU...........                 $0              $8,657            $356,280              $8,657            $356,280
834112       US BANK ELT BAYLOR                   $0              $8,630                  $0              $8,630                  $0
              UNIV ALUMNI ASSO.
828416       UNITED FEDERAL CU...                 $0              $8,611            $451,927              $8,611            $451,927
833912       MERCER COUNTY                        $0              $8,585            $451,827              $8,585            $451,827
              COMMUNITY FCU.
811946       LAONA STATE BANK....                 $0              $8,573            $512,594              $8,573            $512,594
833355       CREDIT UNION                         $0              $8,569            $365,643              $8,569            $365,643
              NORTHWEST.
831825       INDEPENDENT BANKERS                  $0              $8,544             $13,775              $8,544             $13,775
              BANK.
832826       MEDICAL AREA FCU....                 $0              $8,539            $488,295              $8,539            $488,295
832223       MONONA STATE BANK...                 $0              $8,530            $479,537              $8,530            $479,537
818280       LIBERTY FEDERAL                      $0              $8,519            $279,695              $8,519            $279,695
              SAVINGS BANK.
832877       RIVER CITY COMMUNITY                 $0              $8,518            $284,466              $8,518            $284,466
              CREDIT UNION.
832075       RICHFIELD                            $0              $8,513            $410,179              $8,513            $410,179
              BLOOMINGTON CREDIT
              UNION.
823618       ASSOCIATED BANK NA..                 $0              $8,498              $8,498                  $0
833774       XEROX FEDERAL CREDIT                 $0              $8,467            $430,040              $8,467            $430,040
              UNION.
810468       FIRST SAVINGS BANK..                 $0              $8,449            $335,881              $8,449            $335,881
830837       UNITED SAVINGS                       $0              $8,436            $337,699              $8,436            $337,699
              CREDIT UNION.
829825       HARDIN COMMUNITY                     $0              $8,431            $404,470              $8,431            $404,470
              FEDERAL CREDIT UNI.
811513       CITIZENS NATIONAL                    $0              $8,410            $659,200              $8,410            $659,200
              BANK OF BERKELEY.
828024       FIRST COMMUNITY                      $0              $8,409            $408,297              $8,409            $408,297
              CREDIT UNION.
832935       CY-FAIR FCU.........                 $0              $8,381            $392,807              $8,381            $392,807
833120       AREA COMMUNITY                       $0              $8,365            $319,360              $8,365            $319,360
              CREDIT UNION.
827902       STERLING UNITED FCU.                 $0              $8,346            $447,058              $8,346            $447,058
822189       FIBERGLAS FEDERAL                    $0              $8,329            $418,201              $8,329            $418,201
              CREDIT UNION.
832745       EC & EE EMPLOYEES                    $0              $8,288            $310,584              $8,288            $310,584
              FCU.
806481       MINNWEST BANK                        $0              $8,271            $336,416              $8,271            $336,416
              LUVERNE.
827675       DULUTH TEACHERS                      $0              $8,270            $290,872              $8,270            $290,872
              CREDIT UNION.
804091       IOWA FALLS STATE                     $0              $8,266            $317,723              $8,266            $317,723
              BANK.
833507       MERIDIA COMMUNITY                    $0              $8,250            $257,927              $8,250            $257,927
              FCU.
832091       ST CLOUD FEDERAL                     $0              $8,235            $529,678              $8,235            $529,678
              CREDIT UNION.
810482       FIRST NATIONAL BANK.                 $0              $8,222            $380,656              $8,222            $380,656
808273       WESTERN HERITAGE                     $0              $8,212            $394,947              $8,212            $394,947
              CREDIT UNION.
828907       R-S BELLCO FEDERAL                   $0              $8,154            $477,964              $8,154            $477,964
              CREDIT UNION.
816190       DOCO REGIONAL FCU...                 $0              $8,145            $527,744              $8,145            $527,744
825230       COMERICA BANK.......                 $0              $8,117              $2,770              $8,117              $2,770
809966       CORRY FCU...........                 $0              $8,092            $561,707              $8,092            $561,707
832350       HEALTHFIRST FCU.....                 $0              $8,074            $363,998              $8,074            $363,998
827348       GUARDIAN CREDIT                      $0              $8,065            $399,109              $8,065            $399,109
              UNION.
832868       HERMANTOWN FCU......                 $0              $8,033            $335,619              $8,033            $335,619
833041       CANTON SCHOOL EFCU..                 $0              $8,019            $318,110              $8,019            $318,110
832033       UNITED STATES SENATE                 $0              $8,000            $480,967              $8,000            $480,967
              FEDERAL CREDIT.
832433       PRIMEFINANCIAL CU...                 $0              $7,979            $523,756              $7,979            $523,756
810463       FIRST NATIONAL BANK                  $0              $7,945            $328,838              $7,945            $328,838
              IN PHILIP.
808425       FREMONT FIRST                        $0              $7,923            $349,997              $7,923            $349,997
              CENTRAL FEDERAL
              CREDI.
803947       CENTRAL BANK........                 $0              $7,913            $258,947              $7,913            $258,947
826004       ORNL FEDERAL CREDIT                  $0              $7,883             $10,836              $7,883             $10,836
              UNION.
828732       CAPITAL                              $0              $7,859            $449,436              $7,859            $449,436
              COMMUNICATIONS
              FEDERAL CRED.
833637       NORTHERN COMMUNITIES                 $0              $7,854            $300,706              $7,854            $300,706
              CU.
831706       PIONEER CU..........                 $0              $7,852            $266,611              $7,852            $266,611
830720       VAC EMPLOYEES FCU...                 $0              $7,796            $362,768              $7,796            $362,768
818506       STATE BANK OF                        $0              $7,781            $373,940              $7,781            $373,940
              ARCADIA.
820277       DISCOVERY FCU.......                 $0              $7,772            $505,952              $7,772            $505,952
823762       AB CREDIT UNION.....                 $0              $7,714            $293,216              $7,714            $293,216
802814       CITIZENS NATIONAL                    $0              $7,635              $7,635                  $0
              BANK.
833614       BADGER CREDIT UNION.                 $0              $7,630            $321,260              $7,630            $321,260
809947       VALLEY FIRST COMM                    $0              $7,627              $7,627                  $0
              FCU.
817856       THE FIRST NATIONAL                   $0              $7,625            $264,145              $7,625            $264,145
              BANK AT PARIS.
829509       SOUTHWEST RESEARCH                   $0              $7,619            $510,161              $7,619            $510,161
              CENTER FCU.
831535       WYOMING STUDENT LOAN                 $0              $7,598            $421,547              $7,598            $421,547
              CORP GEN FUND.
831301       SOUTHPOINTE CREDIT                   $0              $7,576            $223,786              $7,576            $223,786
              UNION.
833898       PITTSBURGH POLICE                    $0              $7,571            $404,209              $7,571            $404,209
              FCU.
833794       CONE CREDIT UNION...                 $0              $7,570            $223,004              $7,570            $223,004
832610       HAR-CO MARYLAND                      $0              $7,560            $390,931              $7,560            $390,931
              FEDERAL CREDIT UNIO.
831513       UNIVERSITY OF                        $0              $7,548              $7,548                  $0
              COLORADO.
832584       KEMBA CU............                 $0              $7,533              $7,533                  $0
819166       JP MORGANCHASE BANK.                 $0              $7,519             $12,934              $7,519             $12,934
809459       ELDERTON STATE BANK.                 $0              $7,515            $558,723              $7,515            $558,723
829513       DOT FEDERAL CREDIT                   $0              $7,504            $326,642              $7,504            $326,642
              UNION.
832343       ABCO FEDERAL CREDIT                  $0              $7,489            $544,484              $7,489            $544,484
              UNION.
832850       FEDERATED FAMILY CU.                 $0              $7,486            $273,721              $7,486            $273,721
832454       UNITED BANK OF                       $0              $7,479            $509,952              $7,479            $509,952
              PHILADELPHIA.
828001       EAST TEXAS                           $0              $7,467            $363,262              $7,467            $363,262
              PROFESSIONAL CU.
827885       APPLETREE CREDIT                     $0              $7,422            $415,169              $7,422            $415,169
              UNION.
813574       CUMBERLAND COUNTY                    $0              $7,412            $495,002              $7,412            $495,002
              FCU.
827066       INNER LAKES FCU.....                 $0              $7,390            $319,804              $7,390            $319,804
829624       ENTERPRISE CREDIT                    $0              $7,357            $377,384              $7,357            $377,384
              UNION.
832335       GOWANDA AREA FCU....                 $0              $7,324            $249,099              $7,324            $249,099
832026       OPCS FEDERAL CREDIT                  $0              $7,285            $329,218              $7,285            $329,218
              UNION.
833628       PEPPERDINE                           $0              $7,274              $7,274                  $0
              UNIVERSITY.
828851       MUNICIPAL CREDIT                     $0              $7,245            $250,732              $7,245            $250,732
              UNION.
826322       CINCINNATI                           $0              $7,215            $291,632              $7,215            $291,632
              INTERAGENCY FEDERAL
              CRED.
832825       WACHOVIA NAT'L BANK                  $0              $7,210            $433,127              $7,210            $433,127
              DE NA.
820758       SALEM VA MEDICAL                     $0              $7,199            $586,483              $7,199            $586,483
              CENTER FED CR UNIO.
832538       NORTHLAND EDUCATORS                  $0              $7,199            $338,258              $7,199            $338,258
              FCU.
833118       ELM RIVER CREDIT                     $0              $7,194            $290,715              $7,194            $290,715
              UNION.
807612       WASHINGTON MUTUAL                    $0              $7,189                  $0              $7,189                  $0
              BANK FA.
830294       FIRST COMMUNITY                      $0              $7,181            $345,426              $7,181            $345,426
              FEDERAL CREDIT UNIO.
818220       STATE BANK OF                        $0              $7,179            $359,100              $7,179            $359,100
              CHILTON.
819769       PENINSULA FEDERAL                    $0              $7,151            $524,390              $7,151            $524,390
              CREDIT UNION.
832800       FAYETTE FEDERAL                      $0              $7,151            $322,250              $7,151            $322,250
              EMPLOYEES FCU.
833837       LONE STAR NATIONAL                   $0              $7,109            $378,390              $7,109            $378,390
              BANK.
829390       SEACOMM FEDERAL                      $0              $7,105            $577,450              $7,105            $577,450
              CREDIT UNION.
808521       SAC FEDERAL CREDIT                   $0              $7,088            $290,088              $7,088            $290,088
              UNION.
832059       CHAMPION CREDIT                      $0              $7,088            $270,539              $7,088            $270,539
              UNION.
832719       BLUE CHIP FCU.......                 $0              $7,083            $388,826              $7,083            $388,826
832254       CAPITAL TRUST                        $0              $7,028            $276,186              $7,028            $276,186
              FEDERAL CREDIT
              UNION.
833112       GREATER LATROBE                      $0              $7,016            $192,317              $7,016            $192,317
              SCHOOLS FCU.
814495       MAQUOKETA STATE BANK                 $0              $6,997            $420,408              $6,997            $420,408
832749       TOPMARK FCU.........                 $0              $6,995            $202,170              $6,995            $202,170
832886       TONAWANDA FCU.......                 $0              $6,993            $309,159              $6,993            $309,159
824046       PA CENTRAL FCU......                 $0              $6,984            $326,011              $6,984            $326,011
829086       COMMUNITY FCU.......                 $0              $6,968            $265,612              $6,968            $265,612
827711       FIRST SERVICE CU....                 $0              $6,952            $252,995              $6,952            $252,995
808990       FIRST FIDELITY BANK                  $0              $6,942                  $0              $6,942                  $0
              NA.
832846       AUSTIN TELCO FCU....                 $0              $6,936              $6,936                  $0
827802       EDTECH FEDERAL                       $0              $6,923            $276,209              $6,923            $276,209
              CREDIT UNION.
830555       COMMUNITY BANK......                 $0              $6,915            $253,395              $6,915            $253,395
819745       SOUND CREDIT UNION..                 $0              $6,914            $357,750              $6,914            $357,750
824693       FINGER LAKES FEDERAL                 $0              $6,911            $459,472              $6,911            $459,472
              CREDIT UNION.
833660       ULSTER FEDERAL                       $0              $6,901            $380,999              $6,901            $380,999
              CREDIT UNION.
833905       EASTERN MAINE MED                    $0              $6,889            $591,726              $6,889            $591,726
              CENTER FCU.
819585       MERIDIAN TRUST FCU..                 $0              $6,877            $258,396              $6,877            $258,396
812889       FIRST NAT'L BANK OF                  $0              $6,873            $379,926              $6,873            $379,926
              LILLY.
823524       MILLER ELECTRIC                      $0              $6,865            $267,937              $6,865            $267,937
              CREDIT UNION.
826396       EMPLOYEES CREDIT                     $0              $6,859            $415,350              $6,859            $415,350
              UNION.
814465       TEXAS FEDERAL CREDIT                 $0              $6,840            $527,361              $6,840            $527,361
              UNION.
833781       CAPITAL AREA FCU....                 $0              $6,838            $385,891              $6,838            $385,891
820274       WESTMORELAND FEDERAL                 $0              $6,833            $257,138              $6,833            $257,138
              EMP FCU.
830320       FIRST NATIONAL BANK.                 $0              $6,830            $308,065              $6,830            $308,065
825257       KALSEE CREDIT UNION.                 $0              $6,827            $295,314              $6,827            $295,314
824795       INDEPENDENCE BANK...                 $0              $6,824            $252,962              $6,824            $252,962
833853       ARKANSAS SUPERIOR                    $0              $6,802              $6,802                  $0
              FCU.
833249       CITY NATIONAL BANK                   $0              $6,779            $338,057              $6,779            $338,057
              OF TAYLOR.
822870       HOUSTON POLICE FCU..                 $0              $6,704            $367,960              $6,704            $367,960
833491       BOEING WICHITA                       $0              $6,696            $389,052              $6,696            $389,052
              CREDIT UNION.
832957       PRINCE GEORGES FCU..                 $0              $6,660            $268,005              $6,660            $268,005
824432       APPLE FEDERAL CREDIT                 $0              $6,645            $305,693              $6,645            $305,693
              UNION.
819817       PLAINS COMMERCE BANK                 $0              $6,645            $359,705              $6,645            $359,705
832870       STATE CS EMPLOYEES                   $0              $6,625            $227,612              $6,625            $227,612
              FEDERAL CREDIT U.
813409       OMEGA BANK N A......                 $0              $6,604              $6,604                  $0
833701       AVESTAR CU..........                 $0              $6,601            $252,033              $6,601            $252,033
830931       MISSOURI HIGHER                      $0              $6,583            $338,353              $6,583            $338,353
              EDUCATION LOAN AUTH.
819818       RAPID CITY TELCO                     $0              $6,576            $307,886              $6,576            $307,886
              FEDERAL CREDIT UNI.
833384       UNILEVER FEDERAL                     $0              $6,568            $216,057              $6,568            $216,057
              CREDIT UNION.
830530       OSHKOSH CENTRAL                      $0              $6,531            $329,338              $6,531            $329,338
              CREDIT UNION.
833374       LADISH COMMUNITY CU.                 $0              $6,524            $333,949              $6,524            $333,949
823466       GULF COAST BANK.....                 $0              $6,512            $356,282              $6,512            $356,282
819575       STANWOOD AREA FCU...                 $0              $6,489            $320,320              $6,489            $320,320
832974       KILOWATT CREDIT                      $0              $6,482            $171,714              $6,482            $171,714
              UNION.
819648       UNIVERSITY NATIONAL                  $0              $6,477                  $0              $6,477                  $0
              BANK OF CHICAGO.
832915       UFCW LOCAL 1776 FCU.                 $0              $6,469            $243,824              $6,469            $243,824
830523       GATES CHILI FEDERAL                  $0              $6,456            $183,377              $6,456            $183,377
              CREDIT UNION.
825435       BANK OF MONTICELLO..                 $0              $6,429            $377,921              $6,429            $377,921
829212       TEACHERS CREDIT                      $0              $6,389            $314,026              $6,389            $314,026
              UNION.
819012       BANK OF UTICA.......                 $0              $6,355            $389,130              $6,355            $389,130
818402       FIRST NATIONAL BANK--                $0              $6,344            $377,842              $6,344            $377,842
              FOX VALLEY.
811908       FIRST BANK OF                        $0              $6,324            $352,444              $6,324            $352,444
              BALDWIN.
832928       MONEY FEDERAL CREDIT                 $0              $6,310            $247,623              $6,310            $247,623
              UNION.
833631       UTILITIES EMPLOYEES                  $0              $6,298              $6,298                  $0
              CREDIT UNION.
833588       THE ALTOONA HOSPITAL                 $0              $6,291            $353,687              $6,291            $353,687
              FCU.
832984       ONE SOURCE FCU......                 $0              $6,272            $322,696              $6,272            $322,696
827361       BLUE GRASS SAVINGS                   $0              $6,271            $206,980              $6,271            $206,980
              BANK.
815708       FIRST NATIONAL BANK                  $0              $6,265            $200,815              $6,265            $200,815
              VALPARAISO.
814540       UNION BANK & TRUST                   $0              $6,264              $6,264                  $0
              COMPANY.
832537       TAPCO CREDIT UNION..                 $0              $6,240            $315,896              $6,240            $315,896
832954       SCRANTON TIMES EMP                   $0              $6,232              $6,232                  $0
              FCU.
831913       WESTERN CREDIT UNION                 $0              $6,222            $211,878              $6,222            $211,878
              INC.
832287       CUMBERLAND COUNTY                    $0              $6,220            $466,888              $6,220            $466,888
              FCU.
833411       OKLAHOMA EDUCATORS                   $0              $6,192            $274,747              $6,192            $274,747
              CU.
833745       HONEYWELL FCU.......                 $0              $6,190            $290,808              $6,190            $290,808
819504       NUMERICA CREDIT                      $0              $6,188            $357,791              $6,188            $357,791
              UNION.
832651       GLATCO CREDIT UNION.                 $0              $6,184            $216,292              $6,184            $216,292
814381       VALLEY EXCHANGE BANK                 $0              $6,162            $244,064              $6,162            $244,064
830930       CENTRAL VIRGINIA                     $0              $6,121            $240,698              $6,121            $240,698
              FEDERAL CREDIT UNI.
824852       EASTERN BANK........                 $0              $6,118            $423,923              $6,118            $423,923
833710       OZONA NATIONAL BANK.                 $0              $6,105            $268,490              $6,105            $268,490
803967       UNITED COMMUNITY                     $0              $6,089            $187,795              $6,089            $187,795
              BANK.
829703       BORDER CAPITAL BANK.                 $0              $6,069            $266,968              $6,069            $266,968
830387       WEBSTER FEDERAL CU..                 $0              $6,057            $185,391              $6,057            $185,391
813583       FARMERS & MERCHANTS                  $0              $6,043            $246,250              $6,043            $246,250
              STATE BANK.
833839       STAR CHOICE CREDIT                   $0              $6,042            $300,319              $6,042            $300,319
              UNION.
819657       TIFFIN SAINT JOSEPH                  $0              $6,041            $354,162              $6,041            $354,162
              FEDERAL CREDIT.
832492       PACIFIC NORTHWEST                    $0              $6,022            $320,993              $6,022            $320,993
              FEDERAL CREDIT UN.
833354       KNIFE RIVER CREDIT                   $0              $5,934            $186,767              $5,934            $186,767
              UNION.
833506       ALLEGIANCE CREDIT                    $0              $5,906            $314,962              $5,906            $314,962
              UNION.
810417       COMMERCIAL STATE                     $0              $5,892            $233,732              $5,892            $233,732
              BANK.
819155       FARMERS & MERCHANTS                  $0              $5,870            $147,606              $5,870            $147,606
              BANK.
815780       INGERSOLL RAND                       $0              $5,849            $347,445              $5,849            $347,445
              FEDERAL CREDIT
              UNION.
805810       TACONNET FEDERAL                     $0              $5,841            $395,275              $5,841            $395,275
              CREDIT UNION.
830564       SACO AND BIDDEFORD                   $0              $5,830            $263,632              $5,830            $263,632
              SVGS INST.
826977       PYRAMAX BANK........                 $0              $5,806            $355,946              $5,806            $355,946
833282       FIRST VICTORIA                       $0              $5,800            $345,266              $5,800            $345,266
              NATIONAL BANK.
833407       BRONCO FEDERAL                       $0              $5,784            $405,852              $5,784            $405,852
              CREDIT UNION.
832331       CHAMPLAIN VALLEY                     $0              $5,782            $278,884              $5,782            $278,884
              CREDIT UNION.
833878       CITY-COUNTY FCU.....                 $0              $5,781            $287,778              $5,781            $287,778
832750       MISSISSIPPI POSTAL                   $0              $5,747            $373,440              $5,747            $373,440
              EMPLOYEES FCU.
828634       DORT FEDERAL CREDIT                  $0              $5,733            $400,292              $5,733            $400,292
              UNION.
824461       TEACHER FEDERAL                      $0              $5,703            $308,018              $5,703            $308,018
              CREDIT UNION.
821347       OREGONIANS CU.......                 $0              $5,697            $210,330              $5,697            $210,330
806378       FIRST STATE BANK OF                  $0              $5,697            $248,875              $5,697            $248,875
              ST JOSEPH.
832391       TOLEDO AREA                          $0              $5,685            $367,893              $5,685            $367,893
              COMMUNITY CU.
819511       SAVINGS BANK........                 $0              $5,652            $407,527              $5,652            $407,527
828798       M & T BANK                           $0              $5,644            $348,008              $5,644            $348,008
              EDUCATIONAL LENDING.
833284       WEST POINTE BANK....                 $0              $5,629            $323,998              $5,629            $323,998
831859       WESTERN VISTA                        $0              $5,593            $233,345              $5,593            $233,345
              FEDERAL CREDIT
              UNION.
832897       OWEGO HERITAGE FCU..                 $0              $5,589            $238,025              $5,589            $238,025
828975       WESTMORELAND                         $0              $5,588            $332,978              $5,588            $332,978
              COMMUNITY FCU.
826556       LOGAN COUNTY BANK...                 $0              $5,577            $219,829              $5,577            $219,829
832377       PORTLAND REGIONAL                    $0              $5,540            $189,642              $5,540            $189,642
              FEDERAL CREDIT UN.
825568       UKRAINIAN                            $0              $5,534            $151,893              $5,534            $151,893
              SELFRELIANCE OF W
              PA FCU.
831119       MO HIGHER ED LOAN                    $0              $5,526            $838,203              $5,526            $838,203
              AUTHORITY.
820726       HUTCHINSON CREDIT                    $0              $5,526            $204,527              $5,526            $204,527
              UNION.
810489       FULTON STATE BANK...                 $0              $5,525            $228,033              $5,525            $228,033
832340       AUBURN COMMUNITY FCU                 $0              $5,523            $267,712              $5,523            $267,712
833240       FARGO PUBLIC SCHOOLS                 $0              $5,520            $282,746              $5,520            $282,746
              FEDERAL CREDIT.
833233       US BANK ELT PHEA INC                 $0              $5,511            $703,430              $5,511            $703,430
810462       FIRST STATE BANK OF                  $0              $5,504            $272,551              $5,504            $272,551
              MILLER.
828826       CENTRAL BANK OF                      $0              $5,498            $190,121              $5,498            $190,121
              LEBANON.
814440       COMMUNITY FIRST CU                   $0              $5,478            $287,226              $5,478            $287,226
              OF FLORIDA.
834107       FRANKLIN OIL REGION                  $0              $5,472            $228,884              $5,472            $228,884
              CU.
833899       BANGOR FCU..........                 $0              $5,439            $338,645              $5,439            $338,645
821715       MAGNOLIA FCU........                 $0              $5,432            $410,800              $5,432            $410,800
823079       HOME SAVINGS & LOAN                  $0              $5,410            $303,241              $5,410            $303,241
              ASSOCIATION.
832881       LEWISTON PORTER FCU.                 $0              $5,393            $222,006              $5,393            $222,006
819350       UNITUS COMMUNITY CU.                 $0              $5,391            $250,308              $5,391            $250,308
832522       MILESTONE FCU.......                 $0              $5,384            $249,171              $5,384            $249,171
819088       POWER COOP EMPLOYEES                 $0              $5,378            $232,825              $5,378            $232,825
              CREDIT UNION.
832356       BISSELL EMPLOYEES                    $0              $5,373            $176,217              $5,373            $176,217
              CREDIT UNION.
833687       CLASSIC FEDERAL                      $0              $5,362            $338,850              $5,362            $338,850
              CREDIT UNION.
833739       CALIFORNIA CREDIT                    $0              $5,360            $277,887              $5,360            $277,887
              UNION.
813148       MACOMB SCH &                         $0              $5,301            $356,332              $5,301            $356,332
              GOVERNMENT CREDIT
              UNIO.
833727       BUFFALO SERVICE                      $0              $5,290            $183,706              $5,290            $183,706
              CREDIT UNION.
812008       STATE BANK OF                        $0              $5,281            $393,573              $5,281            $393,573
              CAZENOVIA.
823895       LANSING AUTOMAKERS                   $0              $5,279            $284,706              $5,279            $284,706
              FCU.
832913       LITTLE GIANT FEDERAL                 $0              $5,270            $307,074              $5,270            $307,074
              CREDIT UNION.
812688       M & T BANK                           $0              $5,265                  $0              $5,265                  $0
              EDUCATIONAL LENDING.
810466       FIRST NATIONAL BANK                  $0              $5,258            $223,666              $5,258            $223,666
              OF VOLGA.
833320       CO-OPERATIVE CREDIT                  $0              $5,253            $192,604              $5,253            $192,604
              UNION.
832942       TEMCO EMPLOYEES FCU.                 $0              $5,250              $5,250                  $0
810533       PIONEER BANK & TRUST                 $0              $5,224                  $0              $5,224                  $0
833396       TEXAS DPS CREDIT                     $0              $5,222            $367,187              $5,222            $367,187
              UNION.
833083       RACINE MUNICIPAL                     $0              $5,219            $254,862              $5,219            $254,862
              EMPLOYEES CREDIT U.
826730       CENTURY FEDERAL                      $0              $5,213              $5,213                  $0
              CREDIT UNION.
834219       US BANK ELT                          $0              $5,186             $23,038              $5,186             $23,038
              STUDENTONE LLC.
833651       MENASHA EMP CU......                 $0              $5,173            $211,402              $5,173            $211,402
810518       PEOPLES STATE BANK..                 $0              $5,158            $263,509              $5,158            $263,509
809015       SOUTHWEST NATIONAL                   $0              $5,150            $219,619              $5,150            $219,619
              BANK.
827445       THIRD FEDERAL                        $0              $5,127            $305,891              $5,127            $305,891
              SAVINGS BANK.
832905       MOHAWK VALLEY FCU...                 $0              $5,125            $151,523              $5,125            $151,523
833510       NEENAH FOUNDRY                       $0              $5,122            $214,530              $5,122            $214,530
              CREDIT UNION.
830665       MUNICIPAL CREDIT                     $0              $5,120            $458,008              $5,120            $458,008
              UNION.
819245       HOMETOWN BANK.......                 $0              $5,095            $281,418              $5,095            $281,418
832490       DPL FEDERAL CREDIT                   $0              $5,087            $136,354              $5,087            $136,354
              UNION.
833555       LIBERTY FIRST CREDIT                 $0              $5,087            $314,878              $5,087            $314,878
              UNION.
833746       CLEARVIEW FCU.......                 $0              $5,085            $311,423              $5,085            $311,423
828125       ST PAUL POSTAL EMP                   $0              $5,074            $284,370              $5,074            $284,370
              CU.
826375       AMERICAN STATE BANK.                 $0              $5,059            $189,657              $5,059            $189,657
833157       JP MORGAN CHASE SMS                  $0              $5,059            $525,374              $5,059            $525,374
              TRUST 1994-B.
809874       PEOPLES STATE BANK..                 $0              $5,051             $10,542              $5,051             $10,542
832523       WEST VIRGINIA                        $0              $5,019            $179,214              $5,019            $179,214
              CENTRAL CREDIT
              UNION.
833348       COMMUNITYAMERICA                     $0              $5,016            $321,399              $5,016            $321,399
              CREDIT UNION.
832302       SENTRY FCU..........                 $0              $5,014            $175,470              $5,014            $175,470
832452       NEWPORT NEWS                         $0              $5,005            $185,941              $5,005            $185,941
              MUNICIPAL ECU.
829967       BAYER HERITAGE FCU..                 $0              $5,004            $292,719              $5,004            $292,719
823588       AURGROUP FINANCIAL                   $0              $4,965            $275,167              $4,965            $275,167
              CREDIT UNION.
828527       OMAHA FEDERAL CREDIT                 $0              $4,965            $270,981              $4,965            $270,981
              UNION.
833300       THE PEOPLES                          $0              $4,956              $4,956                  $0
              COMMUNITY BANK.
830488       AMPLIFY FCU.........                 $0              $4,956            $219,757              $4,956            $219,757
812762       CROSSROADS CU.......                 $0              $4,929            $251,890              $4,929            $251,890
832263       HAMPTON ROADS                        $0              $4,917            $237,119              $4,917            $237,119
              EDUCATORS CU.
832255       SWEET HOME FEDERAL                   $0              $4,896            $255,823              $4,896            $255,823
              CREDIT UNION.
829346       MEMBERS' ADVANTAGE                   $0              $4,881            $269,585              $4,881            $269,585
              CU.
820418       SECU FEDERAL CREDIT                  $0              $4,875            $425,598              $4,875            $425,598
              UNION.
819169       YOAKUM NATIONAL BANK                 $0              $4,869            $354,707              $4,869            $354,707
832256       ST JOSEPHS PARISH                    $0              $4,839            $161,875              $4,839            $161,875
              BUFFALO FCU.
816367       ASSOCIATED CREDIT                    $0              $4,829            $272,485              $4,829            $272,485
              UNION.
823990       FAMILY CREDIT UNION.                 $0              $4,822            $182,326              $4,822            $182,326
823296       SCHOOL EMP. LOR CU..                 $0              $4,819            $317,864              $4,819            $317,864
832806       ROUNTREE CREDIT                      $0              $4,815            $210,261              $4,815            $210,261
              UNION.
826969       METROPOLITAN CREDIT                  $0              $4,802            $343,846              $4,802            $343,846
              UNION.
832442       OSU FEDERAL CREDIT                   $0              $4,768            $228,752              $4,768            $228,752
              UNION.
831489       RUSHMORE ELECTRIC                    $0              $4,761            $275,932              $4,761            $275,932
              FEDERAL CREDIT UN.
832495       FIREFIGHTERS CU.....                 $0              $4,760            $197,298              $4,760            $197,298
831252       STATE BANK OF CROSS                  $0              $4,731            $292,897              $4,731            $292,897
              PLAINS.
832278       GREATER PORTLAND                     $0              $4,731            $304,202              $4,731            $304,202
              MUNICIPAL FCU.
832759       H-F CREDIT UNION....                 $0              $4,718            $198,184              $4,718            $198,184
829641       POWERCO CREDIT UNION                 $0              $4,712            $167,861              $4,712            $167,861
              INC.
822648       MICHIGAN RURAL                       $0              $4,704            $342,328              $4,704            $342,328
              REHABILITATION
              CORPO.
828340       FIRST EDUCATION FCU.                 $0              $4,683            $254,306              $4,683            $254,306
833175       STUDENT LOAN FUNDING                 $0              $4,683             $96,843              $4,683             $96,843
              US BANK ELT.
805804       K V FEDERAL CREDIT                   $0              $4,635            $290,954              $4,635            $290,954
              UNION.
805071       CHURCH POINT BANK &                  $0              $4,615            $302,407              $4,615            $302,407
              TRUST COMPANY.
829262       METRO HEALTH SERVICE                 $0              $4,594            $172,705              $4,594            $172,705
              FCU.
817943       HUDSON RIVER COMM CU                 $0              $4,589            $333,914              $4,589            $333,914
806802       CU COMMUNITY CU.....                 $0              $4,577            $132,756              $4,577            $132,756
832330       ROYAL FEDERAL CREDIT                 $0              $4,576                  $0              $4,576                  $0
              UNION.
833832       BANKNORTH...........                 $0              $4,569              $4,569                  $0
833916       GRAPHIC                              $0              $4,564            $121,396              $4,564            $121,396
              COMMUNICATORS &
              MACH FCU.
805788       MAINE MEDIA FEDERAL                  $0              $4,556            $169,873              $4,556            $169,873
              CREDIT UNION.
833453       IBEW LOCAL #56                       $0              $4,541            $143,432              $4,541            $143,432
              FEDERAL CREDIT
              UNION.
832975       NEW ENGLAND UNITED                   $0              $4,538            $149,030              $4,538            $149,030
              METHODIST FCU.
833444       FORT WORTH COMMUNITY                 $0              $4,533            $220,906              $4,533            $220,906
              CU.
830311       A M COMMUNITY CREDIT                 $0              $4,530            $218,343              $4,530            $218,343
              UNION.
833924       LIVERPOOL CENTRAL                    $0              $4,521            $351,126              $4,521            $351,126
              SCHOOLS FCU.
829432       WHG-PGH STEEL                        $0              $4,521            $362,569              $4,521            $362,569
              COMMFCU.
829833       M O FEDERAL CREDIT                   $0              $4,506            $169,798              $4,506            $169,798
              UNION.
832402       MERCY HEALTH                         $0              $4,502            $196,625              $4,502            $196,625
              PARTNERS FCU.
807669       WOODSTOWN NATI BANK                  $0              $4,480            $166,695              $4,480            $166,695
              & TRUST CO.
832637       TELHIO CREDIT UNION.                 $0              $4,461            $266,562              $4,461            $266,562
832043       LINCOLN COUNTRY CU..                 $0              $4,459            $154,542              $4,459            $154,542
832674       MERCK SHARP & DOHME                  $0              $4,431            $343,029              $4,431            $343,029
              FCU.
833342       WEST OHIO UNITED                     $0              $4,429            $316,729              $4,429            $316,729
              METHODIST CU.
819438       HORIZON CREDIT UNION                 $0              $4,411            $339,402              $4,411            $339,402
824843       CHESTERFIELD FEDERAL                 $0              $4,402            $148,531              $4,402            $148,531
              CREDIT UNION.
818223       COMMUNITY STATE BANK                 $0              $4,400            $328,765              $4,400            $328,765
833940       SHIPBUILDERS CU.....                 $0              $4,397            $306,545              $4,397            $306,545
832293       BOULDER MUNICIPAL                    $0              $4,392            $150,550              $4,392            $150,550
              EFCU.
814345       EATON NATIONAL BANK                  $0              $4,349            $287,183              $4,349            $287,183
              & TRUST CO.
832903       LEDGE LIGHT FCU.....                 $0              $4,313            $150,581              $4,313            $150,581
834156       FRANKLIN MINT FCU...                 $0              $4,297            $394,783              $4,297            $394,783
831609       GUARANTY BANK.......                 $0              $4,296            $152,072              $4,296            $152,072
830370       EVERGREEN CREDIT                     $0              $4,290            $266,222              $4,290            $266,222
              UNION.
832717       ARMSTRONG COUNTY                     $0              $4,270              $4,270                  $0
              EMPL FCU.
830443       TRUSTAR FCU.........                 $0              $4,264            $238,823              $4,264            $238,823
832120       EATON FAMILY CREDIT                  $0              $4,256            $200,863              $4,256            $200,863
              UNION.
832294       OHIO EDUCATIONAL                     $0              $4,253            $287,351              $4,253            $287,351
              CREDIT UNION INC.
818896       AMERISTATE BANK.....                 $0              $4,252            $110,078              $4,252            $110,078
819383       MARATHON STATE BANK.                 $0              $4,245            $204,392              $4,245            $204,392
833888       WYROPE WILLIAMSPORT                  $0              $4,230            $299,373              $4,230            $299,373
              FCU.
805624       NORWAY SAVINGS BANK.                 $0              $4,218            $164,304              $4,218            $164,304
833639       WAT FEDERAL CREDIT                   $0              $4,207            $255,186              $4,207            $255,186
              UNION.
832658       RIVERSIDE FCU.......                 $0              $4,180            $206,000              $4,180            $206,000
833783       TRUCHOICE FCU.......                 $0              $4,179            $269,621              $4,179            $269,621
833735       QUEENS POSTAL FCU...                 $0              $4,161            $169,262              $4,161            $169,262
832047       NMA FCU.............                 $0              $4,160            $227,477              $4,160            $227,477
833488       ISLAND FEDERAL                       $0              $4,157            $290,918              $4,157            $290,918
              CREDIT UNION.
832938       ACCESS FEDERAL                       $0              $4,155            $236,244              $4,155            $236,244
              CREDIT UNION.
834070       WICHITA FALLS                        $0              $4,154            $275,246              $4,154            $275,246
              TEACHER FCU.
832332       ESM-NS FEDERAL                       $0              $4,148            $267,646              $4,148            $267,646
              CREDIT UNION.
827971       MACO EDUCATORS                       $0              $4,145            $171,373              $4,145            $171,373
              FEDERAL CREDIT
              UNION.
832520       PEOPLES FCU.........                 $0              $4,138            $256,133              $4,138            $256,133
834108       PARTNERS FCU........                 $0              $4,135            $245,995              $4,135            $245,995
829385       CITIES CREDIT UNION.                 $0              $4,121            $165,185              $4,121            $165,185
833317       OHIO EDISON-PENN                     $0              $4,106            $261,284              $4,106            $261,284
              POWER CU.
830936       PEPPERELL BANK &                     $0              $4,075            $239,695              $4,075            $239,695
              TRUST.
818609       PORT WASHINGTON                      $0              $4,054            $253,639              $4,054            $253,639
              STATE BANK.
804860       M&I BANK............                 $0              $4,032              $4,032                  $0
832712       KANSAS TEACHERS                      $0              $4,031            $125,054              $4,031            $125,054
              CREDIT UNION.
833155       FRANCISCAN SKEMP                     $0              $4,029            $248,637              $4,029            $248,637
              CREDIT UNION.
832874       NIAGARA WHEATFIELD                   $0              $4,016            $165,585              $4,016            $165,585
              FCU.
816028       POSTMARK CREDIT                      $0              $4,014            $253,158              $4,014            $253,158
              UNION.
832820       TRONA VALLEY FCU....                 $0              $4,010            $113,262              $4,010            $113,262
832470       SNO FALLS CREDIT                     $0              $4,004            $133,676              $4,004            $133,676
              UNION.
832389       RIVER VALLEY CREDIT                  $0              $3,995            $175,218              $3,995            $175,218
              UNION.
828216       PUBLIC EMPLOYEES                     $0              $3,992            $274,743              $3,992            $274,743
              CREDIT UNION.
831392       ALLCO CREDIT UNION..                 $0              $3,983            $278,867              $3,983            $278,867
823964       UNION BANK & TRUST                   $0              $3,971            $248,854              $3,971            $248,854
              CO.
822446       MEMBER'S CHOICE OF                   $0              $3,970            $188,326              $3,970            $188,326
              CENTRAL TX FCU.
833158       EMPLOYMENT SECURITY                  $0              $3,964            $198,698              $3,964            $198,698
              CREDIT UNION.
830350       EASTMILL FEDERAL                     $0              $3,948            $201,428              $3,948            $201,428
              CREDIT UNION.
802261       EGLIN FEDERAL CREDIT                 $0              $3,940            $220,584              $3,940            $220,584
              UNION.
822349       CITIZENS NATIONAL                    $0              $3,939            $277,209              $3,939            $277,209
              BANK.
822605       CES CREDIT UNION INC                 $0              $3,938            $266,733              $3,938            $266,733
806279       LAKE REGION BANK....                 $0              $3,936            $227,713              $3,936            $227,713
832291       P & C EMPLOYEES FCU.                 $0              $3,930            $182,284              $3,930            $182,284
833049       NEW HAMPSHIRE POSTAL                 $0              $3,929            $308,982              $3,929            $308,982
              CU.
808467       MINDEN EXCHANGE BANK                 $0              $3,910            $205,569              $3,910            $205,569
              & TRUST COMPAN.
806964       FIRST COMMUNITY BANK                 $0              $3,898              $3,898                  $0
833050       WESTCO FCU..........                 $0              $3,889            $246,241              $3,889            $246,241
809978       S A M P SCRANTON FCU                 $0              $3,878              $3,878                  $0
815661       PANTEX FEDERAL                       $0              $3,874            $159,635              $3,874            $159,635
              CREDIT UNION.
834030       LAKES AREA CU.......                 $0              $3,855            $232,292              $3,855            $232,292
829324       STARK FEDERAL CREDIT                 $0              $3,854            $262,262              $3,854            $262,262
              UNION.
833753       PARTNERS CREDIT                      $0              $3,822            $165,391              $3,822            $165,391
              UNION.
828854       FIRST COMMUNITY CU..                 $0              $3,819            $186,882              $3,819            $186,882
825495       EDUCATION PLUS                       $0              $3,791            $225,755              $3,791            $225,755
              CREDIT UNION.
800062       WHITNEY NATIONAL                     $0              $3,788                  $0              $3,788                  $0
              BANK.
832505       FIRST PEOPLES                        $0              $3,785            $142,665              $3,785            $142,665
              COMMUNITY FCU.
832099       BILLINGS FEDERAL                     $0              $3,776            $242,427              $3,776            $242,427
              CREDIT UNION.
822093       ALTOONA BUTTERICK                    $0              $3,767            $128,880              $3,767            $128,880
              FCU.
833680       ALTURA CREDIT UNION.                 $0              $3,766            $249,642              $3,766            $249,642
820828       MEMPHIS AREA                         $0              $3,763            $244,682              $3,763            $244,682
              TEACHERS CREDIT
              UNION.
829179       MAINE EDUCATION                      $0              $3,763            $164,842              $3,763            $164,842
              CREDIT UNION.
832085       OMAHA DOUGLAS FCU...                 $0              $3,761            $252,695              $3,761            $252,695
830717       DAKOTA TERRITORY                     $0              $3,758            $172,747              $3,758            $172,747
              FEDERAL CREDIT UNI.
833656       POINT PLUS CREDIT                    $0              $3,747            $234,831              $3,747            $234,831
              UNION.
810546       FIRST NATIONAL BANK                  $0              $3,729             $91,857              $3,729             $91,857
              SOUTH DAKOTA.
824566       VISIONARY FEDERAL                    $0              $3,727            $235,035              $3,727            $235,035
              CREDIT UNION.
833836       SOUTHWEST OKLAHOMA                   $0              $3,726            $244,393              $3,726            $244,393
              FCU.
834225       STUDENT LENDING                     $57              $3,667                  $0              $3,724                  $0
              WORKS INC.
828143       CAMBRIA COUNTY                       $0              $3,720            $204,516              $3,720            $204,516
              FEDERAL SAVINGS &
              LO.
826528       FIDELITY DEPOSIT &                   $0              $3,715                  $0              $3,715                  $0
              DISCOUNT BANK.
834233       CANISIUS COLLEGE....                 $0              $3,707              $3,707                  $0
833406       FOREST PARK FEDERAL                  $0              $3,705             $82,921              $3,705             $82,921
              CREDIT UNION.
829981       LOUVIERS FEDERAL                     $0              $3,692            $123,423              $3,692            $123,423
              CREDIT UNION.
805806       GREATER WATERVILLE                   $0              $3,671            $211,535              $3,671            $211,535
              AREA FCU.
833483       CANANDAIGUA SCHOOL                   $0              $3,666            $135,358              $3,666            $135,358
              DISTRICT FCU.
830883       VERMILLION FEDERAL                   $0              $3,661            $177,114              $3,661            $177,114
              CREDIT UNION.
810427       BANK STAR FINANCIAL.                 $0              $3,656            $164,010              $3,656            $164,010
808682       THE EDUCATION CREDIT                 $0              $3,654            $129,774              $3,654            $129,774
              UNION INC.
810450       FARMERS STATE BANK..                 $0              $3,633            $131,269              $3,633            $131,269
813377       GREATER GREENSBURG                   $0              $3,631            $189,575              $3,631            $189,575
              INDUSTRIAL CR UN.
832218       HOWLAND-ENFIELD                      $0              $3,628            $178,986              $3,628            $178,986
              FEDERAL CREDIT UNIO.
822096       BORDER TRUST COMPANY                 $0              $3,625            $477,763              $3,625            $477,763
827735       BANK OF WHITMAN.....                 $0              $3,622            $324,650              $3,622            $324,650
831030       CENTRAL MINNESOTA                    $0              $3,589              $5,579              $3,589              $5,579
              FCU.
810416       CITIZENS STATE BANK.                 $0              $3,572            $191,199              $3,572            $191,199
806529       STATE BANK OF                        $0              $3,569            $195,887              $3,569            $195,887
              CHANDLER.
810900       THE HONDO NATIONAL                   $0              $3,547            $104,899              $3,547            $104,899
              BANK.
832028       COLUMBIA-GREENE                      $0              $3,535            $180,814              $3,535            $180,814
              FEDERAL CREDIT UNIO.
831655       NEWAYGO COUNTY                       $0              $3,532            $127,404              $3,532            $127,404
              SERVICE ECU.
831407       KIMCENTRAL CREDIT                    $0              $3,516            $195,442              $3,516            $195,442
              UNION.
812757       HEARTLAND STATE BANK                 $0              $3,514            $144,506              $3,514            $144,506
820105       COMMERCIAL BANK.....                 $0              $3,479            $202,322              $3,479            $202,322
832952       WOODLANDS CREDIT                     $0              $3,479            $315,372              $3,479            $315,372
              UNION.
834184       FREEDOM CU..........                 $0              $3,478            $328,244              $3,478            $328,244
813494       NORTHWEST SAVINGS                    $0              $3,476                  $0              $3,476                  $0
              BANK.
833713       SOO LINE CREDIT                      $0              $3,475            $158,576              $3,475            $158,576
              UNION.
833514       CUMCO FEDERAL CREDIT                 $0              $3,463            $178,168              $3,463            $178,168
              UNION.
827203       SECURITY NATIONAL                    $0              $3,456             $17,063              $3,456             $17,063
              LIFE INS CO.
828913       NORTHWEST SAVINGS                    $0              $3,450                  $0              $3,450                  $0
              BANK.
805147       JPMORGAN CHASE BANK                  $0              $3,450             $47,278              $3,450             $47,278
              NA.
813146       FAMILY COMMUNITY                     $0              $3,443            $131,890              $3,443            $131,890
              CREDIT UNION.
831933       FIRST NATIONAL BANK                  $0              $3,416            $143,055              $3,416            $143,055
              OF COKATO.
829210       ROANOKE POSTAL                       $0              $3,378              $3,378                  $0
              EMPLOYEES F C U.
832455       ROCKLAND S&L                         $0              $3,377            $181,265              $3,377            $181,265
              ASSOCIATION.
830232       KENT CREDIT UNION...                 $0              $3,367            $199,843              $3,367            $199,843
832061       SOUTHEAST NEBRASKA                   $0              $3,364            $180,561              $3,364            $180,561
              FEDERAL CREDIT U.
834147       HAWTHORNE CU........                 $0              $3,358            $114,306              $3,358            $114,306
833801       OHIO VALLEY FCU.....                 $0              $3,349            $113,551              $3,349            $113,551
833534       MIDLAND CO-OP CREDIT                 $0              $3,345             $84,262              $3,345             $84,262
              UNION.
820283       FIRST COMMONWEALTH                   $0              $3,337              $4,364              $3,337              $4,364
              BANK.
820002       GOLDEN CIRCLE CREDIT                 $0              $3,336            $162,381              $3,336            $162,381
              UNION INC.
834039       WELLS FARGO ELT                      $0              $3,335              $3,335                  $0
              AMERICAN OPTOMETRIC.
808435       SPIRIT OF AMERICA                    $0              $3,325            $186,424              $3,325            $186,424
              FCU.
818790       POSTAL FEDERAL                       $0              $3,325            $187,297              $3,325            $187,297
              COMMUNITY CREDIT
              UNI.
819675       MINNWEST BANK SOUTH.                 $0              $3,321             $94,964              $3,321             $94,964
824329       AMARILLO COMMUNITY                   $0              $3,320            $195,705              $3,320            $195,705
              FEDERAL CREDIT U.
805805       DOWN EAST FCU.......                 $0              $3,306            $216,231              $3,306            $216,231
810973       BRADY NATIONAL BANK.                 $0              $3,303            $219,154              $3,303            $219,154
832811       COMMUNITY RESOURCE                   $0              $3,295            $124,654              $3,295            $124,654
              FCU.
831485       DUPONT GOODRICH FCU.                 $0              $3,292            $190,549              $3,292            $190,549
805735       THE COUNTY FEDERAL                   $0              $3,287            $199,112              $3,287            $199,112
              CREDIT UNION.
832930       MONAD FEDERAL CREDIT                 $0              $3,274             $71,436              $3,274             $71,436
              UNION.
832333       SYRACUSE FCU........                 $0              $3,264            $195,790              $3,264            $195,790
829743       OAKLAND COUNTY                       $0              $3,262            $156,613              $3,262            $156,613
              EMPLOYEES CU.
834185       US BANK ELT TX ASSC                  $0              $3,246              $1,153              $3,246              $1,153
              COMM COLLEGES.
832912       BCE FEDERAL CREDIT                   $0              $3,244            $120,925              $3,244            $120,925
              UNION.
804912       CREDIT UNION OF                      $0              $3,237            $235,180              $3,237            $235,180
              AMERICA.
833822       IRCO COMMUNITY FCU..                 $0              $3,223            $139,099              $3,223            $139,099
832940       MCKINNEY SCRANTON                    $0              $3,221            $124,668              $3,221            $124,668
              FCU.
832873       CINCINNATI EMPLOYEES                 $0              $3,219            $179,989              $3,219            $179,989
              CU.
832062       TCT FEDERAL CREDIT                   $0              $3,187            $182,543              $3,187            $182,543
              UNION.
820130       MARKESAN STATE BANK.                 $0              $3,164            $101,536              $3,164            $101,536
832453       ST HELENS COMMUNITY                  $0              $3,161            $107,955              $3,161            $107,955
              FEDERAL CREDIT.
806566       STEARNS BANK NA.....                 $0              $3,159            $110,435              $3,159            $110,435
833612       TRI-CO FEDERAL                       $0              $3,137            $227,005              $3,137            $227,005
              CREDIT UNION.
820104       UNITY BANK..........                 $0              $3,134            $135,619              $3,134            $135,619
828947       WYSE FEDERAL CREDIT                  $0              $3,132            $131,572              $3,132            $131,572
              UNION.
821656       FIRST FEDERAL                        $0              $3,126            $158,292              $3,126            $158,292
              SAVINGS & LOAN
              ASSOCI.
832791       U S EMPLOYEES CREDIT                 $0              $3,116             $69,948              $3,116             $69,948
              UNION.
806465       PEOPLES STATE BANK                   $0              $3,107            $233,897              $3,107            $233,897
              OF WELLS.
828966       UNION ELECTRIC STEEL                 $0              $3,101              $3,101                  $0
              FED CREDIT UN.
810420       COMMUNITY BANK......                 $0              $3,091            $130,073              $3,091            $130,073
832242       FOUNDERS FEDERAL                     $0              $3,083            $231,406              $3,083            $231,406
              CREDIT UNION.
824911       FLOODWOOD AREA                       $0              $3,062             $57,136              $3,062             $57,136
              CREDIT UNION.
815675       PALISADES FCU.......                 $0              $2,996            $176,454              $2,996            $176,454
832346       LONG REACH EMPLOYEES                 $0              $2,985             $98,605              $2,985             $98,605
              FCU.
803928       CITIZENS STATE BANK.                 $0              $2,966             $93,780              $2,966             $93,780
819113       WEST MILTON STATE                    $0              $2,959                  $0              $2,959                  $0
              BANK.
832209       MEMBERSTRUST CREDIT                  $0              $2,952            $112,967              $2,952            $112,967
              UNION.
833125       FOUR FOUR CREDIT                     $0              $2,943            $174,551              $2,943            $174,551
              UNION.
823113       JACKSON AREA FEDERAL                 $0              $2,937            $128,954              $2,937            $128,954
              CREDIT UNION.
833712       1ST COMMUNITY FCU...                 $0              $2,933                  $0              $2,933                  $0
833715       BREWERY CREDIT UNION                 $0              $2,929            $156,642              $2,929            $156,642
810406       FIRST FIDELITY BANK.                 $0              $2,927                  $0              $2,927                  $0
822427       NORTH CENTRAL CREDIT                 $0              $2,927            $172,249              $2,927            $172,249
              UNION.
833744       SHAMROCK FEDERAL                     $0              $2,911            $136,411              $2,911            $136,411
              CREDIT UNION.
822056       SPRING MILL EMP FED                  $0              $2,904            $153,460              $2,904            $153,460
              CR UNION.
829223       US FEDERAL CREDIT                    $0              $2,901            $187,738              $2,901            $187,738
              UNION.
831910       NATIONAL BANK OF                     $0              $2,884            $112,197              $2,884            $112,197
              ANDREWS.
828944       ESSA BANK & TRUST...                 $0              $2,884              $2,884                  $0
814668       F&M BANK & TRUST....                 $0              $2,882             $44,589              $2,882             $44,589
833867       UNITED BANK OF EL                    $0              $2,881              $2,881                  $0
              PASO NORTE.
822383       SHELBY STATE BANK...                 $0              $2,868            $172,143              $2,868            $172,143
833087       ST VINCENT HOSPITAL                  $0              $2,857            $175,348              $2,857            $175,348
              EMPLOYEES' CU.
833279       PASADENA SERVICE FCU                 $0              $2,857            $177,434              $2,857            $177,434
834003       ZIONS BANK ELT                       $0              $2,829                  $0              $2,829                  $0
              EDUCATION LOAN CO.
834143       ELK HORN BANK &                      $0              $2,816                  $0              $2,816                  $0
              TRUST CO.
806399       GLENWOOD STATE BANK.                 $0              $2,805            $182,406              $2,805            $182,406
806258       FARMERS & MERCHANTS                  $0              $2,804            $130,599              $2,804            $130,599
              STATE BANK.
831144       JP MORGANCHASE BANK.                 $0              $2,796                  $0              $2,796                  $0
825419       WITTENBERG                           $0              $2,791            $130,462              $2,791            $130,462
              UNIVERSITY FCU.
832699       SELH FEDERAL CREDIT                  $0              $2,789            $122,278              $2,789            $122,278
              UNION.
806477       UNITY BANK NORTH....                 $0              $2,784             $97,912              $2,784             $97,912
800802       BOA STUDENT BANKING/                 $0              $2,783                  $0              $2,783                  $0
              CA9-169-04-01.
818870       COMMUNITY STATE BANK                 $0              $2,780              $2,780                  $0
822147       TEXAS TRUST CREDIT                   $0              $2,776            $132,488              $2,776            $132,488
              UNION.
834146       NORTH MEMORIAL FCU..                 $0              $2,775             $84,105              $2,775             $84,105
828639       WEXFORD COMMUNITY CU                 $0              $2,747            $162,307              $2,747            $162,307
818340       GTE FCU.............                 $0              $2,742            $177,391              $2,742            $177,391
803925       CITIZENS BANK.......                 $0              $2,741            $177,748              $2,741            $177,748
820881       FIRST STATE BANK OF                  $0              $2,739            $146,899              $2,739            $146,899
              ROSEMOUNT.
803068       IAA CREDIT UNION....                 $0              $2,723             $42,327              $2,723             $42,327
830776       SIMPLY SERVICE FCU..                 $0              $2,718            $117,288              $2,718            $117,288
833618       BIG BEAR/MEMBERS                     $0              $2,707            $159,520              $2,707            $159,520
              FIRST CU.
834169       UNION BANK ELT NAT'L                 $0              $2,686            $231,540              $2,686            $231,540
              ED LOAN NEW EN.
832541       HERITAGE FAMILY                      $0              $2,685            $181,911              $2,685            $181,911
              CREDIT UNION.
833358       TWO HARBORS FCU.....                 $0              $2,685            $117,870              $2,685            $117,870
831548       CORUS BANK..........                 $0              $2,685              $2,685                  $0
832661       FAIRFAX COUNTY                       $0              $2,674            $175,120              $2,674            $175,120
              FEDERAL CREDIT
              UNION.
833133       UNITED NATIONS FCU..                 $0              $2,672            $142,770              $2,672            $142,770
832999       BANGOR HYDRO FCU....                 $0              $2,649            $147,969              $2,649            $147,969
832393       FIRST CHOICE CU.....                 $0              $2,646            $180,681              $2,646            $180,681
830782       SERVICES CENTER FCU.                 $0              $2,642            $129,126              $2,642            $129,126
803827       THE NAPOLEON STATE                   $0              $2,642            $143,752              $2,642            $143,752
              BANK.
832098       RAVALLI COUNTY                       $0              $2,634            $194,655              $2,634            $194,655
              FEDERAL CREDIT
              UNION.
822654       MINER COUNTY BANK...                 $0              $2,627             $70,158              $2,627             $70,158
833743       RIVERVIEW FCU.......                 $0              $2,611            $117,572              $2,611            $117,572
823966       FALLS CITY NATIONAL                  $0              $2,605            $162,453              $2,605            $162,453
              BANK.
832345       TEMPE SCHOOLS CREDIT                 $0              $2,603            $158,521              $2,603            $158,521
              UNION.
832208       NORTHERN STAR CU INC                 $0              $2,602            $116,958              $2,602            $116,958
820753       BELLEVUE STATE BANK.                 $0              $2,594             $57,618              $2,594             $57,618
832233       CLEVELAND POLICE                     $0              $2,593            $110,699              $2,593            $110,699
              CREDIT UNION INC.
832588       BUTTE COMMUNITY FCU.                 $0              $2,585            $105,820              $2,585            $105,820
832388       WHITE RIVER CREDIT                   $0              $2,573             $68,154              $2,573             $68,154
              UNION.
832366       KENSINGTON VALLEY                    $0              $2,573            $128,128              $2,573            $128,128
              COMM CU.
810499       MENNO STATE BANK....                 $0              $2,557             $84,625              $2,557             $84,625
824462       PRIMESOURCE CREDIT                   $0              $2,552            $118,138              $2,552            $118,138
              UNION.
817970       COULEE DAM FEDERAL                   $0              $2,552            $179,358              $2,552            $179,358
              CREDIT UNION.
833549       SEBASTICOOK VALLEY                   $0              $2,549            $187,399              $2,549            $187,399
              FCU.
828684       BAKER'S FEDERAL                      $0              $2,546            $110,484              $2,546            $110,484
              CREDIT UNION.
833123       KENNEDY SPACE CENTER                 $0              $2,537            $130,955              $2,537            $130,955
              FEDERAL CREDIT.
832295       ROCKY MT LAW                         $0              $2,536            $104,927              $2,536            $104,927
              ENFORCEMENT FCU.
831131       STUDENT LOAN                         $0              $2,534            $146,673              $2,534            $146,673
              MARKETING ASSN LOLR.
832168       NICKEL STEEL FEDERAL                 $0              $2,534             $86,351              $2,534             $86,351
              CREDIT UNION.
833574       WABELLCO FEDERAL                     $0              $2,530            $150,316              $2,530            $150,316
              CREDIT UNION.
833830       CCS FEDERAL CREDIT                   $0              $2,525            $119,535              $2,525            $119,535
              UNION.
826538       VALLEY BANK.........                 $0              $2,524            $114,529              $2,524            $114,529
813161       SAINT FRANCIS X FCU.                 $0              $2,518            $110,560              $2,518            $110,560
829815       PARDA FEDERAL CREDIT                 $0              $2,516            $133,235              $2,516            $133,235
              UNION.
833819       LOS ANGELES FIREMENS                 $0              $2,500            $180,955              $2,500            $180,955
              CU.
831645       DAKOTALAND FCU......                 $0              $2,497              $2,497                  $0
830503       FLASHER COMMUNITY                    $0              $2,492            $148,604              $2,492            $148,604
              CREDIT UNION.
832334       EXCELSIOR CREDIT                     $0              $2,488            $167,275              $2,488            $167,275
              UNION.
815862       NEW ALLIANCE BANK...                 $0              $2,480              $2,480                  $0
827367       MERRILL FEDERAL                      $0              $2,472            $173,337              $2,472            $173,337
              SAVINGS & LOAN.
833969       GALLUP FEDERAL                       $0              $2,463             $72,036              $2,463             $72,036
              CREDIT UNION.
832396       MEMBERS FIRST CREDIT                 $0              $2,454            $163,922              $2,454            $163,922
              UNION OF NH.
828289       FIRST CREDIT UNION..                 $0              $2,451            $101,555              $2,451            $101,555
832892       SPOKANE FEDERAL                      $0              $2,434            $149,585              $2,434            $149,585
              CREDIT UNION.
832681       MIDWEST INDEPENDENT                  $0              $2,433             $51,784              $2,433             $51,784
              BANK.
822454       FIRELANDS FEDERAL                    $0              $2,430            $111,206              $2,430            $111,206
              CREDIT UNION.
832968       FIRST CATHOLIC FCU..                 $0              $2,428            $183,229              $2,428            $183,229
833755       IRON COUNTY COMM CU.                 $0              $2,426            $151,347              $2,426            $151,347
832891       FIRST EAGLE FCU.....                 $0              $2,419            $148,570              $2,419            $148,570
832464       BATTLE CREEK POSTAL                  $0              $2,418             $92,191              $2,418             $92,191
              CREDIT UNION.
823585       BENTON STATE BANK...                 $0              $2,416            $140,884              $2,416            $140,884
806251       EXCHANGE STATE BANK                  $0              $2,406             $81,428              $2,406             $81,428
              OF HILLS.
833375       ATLANTIC CITY                        $0              $2,400            $158,385              $2,400            $158,385
              ELECTRIC CO EFCU.
832773       NORTHWOOD CREDIT                     $0              $2,399             $82,993              $2,399             $82,993
              UNION.
833787       ASSOCIATED CU OF TX.                 $0              $2,397            $166,807              $2,397            $166,807
833760       WILSERV CU..........                 $0              $2,383            $163,691              $2,383            $163,691
806960       MONTANA STATE BANK..                 $0              $2,378            $113,881              $2,378            $113,881
833566       VALLEY CREDIT UNION.                 $0              $2,373            $115,304              $2,373            $115,304
833758       PEOPLES CHOICE FCU..                 $0              $2,370            $122,346              $2,370            $122,346
816474       GEORGIA METHODIST                    $0              $2,356            $122,644              $2,356            $122,644
              FCU.
829918       AIR GUARD FEDERAL                    $0              $2,353            $103,958              $2,353            $103,958
              CREDIT UNION.
817362       BLENCOE STATE BANK..                 $0              $2,345            $149,803              $2,345            $149,803
809994       SWINEFORD NATIONAL                   $0              $2,328            $185,537              $2,328            $185,537
              BANK.
832400       FREMONT FCU.........                 $0              $2,325            $215,391              $2,325            $215,391
833564       CLACKAMAS COMMUNITY                  $0              $2,322            $143,886              $2,322            $143,886
              FCU.
806208       CITIZENS NATIONAL                    $0              $2,312             $77,065              $2,312             $77,065
              BANK.
833304       FIRST FEDERAL SVINGS                 $0              $2,303            $152,521              $2,303            $152,521
              & LOAN OF BATH.
827966       NSWC FEDERAL CREDIT                  $0              $2,296            $101,265              $2,296            $101,265
              UNION.
832511       MUNICIPAL EMPLOYEES                  $0              $2,292            $120,490              $2,292            $120,490
              & TEACHERS CU.
819788       BRAINERD B N CREDIT                  $0              $2,292             $72,002              $2,292             $72,002
              UNION.
816976       MIDFIRST BANK.......                 $0              $2,291                  $0              $2,291                  $0
832361       CREDIT UNION OF THE                  $0              $2,286             $98,390              $2,286             $98,390
              ROCKIES.
830160       SC STUDENT LOAN CORP                 $0              $2,282            $152,192              $2,282            $152,192
              (TLP).
832647       FERGUSON FCU........                 $0              $2,279            $159,989              $2,279            $159,989
829798       DAKOTA STAR FCU.....                 $0              $2,276             $71,093              $2,276             $71,093
817313       CME FEDERAL CREDIT                   $0              $2,270            $165,954              $2,270            $165,954
              UNION.
808814       FIRST NATIONAL BANK                  $0              $2,262             $88,411              $2,262             $88,411
              OF BELLEVUE.
832601       SAFE CREDIT UNION...                 $0              $2,257            $202,522              $2,257            $202,522
806949       DUTTON STATE BANK...                 $0              $2,257             $94,591              $2,257             $94,591
821876       FIRST STATE BANK....                 $0              $2,255             $90,379              $2,255             $90,379
828793       METRO NORTH FCU.....                 $0              $2,254              $2,254                  $0
829938       MAINE SAVINGS FCU...                 $0              $2,247              $2,247                  $0
833014       CORRY AREA SCHOOLS                   $0              $2,243              $2,243                  $0
              FCU.
810816       FIRST TEXAS BANK....                 $0              $2,223            $120,660              $2,223            $120,660
825104       WATERMARK CREDIT                     $0              $2,215            $151,282              $2,215            $151,282
              UNION.
826936       NORTHEAST CREDIT                     $0              $2,214            $105,058              $2,214            $105,058
              UNION.
833697       RIVERSIDE BEARER                     $0              $2,211             $91,776              $2,211             $91,776
              COUNTY FCU.
833369       MINNEQUA WORKS                       $0              $2,196             $75,185              $2,196             $75,185
              CREDIT UNION.
813390       KENNAMETAL EMPLOYEES                 $0              $2,193            $169,010              $2,193            $169,010
              FEDERAL CREDIT.
831078       MEMBERS UNITED CU...                 $0              $2,192            $147,467              $2,192            $147,467
834022       OHIO CATHOLIC FCU...                 $0              $2,189            $107,649              $2,189            $107,649
829845       AMERICAN CREDIT                      $0              $2,177            $141,471              $2,177            $141,471
              UNION--MILWAUKEE.
833966       UWSP CREDIT UNION...                 $0              $2,177              $2,177                  $0
811577       AMERICAN LAKE CREDIT                 $0              $2,172            $172,133              $2,172            $172,133
              UNION.
824825       GOLDEN PLAINS CREDIT                 $0              $2,168             $83,824              $2,168             $83,824
              UNION.
832363       ST CLARES HOSPITAL                   $0              $2,167            $167,131              $2,167            $167,131
              EFCU.
822051       SABATTUS REGIONAL                    $0              $2,165            $136,885              $2,165            $136,885
              CREDIT UNION.
833949       ALLIANCE FCU........                 $0              $2,160             $78,958              $2,160             $78,958
810439       FARMERS STATE BANK..                 $0              $2,156            $116,496              $2,156            $116,496
826820       JUSTICE FEDERAL                      $0              $2,151            $133,065              $2,151            $133,065
              CREDIT UNION.
805593       PEOPLES BANK OF                      $0              $2,146             $73,092              $2,146             $73,092
              ELKTON.
832065       URW 831 COMMUNITY                    $0              $2,143             $86,591              $2,143             $86,591
              FCU.
805899       EATON FEDERAL                        $0              $2,143            $112,968              $2,143            $112,968
              SAVINGS BANK.
817575       ALLIANCE CREDIT                      $0              $2,142            $148,363              $2,142            $148,363
              UNION.
819625       PORT CREDIT UNION...                 $0              $2,137            $174,307              $2,137            $174,307
833947       YORK EDUCATION FCU..                 $0              $2,132            $148,918              $2,132            $148,918
834130       ST. PAUL FCU........                 $0              $2,131            $138,159              $2,131            $138,159
819918       STATE BANK OF CROSS                  $0              $2,120                  $0              $2,120                  $0
              PLAINS.
830502       INFINITY FEDERAL                     $0              $2,118              $2,118                  $0
              CREDIT UNION.
832164       ENER G COMM FEDERAL                  $0              $2,115            $109,966              $2,115            $109,966
              CREDIT UNION.
832805       OUR FAMILY FEDERAL                   $0              $2,115              $2,115                  $0
              CREDIT UNION.
824716       UNITY ONE FEDERAL                    $0              $2,115            $107,595              $2,115            $107,595
              CREDIT UNION.
828970       HAZELTON SCHOOL                      $0              $2,109              $2,109                  $0
              EMPLOYEES CR UN.
832755       MEDICAL EMPLOYEES CU                 $0              $2,108            $171,198              $2,108            $171,198
833000       PBC CU..............                 $0              $2,107            $124,106              $2,107            $124,106
820879       RAY COOPERATIVE                      $0              $2,100             $37,661              $2,100             $37,661
              CREDIT UNION.
832878       EAST TRAVERSE                        $0              $2,099            $136,613              $2,099            $136,613
              CATHOLIC FCU.
832794       COMMUNITY FINANCIAL                  $0              $2,097            $146,735              $2,097            $146,735
              CREDIT UNION.
832473       COLUMBINE FEDERAL                    $0              $2,096             $89,492              $2,096             $89,492
              CREDIT UNION.
832166       KELLOGG COMPANY EFCU                 $0              $2,095            $129,698              $2,095            $129,698
832232       BAY AREA CREDIT                      $0              $2,090             $77,942              $2,090             $77,942
              UNION INC.
832910       CITY CREDIT UNION...                 $0              $2,089            $139,957              $2,089            $139,957
833493       FIRST LOCKHART                       $0              $2,079             $81,717              $2,079             $81,717
              NATIONAL BANK.
816128       DENVER FIRE DEPT FCU                 $0              $2,070            $122,346              $2,070            $122,346
833338       WESTEX FEDERAL                       $0              $2,064            $101,657              $2,064            $101,657
              CREDIT UNION.
805088       FARMERS STATE BANK &                 $0              $2,061            $145,210              $2,061            $145,210
              TRUST CO.
832236       LOS ANGELES FEDERAL                  $0              $2,058            $188,860              $2,058            $188,860
              CREDIT UNION.
810004       FARMERS NAT'L BANK                   $0              $2,040            $129,162              $2,040            $129,162
              OF NEWVILLE.
825043       SUPERIOR FCU........                 $0              $2,038            $101,049              $2,038            $101,049
833547       AMERICAN 1 FCU......                 $0              $2,035            $132,903              $2,035            $132,903
820891       NECEDAH BANK........                 $0              $2,034            $107,914              $2,034            $107,914
813157       PENINSULA FEDERAL                    $0              $2,032                  $0              $2,032                  $0
              CREDIT UNION.
826512       ADVANTAGE BANK......                 $0              $2,027            $233,167              $2,027            $233,167
834252       LINDENWOOD                           $0              $2,021                  $0              $2,021                  $0
              UNIVERSITY.
833215       GREAT FALLS REGIONAL                 $0              $2,017            $120,745              $2,017            $120,745
              FCU.
832444       NORTHWEST ADVENTIST                  $0              $2,007             $71,753              $2,007             $71,753
              FCU.
814435       JAX FEDERAL CREDIT                   $0              $2,006            $132,300              $2,006            $132,300
              UNION.
808758       THE FARMERS &                        $0              $2,000            $207,362              $2,000            $207,362
              MERCHANTS BANK.
833811       TYCO FCU............                 $0              $1,991             $58,865              $1,991             $58,865
827438       MIDLAND FEDERAL S&L.                 $0              $1,990            $124,214              $1,990            $124,214
806232       CLINTON STATE BANK..                 $0              $1,985             $89,024              $1,985             $89,024
831120       INNER LAKES FEDERAL                  $0              $1,981             $93,425              $1,981             $93,425
              CREDIT UNION.
833381       LOS ANGELES POLICE                   $0              $1,980            $149,418              $1,980            $149,418
              FCU.
818576       OAHE FEDERAL CREDIT                  $0              $1,972            $109,428              $1,972            $109,428
              UNION.
833467       GENCO FEDERAL CREDIT                 $0              $1,970             $64,537              $1,970             $64,537
              UNION.
832227       SKY FCU.............                 $0              $1,968            $132,486              $1,968            $132,486
824919       CATHOLIC FEDERAL                     $0              $1,968              $1,968                  $0
              CREDIT UNION.
823823       ANNANDALE STATE BANK                 $0              $1,962             $68,506              $1,962             $68,506
807025       WESTERN BANK OF WOLF                 $0              $1,949              $1,949                  $0
              POINT.
833800       CONCORD DIABLO FCU..                 $0              $1,949            $156,110              $1,949            $156,110
821561       HAMLER STATE BANK...                 $0              $1,947            $132,904              $1,947            $132,904
825489       THE SAVINGS BANK....                 $0              $1,929            $129,015              $1,929            $129,015
822613       CENTRAL PA SAVINGS                   $0              $1,922             $98,465              $1,922             $98,465
              ASSOCIATION.
833692       PARTNERS FINANCIAL                   $0              $1,919            $109,416              $1,919            $109,416
              FCU.
831596       APL FEDERAL CREDIT                   $0              $1,909             $96,746              $1,909             $96,746
              UNION.
826625       NORTHLAND AREA                       $0              $1,904              $1,904                  $0
              FEDERAL CREDIT
              UNION.
830301       RIVER CITY FEDERAL                   $0              $1,891             $90,561              $1,891             $90,561
              CREDIT UNION.
816874       SOUTHEASTERN FEDERAL                 $0              $1,881            $121,487              $1,881            $121,487
              CREDIT UNION.
827930       FIRST DAY FINANCIAL                  $0              $1,879            $140,923              $1,879            $140,923
              CU.
819655       US EMPLOYEES OC FCU.                 $0              $1,877             $75,703              $1,877             $75,703
810738       AMEGY BANK NA.......                 $0              $1,867            $130,884              $1,867            $130,884
831750       BEACH MUNICIPAL EFCU                 $0              $1,863            $121,304              $1,863            $121,304
827044       COMMUNITY FIRST BANK                 $0              $1,861              $1,861                  $0
832474       ALABAMA TELCO CREDIT                 $0              $1,853            $119,052              $1,853            $119,052
              UNION.
804743       M&I BANK............                 $0              $1,849             $36,974              $1,849             $36,974
826931       FIRST MIDWEST BANK                   $0              $1,849             $45,683              $1,849             $45,683
              OF POPLAR BLUFF.
810123       M&T BANK EDUCATIONAL                 $0              $1,839              $1,839                  $0
              LENDING.
832518       FIRST COMMERCIAL                     $0              $1,833                  $0              $1,833                  $0
              BANK N A.
833343       BLUEBONNET FEDERAL                   $0              $1,822            $123,404              $1,822            $123,404
              CREDIT UNION.
829836       NORTHWEST GEORGIA                    $0              $1,820            $133,964              $1,820            $133,964
              CREDIT UNION.
833059       OKLAHOMA STUDENT                     $0              $1,812            $100,840              $1,812            $100,840
              LOAN AUTHORITY.
814827       AIR ACADEMY FCU.....                 $0              $1,806             $50,532              $1,806             $50,532
832298       DELTA COUNTY FCU....                 $0              $1,779             $79,742              $1,779             $79,742
828737       COUNTYWIDE FEDERAL                   $0              $1,775             $63,529              $1,775             $63,529
              CREDIT UNION.
832814       MALHEUR FEDERAL                      $0              $1,773             $96,657              $1,773             $96,657
              CREDIT UNION.
832266       ABNB FCU............                 $0              $1,772            $125,053              $1,772            $125,053
833532       SHAMROCK BANK.......                 $0              $1,770             $77,567              $1,770             $77,567
826830       FIRST SOUTH CU......                 $0              $1,764            $126,395              $1,764            $126,395
830989       LAKESIDE CREDIT                      $0              $1,758            $122,284              $1,758            $122,284
              UNION.
831978       MICHIGAN CATHOLIC CU                 $0              $1,755             $60,044              $1,755             $60,044
833476       PLYMOUTH COUNTY                      $0              $1,754            $128,712              $1,754            $128,712
              TEACHERS FCU.
810398       ANDES STATE BANK....                 $0              $1,745             $77,571              $1,745             $77,571
815584       NORTH ALABAMA                        $0              $1,742             $54,976              $1,742             $54,976
              EDUCATORS CU.
832276       SEASONS FCU.........                 $0              $1,734             $90,134              $1,734             $90,134
826094       MONTANA FIRST CREDIT                 $0              $1,727              $1,727                  $0
              UNION.
817326       HANCOCK COUNTY                       $0              $1,720              $2,564              $1,720              $2,564
              SAVINGS BANK FSB.
832312       ROME TEACHERS FCU...                 $0              $1,719            $102,479              $1,719            $102,479
832700       ROANOKE COUNTY                       $0              $1,718             $98,714              $1,718             $98,714
              SCHOOL EFCU.
814657       LOUISIANA CATHOLIC                   $0              $1,707             $70,109              $1,707             $70,109
              FCU.
827945       MASON NATIONAL BANK.                 $0              $1,701             $52,907              $1,701             $52,907
815517       MEMBERS FIRST CU OF                  $0              $1,694            $104,428              $1,694            $104,428
              FLORIDA.
832162       BUFFALO FIRE                         $0              $1,691            $101,101              $1,691            $101,101
              DEPARTMENT FCU.
818163       COMTRUST FCU........                 $0              $1,689            $175,823              $1,689            $175,823
806947       DANIELS-SHERIDAN FCU                 $0              $1,683             $46,113              $1,683             $46,113
831556       MCCONE COUNTY FCU...                 $0              $1,674             $72,554              $1,674             $72,554
804078       HOME STATE BANK.....                 $0              $1,673             $70,115              $1,673             $70,115
831764       GREATER MILWAUKEE CU                 $0              $1,673            $121,972              $1,673            $121,972
818170       FARGO VA FEDERAL                     $0              $1,672             $62,936              $1,672             $62,936
              CREDIT UNION.
818120       FERGUS COUNTY                        $0              $1,671             $80,421              $1,671             $80,421
              FEDERAL CREDIT
              UNION.
832735       ARLINGTON VIRGINIA                   $0              $1,662             $78,865              $1,662             $78,865
              FCU.
829529       VAN CORTLANDT COOP                   $0              $1,643             $95,774              $1,643             $95,774
              FCU.
824001       WEST SPRINGFIELD FCU                 $0              $1,641             $87,004              $1,641             $87,004
823366       HEW EMPLOYEES FCU...                 $0              $1,641              $5,013              $1,641              $5,013
830918       TURTLE CREEK FEDERAL                 $0              $1,640             $85,299              $1,640             $85,299
              CREDIT UNION.
832628       HOPKINS SCHOOLS                      $0              $1,633             $84,194              $1,633             $84,194
              CREDIT UNION.
834139       FRANKLIN COUNTY                      $0              $1,633            $137,025              $1,633            $137,025
              TEACHERS CU.
833481       COSDEN EMPLOYEES                     $0              $1,631             $48,583              $1,631             $48,583
              FEDERAL CREDIT UNI.
813776       VERMONT STATE                        $0              $1,630            $163,517              $1,630            $163,517
              EMPLOYEES CREDIT
              UNIO.
832468       COMMUNITY EDUCATORS                  $0              $1,629            $102,193              $1,629            $102,193
              CREDIT UNION.
832860       TELEPHONE CREDIT                     $0              $1,626            $112,165              $1,626            $112,165
              UNION OF NEW HAMPS.
833823       HIGHGROVE COMMUNITY                  $0              $1,624             $96,336              $1,624             $96,336
              FCU.
833706       COMO NORTHTOWN COMM                  $0              $1,623             $58,720              $1,623             $58,720
              CU.
832564       SCHOOL DISTRICT #3                   $0              $1,618             $64,738              $1,618             $64,738
              FCU.
814667       UNISTAR FEDERAL                      $0              $1,617             $90,202              $1,617             $90,202
              CREDIT UNION.
832321       YAVAPAI FEDERAL                      $0              $1,615             $42,992              $1,615             $42,992
              CREDIT UNION.
818365       ATLANTIC COAST                       $0              $1,612            $120,309              $1,612            $120,309
              CREDIT UNION.
833826       HARLINGEN AREA                       $0              $1,612             $65,316              $1,612             $65,316
              TEACHERS FCU.
833782       BOWDOINHAM FCU......                 $0              $1,608             $61,769              $1,608             $61,769
819311       BAY ATLANTIC FCU....                 $0              $1,605             $87,068              $1,605             $87,068
829217       BANK OF SALEM.......                 $0              $1,601             $40,369              $1,601             $40,369
832670       EPA CREDIT UNION....                 $0              $1,594             $70,431              $1,594             $70,431
816570       MIDSOUTH FEDERAL                     $0              $1,587             $94,114              $1,587             $94,114
              CREDIT UNION.
832941       PENNSTAR FCU........                 $0              $1,559              $1,559                  $0
828512       EMERALD GROUP CU INC                 $0              $1,558             $75,318              $1,558             $75,318
828080       WCTA FEDERAL CREDIT                  $0              $1,557            $250,377              $1,557            $250,377
              UNION.
810723       BIG SPRING EDUCATION                 $0              $1,556             $77,018              $1,556             $77,018
              EFCU.
818831       AMERICA'S CHRISTIAN                  $0              $1,552             $94,788              $1,552             $94,788
              CREDIT UNION.
832909       CASCADE COMMUNITY                    $0              $1,551             $91,351              $1,551             $91,351
              FCU.
832424       COMMUNITY 1 FCU.....                 $0              $1,544             $61,988              $1,544             $61,988
832463       HARVEST FEDERAL CU..                 $0              $1,540             $59,458              $1,540             $59,458
811938       ASSOCIATED BANK NA..                 $0              $1,536              $1,536                  $0
810522       ROBERTS COUNTY                       $0              $1,529             $96,395              $1,529             $96,395
              NATIONAL BANK OF
              SIS.
827544       CONTINENTAL NATIONAL                 $0              $1,529             $60,745              $1,529             $60,745
              BANK.
833521       STRUTHERS FCU.......                 $0              $1,528             $61,891              $1,528             $61,891
830673       COUNTY CREDIT UNION.                 $0              $1,527             $95,943              $1,527             $95,943
833516       SUN PACIFIC FEDERAL                  $0              $1,526            $113,905              $1,526            $113,905
              CREDIT UNION.
832827       CHESHIRE COUNTY FCU.                 $0              $1,525             $53,546              $1,525             $53,546
833379       FORT SNELLING FCU...                 $0              $1,519             $85,935              $1,519             $85,935
833023       TELEPHONE WORKERS                    $0              $1,519            $102,622              $1,519            $102,622
              CREDIT UNION.
832108       KEMBA FINANCIAL CU..                 $0              $1,519            $156,222              $1,519            $156,222
827064       LA CAPITOL FEDERAL                   $0              $1,517            $108,630              $1,517            $108,630
              CREDIT UNION.
834138       WELLS FARGO ELT                      $0              $1,513              $1,513                  $0
              CALIFORNIA DENTAL A.
834122       MOUNTAIN HIGH FCU...                 $0              $1,511             $86,267              $1,511             $86,267
833391       COOS EDUCATORS                       $0              $1,508             $40,780              $1,508             $40,780
              FEDERAL CREDIT
              UNION.
822169       FIRST FEDERAL                        $0              $1,505             $37,454              $1,505             $37,454
              SAVINGS & LOAN ASSO.
822927       ADVANTAGE BANK......                 $0              $1,501             $19,348              $1,501             $19,348
819591       CELCO FEDERAL CREDIT                 $0              $1,493             $64,772              $1,493             $64,772
              UNION.
831783       COMMUNITY CHOICE                     $0              $1,493             $26,776              $1,493             $26,776
              CREDIT UNION.
828811       GREATER TEXAS FCU...                 $0              $1,492            $105,370              $1,492            $105,370
830500       GRANT COUNTY                         $0              $1,492             $71,864              $1,492             $71,864
              COMMUNITY FCU.
833829       MPO FCU.............                 $0              $1,492             $96,850              $1,492             $96,850
833234       MARTIN FEDERAL                       $0              $1,486             $58,788              $1,486             $58,788
              CREDIT UNION.
833550       THE RICHMOND POSTAL                  $0              $1,483            $113,406              $1,483            $113,406
              CU.
827781       OAK TRUST CU........                 $0              $1,472            $117,060              $1,472            $117,060
819366       FIRST STATE BANK OF                  $0              $1,469             $38,875              $1,469             $38,875
              CLAREMONT.
825247       EASTERN PITTSBURGH                   $0              $1,466             $79,482              $1,466             $79,482
              BELL FEDERAL C U.
832925       KONE EMPLOYEES                       $0              $1,460            $111,006              $1,460            $111,006
              CREDIT UNION.
833409       HIGH PEAKS FCU......                 $0              $1,460             $52,654              $1,460             $52,654
831888       DACOTAH FEDERAL                      $0              $1,457             $82,810              $1,457             $82,810
              CREDIT UNION.
833473       POINT LOMA CREDIT                    $0              $1,453             $90,270              $1,453             $90,270
              UNION.
812091       SOUTH JERSEY FCU....                 $0              $1,450              $1,450                  $0
815469       FAMILY SECURITY                      $0              $1,446            $116,606              $1,446            $116,606
              CREDIT UNION.
826236       ALLIANCE CREDIT                      $0              $1,440             $94,321              $1,440             $94,321
              UNION.
828760       M & T BANK                           $0              $1,418              $1,418                  $0
              EDUCATIONAL LENDING.
806562       F & M BANK OF                        $0              $1,412             $49,773              $1,412             $49,773
              SPRINGFIELD MORGAN
              O.
826201       POSTAL FAMILY                        $0              $1,411            $113,771              $1,411            $113,771
              FEDERAL CREDIT
              UNION.
817766       RICHLAND FEDERAL                     $0              $1,410             $79,128              $1,410             $79,128
              CREDIT UNION.
832239       MIDWEST UNITED                       $0              $1,407             $64,918              $1,407             $64,918
              CREDIT UNION.
813618       FREEPORT STATE BANK--                $0              $1,401             $72,757              $1,401             $72,757
              STEVE NOTCH.
834032       TITAN FCU...........                 $0              $1,399            $105,301              $1,399            $105,301
833219       FIRST BRISTOL                        $0              $1,396             $63,866              $1,396             $63,866
              FEDERAL CREDIT
              UNION.
833696       CALAIS FEDERAL S&L..                 $0              $1,380            $140,864              $1,380            $140,864
833716       LEHIGH VALLEY FCU...                 $0              $1,378             $75,060              $1,378             $75,060
818644       WESTERN DAKOTA BANK.                 $0              $1,377             $50,252              $1,377             $50,252
832280       MEMBERS CREDIT UNION                 $0              $1,374            $197,504              $1,374            $197,504
833427       SARASOTA COASTAL CU.                 $0              $1,373             $86,411              $1,373             $86,411
833539       BAYOU FEDERAL CREDIT                 $0              $1,370             $32,153              $1,370             $32,153
              UNION.
832261       MCAS BEAUFORT CREDIT                 $0              $1,348             $67,064              $1,348             $67,064
              UNION.
834008       HIGH DESERT FCU.....                 $0              $1,341             $42,362              $1,341             $42,362
831966       TRANSMISSION                         $0              $1,337             $36,846              $1,337             $36,846
              BUILDERS FEDERAL
              CREDI.
834031       NEIGHBORS FCU.......                 $0              $1,328             $38,983              $1,328             $38,983
833559       N. MASS TELEPHONE                    $0              $1,328             $91,035              $1,328             $91,035
              WORKERS CU.
830400       COLONIAL SAVINGS F A                 $0              $1,324             $76,290              $1,324             $76,290
833747       ATLANTIC FCU........                 $0              $1,321            $133,331              $1,321            $133,331
810446       FARMERS STATE BANK..                 $0              $1,313              $1,313                  $0
833635       CENTRAL STAR CREDIT                  $0              $1,313             $54,394              $1,313             $54,394
              UNION.
805737       CASCO FEDERAL CREDIT                 $0              $1,298             $97,687              $1,298             $97,687
              UNION.
831997       BANK OF EASTERN                      $0              $1,295            $162,380              $1,295            $162,380
              IDAHO.
832521       COLLEGEDALE CREDIT                   $0              $1,295             $67,659              $1,295             $67,659
              UNION.
833303       BULLDOG FEDERAL                      $0              $1,293             $72,072              $1,293             $72,072
              CREDIT UNION.
833437       1ST UNIVERSITY CU                    $0              $1,291              $1,291                  $0
              GARY PARKER.
833775       EAST OHIO UNITED                     $0              $1,288             $80,458              $1,288             $80,458
              METHODIST CONF CU.
828845       FBC FCU.............                 $0              $1,283              $1,283                  $0
834254       FIFTH THIRD ELT                      $0              $1,256                  $0              $1,256                  $0
              STUDENT LEND WORKS.
825033       MN HIGHER EDUCATION                  $0              $1,254            $127,227              $1,254            $127,227
              SERVICES OFFICE.
828482       SECURITY BANK.......                 $0              $1,254              $1,254                  $0
824122       WISCOR CREDIT UNION.                 $0              $1,250             $75,351              $1,250             $75,351
810488       FT RANDALL FEDERAL                   $0              $1,250             $76,502              $1,250             $76,502
              CREDIT UNION.
831508       CONSUMERS FEDERAL                    $0              $1,243             $45,209              $1,243             $45,209
              CREDIT UNION.
832394       ACCO PRINCETON FCU..                 $0              $1,242             $91,554              $1,242             $91,554
815822       ALCOA PITTSBURGH FCU                 $0              $1,231             $81,865              $1,231             $81,865
833144       KEY BANK NA.........                 $0              $1,226          $1,635,695              $1,226          $1,635,695
821866       M&I BANK FSB........                 $0              $1,224             $72,137              $1,224             $72,137
833039       AMALGAMATED CREDIT                   $0              $1,221             $85,125              $1,221             $85,125
              UNION.
823688       FIRST SECURITY BANK                  $0              $1,214             $63,200              $1,214             $63,200
              OF ROUNDUP.
800023       WACHOVIA BANK NA....                 $0              $1,209              $1,209                  $0
818749       FIRST TRUST AND                      $0              $1,208             $66,302              $1,208             $66,302
              SAVINGS BANK.
832344       PENOBSCOT FCU.......                 $0              $1,206             $86,781              $1,206             $86,781
833177       U A L U FCU.........                 $0              $1,199              $1,199                  $0
832121       EXTRACO BANKS N.A$0.             $1,198             $59,414              $1,198             $59,414
810485       FIRST STATE BANK OF                  $0              $1,195             $43,454              $1,195             $43,454
              WARNER.
801943       SPACE AGE FEDERAL                    $0              $1,190             $82,933              $1,190             $82,933
              CREDIT UNION.
833470       SANTA ANA FCU.......                 $0              $1,185             $77,799              $1,185             $77,799
832146       TOLEDO METRO FEDERAL                 $0              $1,185             $81,869              $1,185             $81,869
              CREDIT UNION.
815953       SUNRISE BANK DAKOTA.                 $0              $1,184             $60,432              $1,184             $60,432
830713       WOODSTONE CREDIT                     $0              $1,182             $67,877              $1,182             $67,877
              UNION.
828873       WASHINGTON TELEPHONE                 $0              $1,182             $83,943              $1,182             $83,943
              FCU.
829535       WOLF POINT FEDERAL                   $0              $1,181             $49,561              $1,181             $49,561
              CREDIT UNION.
834080       FULTON BANK.........                 $0              $1,177             $51,315              $1,177             $51,315
824700       SANBORN SAVINGS BANK                 $0              $1,175             $18,938              $1,175             $18,938
810444       FARMERS STATE BANK..                 $0              $1,173                  $0              $1,173                  $0
818417       LACAMAS COMMUNITY                    $0              $1,172             $54,712              $1,172             $54,712
              CREDIT UNION.
806268       EASTWOOD BANK--                      $0              $1,171                  $0              $1,171                  $0
              ROCHESTER.
833690       NORTHERN LIGHTS FCU.                 $0              $1,171              $1,171                  $0
825297       CORTRUST BANK.......                 $0              $1,165              $1,165                  $0
833629       CHOCOLATE BAYOU COMM                 $0              $1,161             $71,170              $1,161             $71,170
              FCU.
832851       KNOXVILLE POST                       $0              $1,155             $33,554              $1,155             $33,554
              OFFICE CREDIT UNION.
832972       GESA CU.............                 $0              $1,146             $61,501              $1,146             $61,501
804538       FIRST NATIONAL BANK                  $0              $1,146              $1,146                  $0
              OF OLATHE.
832297       SOUTH CAROLINA TELCO                 $0              $1,137             $48,947              $1,137             $48,947
              FCU.
833468       MEADOWS CREDIT UNION                 $0              $1,136             $65,996              $1,136             $65,996
832419       STAMFORD CREDIT                      $0              $1,133            $100,871              $1,133            $100,871
              UNION INC.
803968       DUBUQUE BANK & TRUST                 $0              $1,132                $352              $1,132                $352
              COMPANY.
832813       KASTCO CREDIT UNION.                 $0              $1,121              $1,121                  $0
824210       ITT EMPLOYEES (FT                    $0              $1,119            $110,202              $1,119            $110,202
              WAYNE DIV) FCU.
832969       JACKSON CITY COUNTY                  $0              $1,117             $40,103              $1,117             $40,103
              CU.
813509       M & T BANK                           $0              $1,113             $31,832              $1,113             $31,832
              EDUCATIONAL LENDING.
811010       WEST TEXAS STATE                     $0              $1,112              $5,829              $1,112              $5,829
              BANK.
830849       ST VRAIN VALLEY                      $0              $1,110            $105,227              $1,110            $105,227
              CREDIT UNION.
833060       CHELSEA EMPLOYEES                    $0              $1,109             $66,554              $1,109             $66,554
              FCU.
805182       UNION BANK..........                 $0              $1,105             $73,020              $1,105             $73,020
834038       OAK BANK............                 $0              $1,102             $41,301              $1,102             $41,301
833577       AMERICA FAMILY FCU..                 $0              $1,097              $6,625              $1,097              $6,625
833370       SCHOOL SYSTEMS                       $0              $1,096            $110,468              $1,096            $110,468
              FEDERAL CREDIT
              UNION.
832896       CWA LONG ISLAND FCU.                 $0              $1,095             $84,543              $1,095             $84,543
809444       DOWNINGTOWN NATIONAL                 $0              $1,093              $1,093                  $0
              BANK.
834200       ARMSTRONG ASSOCIATES                 $0              $1,087             $94,680              $1,087             $94,680
              FCU.
833606       LEADERS CREDIT UNION                 $0              $1,086             $32,225              $1,086             $32,225
819542       THINK FCU...........                 $0              $1,080              $1,080                  $0
832336       CONSUMERS                            $0              $1,072             $70,252              $1,072             $70,252
              PROFESSIONAL CU.
812141       FARMERS EXCHANGE                     $0              $1,066             $44,946              $1,066             $44,946
              BANK.
810886       GRAHAM NATIONAL BANK                 $0              $1,064             $42,512              $1,064             $42,512
828033       FIRST NATIONAL BANK                  $0              $1,063                  $0              $1,063                  $0
              OF LEESPORT.
833272       ALAMEDA CREDIT UNION                 $0              $1,054             $32,197              $1,054             $32,197
832971       BEACON FEDERAL......                 $0              $1,053             $69,174              $1,053             $69,174
829797       SENTINEL FEDERAL                     $0              $1,045                  $0              $1,045                  $0
              CREDIT UNION.
818491       PEOPLES STATE BANK..                 $0              $1,045              $1,045                  $0
832828       ALTOONA VEEDER ROOT                  $0              $1,020              $1,020                  $0
              FCU.
800016       FIRST EDUCATORS                      $0              $1,018             $79,279              $1,018             $79,279
              CREDIT UNION.
806262       FARMERS & MERCHANTS                  $0              $1,005             $60,158              $1,005             $60,158
              STATE BANK OF N.
819915       ASSOCIATED BANK NA..                 $0              $1,005              $1,005                  $0
822318       CABOT & NOI                          $0                $997             $41,267                $997             $41,267
              EMPLOYEES CREDIT
              UNION.
833855       BETHEX FCU..........                 $0                $996                $996                  $0
833092       KEY BANK NA.........                 $0                $994          $1,487,965                $994          $1,487,965
817071       GREATER NORWALK AREA                 $0                $993             $61,969                $993             $61,969
              CREDIT UNION.
819665       FIRST LIGHT FCU.....                 $0                $991             $58,136                $991             $58,136
833429       PARK COMMUNITY FCU..                 $0                $988             $58,697                $988             $58,697
833448       CSC EMPLOYEE'S                       $0                $987            $106,911                $987            $106,911
              FEDERAL CREDIT
              UNION.
832284       REMINGTON ARMS FCU..                 $0                $978             $68,144                $978             $68,144
801897       FITZSIMONS COMMUNITY                 $0                $977             $59,241                $977             $59,241
              FCU.
806345       THE FIRST NATIONAL                   $0                $973             $30,250                $973             $30,250
              BANK OF HENNING.
833862       NORTH CAROLINA LOCAL                 $0                $972             $29,959                $972             $29,959
              GOVERNMENT EFC.
828871       SAGELINK CU.........                 $0                $972             $41,274                $972             $41,274
802968       REGIONS BANK........                 $0                $972                $972                  $0
832639       LIBERTY ALLIANCE FCU                 $0                $969             $91,824                $969             $91,824
834155       PETIT JEAN STATE                     $0                $969                  $0                $969                  $0
              BANK.
833718       GLENDALE AREA SCHOOL                 $0                $966             $23,246                $966             $23,246
              FCU.
815849       FARMINGTON SAVINGS                   $0                $965                $965                  $0
              BANK.
806548       STATE BANK OF LAKE                   $0                $960             $31,625                $960             $31,625
              PARK.
831356       UNITED METHODIST                     $0                $956                $956                  $0
              FIRST CHOICE FCU.
828386       DEACON CU...........                 $0                $955             $32,590                $955             $32,590
833871       STANDARD STEEL EFCU.                 $0                $953             $70,419                $953             $70,419
833129       ACCO YORK FCU.......                 $0                $951             $65,251                $951             $65,251
832528       NORTHWEST RESOURCE                   $0                $944             $42,343                $944             $42,343
              FCU.
832514       MISSION PARTNERS                     $0                $942             $72,822                $942             $72,822
              EMPLOYEES CREDIT U.
832608       CTECU...............                 $0                $937             $33,086                $937             $33,086
833894       MONONGAHELA VALLEY                   $0                $935             $53,405                $935             $53,405
              FCU.
830632       SHARE ADVANTAGE                      $0                $934             $78,581                $934             $78,581
              CREDIT UNION.
817132       WATERBURY CT                         $0                $930              $3,750                $930              $3,750
              TEACHERS FED CR
              UNION.
818185       ASSOCIATED BANK NA..                 $0                $924                $924                  $0
832272       FLOWER CITY FCU.....                 $0                $918             $26,043                $918             $26,043
830464       HEALTHCARE PLUS FED                  $0                $917                $917                  $0
              CREDIT UNION.
832815       MONTCLAIR POSTAL EMP                 $0                $917             $32,347                $917             $32,347
              CU.
813125       ALPENA ALCONA AREA                   $0                $914             $10,495                $914             $10,495
              CREDIT UNION.
833615       MEMBERS CHOICE                       $0                $906             $64,552                $906             $64,552
              CREDIT UNION.
829820       GABRIELS COMMUNITY                   $0                $903             $48,987                $903             $48,987
              CU.
832649       ALLEGHENY-KISKI                      $0                $902                $902                  $0
              POSTAL FCU.
817854       ARSENAL CREDIT UNION                 $0                $900             $11,250                $900             $11,250
833777       NCPD FEDERAL CREDIT                  $0                $900             $53,583                $900             $53,583
              UNION.
828286       MIDWEST PARTNERS FED                 $0                $899             $53,439                $899             $53,439
              CREDIT UNION.
833593       THE COCA-COLA CO                     $0                $898             $33,678                $898             $33,678
              FAMILY FCU.
830640       NAPUS FEDERAL CREDIT                 $0                $897             $59,928                $897             $59,928
              UNION.
833185       FIRST CLASS AMERICAN                 $0                $895             $37,817                $895             $37,817
              CREDIT UNION.
820213       TAHQUAMENON AREA                     $0                $893             $59,632                $893             $59,632
              CREDIT UNION.
804655       GREENSBURG STATE                     $0                $892             $54,716                $892             $54,716
              BANK.
806260       MINNWEST BANK SOUTH.                 $0                $892                $892                  $0
833404       STERLING BANK.......                 $0                $890                $890                  $0
806406       JANESVILLE STATE                     $0                $887             $35,490                $887             $35,490
              BANK.
816082       MUTUAL SAVINGS                       $0                $883             $36,339                $883             $36,339
              CREDIT UNION.
831022       L. C. E. FEDERAL                     $0                $880             $39,863                $880             $39,863
              CREDIT UNION.
819203       COMMUNITY STATE BANK                 $0                $880             $36,078                $880             $36,078
832770       MISSOURI VALLEY                      $0                $877             $17,690                $877             $17,690
              FEDERAL CREDIT UNIO.
831362       IEC FEDERAL CREDIT                   $0                $871             $48,952                $871             $48,952
              UNION.
832857       UMASS/FIVE COLLEGE                   $0                $862             $80,997                $862             $80,997
              FCU.
824924       OHIO UNIVERSITY CU..                 $0                $858             $65,803                $858             $65,803
819630       GREAT PLAINS BANK...                 $0                $856             $47,388                $856             $47,388
828311       THE UNION BANKING                    $0                $856             $56,202                $856             $56,202
              COMPANY.
833776       SANTA MONICA SCHOOLS                 $0                $855             $44,027                $855             $44,027
              EMPLOYEES FEDE.
810492       IPSWICH STATE BANK..                 $0                $855                  $0                $855                  $0
833401       NORTHERN SCHOOLS FCU                 $0                $854             $33,981                $854             $33,981
827501       NEBRASKA STATE                       $0                $854             $50,397                $854             $50,397
              EMPLOYEES CREDIT
              UNI.
832533       GWINNETT FCU........                 $0                $854             $57,174                $854             $57,174
802160       FAIRFIELD COUNTY                     $0                $853             $71,553                $853             $71,553
              CREDIT UNION.
808616       THE FIRST NATIONAL                   $0                $847             $48,659                $847             $48,659
              BANK OF SYCAMORE.
816266       STATE BANK OF LUCAN.                 $0                $847             $15,357                $847             $15,357
832665       QUIMPER COMMUNITY                    $0                $843             $56,192                $843             $56,192
              FCU.
827666       NORTH JERSEY FEDERAL                 $0                $841             $83,375                $841             $83,375
              CREDIT UNION.
818179       ASSOCIATED BANK NA..                 $0                $840                $840                  $0
833929       GALLERIA CU.........                 $0                $839             $30,995                $839             $30,995
832392       WEYERHAEUSER CREDIT                  $0                $818             $61,320                $818             $61,320
              UNION.
828925       MEM FCU.............                 $0                $815             $63,927                $815             $63,927
820970       SIOUX FALLS BELL                     $0                $811                $811                  $0
              FEDERAL CREDIT UNI.
813411       COMMERCIAL BANK &                    $0                $808                  $0                $808                  $0
              TRUST OF PA.
833767       PARKS HERITAGE FCU..                 $0                $807             $70,962                $807             $70,962
833763       MINNWEST BANK SIOUX                  $0                $806             $44,389                $806             $44,389
              FALLS.
832507       MERCER COUNTY NJ                     $0                $803             $59,109                $803             $59,109
              TEACHERS FCU.
822591       TIC FEDERAL CREDIT                   $0                $803             $66,704                $803             $66,704
              UNION.
831640       STUDENT LOAN FUNDING                 $0                $802             $13,889                $802             $13,889
              US BANK ELT.
833450       SEMC FEDERAL CREDIT                  $0                $801             $58,702                $801             $58,702
              UNION.
826526       RIVER VALLEY CREDIT                  $0                $800                $800                  $0
              UNION.
833665       CATSKILL REGIONAL                    $0                $798             $65,600                $798             $65,600
              FCU.
813953       ELKHORN FEDERAL                      $0                $796                $796                  $0
              CREDIT UNION.
833704       THE BANK OF THE RIO                  $0                $795             $38,745                $795             $38,745
              GRANDE NA.
832795       HOLY CROSS HOSPITAL                  $0                $792             $43,951                $792             $43,951
              EMPLOYEES' CU.
830567       VACAP FEDERAL CREDIT                 $0                $787             $21,143                $787             $21,143
              UNION.
806373       CENTER NATIONAL BANK                 $0                $787             $50,995                $787             $50,995
807581       BANK OF NEW YORK....                 $0                $787                  $0                $787                  $0
832311       NYM FEDERAL CREDIT                   $0                $787             $41,858                $787             $41,858
              UNION.
825280       AP FEDERAL CREDIT                    $0                $786             $41,969                $786             $41,969
              UNION.
821891       OTERO FEDERAL CREDIT                 $0                $783             $46,518                $783             $46,518
              UNION.
833362       FARMERS & MERCHANTS                  $0                $782                $782                  $0
              STATE BANK.
833336       HINGHAM FEDERAL                      $0                $779             $36,204                $779             $36,204
              CREDIT UNION.
823866       RAYTOWN-LEE'S SUMMIT                 $0                $777             $28,361                $777             $28,361
              COMMUNITY CRED.
817876       ARKANSAS EMPLOYEES                   $0                $775             $45,635                $775             $45,635
              FCU.
825582       NJ GATEWAY FEDERAL                   $0                $772             $52,719                $772             $52,719
              CREDIT UNION.
834054       ACCESS CU...........                 $0                $770             $19,703                $770             $19,703
806541       STATE BANK OF BIRD                   $0                $766             $45,966                $766             $45,966
              ISLAND.
820136       GREATER ALLIANCE FCU                 $0                $765                $765                  $0
820198       FIRST STATE BANK OF                  $0                $764            $152,108                $764            $152,108
              MIDDLEBURY.
817718       GLOUCESTER COUNTY                    $0                $764             $40,123                $764             $40,123
              FSB.
833951       EMSBLA CU...........                 $0                $761             $38,437                $761             $38,437
834240       US BANK ELT                          $0                $760             $84,227                $760             $84,227
              COLLEGIATE
              SOLUTIONS.
833845       HTM AREA CU.........                 $0                $758             $38,831                $758             $38,831
834175       FIRST FEDERAL.......                 $0                $758                $758                  $0
832526       ADVANTIS CU.........                 $0                $757             $39,591                $757             $39,591
832308       LEWISTON MUNICIPAL                   $0                $753             $54,090                $753             $54,090
              FEDERAL CREDIT U.
832761       ALHAMBRA CREDIT                      $0                $752                  $0                $752                  $0
              UNION.
832489       ALABAMA TEACHERS CU.                 $0                $748             $40,773                $748             $40,773
832659       ALLEGANY COMMUNITY                   $0                $746             $45,322                $746             $45,322
              FCU.
813989       BANK OF ROTHVILLE...                 $0                $743              $8,000                $743              $8,000
832246       LOUDOUN CREDIT UNION                 $0                $739             $26,950                $739             $26,950
820003       THE CORN CITY STATE                  $0                $736             $29,855                $736             $29,855
              BANK.
833383       ROHM & HAAS MONUMENT                 $0                $732             $62,069                $732             $62,069
              AREA FCU.
814151       SAINT AGATHA FEDERAL                 $0                $731                $731                  $0
              CREDIT UNION.
819119       EAST RIVER FCU......                 $0                $729                $729                  $0
833392       ROSWELL COMM FCU....                 $0                $728             $26,752                $728             $26,752
832772       BELL CREDIT UNION...                 $0                $727             $56,617                $727             $56,617
830613       NORTH RIDGE                          $0                $726             $19,125                $726             $19,125
              COMMUNITY CU.
832443       NORTHWEST COMMUNITY                  $0                $726                $726                  $0
              CU.
827310       SUN SECURITY BANK OF                 $0                $722                $722                  $0
              AMERICA.
833561       TRANSTAR FCU........                 $0                $719             $68,600                $719             $68,600
832631       SPERRY MARINE FCU...                 $0                $717             $50,089                $717             $50,089
814459       FARMERS STATE BANK                   $0                $717                $717                  $0
              FLANDREAU SOUTH.
817801       FIRST UNITED BANK...                 $0                $716                $716                  $0
832117       HEALTHCARE SYSTEMS                   $0                $705             $50,208                $705             $50,208
              FEDERAL CREDIT U.
832618       MISSISSIPPI TELCO                    $0                $704             $29,783                $704             $29,783
              FCU.
823745       BANK OF NEW CAMBRIA.                 $0                $703             $53,070                $703             $53,070
806089       PENINSULA BANK......                 $0                $701             $43,809                $701             $43,809
832767       CATHOLIC PARISHES                    $0                $694             $37,637                $694             $37,637
              FCU.
825545       GUARDIAN FEDERAL                     $0                $692             $39,729                $692             $39,729
              CREDIT UNION.
830284       ARAPAHOE CREDIT                      $0                $687             $44,402                $687             $44,402
              UNION.
832456       OREGON FIRST                         $0                $684             $52,845                $684             $52,845
              COMMUNITY CU.
832849       I AND M (TANNERS                     $0                $683             $51,334                $683             $51,334
              CREEK) EFCU.
830704       EASTERN NEW YORK FCU                 $0                $677             $30,858                $677             $30,858
833151       SPOKANE CITY CREDIT                  $0                $676             $48,660                $676             $48,660
              UNION.
830347       CITIZENS STATE BANK                  $0                $669             $29,538                $669             $29,538
              OF SHAKOPEE.
832252       CPM FEDERAL CREDIT                   $0                $669             $44,011                $669             $44,011
              UNION.
834017       DEPARTMENT OF                        $0                $668             $57,293                $668             $57,293
              COMMERCE FCU.
813774       VERMONT FEDERAL                      $0                $666             $74,105                $666             $74,105
              CREDIT UNION.
804494       MARQUETTE FARMERS                    $0                $663             $65,256                $663             $65,256
              STATE BANK.
833900       LINCOLN MAINE FCU...                 $0                $658             $40,094                $658             $40,094
803258       JPMORGAN CHASE BANK                  $0                $657                  $0                $657                  $0
              NA.
833018       SECURITY ONE FCU....                 $0                $653             $48,906                $653             $48,906
833632       ROCHESTER & MONROE                   $0                $651             $29,591                $651             $29,591
              CTY FCU.
828942       UTI EMPLOYEES CREDIT                 $0                $650             $40,934                $650             $40,934
              UNION.
832277       NORTH EAST ALLIANCE                  $0                $650             $45,598                $650             $45,598
              FEDERAL CREDIT.
806219       FLAGSHIP BANK.......                 $0                $649             $19,625                $649             $19,625
832403       WESTERN REGION FED                   $0                $647             $10,463                $647             $10,463
              CREDIT UNION.
832951       SEAPORT CU..........                 $0                $646             $40,205                $646             $40,205
833939       FARM BUREAU BANK....                 $0                $645             $24,125                $645             $24,125
832687       KC FAIRFAX FCU......                 $0                $643             $47,425                $643             $47,425
833538       FIRST JERSEY CU.....                 $0                $640             $60,793                $640             $60,793
828444       BANK OF BROOKFIELD-                  $0                $639             $28,584                $639             $28,584
              PURDIN N A.
832359       ISHPEMING COMMUNITY                  $0                $639             $41,260                $639             $41,260
              FEDERAL CREDIT.
820377       FIRST BANK AND TRUST                 $0                $634                $634                  $0
              COMPANY.
831023       ALLEGHENY VALLEY FED                 $0                $633                $633                  $0
              CR UNION.
833367       CREDIT UNION OF NEW                  $0                $628             $23,358                $628             $23,358
              JERSEY.
823635       HANNIBAL NATIONAL                    $0                $627                $627                  $0
              BANK.
829744       BALLINGER NATIONAL                   $0                $627              $3,937                $627              $3,937
              BANK.
832269       SPENCERPORT FCU.....                 $0                $625             $22,367                $625             $22,367
832779       LEXINGTON AVENUE                     $0                $624             $41,163                $624             $41,163
              FEDERAL CREDIT UNI.
832204       CAROLINA TRUST FCU..                 $0                $624             $27,345                $624             $27,345
832310       FORT MCCLELLAN                       $0                $623             $26,609                $623             $26,609
              CREDIT UNION.
820528       BENCHMARK CREDIT                     $0                $623            $103,540                $623            $103,540
              UNION.
829440       LEGENDS BANK........                 $0                $622              $9,250                $622              $9,250
832783       Bank @LANTEC........                 $0                $620             $30,918                $620             $30,918
812747       STRAIT-VIEW CREDIT                   $0                $616             $41,918                $616             $41,918
              UNION.
831365       WELCOME CREDIT UNION                 $0                $614            $121,533                $614            $121,533
832629       WOODCO FEDERAL                       $0                $612             $44,437                $612             $44,437
              CREDIT UNION.
824104       LATVIAN CLEVELAND                    $0                $611             $21,146                $611             $21,146
              CREDIT UNION.
833551       TEANECK FEDERAL                      $0                $604             $40,509                $604             $40,509
              CREDIT UNION.
832604       NORTHEAST DENVER                     $0                $601             $49,089                $601             $49,089
              FEDERAL CREDIT UNI.
804692       CREDIT UNION OF                      $0                $598             $42,792                $598             $42,792
              JOHNSON COUNTY.
822774       SNYDER NATIONAL BANK                 $0                $595             $25,722                $595             $25,722
832118       TPS CREDIT UNION INC                 $0                $592             $60,276                $592             $60,276
834113       LUZERNE COUNTY FCU..                 $0                $587             $47,260                $587             $47,260
832145       IBEW 76.............                 $0                $587             $41,518                $587             $41,518
825532       WATERFORD COMMERCIAL                 $0                $585             $39,199                $585             $39,199
              & SAV BANK.
832983       TAYLOR COMMUNITY CU.                 $0                $579             $35,986                $579             $35,986
819447       VALLEYSTONE CU......                 $0                $579             $35,694                $579             $35,694
833877       MINNESOTA MUTUAL                     $0                $578                $578                  $0
              COMPANIES CU.
832713       BARAGA COUNTY                        $0                $576             $25,812                $576             $25,812
              FEDERAL CREDIT
              UNION.
816050       BLUE RIDGE BANK AND                  $0                $574                $574                  $0
              TRUST CO.
831632       HUNTINGTON SCHOOLS                   $0                $572                $572                  $0
              FCU.
831219       VIRGINIA EDUCATORS'                  $0                $569                  $0                $569                  $0
              CU.
834176       COMMUNITY SERVICE CU                 $0                $565             $27,143                $565             $27,143
832728       CHISHOLM TRAIL FCU..                 $0                $564             $42,197                $564             $42,197
832019       TVA CU..............                 $0                $562             $36,016                $562             $36,016
833906       KNOX COUNTY FCU.....                 $0                $557                $557                  $0
805648       ALLIANCE OF MAINE                    $0                $555            $112,329                $555            $112,329
              FCU.
833522       OK MEMBERS FIRST FCU                 $0                $553             $36,188                $553             $36,188
834135       UNITED POLICE FCU...                 $0                $552             $12,288                $552             $12,288
822490       JEFFERSON PARISH                     $0                $551             $23,087                $551             $23,087
              EFCU.
833430       BN WEST CREDIT UNION                 $0                $548             $33,162                $548             $33,162
819099       SUN CREDIT UNION....                 $0                $547             $38,813                $547             $38,813
832325       BENNINGTON COUNTY                    $0                $542                $542                  $0
              TEACHERS CREDIT U.
806407       KANABEC STATE BANK..                 $0                $537             $38,552                $537             $38,552
810832       FIRST NATIONAL BANK                  $0                $537             $30,534                $537             $30,534
              BELLVILLE.
834228       ARIZONA STATE                        $0                $537                $537                  $0
              UNIVERSITY.
832299       PROMEDICA FEDERAL                    $0                $535             $34,378                $535             $34,378
              CREDIT UNION.
833229       BOULDER VALLEY                       $0                $533             $14,475                $533             $14,475
              CREDIT UNION.
830060       PARIS NATIONAL BANK.                 $0                $526             $30,527                $526             $30,527
834284       SOUTHERN ILLINOIS                    $0                $519             $70,180                $519             $70,180
              UNIVERSITY.
833541       UNIVERSAL FCU.......                 $0                $516                  $0                $516                  $0
832178       DEER LODGE COUNTY                    $0                $511                $511                  $0
              SCHOOL EFCU.
833590       WENATCHEE VALLEY FCU                 $0                $509             $40,009                $509             $40,009
806851       FOCUS BANK..........                 $0                $508             $21,710                $508             $21,710
819564       FIRST NATIONAL BANK.                 $0                $507                $507                  $0
833851       APPALACHIAN                          $0                $506             $37,778                $506             $37,778
              COMMUNITY FCU.
832667       CHESTNUT COMMUNITY                   $0                $505             $32,838                $505             $32,838
              CREDIT UNION.
833645       STARTRUST FCU.......                 $0                $505                  $0                $505                  $0
829464       UNITED FCU..........                 $0                $501                $501                  $0
832757       STREATOR ONIZED                      $0                $501             $30,979                $501             $30,979
              CREDIT UNION.
811906       ASSOCIATED BANK NA..                 $0                $499                $499                  $0
826415       WANIGAS FEDERAL                      $0                $498             $14,009                $498             $14,009
              CREDIT UNION.
832134       KOOTENAI VALLEY FCU.                 $0                $497             $15,917                $497             $15,917
832567       TLC FEDERAL CREDIT                   $0                $495             $27,762                $495             $27,762
              UNION.
820889       BURGER FEDERAL                       $0                $494             $32,805                $494             $32,805
              CREDIT UNION.
818422       FLORIDA COMMERCE                     $0                $494             $32,211                $494             $32,211
              CREDIT UNION.
834109       FIRST BANK & TRUST                   $0                $493             $32,025                $493             $32,025
              CO.
834053       MS FCU..............                 $0                $488             $22,946                $488             $22,946
833684       BAYLANDS FCU........                 $0                $481             $33,445                $481             $33,445
832434       LINN-CO FEDERAL                      $0                $479             $35,111                $479             $35,111
              CREDIT UNION.
804146       REGIONS BANK........                 $0                $478                $478                  $0
833569       ILLINOIS VALLEY                      $0                $476             $21,528                $476             $21,528
              CREDIT UNION.
831850       INDEPENDENT BANK....                 $0                $475             $32,708                $475             $32,708
824858       BURBANK FEDERAL                      $0                $475             $26,910                $475             $26,910
              CREDIT UNION.
820166       WESTAMERICA BANK....                 $0                $474             $22,959                $474             $22,959
832924       CHADWICK FCU........                 $0                $471             $48,819                $471             $48,819
832657       TAFT CARBIDE FCU....                 $0                $470             $29,036                $470             $29,036
829095       SOUTHCOAST HEALTH                    $0                $467             $17,686                $467             $17,686
              SYSTEM FCU.
820323       WEST COMMUNITY                       $0                $467             $13,250                $467             $13,250
              CREDIT UNION.
834083       CORE ONE CU INC.....                 $0                $459                $459                  $0
810538       PREMIER BANK........                 $0                $458                $458                  $0
831499       VANTRIA FEDERAL                      $0                $456             $55,297                $456             $55,297
              CREDIT UNION.
832448       WALKER COUNTY                        $0                $455             $22,020                $455             $22,020
              EDUCATORS FCU.
833714       COSTA MESA FCU......                 $0                $454             $27,300                $454             $27,300
821966       US NEW MEXICO                        $0                $451             $28,101                $451             $28,101
              FEDERAL CREDIT
              UNION.
831015       SODES FEDERAL CREDIT                 $0                $451             $23,250                $451             $23,250
              UNION.
833793       MILL TOWN CU........                 $0                $450             $15,603                $450             $15,603
833425       DALLAS COUNTY CU....                 $0                $450                $450                  $0
807756       BANK OF AKRON.......                 $0                $449             $14,089                $449             $14,089
806810       COMMUNITY STATE BANK                 $0                $448             $11,597                $448             $11,597
833729       POSTEL FAMILY CREDIT                 $0                $446             $26,679                $446             $26,679
              UNION.
816914       MILFORD FCU.........                 $0                $442             $41,674                $442             $41,674
833897       PRESIDENTS FEDERAL                   $0                $442             $54,636                $442             $54,636
              CREDIT UNION.
824354       NORTH OAKLAND                        $0                $439             $34,891                $439             $34,891
              COMMUNITY CREDIT
              UNIO.
832469       ONE COMMUNITY FCU...                 $0                $438             $14,148                $438             $14,148
811948       ASSOCIATED BANK NA..                 $0                $437                $437                  $0
823469       PIONEER BANK........                 $0                $437                  $0                $437                  $0
806747       BANK OF BELTON......                 $0                $436             $23,063                $436             $23,063
804166       PEOPLES SAVINGS BANK                 $0                $435             $23,619                $435             $23,619
834056       AMBRIDGE SCHOOL                      $0                $426             $32,000                $426             $32,000
              TEACHERS FCU.
833261       KINGSPORT PRESS                      $0                $426             $11,987                $426             $11,987
              CREDIT UNION.
828130       PULASKI BANK........                 $0                $426             $19,491                $426             $19,491
833192       STAR USA FEDERAL                     $0                $426             $18,613                $426             $18,613
              CREDIT UNION.
824769       JOHNS HOPKINS                        $0                $426                  $0                $426                  $0
              UNIVERSITY.
830571       ELECTRICAL WORKERS                   $0                $423             $20,966                $423             $20,966
              CREDIT UNION.
833393       PINNACLE FCU........                 $0                $420             $26,800                $420             $26,800
810437       FARMERS & MERCHANTS                  $0                $419                $419                  $0
              STATE BANK.
828642       ASCENSION SCHOOL ECU                 $0                $418             $24,189                $418             $24,189
803427       CLIFTY CREEK                         $0                $416             $24,780                $416             $24,780
              EMPLOYEES FCU.
834197       FULTON COUNTY FCU...                 $0                $410             $38,828                $410             $38,828
807009       BANK OF BAKER.......                 $0                $408                $408                  $0
812763       UNITED CREDIT UNION.                 $0                $405             $24,640                $405             $24,640
833319       C.C.S.E. FCU........                 $0                $402             $57,105                $402             $57,105
833386       SOUTH BERGEN FCU....                 $0                $397             $32,769                $397             $32,769
832571       OLD OCEAN FCU.......                 $0                $395                $395                  $0
813133       COPOCO CREDIT UNION.                 $0                $395                $395                  $0
833523       PLUS4 CU............                 $0                $394             $23,640                $394             $23,640
819993       WESTERRA CU.........                 $0                $393              $9,349                $393              $9,349
833849       KEARNEY EATON                        $0                $393             $26,229                $393             $26,229
              EMPLOYEES FCU.
833756       UNCLE CREDIT UNION..                 $0                $393             $21,495                $393             $21,495
815648       TAMPA BAY FEDERAL                    $0                $392             $27,131                $392             $27,131
              CREDIT UNION.
829953       FAIRLEIGH DICKINSON                  $0                $391              $6,950                $391              $6,950
              UNIVERSITY FCU.
832753       UNIVERSITY HEALTH                    $0                $391             $10,440                $391             $10,440
              FCU.
833879       COOPERATIVE CU......                 $0                $390             $26,218                $390             $26,218
833235       AMERICAN SAVINGS                     $0                $388             $20,131                $388             $20,131
              CREDIT UNION.
833173       ST. MARYS BANK......                 $0                $388                $388                  $0
830798       INVESTEX CU.........                 $0                $387             $25,587                $387             $25,587
832317       MEMBERS ADVANTAGE                    $0                $387             $48,988                $387             $48,988
              COMMUNITY CU.
833825       CP FCU..............                 $0                $386             $10,626                $386             $10,626
833677       PACIFIC RESOURCE CU.                 $0                $385              $7,754                $385              $7,754
825299       LORMET COMMUNITY                     $0                $383             $21,515                $383             $21,515
              FEDERAL CREDIT UNI.
827952       EXCHANGE STATE BANK.                 $0                $382             $20,513                $382             $20,513
830730       FIRST CENTRAL CU....                 $0                $380             $24,772                $380             $24,772
833563       COOPER'S CAVE FCU...                 $0                $380             $23,567                $380             $23,567
833942       SCHNEIDER COMMUNITY                  $0                $378             $27,230                $378             $27,230
              CU.
833676       COMMUNITY 1ST CREDIT                 $0                $375             $47,915                $375             $47,915
              UNION.
804257       UNION STATE BANK....                 $0                $373                $373                  $0
806252       FARMERS & MERCHANTS                  $0                $370                $370                  $0
              STATE BANK.
832603       WATERFRONT FCU......                 $0                $367             $31,645                $367             $31,645
806322       FIRST NATIONAL BANK                  $0                $366              $7,713                $366              $7,713
              OSAKIS.
831964       CAPITAL COMMUNITY CU                 $0                $366             $28,810                $366             $28,810
819110       G I C FEDERAL CREDIT                 $0                $365             $21,907                $365             $21,907
              UNION.
832235       HILLSIDE HOSPITAL                    $0                $365             $10,797                $365             $10,797
              FEDERAL CREDIT UN.
832519       SOFCU...............                 $0                $363             $11,935                $363             $11,935
815504       INDEPENDENT                          $0                $361             $21,793                $361             $21,793
              EMPLOYERS GROUP FCU.
833587       BENTON COUNTY                        $0                $360             $56,623                $360             $56,623
              SCHOOLS CU.
832322       ACHIEVE FINANCIAL                    $0                $359             $32,541                $359             $32,541
              CREDIT UNION.
830504       PRICECHOPPER                         $0                $355             $22,125                $355             $22,125
              EMPLOYEES FED CR UN.
832530       CENTRAL GEORGIA                      $0                $355             $17,676                $355             $17,676
              REGIONAL CU.
834077       UFIRST FCU..........                 $0                $352             $15,070                $352             $15,070
833678       CENTRAL WILLAMETTE                   $0                $351             $23,983                $351             $23,983
              CU.
814008       THE MARIES COUNTY                    $0                $348                $348                  $0
              BANK.
832898       ALLEGANY COUNTY                      $0                $347             $20,475                $347             $20,475
              SCHOOLS FCU.
802198       AFL-CIO EMPLOYEES                    $0                $341                $672                $341                $672
              FCU.
813975       CITIZENS BANK &                      $0                $340             $18,850                $340             $18,850
              TRUST.
832926       PRECISION CU........                 $0                $337             $12,965                $337             $12,965
833544       MONMOUTH FCU........                 $0                $333                $333                  $0
832441       SEAFORD FEDERAL                      $0                $333             $35,057                $333             $35,057
              CREDIT UNION.
832329       AOD FEDERAL CREDIT                   $0                $330             $27,514                $330             $27,514
              UNION.
832430       BIG VALLEY FEDERAL                   $0                $329             $17,482                $329             $17,482
              CREDIT UNION.
819422       SOUTH LAFOURCHE BANK                 $0                $328                $328                  $0
              & TRUST CO.
824699       SANDIA LABORATORY                    $0                $328              $8,579                $328              $8,579
              FCU.
833423       EDUCATIONAL COMM CU.                 $0                $327             $20,765                $327             $20,765
833504       LAKEVIEW CREDIT                      $0                $327                $327                  $0
              UNION.
832506       IQ CREDIT UNION.....                 $0                $327              $9,945                $327              $9,945
833936       GNC COMMUNITY FCU...                 $0                $325             $31,265                $325             $31,265
806858       GATEWAY NAT'L BANK                   $0                $323                $323                  $0
              OF ST LOUIS.
826355       PLANTERS BANK &                      $0                $322                $322                  $0
              TRUST COMPANY.
818156       ALABAMA CREDIT UNION                 $0                $320             $24,712                $320             $24,712
834207       HOLY FAMILY MEMORIAL                 $0                $316             $37,830                $316             $37,830
              CU.
821987       PEOPLES STATE BANK                   $0                $315             $33,278                $315             $33,278
              OF MUNISING.
808058       M & T BANK                           $0                $314             $26,894                $314             $26,894
              EDUCATIONAL LENDING.
832381       EAST IDAHO CU.......                 $0                $314              $2,000                $314              $2,000
830853       COMMUNITY                            $0                $309             $19,335                $309             $19,335
              EDUCATIONAL FCU.
832265       STEEL VALLEY FCU....                 $0                $309             $34,081                $309             $34,081
832638       PARSONS PITTSBURG CU                 $0                $308             $26,034                $308             $26,034
833695       SCENIC FALLS FCU....                 $0                $305             $17,210                $305             $17,210
832793       COMMUNITY HEALTHCARE                 $0                $305             $55,715                $305             $55,715
              FCU.
832921       SOUTHLAND CIVIC                      $0                $305             $26,691                $305             $26,691
              CREDIT UNION.
829370       BANK OF OLD MONROE..                 $0                $303             $14,961                $303             $14,961
828728       IOSCO COMMUNITY                      $0                $300             $10,954                $300             $10,954
              CREDIT UNION.
834298       ST. LOUIS UNIVERSITY                 $0                $300                  $0                $300                  $0
830474       U.S. ALLIANCE CU....                 $0                $299             $20,286                $299             $20,286
817519       MON-OC FEDERAL                       $0                $299             $35,549                $299             $35,549
              CREDIT UNION.
820394       LAKE COUNTY BANK....                 $0                $296                $296                  $0
833937       CY-CO FCU...........                 $0                $296             $19,602                $296             $19,602
818630       SUMA YONKERS FCU....                 $0                $296             $18,502                $296             $18,502
833850       MOHAWK PROGRESSIVE                   $0                $294              $8,566                $294              $8,566
              FEDERAL CREDIT U.
833472       UNIVERSAL CITY                       $0                $291             $33,899                $291             $33,899
              STUDIOS CU.
830041       ALL CITY EMPLOYEES                   $0                $290              $3,286                $290              $3,286
              CREDIT UNION.
822170       WHEELING NATIONAL                    $0                $286             $15,863                $286             $15,863
              BANK.
804658       GREAT PLAINS FEDERAL                 $0                $285             $21,700                $285             $21,700
              CREDIT UNION.
828777       MITCHELL BANK.......                 $0                $283              $6,125                $283              $6,125
803999       FARMERS STATE BANK..                 $0                $283                $283                  $0
832462       CORNERSTONE                          $0                $282              $9,646                $282              $9,646
              COMMUNITY FIN FCU.
833814       ANOKA HENNEPIN                       $0                $281             $19,231                $281             $19,231
              CREDIT UNION.
817719       RARITAN BAY FEDERAL                  $0                $281             $15,886                $281             $15,886
              CREDIT UNION.
832812       FRANKENMUTH CU......                 $0                $280             $19,114                $280             $19,114
833843       UNITED FINANCIAL CU.                 $0                $278             $33,485                $278             $33,485
833213       PARSONS FEDERAL                      $0                $276             $29,505                $276             $29,505
              CREDIT UNION.
821562       CARNEGIE MELLON                      $0                $269             $36,319                $269             $36,319
              UNIVERSITY.
832698       ROGUE FEDERAL CREDIT                 $0                $266             $18,221                $266             $18,221
              UNION.
810449       FARMERS STATE BANK..                 $0                $262                $262                  $0
823108       MIDSTATE CREDIT                      $0                $261             $22,277                $261             $22,277
              UNION.
824220       CONSOLIDATED BANK &                  $0                $254             $12,673                $254             $12,673
              TRUST COMPANY.
832494       SYMPHONY ORCHESTRA                   $0                $252             $27,588                $252             $27,588
              EFCU.
832922       KENNEWICK COMMUNITY                  $0                $250              $9,490                $250              $9,490
              FCU.
813981       MIDWEST BANKCENTRE..                 $0                $249                $249                  $0
829868       FINANCIAL PLUS FCU..                 $0                $245             $37,415                $245             $37,415
812335       FIRST CHOICE CREDIT                  $0                $245             $10,763                $245             $10,763
              UNION.
833490       MELROSE CREDIT UNION                 $0                $245             $11,098                $245             $11,098
832808       MEMBERS OWN FCU.....                 $0                $241             $14,454                $241             $14,454
828971       NEW VISIONS                          $0                $241                $241                  $0
              COMMUNITY FCU.
814817       BANK OF AMERICA NA..                 $0                $238                  $0                $238                  $0
828261       CAPITOL REGION FCU..                 $0                $234                $234                  $0
833390       BLACKSTONE RIVER FCU                 $0                $231              $8,860                $231              $8,860
833524       CAROLINAS TELCO FCU.                 $0                $228             $13,912                $228             $13,912
810698       UNION PLANTERS                       $0                $226                $226                  $0
              NATIONAL BANK.
804402       CITIZENS STATE BANK.                 $0                $225             $26,323                $225             $26,323
823388       TEXAS RURAL                          $0                $225              $9,000                $225              $9,000
              COMMUNITIES.
833328       TOWNE BANK..........                 $0                $220             $11,125                $220             $11,125
833115       JP MORGAN CHASE SMS                  $0                $219            $129,802                $219            $129,802
              TRUST 1994-A.
826376       FEDCOM CU...........                 $0                $216             $18,750                $216             $18,750
832888       NEW SPIRIT CREDIT                    $0                $216             $13,030                $216             $13,030
              UNION.
816044       FARMERS & MERCHANTS                  $0                $215             $15,408                $215             $15,408
              BANK.
832830       RIVERDALE CREDIT                     $0                $213             $14,299                $213             $14,299
              UNION.
832004       NORFOLK FIRE                         $0                $212             $33,897                $212             $33,897
              DEPARTMENT FCU.
834120       WORTHINGTON NAT'L                    $0                $212             $14,463                $212             $14,463
              BANK.
834277       NATIONAL UNIVERSITY.                 $0                $208             $49,780                $208             $49,780
833349       COUNTY SCHOOLS                       $0                $205             $18,160                $205             $18,160
              FEDERAL CREDIT
              UNION.
832634       RCU 1500 FEDERAL                     $0                $203             $18,662                $203             $18,662
              CREDIT UNION.
812012       STATE BANK OF LA                     $0                $201                $201                  $0
              CROSSE.
820814       PEOPLES STATE BANK..                 $0                $196              $9,886                $196              $9,886
816773       FIRST NEW ENGLAND                    $0                $194             $14,745                $194             $14,745
              FCU.
832418       WINDSOR COUNTY SOUTH                 $0                $194              $8,750                $194              $8,750
              CREDIT UNION.
834098       SILVER STATE SCHOOLS                 $0                $193             $21,000                $193             $21,000
              CU.
834279       LOYOLA COLLEGE......                 $0                $188                $188                  $0
821496       CANTON STATE BANK...                 $0                $188              $3,500                $188              $3,500
805623       NORTHEAST BANK FSB..                 $0                $188             $12,806                $188             $12,806
833759       A/C CREDIT UNION INC                 $0                $187             $26,565                $187             $26,565
832423       AMH CREDIT UNION....                 $0                $187             $17,067                $187             $17,067
832320       GRANITE HILLS CREDIT                 $0                $187             $12,286                $187             $12,286
              UNION.
829497       ALOHA AIRLINES FCU..                 $0                $182              $9,104                $182              $9,104
832872       STREATOR COMMUNITY                   $0                $180             $10,703                $180             $10,703
              CREDIT UNION.
830063       MICHIGAN FIRST CU...                 $0                $174             $12,258                $174             $12,258
805923       THE FIRST NATIONAL                   $0                $174                $174                  $0
              BANK & TRUST.
817414       ST PAULS LATVIAN FCU                 $0                $173                $173                  $0
827371       ARC CREDIT UNION....                 $0                $173             $19,253                $173             $19,253
831651       FIRST NATIONAL BANK                  $0                $170                $170                  $0
              OF COWETA.
834287       ARCADIA UNIVERSITY..                 $0                $168                  $0                $168                  $0
832183       ANDERSON FEDERAL                     $0                $167                $955                $167                $955
              CREDIT UNION.
834013       LONG ISLAND                          $0                $165             $34,279                $165             $34,279
              COMMUNITY FCU.
833773       AMF KENNEDY EMP FCU.                 $0                $165             $10,912                $165             $10,912
833477       PRIORITY ONE CU.....                 $0                $164              $9,864                $164              $9,864
832894       UNITED 1ST FCU......                 $0                $164              $5,393                $164              $5,393
822662       MARQUETTE COMMUNITY                  $0                $164              $5,078                $164              $5,078
              FCU.
822031       1ST SUMMIT BANK.....                 $0                $161            $348,098                $161            $348,098
834208       TEXAS BAY AREA                       $0                $158                $158                  $0
              CREDIT UNION.
832643       GRS EMPLOYEES CREDIT                 $0                $158             $20,504                $158             $20,504
              UNION.
804448       DOWNS NATIONAL BANK.                 $0                $158              $2,919                $158              $2,919
817717       BRIDGETON ONIZED FCU                 $0                $158                $158                  $0
803997       FARMERS SAVINGS BANK                 $0                $156             $18,058                $156             $18,058
833327       UNITED SAVINGS                       $0                $156             $10,140                $156             $10,140
              FEDERAL CREDIT
              UNION.
830548       CITIBANK ELT SLC....                 $0                $156             $31,913                $156             $31,913
832709       WOLVERINE EMPLOYEES                  $0                $151             $13,048                $151             $13,048
              CU.
833528       1ST PACIFIC CREDIT                   $0                $151              $8,750                $151              $8,750
              UNION.
812264       GOLDMARK FEDERAL                     $0                $150             $11,328                $150             $11,328
              CREDIT UNION.
833722       CERTIFIED FCU.......                 $0                $149              $9,236                $149              $9,236
833717       ALLIED HEALTHCARE                    $0                $148              $9,167                $148              $9,167
              FCU.
832589       MOUNTAIN HERITAGE                    $0                $147             $10,848                $147             $10,848
              FCU.
834061       NEW ENGLAND COLLEGE                  $0                $147             $37,000                $147             $37,000
              OF OPTOMETRY.
815723       SAFE HARBOR CREDIT                   $0                $147              $8,811                $147              $8,811
              UNION.
818200       THEO DAVIES FEDERAL                  $0                $147              $3,619                $147              $3,619
              CREDIT UNION.
833494       FEDSTAR FEDERAL                      $0                $147             $10,500                $147             $10,500
              CREDIT UNION.
804206       SECURITY STATE BANK.                 $0                $145             $11,398                $145             $11,398
806870       SHOW ME CREDIT UNION                 $0                $144              $9,526                $144              $9,526
821660       ABILENE CHRISTIAN                    $0                $144                  $0                $144                  $0
              UNIVERSITY.
808279       CENTRIS FCU.........                 $0                $143              $9,058                $143              $9,058
833007       MERIWEST CREDIT                      $0                $143             $10,902                $143             $10,902
              UNION.
833784       CENTRAL HUDSON                       $0                $142              $8,802                $142              $8,802
              EMPLOYEES FEDERAL
              CU.
823007       UNIVERSITY OF                        $0                $142             $19,442                $142             $19,442
              PITTSBURGH.
823760       66 FCU..............                 $0                $142              $9,516                $142              $9,516
832778       PROVIDENCE HEALTH                    $0                $142             $11,359                $142             $11,359
              SYSTEM FCU.
832354       LIMESTONE FEDERAL                    $0                $141              $9,350                $141              $9,350
              CREDIT UNION.
823066       NEW YORK INSTITUTE                   $0                $141                  $0                $141                  $0
              OF TECHNOLOGY.
830091       PATENT AND TRADEMARK                 $0                $140              $7,802                $140              $7,802
              OFFICE FCU.
834253       DOWLING COLLEGE.....                 $0                $139                $139                  $0
828978       OTTUMWA SCH EMPL                     $0                $139                $139                  $0
              CREDIT UNION.
833573       BAYONNE HOSPITAL EMP                 $0                $138              $5,010                $138              $5,010
              FCU.
828801       THE BANK OF                          $0                $138                $138                  $0
              CARBONDALE.
834260       UNIVERSITY OF MD CP.                 $0                $137                $137                  $0
805907       FARMERS STATE BANK                   $0                $135             $16,219                $135             $16,219
              OF BRECKENRIDGE.
813466       FRAMINGHAM MUNICIPAL                 $0                $135              $9,432                $135              $9,432
              FEDERAL CREDIT.
832313       LOUVAH FEDERAL                       $0                $134              $8,951                $134              $8,951
              CREDIT UNION.
832927       NORTH SHORE HEALTH                   $0                $132              $9,365                $132              $9,365
              SYSTEM FCU.
814658       LOUISIANA CENTRAL                    $0                $131             $11,136                $131             $11,136
              CREDIT UNION.
832457       GREATER OREGON FCU..                 $0                $131              $8,352                $131              $8,352
832042       DOWAGIAC AREA FCU...                 $0                $129              $6,910                $129              $6,910
830480       BANK OF STOCKTON....                 $0                $129              $6,871                $129              $6,871
822237       UNIVERSITY OF                        $0                $128                $128                  $0
              ILLINOIS.
813671       UNION BANK & TRUST                   $0                $127              $6,479                $127              $6,479
              COMPANY.
832510       AUBURN S&L                           $0                $127                $127                  $0
              ASSOCIATION.
827057       BANKERS FIDELITY                     $0                $126                $126                  $0
              LIFE INSURANCE CO.
812744       FIRST NATIONAL BANK                  $0                $126             $10,026                $126             $10,026
              OF BERRYVILLE.
833124       THE NATIONAL BANK OF                 $0                $125                $125                  $0
              INDIANAPOLIS.
817380       TVA CU..............                 $0                $124              $8,667                $124              $8,667
808064       COMMUNITY MUTUAL                     $0                $123                $123                  $0
              SAVINGS BANK.
800029       WACHOVIA BANK NA....                 $0                $123                $123                  $0
833040       NORTHEASTERN                         $0                $122             $19,781                $122             $19,781
              ENGINEERS FCU.
828453       REGISTER-GUARD FCU..                 $0                $122                $122                  $0
816516       RETAIL EMPLOYEES CU.                 $0                $120              $7,605                $120              $7,605
824574       1ST GARLAND                          $0                $119              $7,654                $119              $7,654
              COMMUNITY FCU.
820787       FREEDOM CREDIT UNION                 $0                $117             $11,993                $117             $11,993
830016       SECNY FCU...........                 $0                $117             $10,425                $117             $10,425
815880       NEW ALLIANCE BANK...                 $0                $117                $117                  $0
831053       SLM ECFC............                 $0                $117             $86,147                $117             $86,147
834294       UNIVERSITY OF                        $0                $115              $4,845                $115              $4,845
              SCRANTON.
833703       ST. JOHN'S OF LITTLE                 $0                $115             $16,332                $115             $16,332
              CANADA CU.
834214       SOUTHERN ILLINOIS                    $0                $114                $114                  $0
              UNIVERSITY.
820212       CHIPPEWA COUNTY                      $0                $114              $8,345                $114              $8,345
              EMPLOYEES CU.
826478       EMORY UNIVERSITY....                 $0                $112                $112                  $0
832119       PRIME CARE CREDIT                    $0                $110              $6,727                $110              $6,727
              UNION.
834280       NORTHEASTERN                         $0                $110                $110                  $0
              UNIVERSITY.
819332       WEPCO FEDERAL CREDIT                 $0                $107              $6,797                $107              $6,797
              UNION.
829253       EQUITABLE SAVINGS &                  $0                $106              $8,299                $106              $8,299
              LOAN COMPANY.
832508       COOPERATIVE CENTER                   $0                $105              $6,621                $105              $6,621
              FCU.
830306       MARSHLAND COMMUNITY                  $0                $105             $10,322                $105             $10,322
              FCU.
832427       MICHIGAN TECH EFCU..                 $0                $104              $5,265                $104              $5,265
834164       TRI-LAKES FCU.......                 $0                $103             $14,081                $103             $14,081
834249       WELLS FARGO ELT                      $0                $103                  $0                $103                  $0
              WALDEN UNIVERSITY.
833525       LOCAL 144 S.E.I.U.                   $0                $103              $5,207                $103              $5,207
              FCU.
832268       COUNTRY HERITAGE                     $0                $102              $6,326                $102              $6,326
              CREDIT UNION.
833581       EDWARDS FEDERAL                      $0                $100              $6,419                $100              $6,419
              CREDIT UNION.
831298       COMMUNITY FIRST FCU.                 $0                $100                $100                  $0
830592       CONSOLIDATED HUB-CO                  $0                 $99              $8,787                 $99              $8,787
              FCU.
832431       WINTHROP FEDERAL                     $0                 $99             $33,149                 $99             $33,149
              CREDIT UNION.
834286       CONCORDIA SEMINARY..                 $0                 $99             $16,500                 $99             $16,500
833764       DEXSTA FEDERAL                       $0                 $98              $6,541                 $98              $6,541
              CREDIT UNION.
833591       SEATTLE METROPOLITAN                 $0                 $97             $10,042                 $97             $10,042
              CU.
834213       SOMERSET VALLEY BANK                 $0                 $96                  $0                 $96                  $0
827810       US FIRST FEDERAL                     $0                 $95              $5,981                 $95              $5,981
              CREDIT UNION.
834065       HVHS CU.............                 $0                 $94             $80,362                 $94             $80,362
833904       HI-LAND HOSPITAL                     $0                 $93              $6,084                 $93              $6,084
              FEDERAL CREDIT UNI.
831882       HORIZON BANK........                 $0                 $92              $5,250                 $92              $5,250
834220       VALLEY COMMUNITIES                   $0                 $90              $6,125                 $90              $6,125
              CU.
833464       SOURCEONE CREDIT                     $0                 $90             $28,339                 $90             $28,339
              UNION.
833790       KERR COUNTY FCU.....                 $0                 $89                 $89                  $0
833813       SUNSET SCIENCE PARK                  $0                 $88                 $88                  $0
              FEDERAL CREDIT.
819519       SPCO FCU............                 $0                 $86              $6,125                 $86              $6,125
834274       LAKE ERIE COLLEGE OF                 $0                 $84                 $84                  $0
              OSTEO MED.
832936       EDUCATIONAL &                        $0                 $83              $3,748                 $83              $3,748
              GOVERNMENTAL EFCU.
813766       STATE BANK OF SLATER                 $0                 $83                  $0                 $83                  $0
823448       GEORGETOWN                           $0                 $82                 $82                  $0
              UNIVERSITY.
832967       WY-SOUTH FCU........                 $0                 $82              $5,488                 $82              $5,488
834075       DELAWARE STATE                       $0                 $82              $6,125                 $82              $6,125
              POLICE FCU.
829263       JEFFERSON BANK &                     $0                 $80              $2,625                 $80              $2,625
              TRUST COMPANY.
829874       SAGINAW AUTOMOTIVE                   $0                 $75                 $75                  $0
              EFCU.
834291       JOHN CARROLL                         $0                 $75              $1,860                 $75              $1,860
              UNIVERSITY.
832769       ESCU FEDERAL CREDIT                  $0                 $74              $6,108                 $74              $6,108
              UNION.
834276       FORDHAM UNIVERSITY..                 $0                 $74                 $74                  $0
819462       KEARNEY TRUST                        $0                 $72                  $0                 $72                  $0
              COMPANY.
832440       LOUISE E MILLS                       $0                 $72              $5,159                 $72              $5,159
              FEDERAL CREDIT
              UNION.
832856       ST JEANS CREDIT                      $0                 $71                  $0                 $71                  $0
              UNION.
834177       MONTEREY COUNTY EMP                  $0                 $71              $5,500                 $71              $5,500
              CU.
819406       HURON CNW FCU.......                 $0                 $71              $3,251                 $71              $3,251
816484       1ST CHOICE CREDIT                    $0                 $71                 $71                  $0
              UNION.
832240       FRONT ROYAL FCU.....                 $0                 $70              $4,228                 $70              $4,228
832596       SOUTHWEST AIRLINES                   $0                 $70              $5,064                 $70              $5,064
              FEDERAL CREDIT U.
834304       FLORIDA COASTAL                      $0                 $70              $9,250                 $70              $9,250
              SCHOOL OF LAW.
832167       GREENVILLE FEDERAL                   $0                 $69              $4,813                 $69              $4,813
              CREDIT UNION.
833554       TOWN OF HEMPSTEAD                    $0                 $69             $13,882                 $69             $13,882
              EMP FCU.
833440       LBS FINANCIAL CREDIT                 $0                 $68              $4,303                 $68              $4,303
              UNION.
817308       COLORADO UNITED                      $0                 $65                  $0                 $65                  $0
              CREDIT UNION.
824872       CENTRAL KANSAS CU...                 $0                 $65              $4,753                 $65              $4,753
831605       COUNTY OF HENRICO                    $0                 $65                 $65                  $0
              FCU.
832491       MARKET USA FEDERAL                   $0                 $65              $7,604                 $65              $7,604
              CREDIT UNION.
834296       UNIVERSITY OF                        $0                 $64             $15,790                 $64             $15,790
              NORTHWESTERN OHIO.
834288       ROBERT MORRIS                        $0                 $64                 $64                  $0
              UNIVERSITY.
833357       OHIO VALLEY CREDIT                   $0                 $63              $9,514                 $63              $9,514
              UNION.
825487       BOSTON COLLEGE......                 $0                 $63                 $63                  $0
822384       INDEPENDENT BANK....                 $0                 $62             $24,307                 $62             $24,307
813136       HOMETOWN COMMUNITY                   $0                 $61              $5,557                 $61              $5,557
              CU.
827559       EQUITABLE SAVINGS                    $0                 $61                 $61                  $0
              AND LOAN ASSOCIAT.
814431       MINNWEST BANK                        $0                 $61              $5,438                 $61              $5,438
              MONTEVIDEO.
834232       PERMACULTURE CU.....                 $0                 $61              $6,611                 $61              $6,611
832425       CARRAWAY METHODIST                   $0                 $60                 $60                  $0
              FCU.
822449       VANDERBILT                           $0                 $60                 $60                  $0
              UNIVERSITY.
817209       VALLEY CATHOLIC FCU.                 $0                 $60              $1,819                 $60              $1,819
827291       PEOPLES BANK AND                     $0                 $60                 $60                  $0
              TRUST COMPANY.
832756       SHERATON HAWAII FCU.                 $0                 $60             $17,217                 $60             $17,217
813145       CREDIT UNION ONE....                 $0                 $59              $8,602                 $59              $8,602
827202       E&A CREDIT UNION....                 $0                 $57              $4,940                 $57              $4,940
834180       ENERGY CAPITAL CU...                 $0                 $57              $2,625                 $57              $2,625
834195       BAPTIST CREDIT UNION                 $0                 $56              $4,200                 $56              $4,200
810894       HEREFORD STATE BANK.                 $0                 $56                 $56                  $0
822686       SANTANDER DE PUERTO                  $0                 $55             $11,599                 $55             $11,599
              RICO.
832237       PALMETTO TRUST                       $0                 $53              $4,756                 $53              $4,756
              FEDERAL CREDIT
              UNION.
832691       QUALSTAR CU.........                 $0                 $53              $3,563                 $53              $3,563
831367       OLD DOMINION                         $0                 $53             $24,457                 $53             $24,457
              UNIVERSITY CREDIT
              UNIO.
833377       CAMPUS CREDIT UNION.                 $0                 $52                $905                 $52                $905
817180       STAMFORD POSTAL EFCU                 $0                 $52              $7,704                 $52              $7,704
833935       VIRGINIA BEACH                       $0                 $51             $10,379                 $51             $10,379
              SCHOOLS FCU.
802182       WATERBURY                            $0                 $49                 $49                  $0
              FIREFIGHTERS MUNI
              FCU.
832379       NORTHWEST HILLS                      $0                 $49              $1,615                 $49              $1,615
              CREDIT UNION INC.
832853       SOUTH DIVISION                       $0                 $49              $9,410                 $49              $9,410
              CREDIT UNION.
833126       MILLSTREAM AREA CU..                 $0                 $47              $5,955                 $47              $5,955
832831       LOCO CREDIT UNION...                 $0                 $47              $3,507                 $47              $3,507
816869       GE0RGIA COASTAL FCU.                 $0                 $47              $3,103                 $47              $3,103
815516       HONOLULU CITY &                      $0                 $47              $3,500                 $47              $3,500
              COUNTY FEDERAL CRED.
822338       PEOPLES ALLIANCE FCU                 $0                 $45              $3,370                 $45              $3,370
834297       DEPAUL UNIVERSITY...                 $0                 $45              $6,166                 $45              $6,166
833621       DEPT OF VETERANS                     $0                 $45                 $45                  $0
              AFFAIRS FCU.
832852       RIVER WORKS CREDIT                   $0                 $44              $2,118                 $44              $2,118
              UNION.
823132       UNION THEOLOGICAL                    $0                 $44              $3,895                 $44              $3,895
              SEMINARY.
828384       THE FIRST NATIONAL                   $0                 $43                 $43                  $0
              BANK/BALLINGER.
833290       SYRACUSE FCU........                 $0                 $42                 $42                  $0
810809       FIRST NATIONAL BANK.                 $0                 $42              $2,691                 $42              $2,691
825138       UNIVERSITY OF CA SAN                 $0                 $42                 $42                  $0
              FRANCISCO.
805943       CLS-NATIONAL CITY                    $0                 $41              $4,000                 $41              $4,000
              BANK (FOA).
832271       MEMBER'S CHOICE CU..                 $0                 $40              $2,882                 $40              $2,882
833725       PORT ALLIANCE FCU...                 $0                 $40                  $0                 $40                  $0
833700       LA FINANCIAL FCU....                 $0                 $40              $2,626                 $40              $2,626
821517       PURDUE UNIVERSITY...                 $0                 $37                 $37                  $0
820411       BANK INDEPENDENT....                 $0                 $37                  $0                 $37                  $0
804776       HILLSBORO STATE BANK                 $0                 $36                 $36                  $0
827132       SKY BANK............                 $0                 $35              $3,236                 $35              $3,236
816323       PINNACLE CREDIT                      $0                 $35              $2,972                 $35              $2,972
              UNION.
832466       ALLEGIS CREDIT UNION                 $0                 $34              $2,744                 $34              $2,744
834085       LAKE ERIE COMMUNITY                  $0                 $34                 $34                  $0
              FCU.
834270       POINT PARK                           $0                 $33                  $0                 $33                  $0
              UNIVERSITY.
829426       DUPONT FIBERS                        $0                 $33                 $33                  $0
              FEDERAL CREDIT
              UNION.
813171       NW CONSUMERS FCU....                 $0                 $31              $2,338                 $31              $2,338
826782       FLAGSTAR BANK FSB...                 $0                 $31                 $31                  $0
828554       CAPITAL CITY BANK...                 $0                 $31                 $31                  $0
834168       MINUTEMAN COMMUNITY                  $0                 $30              $3,312                 $30              $3,312
              FCU.
811008       HORIZON CAPITAL BANK                 $0                 $29                 $29                  $0
809556       BANK OF AMERICA.....                 $0                 $29                 $29                  $0
834283       ASHLAND UNIVERSITY..                 $0                 $29              $3,893                 $29              $3,893
820449       ST MICHAEL'S FALL                    $0                 $29              $1,888                 $29              $1,888
              RIVER FCU.
833021       KEY BANK NA.........                 $0                 $28             $63,564                 $28             $63,564
833640       LOCAL 804 FCU.......                 $0                 $28                  $0                 $28                  $0
832970       RED LAKE CO-OP FCU..                 $0                 $28              $1,714                 $28              $1,714
833478       SAINT FRANCIS                        $0                 $27              $1,802                 $27              $1,802
              EMPLOYEES FCU.
833008       GTA CREDIT UNION....                 $0                 $27                 $27                  $0
832057       JPMORGAN CHASE ELT                   $0                 $27                 $27                  $0
              GTSLC.
810953       SANTA ANNA NATIONAL                  $0                 $26                 $26                  $0
              BANK.
812106       MERCK EMPLOYEES FCU.                 $0                 $26              $2,667                 $26              $2,667
810067       COMMUNITY BANK &                     $0                 $26              $4,239                 $26              $4,239
              TRUST CO.
834090       JEANNE D'ARC CU.....                 $0                 $26              $2,582                 $26              $2,582
808178       COMMUNITY BANK NA...                 $0                 $25                 $25                  $0
832714       STONEHAM MUNICIPAL                   $0                 $25              $1,348                 $25              $1,348
              EFCU.
834295       UNIVERSITY OF THE                    $0                 $25              $3,214                 $25              $3,214
              INCARNATE WORD.
834209       EDWARD VIA VIRGINIA                  $0                 $25                 $25                  $0
              COL. OF OSTEOPA.
816473       HUMAN SERVICES                       $0                 $24              $1,257                 $24              $1,257
              EMPLOYEE CU.
831749       WACHOVIA BANK NA....                 $0                 $21                 $21                  $0
810960       STATE BANK OF DEKALB                 $0                 $21             $16,915                 $21             $16,915
806063       SAND RIDGE BANK.....                 $0                 $21                 $21                  $0
833693       TCP CREDIT UNION....                 $0                 $20              $3,782                 $20              $3,782
831927       ADVANTIS CU.........                 $0                 $20                 $20                  $0
834262       NEW MEXICO STATE                     $0                 $19              $2,200                 $19              $2,200
              UNIVERSITY.
834268       ROBERT MORRIS                        $0                 $18              $1,780                 $18              $1,780
              COLLEGE.
834275       UNIVERSITY OF                        $0                 $18              $2,432                 $18              $2,432
              COLORADO COLORADO
              SPR.
809997       DENVER NATIONAL BANK                 $0                 $18              $1,256                 $18              $1,256
833434       DELAWARE ALLIANCE                    $0                 $17                $885                 $17                $885
              FCU.
816217       SYLVESTER BANKING                    $0                 $17              $1,540                 $17              $1,540
              COMPANY.
833944       DEVRY UNIVERSITY....                 $0                 $17                  $0                 $17                  $0
832961       JOPLIN METRO CREDIT                  $0                 $17              $1,210                 $17              $1,210
              UNION.
816845       THE PEOPLES BANK....                 $0                 $16              $2,616                 $16              $2,616
824822       TEMPLE UNIVERSITY...                 $0                 $16              $2,230                 $16              $2,230
829436       INTERSTATE UNLIMITED                 $0                 $16              $1,439                 $16              $1,439
              FCU.
829140       FIRST COMMUNITY BANK                 $0                 $15              $1,164                 $15              $1,164
              OF WINDSOR.
808765       THE FARMERS &                        $0                 $14                 $14                  $0
              MERCHANTS STATE
              BANK.
805704       FIRST NATIONAL BANK                  $0                 $14                 $14                  $0
              OF BAR HARBOR.
802913       US BANK NA..........                 $0                 $14                 $14                  $0
805849       CENTURY BANK AND                     $0                 $14                 $14                  $0
              TRUST.
832197       CONNECTS FEDERAL                     $0                 $14                  $0                 $14                  $0
              CREDIT UNION.
810527       FIRST AMERICAN BANK                  $0                 $13                 $13                  $0
              & TRUST.
833568       DETOUR DRUMMOND                      $0                 $13                $557                 $13                $557
              COMMUNITY CU.
832326       CASWELL CREDIT UNION                 $0                 $13                  $0                 $13                  $0
828677       FIRST HERITAGE                       $0                 $13              $1,386                 $13              $1,386
              FEDERAL CREDIT
              UNION.
829796       MEMBERS FIRST CU....                 $0                 $12                $531                 $12                $531
828729       CENTRAL MICHIGAN                     $0                 $12              $3,101                 $12              $3,101
              COMMUNITY FED CR U.
832524       AMERICAN SPIRIT FCU.                 $0                 $12              $1,093                 $12              $1,093
833027       AMERICAN NICKELOID                   $0                 $11                $236                 $11                $236
              EMP CU.
833962       US BANK ELT                          $0                 $11              $1,312                 $11              $1,312
              AFFORDIAN INC.
818553       AMERICAN EAGLE                       $0                 $11                 $11                  $0
              CREDIT UNION.
816687       HARTFORD HEALTHCARE                  $0                 $10                 $10                  $0
              CREDIT UNION.
832690       CAPITAL POWER FCU...                 $0                 $10                 $10                  $0
834266       OHIO UNIVERSITY                      $0                  $9              $1,000                  $9              $1,000
              COLLEGE OF OSTEO ME.
827671       QUINCY MUNICIPAL                     $0                  $9                  $9                  $0
              CREDIT UNION.
834293       CENTRAL MICHIGAN                     $0                  $9                  $9                  $0
              UNIVERSITY.
834306       WASHBURN UNIVERSITY.                 $0                  $9              $1,200                  $9              $1,200
899993       SLMA/LSC NEW ENGLAND                 $0                  $9              $3,921                  $9              $3,921
818712       FIRST NAT'L BANK OF                  $0                  $7                  $7                  $0
              SLIPPERY ROCK.
832319       MARKETPLACE FEDERAL                  $0                  $7                $437                  $7                $437
              CREDIT UNION.
815816       HAMILTON HORIZONS                    $0                  $7              $1,143                  $7              $1,143
              FCU.
830938       UNITED BRANCH OF                     $0                  $6                $196                  $6                $196
              BENNINGTON STATE B.
834020       EASTERN MICHIGAN                     $0                  $6                  $6                  $0
              UNIVERSITY.
832754       IBEW #317 FCU.......                 $0                  $5                  $5                  $0
833711       FANNIN BANK.........                 $0                  $5                  $5                  $0
832360       ENTERTAINMENT                        $0                  $5                  $5                  $0
              INDUSTRIES FCU.
826264       AMERICU.............                 $0                  $5                  $5                  $0
834290       KANSAS STATE BANK                    $0                  $4                  $4                  $0
              ELT UNIV KANSAS S.
822734       UNIVERSITY OF                        $0                  $4                  $4                  $0
              MINNESOTA.
806185       AMERICAN BANK OF                     $0                  $4                  $4                  $0
              NASHWAUK.
825136       UCLA................                 $0                  $3                  $3                  $0
821737       OKLAHOMA STATE                       $0                  $3                  $3                  $0
              UNIVERSITY.
827174       MALVERN TRUST &                      $0                  $3                  $3                  $0
              SAVINGS BANK.
832871       LANECO FEDERAL                       $0                  $3                  $0                  $3                  $0
              CREDIT UNION.
829817       FLINT AREA SCHOOL                    $0                  $3                  $3                  $0
              EMPL CU.
809678       FIRST NATIONAL BANK                  $0                  $2                  $2                  $0
              OF PENNSYLVANIA.
827521       LIFEWAY CREDIT UNION                 $0                  $2                  $2                  $0
834305       UNIVERSITY OF                        $0                  $1                  $1                  $0
              VERMONT.
802033       AMERICAN EAGLE FCU..                 $0                  $1                  $1                  $0
816332       FIDELITY FCU........                 $0                  $1                  $1                  $0
832792       DECATUR STANOLIND                    $0                  $1                  $1                  $0
              CREDIT UNION.
829293       MASSMUTUAL FEDERAL                   $0                  $0             $85,076                  $0             $85,076
              CREDIT UNION.
803917       CENTRAL STATE BANK..                 $0                  $0              $7,948                  $0              $7,948
806466       STATE BANK OF                        $0                  $0              $4,428                  $0              $4,428
              FAIRMONT.
815644       PANHANDLE EDUCATORS                  $0                 ($1)                ($1)                 $0
              FCU.
807806       CITIBANK ELT SLC                     $0                 ($3)                ($3)                 $0
              RECEIVABLES I.
805095       FIRST NATIONAL BANK                 ($5)                 $0                 ($5)                 $0
              OF JEANERETTE.
823817       JPMORGAN CHASE ELT                 ($14)               ($10)                 $0                ($24)                 $0
              BRAZOS HEA.
808717       JPMORGAN CHASE NA                  ($43)                ($5)                 $0                ($48)                 $0
              ELT BRAZOS HEA IN.
822685       SANTANDER NATIONAL                   $0                ($81)            $21,208                ($81)            $21,208
              BANK.
815844       HUDSON UNITED BANK..                 $0                ($84)               ($84)                 $0
822982       NEW JERSEY HIGHER                    $0             ($4,371)           $171,699             ($4,371)           $171,699
              EDUCN ASST AUTH.
834099       UNION BANK CA ELT             ($784,111)                 $0            $662,906          $1,052,570           ($121,206)         $1,052,570
              CHELA FUND I (TEF).
                                  ----------------------------------------------------------------------------------------------------------------------
                 Total...........       $581,296,104     $11,106,045,909      $6,532,862,906    $251,176,218,814      $7,114,159,010    $262,282,264,723
--------------------------------------------------------------------------------------------------------------------------------------------------------

    [Whereupon, at 1:38 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
